<html>
<title> - INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2011</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                   INTERIOR, ENVIRONMENT, AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2011

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION

                                ________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES
                   JAMES P. MORAN, Virginia, Chairman
 NORMAN D. DICKS, Washington
 ALAN B. MOLLOHAN, West Virginia
 BEN CHANDLER, Kentucky
 MAURICE D. HINCHEY, New York
 BETTY McCOLLUM, Minnesota
 JOHN W. OLVER, Massachusetts
 ED PASTOR, Arizona                 MICHAEL K. SIMPSON, Idaho
                                    KEN CALVERT, California
                                    STEVEN C. LaTOURETTE, Ohio
                                    TOM COLE, Oklahoma

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
             Delia Scott, Christopher Topik, Julie Falkner,
                      Jason Gray, and Brendan Lilly
                            Staff Assistants

                                ________

                                 PART 6
                                                                   Page
 Bureau of Indian Affairs and Office of the Special Trustee.......    1
 Bureau of Land Management........................................   55
 National Park Service............................................  157
 Fish and Wildlife Service........................................  263
 Department of the Interior.......................................  339
 Smithsonian Institution..........................................  459
 National Gallery of Art..........................................  498
 Kennedy Center...................................................  514
 Woodrow Wilson Center............................................  544
 Presidio Trust...................................................  581
 Indian Health Service............................................  603

                                ________

         Printed for the use of the Committee on Appropriations
?


                                 PART 6

                                  BIA

                                  OST

                                  BLM

                                  NPS

                                  FWS

                                  DOI

                              Smithsonian

                                  NGA

                               Ken. Ctr.

                              Wilson Ctr.

                                Presidio

                                  IHS

  INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2011
                                                                      ?

                   INTERIOR, ENVIRONMENT, AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2011

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION
                                ________
       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES
                   JAMES P. MORAN, Virginia, Chairman
 NORMAN D. DICKS, Washington        MICHAEL K. SIMPSON, Idaho
 ALAN B. MOLLOHAN, West Virginia    KEN CALVERT, California
 BEN CHANDLER, Kentucky             STEVEN C. LaTOURETTE, Ohio
 MAURICE D. HINCHEY, New York       TOM COLE, Oklahoma         
 BETTY McCOLLUM, Minnesota          
 JOHN W. OLVER, Massachusetts       
 ED PASTOR, Arizona                 

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
             Delia Scott, Christopher Topik, Julie Falkner,
                      Jason Gray, and Brendan Lilly
                            Staff Assistants
                                ________
                                 PART 6
                                                                   Page
 Bureau of Indian Affairs and Office of the Special Trustee.......    1
 Bureau of Land Management........................................   55
 National Park Service............................................  157
 Fish and Wildlife Service........................................  263
 Department of the Interior.......................................  339
 Smithsonian Institution..........................................  459
 National Gallery of Art..........................................  498
 Kennedy Center...................................................  514
 Woodrow Wilson Center............................................  544
 Presidio Trust...................................................  581
 Indian Health Service............................................  603
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 57-302                     WASHINGTON : 2010

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman
 
 NORMAN D. DICKS, Washington        JERRY LEWIS, California
 ALAN B. MOLLOHAN, West Virginia    C. W. BILL YOUNG, Florida
 MARCY KAPTUR, Ohio                 HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana        FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York            JACK KINGSTON, Georgia
 JOSE E. SERRANO, New York          RODNEY P. FRELINGHUYSEN, New 
 ROSA L. DeLAURO, Connecticut       Jersey
 JAMES P. MORAN, Virginia           TODD TIAHRT, Kansas
 JOHN W. OLVER, Massachusetts       ZACH WAMP, Tennessee
 ED PASTOR, Arizona                 TOM LATHAM, Iowa
 DAVID E. PRICE, North Carolina     ROBERT B. ADERHOLT, Alabama
 CHET EDWARDS, Texas                JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island   KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York       MICHAEL K. SIMPSON, Idaho
 LUCILLE ROYBAL-ALLARD, California  JOHN ABNEY CULBERSON, Texas
 SAM FARR, California               MARK STEVEN KIRK, Illinois
 JESSE L. JACKSON, Jr., Illinois    ANDER CRENSHAW, Florida
 CAROLYN C. KILPATRICK, Michigan    DENNIS R. REHBERG, Montana
 ALLEN BOYD, Florida                JOHN R. CARTER, Texas
 CHAKA FATTAH, Pennsylvania         RODNEY ALEXANDER, Louisiana
 STEVEN R. ROTHMAN, New Jersey      KEN CALVERT, California
 SANFORD D. BISHOP, Jr., Georgia    JO BONNER, Alabama
 MARION BERRY, Arkansas             STEVEN C. LaTOURETTE, Ohio
 BARBARA LEE, California            TOM COLE, Oklahoma           
 ADAM SCHIFF, California            
 MICHAEL HONDA, California          
 BETTY McCOLLUM, Minnesota          
 STEVE ISRAEL, New York             
 TIM RYAN, Ohio                     
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 BEN CHANDLER, Kentucky             
 DEBBIE WASSERMAN SCHULTZ, Florida  
 CIRO RODRIGUEZ, Texas              
 LINCOLN DAVIS, Tennessee           
 JOHN T. SALAZAR, Colorado          
 PATRICK J. MURPHY, Pennsylvania    
                                    

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)


     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2011

                              ----------                              --
--------

                                           Thursday, March 4, 2010.

 DEPARTMENT OF INTERIOR 2011 BUDGET FOR TRUST RESOURCES AND THE BUREAU 
 OF INDIAN AFFAIRS AT THE DEPARTMENT OF INTERIOR; STRENGTHENING NATIVE 
                          AMERICAN COMMUNITIES

                               WITNESSES

LARRY ECHO HAWK, ASSISTANT SECRETARY FOR INDIAN AFFAIRS
DONNA M. ERWIN, PRINCIPAL DEPUTY SPECIAL TRUSTEE

                  Opening Statement of Chairman Moran

    Mr. Moran. Let me first make it clear that Chairman Norm 
Dicks has done just a wonderful job with the Interior 
Committee. It is a tough act to follow. Mr. Dicks will be 
chairing the Defense Committee.
    We want to welcome Larry Echo Hawk, the Assistant Secretary 
for Indian Affairs, and I believe this is the first time you 
have testified before this Subcommittee, but you do have a lot 
of fans I understand in terms of the members of this 
Subcommittee, which is always a good thing, a lot of 
credibility. So we do appreciate you coming to testify on this 
fiscal year 2011 budget request.
    Last year the Indian Affairs budget received an historic 10 
percent increase over the 2009 level, and the monies that were 
made available enhanced tribal government, strengthened trust 
resources, improved education, addressed the still intolerably 
high unemployment and crime level in Indian country. But I 
think we are all proud of this Subcommittee's work and its 
recognition of the government's trust responsibilities to 
Native Americans.
    This year, and I know you have seen the same promises that 
we have, we are going to have to deal with a domestic 
discretionary freeze and far more constrained budget climate. 
But this budget reflects that reality, and excluding a one-time 
increase in 2010 to forward fund the tribal colleges and 
universities, the proposed budget is essentially flat coming in 
at the same $2.6 billion.
    Now, despite these constraints, the budget includes 
maintenance or increased funding in some key areas, almost $20 
million for contract support costs, $20 million for public 
safety and justice, and a $28 million total increase for tribal 
priority allocations. At the same time, increased funding over 
the last several years for construction of education and 
detention facilities was eliminated, and I think the 
Subcommittee is going to want to question why that 
determination was made. You are also absorbing almost $20 
million in fixed costs. That is a lot of money. I know you will 
want to explain why that decision was made, and if it was not 
made within the agency, maybe you could make it clear where it 
was made and how you feel about it. We have some concern that 
it will impact critical staffing needs in an agency that has 
consistently been understaffed.
    In addition, the Inspector General has been critical of BIA 
management and its leadership. Over 30 percent of the Inspector 
General's investigations involve issues in Indian country, 
including criminal misconduct by employees, contractors and 
tribal officials. So we want to know how you are addressing 
these issues to ensure that the funding that is appropriated by 
this committee goes to the critical needs of Native Americans.
    We want to use the remainder of this hearing to discuss the 
Administration's request and how it continues to advance the 
needs in Indian country. I understand that you are recused from 
the Cobell litigation and ask that we hold those questions 
until we hear from our next witness, the Acting Special 
Trustee. It is understandable why he chose that. We agree with 
that decision to abstain from discussions of that issue, but it 
is a very important one.
    Mr. Moran. So with that, perhaps Mr. Dicks might like to 
make a statement, and then I would like to hear from Mr. 
Simpson.

                     Opening Statement of Mr. Dicks

    Mr. Dicks. Well, I will just say this. I am very pleased 
that Jim Moran has assumed the chairmanship. I know he will do 
an outstanding job. He has already been fully engaged for many 
years on this Subcommittee, and I look forward to working with 
him and I congratulate him on making this. It took me 30 years. 
How long did it take you?
    Mr. Moran. It actually took you 31. I was counting.
    Mr. Dicks. You were?
    Mr. Moran. It took me 21.
    Mr. Dicks. Twenty-one? So he and I were both Senate 
staffers together. Things happen a lot faster over there.
    Mr. Moran. I am not sure how relevant this is to the 
record, but I actually used to work for Stormin' Norman.
    Mr. Dicks. I hired wisely. Anyway, I just wanted to tell 
you that one of the joys of being the Chairman for the last few 
years was working with Mike Simpson and Kenny and Steve and Tom 
Cole. These guys attend the meetings, as you know, because you 
are here often, too. And I think it has really been a very 
bipartisan----
    Mr. Moran. Sometimes better than our----
    Mr. Dicks. Yeah, well, we have a lot of cardinals over 
here. But I look forward to working with you. And one of our 
concerns of this committee has always been, going back to Sid 
Yates, has been to try to do justice to tribal Americans and 
the leaders of the tribes and to try to help keep our trust 
responsibility.
    Mr. Moran. And you have, and as I say, with Mr. Dicks' 
impact upon the Native Americans of this country, they may not 
all be aware of it, but it is very substantial and it came from 
the heart, a genuine commitment.
    Now we could hear from the very distinguished member from 
Idaho, the Ranking Member of the committee.

                    Opening Statement of Mr. Simpson

    Mr. Simpson. Thank you, Mr. Chairman, and let me echo what 
you said earlier. As I said at the last hearing, truly, it has 
been a pleasure to work with Norm. He has been a great 
Chairman, and I am glad to see that he is staying on the 
committee, and I look forward to working with you, Chairman 
Moran, and addressing the issues in the Interior budget that we 
face. I know both of you, as you said, have tough shoes to 
follow, and we on this side of the aisle would like to help 
you. We can do that by winning the majority more often.
    Mr. Moran. You were going so well, you know. It was just 
going so well.
    Mr. Simpson. I just thought I would throw that out there.
    Mr. Dicks. Quite ambitious.
    Mr. Simpson. I have not been here 31 years, so you know, I 
got a few years to wait, I guess.
    But good afternoon, Director Gidner, Acting Director 
Stevens, and thank you for joining us today. It is a pleasure 
to see you again, Assistant Secretary Echo Hawk. I always 
appreciated your thoughtfulness and integrity when we served 
together in the Idaho legislature and worked on state issues, 
and I look forward to working with you in this new capacity as 
we look to address the challenges facing Indian country.

                 SHOSHONE-BANNOCK TRIBAL JUSTICE CENTER

    As you will recall from our last conversation, I told you 
that Mr. Cole and I had talked about and hoped to visit some of 
the tribes outside of our respective states this year, and we 
certainly hope that your schedule will allow you to join us. It 
was a privilege to join you in celebrating the grand opening of 
the Shoshone-Bannock Tribal Justice Center at Fort Hall a few 
weeks ago. As you know, the law enforcement needs across Indian 
country are great. In many cases, tribes lack both the 
authority and resources to make their communities safer and 
more prosperous. Faced with inadequate support from the Federal 
Government, the Shoshone-Bannock tribe had to take the 
initiative to address the needs of their community and find 
their own funding to complete construction of their Justice 
Center. The long-term success of this endeavor will require a 
true partnership between the tribes and the BIA. I appreciate 
the willingness of your office and the BIA staff to work with 
them to find the funding for operation and maintenance of this 
beautiful facility.
    I know you recognize that it is long-past time for us to 
find creative solutions to the law enforcement challenges 
facing our Native American communities. The opening of the 
Shoshone-Bannock Tribal Justice Center provides us with the 
means for implementing one of those solutions. Neither the BIA 
nor Indian country seems able to meet the detention needs of 
each tribe individually, and creating a system of regional 
justice centers will ensure that each tribe has a place to send 
young people who need guidance to steer them away from a life 
of crime.
    I look forward to discussing this possibility with you 
further and seeing what role the Shoshone-Bannock Tribal 
Justice Center can play. Perhaps nowhere else in the Interior 
and Environment spending bill is it more apparent that this 
bill is about people. On Indian reservations, poverty is still 
commonplace. Unemployment and violence are higher than the 
national average, and incidents of infant mortality, 
alcoholism, substance abuse and suicide are far in excess of 
the rest of America. These disparities are real. They are not 
new, and they are sobering reminders that no matter what is 
happening abroad, there are people back home that need help.

                         LEADERSHIP AND BUDGET

    Last year, Acting Inspector General Mary Kendall, testified 
before this Subcommittee that DoI Indian programs are sorely 
understaffed, underfunded and poorly managed and that the 
greatest obstacle to reform is the leadership vacuum that has 
existed for nearly a decade as assistant secretaries in the 
past have served unusually short tenures.
    I am hopeful that those days are now behind us and that 
together we can get down to solving the myriad problems before 
us. The fiscal year 2011 budget for Indian Affairs is 8 percent 
above the fiscal year 2009 budget, but it is 2 percent below 
last year's level. Additionally, the BIA received $500 million 
through the stimulus bill. This Subcommittee has increased our 
emphasis on public safety, justice, education, construction, 
rights protections and contract support. The fiscal year 2010 
budget continues several of these investments in contract 
support, public safety and education. These increases come 
mostly at the expense of facilities construction, and I look 
forward today to our discussion about that. I am also 
interested in talking about the energy development on tribal 
lands and whether we are doing everything we can to help those 
tribes compete on a level playing field.
    Finally, I hope we can spend some time today talking about 
the condition of our schools, whether we are creating safe 
environments for children to learn and grow as I believe that 
education is the key to improving lives no matter who we are or 
where we live. More than anything, though, I hope we can spend 
some time today evaluating whether the investments we are 
making in Indian country are having an effect on the 
disparities and violence, health and poverty that I mentioned 
earlier.
    I look forward to your testimony and our discussion today 
as I always am committed to working with you to solve some of 
these problems. Thank you for being here today.
    Mr. Moran. Thank you very much, Mr. Simpson. I am going to 
get into the questions, and then we will give an opportunity to 
Mr. Calvert and Mr. Cole to make a statement precedent to their 
questions as well.
    I mentioned in the opening statement that the Inspector 
General----
    Mr. Dicks. Are you going to let him make his statement?
    Mr. Moran. Oh, yeah. Sure. That is a good idea.
    Mr. Dicks. Good idea.
    Mr. Moran. Yeah.
    Mr. Dicks. Novel concept.
    Mr. Moran. When you address this, I hope in your statement 
that you will address this issue of the concerns of the 
Inspector General, and I trust you will, and how you are going 
about correcting some of the situations that the Inspector 
General alluded to in terms of the management of the Bureau of 
Indian Affairs.
    Thank you, Mr. Secretary. We look forward to your 
testimony.

            Testimony of Assistant Secretary Larry Echo Hawk

    Mr. Echo Hawk. Well, Mr. Chairman and members of the 
committee, I appreciate this opportunity to appear before your 
committee to discuss the budget of the President for Indian 
Affairs, and may I just first congratulate you for your 
chairmanship, and I guess that is to both Congressman Moran and 
Congressman Dicks for new assignments. And I am very pleased to 
be with you today. I testified last week in the Senate, and it 
seems like a different atmosphere in here. This feels much 
better just to sit with you at a table.
    Mr. Dicks. We know how you feel.
    Mr. Echo Hawk. But as the Assistant Secretary for Indian 
Affairs, I particularly appreciate the comments that were made 
about doing justice and fulfilling the trust responsibilities 
of the United States. I feel the responsibility on my shoulders 
as well to do that. I did not seek appointment as the Assistant 
Secretary, and it was not lost upon me that in the last 8 years 
there have been six different people either in a confirmed or 
acting capacity to hold the position that I hold. And when I 
was called to serve here, I struggled with that a bit but 
decided to leave the comfortable confines of being a law 
professor and coming and doing what I can to serve and serve 
effectively.
    I think many of you know my background, but I just wanted 
to highlight a few points. I am a lawyer, and from the very 
beginning of my graduation from law school, I wanted to be a 
tribal lawyer. And my dream came true in 1977 when I was 
selected to be the Chief General Legal Counsel for Idaho's 
largest tribe located near Congressman Simpson's hometown, 
Blackfoot. I was able to serve in that position for 9 years, 
but since I left there in 1986, I have not had full-time 
employment in the area of Indian law. I went into elective 
office in the legislature as a county attorney, as attorney 
general, and for the last 14 years I have served as a law 
professor. I have taught Federal Indian Law, but I have never 
worked for the Federal Government and I feel like I have been 
somewhat disconnected from Indian affairs on a full-time basis 
in that time span.
    But I am back, and I can tell you I feel like I have got 
the most difficult job in America. I feel like I have been 
facing a pretty steep learning curve to figure out things that 
are plaguing the federal bureaucracy in Indian Affairs. It has 
been good for me to learn that there are many dedicated and 
hardworking people in the Office of the Assistant Secretary for 
Indian Affairs and then the Bureau of Indian Affairs and the 
Bureau of Indian Education. But certainly the Inspector General 
reports get my attention. And when we receive a report like 
that, you know, it is our responsibility to react and react in 
an effective way.
    Many of the reports that I am sure are going to be 
referenced in the hearing occurred prior to my coming on board 
9 months ago. But nevertheless, I feel responsibility to be 
aware of those reports and to do what I can to follow up.
    I have with me today the Director of the Bureau of Indian 
Affairs, Jerry Gidner, and the Acting Director of the Bureau of 
Indian Education, Bart Stevens. And before I go any further, I 
just want to say something about the visits that were mentioned 
by Congressman Simpson and Congressman Cole. I would want to 
extend an invitation to all of the committee members at any 
time. If you have time available to travel in Indian country, I 
would like to accompany you to visit some of the Indian 
communities and facilities and see some of the issues and 
problems that we have out there in various regions of the 
country. But in particular, as the new Chairman, Congressman 
Moran, I would like to have the opportunity to travel with you 
and to visit Indian country.
    The budget I think has been outlined by the Chairman, and I 
will not make any further comments on that. But I do want you 
to know that I think it has the imprint to a large extent of 
Indian tribal leaders because the Tribal Budget Advisory 
Council is something that I have learned about in the last 9 
months, and it is our official mechanism to get input on budget 
priorities from tribal leaders. All 12 regions are represented 
by representatives from tribal government that give us their 
input. We are already in the process of working on the 2012 
budget with this committee. So these are not priorities that 
are picked out of the air, but tribal leaders are giving us 
some guidance.
    In addition to that, I have tried my best to travel 
throughout Indian country and meet directly with tribal leaders 
to hear their concerns. I have been to pretty much every region 
of the country already and heard what they have to say.
    This has been a tough year for the budget with the fiscal 
realities that exist, and we have had to make some tough 
choices. Given the guidance that is given to us by tribal 
leaders, we have tried to emphasize the priority areas that 
they would like us to give attention to, but we have also had 
to make some tough decisions. With regard to our internal 
administrative operations, the cut in our cost will be 
uncomfortable for us and challenging, but that has been done in 
order to meet tribal priorities for the programs that make a 
difference. I know that we have management issues within our 
federal ranks, but I think the tribes even have greater 
challenges that face them.
    And so I look forward to having some discussion with you 
about some of those tough choices that we have made. Thank you 
very much.
    [The statement of Larry Echo Hawk follows:]

    [GRAPHIC] [TIFF OMITTED] T7302A.001
    
    [GRAPHIC] [TIFF OMITTED] T7302A.002
    
    [GRAPHIC] [TIFF OMITTED] T7302A.003
    
    [GRAPHIC] [TIFF OMITTED] T7302A.004
    
    [GRAPHIC] [TIFF OMITTED] T7302A.005
    
    [GRAPHIC] [TIFF OMITTED] T7302A.006
    
    [GRAPHIC] [TIFF OMITTED] T7302A.007
    
                       INSPECTOR GENERAL REPORTS

    Mr. Moran. Thank you very much, Mr. Assistant Secretary. 
The concern about what was cited in the Inspector General's 
report I suspect is shared by all the Subcommittee members. 
Some of it is simply a lack of continuity in terms of 
management of the Bureau. It is very difficult to get a handle 
on what is going on when you are only there for 6 to 18 months 
at a time. So we trust you have a commitment to stay there for 
some period of time to really make a transformative difference.
    But the incidents of criminal misconduct by tribal 
officials, contractors, employees, the theft from Indian tribal 
organizations, the illegal disposal of petroleum products, many 
of these hurt the Native American people the most. So I hope we 
are going to get a handle on that. Of course, when that is 
going on at the top level, it makes it even more difficult to 
address the problems of crime at the individual and family 
level.

                        CRIME IN INDIAN COUNTRY

    The Department of Justice shows that many areas of Indian 
country have the very highest crime rates throughout the 
country, and this committee had the hearing last year and it 
has been a continuing concern. The rate of violent crime in 
Indian country is twice what it is throughout the country. 
Maybe it does start at the top. But I would like to know what 
you are doing about that and if you could also expand a bit on 
an issue of particular concern that was addressed in the report 
last year dealing with the BIA appropriation. More than 1/3 of 
Native American women will be sexually assaulted in their 
lifetime, and almost 40 percent will suffer from domestic 
violence. That is an intolerable situation. And the 
Subcommittee provided a substantial increase in funding to 
address that.
    So that would be the one area I would like for you to 
address before hearing from other members of the Subcommittee. 
If you would address that, Mr. Echo Hawk?
    Mr. Echo Hawk. Thank you very much, Mr. Chairman. A few 
comments on the remarks that you just made. With regard to 
Inspector General reports, I think I have already mentioned 
that I will take those very seriously and follow up to do what 
we need to do to take corrective action. But I consider it to 
be even more important that we practice prevention to make sure 
that we do not have Inspector General reports coming down. And 
I think this may be one of the challenging things that I have 
because I think a lot of people believe that we have had some 
history of that kind of mismanagement occurring. I think we 
have got a lot of good people, but I think there is room for 
improvement. And I am not able to micromanage an organization 
that has over 9,000 employees. I think my responsibility is to 
set a good example and select people that know, that are 
quality managers and let them do their jobs but hold them 
accountable for the responsibilities that they have.
    With regard to the crime occurring in Indian country, I 
think this is perhaps an area where I have an opportunity to 
make the greatest contribution. It is clearly a priority of the 
President and Secretary Salazar, and I got a feeling maybe that 
is why I was selected to serve in this position because as a 
law professor, I teach criminal law, criminal procedure, 
criminal trial practice, evidence, Federal Indian Law, but I am 
a former prosecuting attorney for Idaho's fourth-largest county 
and attorney general. In Idaho, the attorney general is the 
chief law enforcement officer for the State.
    So in virtually any kind of crime activity that is 
occurring I have had hands-on experience. When you mention the 
violent crimes perpetrated against women and children, as a 
county prosecutor and as an attorney general, we had to work in 
the state system to address those kinds of problems. They are 
more aggravated within Indian country, and I will give that 
special attention. In fact, I think I am scheduled--I get a lot 
of invitations to address groups, and there is a meeting coming 
up where I am flying out to Albuquerque to address Federal law 
enforcement officers on that subject. And I think staff might 
tell me that is not worth doing because I have got a lot of 
other things, but when I said yes, I think that is an example 
of the kind of priority that I placed on that particular area.
    Mr. Moran. Thank you, Mr. Assistant Secretary. Mr. Dicks. 
Okay. Mike. Mr. Simpson.

                       REGIONAL DETENTION CENTERS

    Mr. Simpson. Thank you, Mr. Chairman. Last year's 
conference report, as I said in my opening statement, included 
language encouraging the BIA to consider establishing regional 
detention centers at new or existing facilities. Can you 
describe some of the pros and cons of this and what you are 
doing to address this issue and what is the BIA working on in 
that regard? It just seems to me like it makes sense that we 
could create some regional detention facilities that would be 
good ones rather than the, as you know, having visited Fort 
Hall Reservation, the old detention centers and stuff. I said 
during the meeting out there that the conditions in it were 
really deplorable. Does it make sense to have regional 
detention facilities?
    Mr. Echo Hawk. Thank you. Congressman Simpson, I 
appreciated having that opportunity to be with you at Fort Hall 
because it is a nice thing to see an Indian community step 
forward and do what it takes to get a detention center and 
justice center in place using their own resources. That is 
actually, I think, given the history of the trust 
responsibility, something the United States could have stepped 
up to do, but the tribe did not wait for that to occur because 
of the demands that are there in the community.
    But with limited resources, I think that we have to be 
smart about how we use whatever construction dollars are 
available and the regional detention strategy to me makes the 
most sense with those limited dollars that we have to be 
strategic about where we are placing those facilities so that a 
number of tribes will be able to benefit from detention 
services.

                     DETENTION CENTER CONSTRUCTION

    Mr. Simpson. Your budget proposes along the same lines as 
safety and justice, a reduction of $41.5 million for public 
safety and justice construction because the funding overlapped 
with the Department of Justice. However, the Justice budget 
says very little about its plans for tribal construction in 
fiscal year 2011, let alone any 5-year construction plan as is 
required by this committee.
    I think the committee has expressed some concerns about the 
commitment of the Department of Justice in some of these areas. 
Are we just kind of turning things over and hoping that the 
Department of Justice will fill in the hole here? And do we 
have any assurance that they are going to do that?
    Mr. Echo Hawk. Congressman Simpson, when I took over this 
job, one of the first things I learned about is the division of 
responsibilities. I think before taking this job I could not 
have told you who actually hadresponsibility for detention 
construction. But that has been mainly a responsibility, although not 
totally, within the Department of Justice. And it became very clear to 
me that what we need is coordination between and collaboration with the 
Department of Justice. And we have tried to do that, and it has not 
just been at my level but it has been very good to see the Secretary of 
the Interior and Deputy Secretary of the Interior engage with their 
counterparts in the Department of Justice in talking about that kind of 
collaboration. And we will continue to make that effort to come up with 
sensible ways of identifying where facilities for detention and 
correction should be located and how they should be financed and where 
the operation and maintenance is going to come from.
    There have been some sore examples in Indian country that I 
have learned about where facilities have been built by the 
Justice Department with no forethought being given as to how 
they were going to be operated and maintained. And thus, what 
you end up with are facilities sitting out there that are 
unoccupied, and I think that is unacceptable absolutely. And we 
have got to do better in the future to make sure that we are 
properly coordinated.
    Mr. Simpson. Do you think it would be helpful? And I ask 
this of both the Chairman and you, some of us have talked about 
having a joint hearing with the BIA and Justice to talk about 
this. My concern is that we take your approach on this and we 
expect Justice to put this $41 million in for construction, and 
4 or 5 years down the road we are back into stove-piping and so 
forth and we do not have the cross-coordination and we do it 
somehow. The longer I have sat on this committee, the more I 
have learned how complicated it is between these departments 
that have certain responsibilities. I have wondered if it would 
not be helpful to have a joint committee hearing at some point 
in time with the members of the----
    Mr. Moran. Perhaps we could discuss that with Mr. Mollohan.

                     FBI STAFFING IN INDIAN COUNTRY

    Mr. Simpson. Yeah, I think it would be good because these 
two are intimately intertwined in what we do. As an example, 
this budget proposes an increase of $19 million for 81 FBI 
employees dedicated to investigating crime on reservations, 
something that is sorely needed. Right now as I understand, 
there are 105 FBI agents currently working in Indian country as 
collateral duty. We approve this and hire the 81 FBI employees. 
They will be dedicated to working just on the reservations, and 
what happens to the 105? Will that be an adjunct to them or 
does the Justice Department figure that if you are going to add 
81, then they can take the 105 and use them for other purposes 
and they no longer spend that time on the reservation?
    And that is the kind of thing I would like to work out with 
them before we do this so that we know what we are doing is 
actually enhancing the criminal investigations activities of 
the FBI and so forth.
    Mr. Echo Hawk. Congressman Simpson, our intent, strong 
intent, is to make sure we are supplementing federal law 
enforcement activity within Indian country, and whatever 
resources are there presently, we want to add to that. And 
having that money coming through Interior at least puts us in a 
position to make sure that that is where the money is going, to 
enhance federal law enforcement.
    We have a good start. We are working well with the 
Department of Justice right now, and I have confidence that we 
are going to be able to assure that that is how things are 
being done.
    Mr. Simpson. I am glad to hear that you and the Department 
of Justice are working together, but we in Congress need to 
make sure also that we, between our subcommittees, are working 
together so that we do not just appropriate some money and hope 
that same amount is being done by the Commerce, Justice, 
Science Committee and then find out that it is not being done. 
So I think we all need to work together.
    Mr. Moran. Perhaps, Mr. Simpson, we could have our staff 
discuss it with the staff of the Commerce, Justice, Science 
Subcommittee and see if we can get a recommendation of how we 
might coordinate that. It is a very good suggestion. Thank you, 
Mr. Simpson. Mr. Dicks.

                     POLITICAL LEADERSHIP STAFFING

    Mr. Dicks. Let me ask just a couple quick questions. One, 
have you been able to get your people in place, the various 
spots in your department? There has been a certain amount of 
slowness in getting people in place in this Administration. I 
just wondered if that has affected you.
    Mr. Echo Hawk. Congressman Dicks, we have been very 
fortunate to be able to clear the political leadership. I have 
four people that I work with that are political leadership, and 
I think that went fairly rapidly. I actually thought I was 
going to come on a little sooner. It took me 121 days to be 
confirmed, and I thought that was a long time and they told me 
that was record speed. So I felt lucky after I heard that. But 
the other people did not have to be confirmed, and that was a 
lot of help when those political leadership people came on 
board and they have been working very effectively.

                        CRIME IN INDIAN COUNTRY

    Mr. Dicks. One of the things when we retook the majority 
that we reinstituted, which I hope we will always do no matter 
who is in the majority, is having the tribal leaders come in 
and testify before the committee. One of the things that came 
up was this anomaly I think in the law that says if somebody 
comes onto an Indian reservation and assaults a woman, that the 
maximum penalty is 1 year. Now, is that being addressed in this 
interagency operation with the Justice Department or should 
Congress try to change the law up here? With your background, 
do you know much about this?
    Mr. Echo Hawk. Well, the 1-year maximum penalty would be 
the rule that applies to a tribal government, meaning that a 
tribal government----
    Mr. Dicks. Oh, the tribal government can only do one year?
    Mr. Echo Hawk. One year. The Federal Government----
    Mr. Dicks. I see.
    Mr. Echo Hawk [continuing]. Has jurisdiction under the 
Indian Major Crimes Act and the Indian Country Crimes Act, and 
those penalties, of course, can be very stringent, and that 
would apply to both Indian and non-Indian offenders that commit 
crimes against Indian people. So, federal law is strong. I 
think the concern of native leaders has been, is it being 
enforced? Is the United States investigating and prosecuting 
those crimes?

                     FBI STAFFING IN INDIAN COUNTRY

    Mr. Dicks. I thought the number was 50 FBI agents are going 
to be hired by the BIA, is that correct?
    Mr. Echo Hawk. Under the budget proposal, the $19 million, 
that is 81 FTE.
    Mr. Dicks. Eighty-one?
    Mr. Echo Hawk. Eighty-one FTE. So they are not all FBI 
agents because they need support staff.
    Mr. Dicks. Okay. Well, that is good. And the reason we are 
paying for this in the Interior budget is you do not want to 
have to argue this out with Justice. You want to make sure that 
these people will be under your authority, is that correct?
    Mr. Echo Hawk. That is correct, Congressman.
    Mr. Dicks. So what are you going to do with these? What is 
your game plan for these people? Is it to go out and try to get 
into some of these cases that have not been prosecuted before?
    Mr. Echo Hawk. Congressman Dicks, I think the complaint of 
tribal leaders is that there is not swift, effective 
investigation and prosecution, and the response that I think 
that they get from Federal officials is we do not have the 
resources. So this is meant to add additional resources for 
Federal law enforcement. Having said that, I cannot resist but 
say the answer is not only in upgrading Federal law enforcement 
because that is felony class offense that we are talking about 
there. One of my major concerns would be making sure that 
tribal law enforcement, that is, dealing with the lower echelon 
of crimes, basically misdemeanor offenses, are also in a 
position to do effective investigation and policing because 
that is not something that the Federal Government is normally 
doing. They can prosecute some lower level crimes, but that is 
not usually what they do. So the tribal systems have to be 
strong and healthy as well, not just federal systems.
    Mr. Dicks. So we need to continue to work on tribal law 
enforcement which we have supported on this committee.
    Mr. Simpson. Along the same line, one of the problems that 
we learned about when we had the women coming and talking about 
the domestic violence against women on reservations was that 
oftentimes when a case should be prosecuted by the Federal 
Government, the first responders to a crime are going to be 
local individuals. And when it comes time to actually take a 
case to court, the FBI comes to investigate and the first 
responders have not been trained well enough to take the 
evidence and protect the evidence at the crime scene. So as you 
said, we need to do a much better job with those tribal law 
enforcement officers that are there and training them also on 
how to respond to crime scenes so the evidence is preserved so 
that if the FBI takes it over, they have a case they can 
prosecute.
    Mr. Echo Hawk. That is right, Congressman. I think you said 
that very well.
    Mr. Moran. Mr. Chairman.

                             JONES ACADEMY

    Mr. Dicks. Last year we asked you to do a report on the 
Jones Academy. You and I had a conversation about it. Are you 
ready yet or are you going to need a little more time or have 
you made a decision on what we are going to do?
    Mr. Echo Hawk. Congressman Dicks, I am not exactly sure 
what the timeframe is. I think we are very close to doing that. 
I think we are ready to--there may be somebody in the room that 
knows exactly what the timeframe is.
    Mr. Moran. There is a gentleman that apparently does.
    Mr. Echo Hawk. The report is due at the end of March. We 
are on it.
    Mr. Dicks. And again, we are hopeful we can work out some 
accommodation here. Thank you.
    Mr. Moran. Thank you, Mr. Chairman. Mr. Cole.

                          Remarks of Mr. Cole

    Mr. Cole. Thank you very much, Mr. Chairman, and welcome in 
your new capacity. Actually, the first time I met you, Mr. 
Secretary, you seemed like such a nice guy. I loved the bio. 
You were in Oklahoma visiting Indian country, and then you told 
me you were going to slip down the next day, and watch Brigham-
Young play the University of Oklahoma. You apologized for how 
bad it was going to be for Brigham-Young. As I recall, we got 
upset and our quarterback was put out for the next four games. 
That is not unusual on this committee. Mr. Simpson has done 
that to me with the Boise State Bullies, and Mr. Calvert routed 
us in the 2005 national championship game. So I am getting 
tired of being the junior member on this committee, I got to 
tell you.
    Mr. Moran. Just rubbing it in.
    Mr. Cole. Yeah, I was going to say. I thought a little more 
respect to the committee would be appropriate.
    Mr. Moran. Beyond the Boise State Bullies treatment, 
Brigham-Young, when the Assistant Secretary played, he led the 
Western Athletic Conference, and in one year he had six 
interceptions? That is amazing. Nice job. That is not 
particularly relevant to the----
    Mr. Cole. Just in defense of my alma mater and our program, 
I want to point out Chairman Dicks was actually trained by a 
graduate by the University of Oklahoma, his football coach, in 
the Bud Wilkinson era. So we are going to be back guys.
    Mr. Moran. Are there any other questions?
    Mr. Cole. I actually have a series of questions. I am 
sorry. I could not resist.
    I have several things in many areas. Number one, I 
appreciate what the Administration did last year, I really do. 
I thought it was dramatic. I appreciate the work that you did, 
Mr. Dicks, as our Chairman and we made a lot of progress. And I 
understand the budgetary realities that call for the situation 
we are in now.

                          TRIBAL GRANT SUPPORT

    Right now we are doing about 94 percent of the contract 
support costs for the obligations tribes have for non-school 
programs. I am hearing from a variety of tribes across the 
country, tribes in my own state, and tribes in other states, 
that they are going to operate their own schools, which I think 
is a very good thing and something that we ought to be 
encouraging. It is sort of like healthcare. When the tribes 
operate it, frankly, they tend to do a better job than the 
Indian Health Service on its own. However, we are only doing a 
very modest increase in the money. We are only doing about 66 
percent of the cost of contract services for schools that are 
actually operated by tribes.
    So I would like to know why the discrepancy and is this an 
area where you are going to try to shrink that differential a 
little bit?
    Mr. Echo Hawk. Congressman Cole, good point, and I think 
there is $3 million in this budget proposal for tribal grant 
schools for their contract support. And I think the answer is 
that we are responding to the priorities of tribal leaders, and 
that is why we have--in the budget it seems like we are 
favoring contract support for tribal government and wedid not 
boost the tribal grant schools as much. But again, the TBAC 
Organization will be presenting their priorities to us very soon. We 
are interested in increasing the tribal grant school support, contract 
support. So yes, we are focused on that, and I think you will see, 
probably, tribes moving in that same direction with their 
recommendations.
    Mr. Cole. Please do. Those governments will look after 
themselves first. I really do think the schools will be much, 
much better when they are operated tribally and actually people 
are very then accountable to their constituency.

                            JOHNSON-O'MALLEY

    The second question, sort of related, and again this is, 
please, not aimed at you or the Administration because this a 
sin that goes back for a long time, but Johnson-O'Malley money 
is another place where we once again, there were cuts. We have 
not really increased this since 1995, so we have a succession 
of administrations who have decided this is not a priority, and 
yet we have got an awful lot of native kids in the public 
school system in various parts of the country without really 
much appreciation for their needs, their culture, or their 
history in many cases.
    So could you tell us sort of your view of where you think 
we are headed down the road with the Johnson-O'Malley program 
which has been shoved off and forgotten in recent years?
    Mr. Echo Hawk. Congressman Cole, of course we have 
responsibility for the second-largest federal school system, 
and that may seem to be our priority in making sure the 183 
schools that we have responsibility for are properly funded. 
But we also understand that most Native American students by a 
great margin attend public schools, and the Johnson-O'Malley 
funds have been important because they meet unique needs of 
native students that are attending public schools. I am just 
starting to learn more about this, but at a recent meeting in 
Idaho, an Indian educator came up to me and talked to me about 
the fact that in some years, Johnson-O'Malley had just been cut 
out of the budget. It is good news that it is back in the 
budget, but the bad news is they are operating on student 
counts I understand that were formed in the mid- or early----
    Mr. Cole. 1995, actually. It has been frozen, the account, 
since then.
    Mr. Echo Hawk. And that does not make much sense, does it, 
to operate on numbers that are old? We ought to update the 
student counts, and if it is worth keeping, I would advocate 
for funding that at an appropriate level.

                     MINERAL RESOURCES DEVELOPMENT

    Mr. Cole. I would very much appreciate if you would look at 
that. And just one more question if I may, Mr. Chairman. I do 
not want to monopolize time. I have got a whole list. When we 
had a previous hearing with the Bureau of Land Management, I 
asked them a question that may be more appropriately addressed 
to you about the management of Native American mineral 
resources. We know the pace of development on federal lands 
tends to be a lot slower honestly than it does in adjacent 
areas that are in the private sector. I do not know if that is 
the case in terms of trust lands. So I would like to know, 
number one, what is the state of tribal mineral development? We 
have a lot of tribes that hold very considerable resources but 
I think many have a hard time developing them, marketing them, 
and a lot of them are in pretty distant locations where that is 
probably the best economic asset that they have. So I would 
like your view of whether or not we are doing what we need to 
do and whether or not the development there takes longer than 
it would in comparably privately held land that is adjacent to 
trust land?
    Mr. Echo Hawk. Congressman Cole, I will make a comment and 
perhaps Director of Bureau of Indian Affairs might want to 
supplement what I say, but there are 55 million acres of trust 
lands, and the United States has a vital role to play under 
Federal law in making sure that if there is going to be 
development on those lands, we have to give approvals for 
various things. So that means we have to have the Federal 
employees on staff to be able to carry out the function of 
granting permits for surveys or drilling permits or leases, a 
number of things that occur. There are also other Federal 
agencies that have responsibilities.
    I think there are a lot of potential mineral development 
opportunities within Indian country, and recently there was a 
discovery of oil and gas in Montana that kind of spotlighted 
some of the problems that we have because when the oil fields 
were discovered, the tribes were not able to get into the 
production quick enough so that actually surrounding landowners 
around the Indian country were drilling and taking the 
resource, and we were lagging behind because the federal 
permitting was slow. And of course, we reacted. It was before I 
came, but Interior Department reacted by pouring in additional 
resources to make sure that it would speed up that process. 
That is what we should do. We are the trustee. But it kind of 
spotlighted the problems that we are experiencing. That is part 
of our budget this year to make sure that we have sustained 
activities so that native people are treated fairly in being 
able to extract those resources that will create revenue and 
jobs for their communities.
    Mr. Cole. Well, thank you for your focus on that. If there 
is anything that we can do legislatively to help you in terms 
of facilitating that process, please let us know or come 
forward with recommendations because it really is very 
important, as you know, to a lot of tribal people.
    Thank you, Mr. Chairman.
    Mr. Moran. I think you speak for the entire Subcommittee on 
that. That is just inherently unfair, and I am glad you brought 
it up, Mr. Cole, and it is an excellent response, Mr. Echo 
Hawk. Mr. Olver.

                        HOUSING ON RESERVATIONS

    Mr. Olver. Thank you, Mr. Chairman, and congratulations on 
your assumption of the gavel, to take nothing away from the 
former Chairman, but he assumed a new gavel, too, in that 
process. Congratulations to you on that.
    Mr. Dicks. Thank you. Thank you.
    Mr. Olver. I have many questions as I often do in these 
sorts of situations, but most of my questions--when someone 
else asks questions, I want to have additional clarification. 
First of all, let me just say, Mr. Chairman, I chair the 
Subcommittee on Housing and Transportation. It turns out it is 
my Subcommittee that deals with housing on reservations and 
with the building of roads on the reservations at least. So I 
would like to be included in any discussions that you might 
have with the Commerce----
    Mr. Moran. Consider it done.
    Mr. Olver [continuing]. Current Ranking Member and my 
Ranking Member, of course, as well, certainly not to leave him 
out in this so that we might look at the quality of life on 
thereservations and Indian country in a comprehensive kind of way.
    Mr. Moran. Excellent suggestion.

                     FBI STAFFING IN INDIAN COUNTRY

    Mr. Olver. So that said, I would like to go back to the 
detention center business. The 81 FTEs, how many of those are 
going to be actual FBI agents?
    Mr. Echo Hawk. Congressman, my understanding is 
approximately 45 of those FTEs would be agents, FBI agents.
    Mr. Olver. So 45 are FBI. And would it be fair to expect 
that the FBI agents themselves would be the highest paid of 
those FTEs that are involved in that grouping or would that not 
be a fair assumption?
    Mr. Echo Hawk. Congressman, I do not have any specific 
knowledge on this. I would have to guess probably like most 
people in the room that the agents would probably be, upper 
tier employees, but they would also have drug intelligence 
analysts, as an example, and there may be people that are not 
classified as an FBI agent that would still be fairly 
significant. But other staff would be lower level.
    Mr. Dicks. Could you yield just for a quick point?
    Mr. Olver. Sure.
    Mr. Dicks. Who would manage this? Who is going to be 
responsible for this entity or agency, whatever it is?
    Mr. Echo Hawk. Congressman Dicks, it will be the Justice 
Department. This is their----
    Mr. Dicks. It is going to be Justice?
    Mr. Echo Hawk [continuing]. Personnel. We will have----
    Mr. Dicks. Are they going to manage it or you guys are 
going to manage it?
    Mr. Echo Hawk. They will. These are their employees, and it 
is their responsibility so they will be doing the work. But we 
will have some leverage when we send the money over. There is 
going to be some kind of agreement I anticipate about how that 
money is going to be distributed, what it is going to go for, 
and where it is going to be.
    Mr. Olver. But it is paid out of your budget?
    Mr. Echo Hawk. Yes, it is coming through our budget.
    Mr. Dicks. Thank you.
    Mr. Olver. Well, the reason I ask that is that $19 million 
provides about $235,000 per FTE, and I guess I would love to 
see what the breakdown is of how that plays out. I do not know 
what the salaries are of people and what other things go into 
that budget of $19 million.
    How many FBI agents are there in Indian country?
    Mr. Echo Hawk. Congressman, I have seen the figure of 105 
presented.
    Mr. Olver. One hundred five?
    Mr. Echo Hawk. One hundred five.
    Mr. Olver. And so the 45 will be a significant addition. 
Can you tell me how many of them are tribal members, how many 
of these are members of the tribes?
    Mr. Echo Hawk. Congressman, I do not have a figure on that. 
I have met Native Americans that are federal agents, but I have 
no idea how many there are. I would say not many, but there are 
some.
    Mr. Olver. Would it be wise or is it unwise that the FBI 
agents be Native Americans--after all, people on reservations 
need jobs, too.
    Mr. Echo Hawk. Congressman, I think with unemployment 
running on some reservations as high as 85 percent, any job 
that you can get is something very valuable to the community.
    Mr. Olver. These sound like higher paying jobs than 
virtually anything that otherwise would be on the reservation. 
So it seems to me they ought to be valuable. I am very curious, 
how many of the 105 are held by Native Americans, and what plan 
is there for training FBI agents deliberately for the work that 
has to be done on Indian reservations.
    Mr. Echo Hawk. Congressman, I am prompted to also say that 
from my past experience I used to actually do criminal defense 
for native people charged with major crimes in Federal Court. 
And I worked with a lot of FBI agents, and one of the 
challenges that they have traditionally had is that as they try 
to do their law enforcement jobs, there has been some distance 
and distrust among the native community to outside Federal 
officers coming in. And that I think has made it difficult for 
them to be effective in their jobs. So the more native people 
you could get to fill these positions, that is even better 
because you would naturally expect that they would be able to 
be accepted better in those communities.
    Mr. Olver. That strikes me, sir, as somewhat of an 
understatement, but a very carefully worded statement in any 
case.
    What are the major reasons for detention? Can you give me a 
sense of how many people in Indian country and on the 
reservations are in detention and what are the major reasons 
for that? Maybe this is too much. I should not be throwing this 
at you in this kind of a way. Take time, answer please on paper 
or something. Give us a----
    Mr. Echo Hawk. Congressman, we would be happy to----
    Mr. Olver [continuing]. Sense of what that is.
    Mr. Echo Hawk. We would be happy to look into this and 
maybe respond in writing and give you some more specific 
information, but my memory banks at my age are not strong 
enough to help me remember specific figures that I have read, 
but in general, I think there is a very high proportion of 
native people that are incarcerated. And I think that is very 
unfortunate but it is just you know, a result of the problems 
that we are experiencing in law enforcement is that when you 
have high crime, you have high incarceration rates as well.

                              ARRA FUNDING

    Mr. Olver. And if you have high joblessness, you have high 
crime and so on it goes. I wanted to explore with you the ARRA 
funding. My understanding is you got $300 million of money 
under ARRA for educational facilities and detention centers and 
such? What is the proportion that went to education and what to 
detention centers?
    Mr. Moran. Mr. Stevens may want to----
    Mr. Echo Hawk. I think the figure that is in my mind, 
Congressman, is we have $285 million for detention and 
education, and I think staff is going to have to tell me what 
the breakdown was between education and detention.
    [The information follows:]

                          Detention Population

    According to the Department of Justice, Bureau of Justice 
Statistic's Bulletin Jails in Indian Country, 2008, published in 
December 2009, federal, state, and tribal authorities held 921 per 
100,00 American Indians and Alaska Natives, which is about 21% higher 
than the overall national incarceration rate if 759 per 100,000 persons 
other than American Indians or Alaska Natives.

    Ms. Mary Jane Miller. $7 million went to detention centers, 
and the balance went to education and construction.
    Mr. Olver. Okay, there must be also some administrative 
monies in that if 285 went for the construction accounts. I 
think $300 million in total was appropriated for that. Okay. 
That is a small difference among friends.
    Mr. Moran. Mr. Olver, they started a vote, and perhaps we 
could--it started at 2:58, so it just started. But I wanted to 
give Mr. Calvert an opportunity to ask questions, and then 
maybe we could let these gentlemen go before we get to the 
next, which is the Special Trustee. Did you have one last one?
    Mr. Olver. Well, now that I am into the ARRA funding, I was 
going for a while.
    Mr. Moran. Well, I sensed that.
    Mr. Olver. I just got started on that.
    Mr. Moran. I sensed that.
    Mr. Olver. I will let you go Mr. Calvert.
    Mr. Moran. Thank you, Mr. Olver. Mr. Calvert.

                     REVENUE GENERATING AT SCHOOLS

    Mr. Calvert. Thank you, Mr. Chairman, and I, too, want to 
thank Chairman Dicks for the great job he did and I look 
forward to serving with him on other committees and look 
forward to serving with him on this committee in the future.
    As has been pointed out, we have a bunch of challenges 
especially at BIE schools. I have an Indian school in my 
district, Sherman Indian High School. It has been a tradition 
in my region for some time. I was visiting there not too long 
ago, and, as with all the schools, they are having difficulty 
meeting their maintenance budgets, operation and maintenance 
costs because of the budget challenges that we are having. And 
so my questions are going toward maybe some out-of-the-box 
thinking about how we can get some additional revenue to the 
schools so they can get caught up on some of their maintenance 
backlog. Part of that is public/private partnerships. Some of 
these schools may have resources at the school that they can 
share in the community, renting their facilities when they are 
not being used for instruction for additional revenue. Possibly 
the land itself can be leased for additional revenue if it does 
not interfere with the ongoing school operations, and hopefully 
those dollars are not fungible in the sense that they are taken 
away from their normal operating budget. They can stay at the 
school, per se, not be put back into the treasury, and these 
schools can go ahead and use these additional dollars to fix 
the school classrooms for instance or buy computers or to do 
the normal day-to-day operational maintenance on those 
facilities.
    Also, charitable giving. You know, there are many public 
and private schools in America, where the staff are actually 
encouraged to go out and get charitable contributions to assist 
with putting together scholarship funds for instance or other 
types of endeavors, that brings additional revenue to the table 
which, quite frankly, right now under these challenges, we are 
just not going to be able to do. And so I just wanted your 
comment, Mr. Secretary, on whether or not we need rule changes 
or regulatory change or possibly legislation if in fact you are 
not able to do that administratively. So would you like to 
answer that?
    Mr. Echo Hawk. Thank you, Congressman. You know, I will 
give a response, and with the Chairman's permission, I will 
have the Acting BIE Director give additional information. But 
first thing I would like to say is with regard to all of your 
questions, I would be happy to sit down with you with my staff 
and work through these things to see what we can do to be 
helpful to that particular institution, and that may generate 
some ideas and it would apply to other schools as well. But I 
would like to do that, but I want to make sure I am staying 
within the parameters of law. I know that we have partnerships 
that are operating in BIE schools right now, so there must be 
some specific ways that we can do that. I am not sure about 
the--I think we can receive charitable gifts, but we have got 
to do it the right way. And so let me just defer to Mr. 
Stevens.
    Mr. Stevens. Sure. Thank you for your question, and I 
remember recently we met at Sherman Indian High School and 
discussed just this very issue, and it revolved around a tribe 
in California that has since confirmed a donation of a large 
sum of money over time. And the research that we have done 
allows something like that to happen, and it will be happening 
very soon, the part about the charitable donation. As far as 
the use of the grounds, the use of the facilities to lease out, 
that was something that we are still looking into. We also are 
looking into using land base for billboard advertisement, 
things like that, to raise funds to help the school and to 
ensure that those funds stay at the school, and that we are 
still exploring. I know there were some challenges when we were 
getting a legal opinion from the Solicitor's Office on how 
exactly that could happen. The good news in this whole story is 
that the money that the tribe is giving is coming forward, and 
it will be used specifically at Sherman Indian High School to 
develop a pathways program that involves not just instructional 
delivery techniques or improvements in those instructional 
delivery but identifying pathways for a specific student in 
what we call science, math, engineering and technology 
programs. And so we are moving forward with that, and we are 
really excited about doing just that.
    Mr. Calvert. And I appreciate that, and I remember meeting 
with the gentlemen at the campus. The reason I bring that up, 
it could be a significant amount of money to help and I suspect 
there are other schools around the country that are in a 
similar plight, though maybe not have the same regional 
advantage that this particular school has to bring in 
significant revenue. But it is an opportunity there, and I 
think it could bring significant revenue to the school. It 
could assist that school in becoming a premiere school that the 
students are proud to attend and make it a win-win situation 
for the students and for the community. So I think we ought to 
look into that, Mr. Chairman, and maybework together to come up 
with a common solution. And I will be happy to meet with you at any 
time to do that, both on the charitable contributions and using these 
facilities for public/private partnerships that obviously has to 
benefit the school. If it does not benefit the school, then do not 
enter into the agreement. Thank you.
    Mr. Moran. Thank you, Mr. Calvert. I think at this point, 
and if the members of the Subcommittee have no objection, the 
vote is taking place, so we could recess until about 3:30 at 
which time we would take up the Office of Special Trustee, and 
we want to thank--Mr. Olver, did you have a quick question you 
wanted to get in to Mr. Echo Hawk before we conclude?

                       DETENTION FACILITY FUNDING

    Mr. Olver. Well, I will try to do this in summary. I am 
looking at this. I first solicited that there was only a little 
under $18 million that went to detention facilities, but I see 
that in the new budget, looking at the budget year by year, 
there was in the '09 budget, $32 million for replacement and 
new construction and for improvement and repair. The one which 
is new facilities and the improvement and repair is sort of 
state of good repair. In the 2010 budget, the appropriation was 
a total of $52 million for those two categories, and suddenly 
the whole program for facilities replacement and new 
construction has been requested as zero for the new one with 
only $4 million, a drop of $50-some million in the detention 
facility account.
    Now, my guess is a good portion of those detention 
facilities from what I have heard at other times and what I 
think you have suggested is that some of those ought to be 
leveled and started again. And I am very worried that this 
budget is going so low on detention facilities, though 
personally I would rather create jobs than detention 
facilities. If those are needed, if the detention facilities 
are absolutely needed, then this is not a direction that we 
ought to be headed in, it seems to me.
    Mr. Moran. Is it a matter of unobligated balances that 
would be able to be spent, available to spend in fiscal year 
2011, or was it just a policy matter?
    Mr. Gidner. My understanding is the decrease in detention 
center financing is because the Department of Justice received 
a large amount of recovery money to build detention centers, 
and a number of those will be coming on line. And we worked 
with them in the grant processes to identify where those 
facilities are going to go.
    Mr. Olver. But I was told that there was only $7 million, 
$7 to $8 million was in detention centers out of the ARRA $300 
million.
    Mr. Gidner. That is in Indian Affairs, but Department of 
Justice had $225 million for detention facilities in the 
Recovery Act.
    Mr. Olver. On the Indian reservations the Department of 
Justice had another $225 million.
    Mr. Gidner. That is----
    Mr. Olver. Well, that is a help. Yes, that is a help in 
understanding how this flows.
    Mr. Moran. I am very glad you asked that question, Mr. 
Olver.
    Mr. Olver. You have no idea how closely that meets toward 
the real need because I suspect those detention facilities are 
in terrible shape.
    Mr. Moran. It does underscore the need to have this 
coordinated meeting of the three subcommittees, and perhaps the 
staff can be prepared to explain that because clearly, if the 
Department of Justice has that substantial investment coming on 
line in terms of detention facilities on Native American lands, 
it would naturally have an effect upon how much needs to be 
included in this budget. So I am glad you pursued that. Thank 
you, Mr. Olver.
    Since there is a vote taking place now, we will recess and 
we will be back at approximately----
    Mr. Dicks. What time is it?
    Mr. Moran. Well, we have got about 4 minutes. Did you have 
a question----
    Mr. Dicks. Well, Mr. Calvert, did you want to----
    Mr. Moran. Well, Mr. Calvert did ask questions.
    Mr. Dicks. I am sorry.
    Mr. Calvert. I said nice things about you.
    Mr. Moran. So at 3:30 we will hear from the Office of 
Special Trustee, and we thank the witnesses. Very good 
testimony. Thank you very much.
    [Recess.]

                  Opening Statement of Chairman Moran

    Mr. Moran. We want to welcome the Principal Deputy Special 
Trustee, Ms. Donna Erwin. We all appreciate the fact that you 
are here today to discuss the budget request for the Office of 
the Special Trustee.
    Before we begin questions, we would like to put the recent 
events in trust reform into context. The Department of the 
Interior has responsibility for the largest land trust in the 
world. The Indian Trust includes 55 million acres, surface 
acres, and 57 million subsurface acres of mineral estates. On 
behalf of individual Indians and tribes, the Department of the 
Interior manages over 100,000 leases for farming, grazing and 
oil and gas production. To address these trust assets, the 
Office of the Special Trustee was established by the American 
Indian Trust Fund Management Reform Act of 1994. OST provides 
department-wide oversight for the reform of the Indian Trust 
management and implementation of new fiduciary and accounting 
systems. In 1996, this country's largest class-action lawsuit 
was filed against the Department of Interior and then-Secretary 
Babbitt. Today we know this lawsuit as Cobell v. Salazar. I am 
sure the Secretary would prefer a different name, but that is 
what he is stuck with. The lawsuit includes over 300,000 
plaintiffs and involves the breach of fiduciary duty to 
individual Indian trust account holders. For the past 14 years, 
this has been a highly contentious lawsuit. Pressure from this 
lawsuit has resulted in some necessary changes throughout the 
Department. From '96 through 2010, the Department has invested 
almost $5 billion in the management, reform and improvement of 
Indian trust programs.
    So with that context in mind, Ms. Erwin, this is a 
particularly interesting time for the Office of Special 
Trustee. Just last December, the Department announced a $3.4 
billion proposed settlement in this litigation. We will have 
some questions for you regarding the settlement, the $25 
million reduction to your proposed budget, and the remaining 
tribal trust claims. But before we get to your testimony, 
perhaps Mr. Simpson may have a statement.

                    Opening Statement of Mr. Simpson

    Mr. Simpson. Thank you, Mr. Chairman, and thank you 
Principal Deputy Special Trustee Erwin. That is a heck of a 
title. Thank you for being with us today to testify.
    Anyone who knows the executive branch will tell you that 
taking on an acting role is no small task because it usually 
means that you are carrying more than one load. No doubt you 
are supported by a team of highly qualified staff. 
Butnevertheless, you have my deepest respects and sympathy.
    Without question, the big news for the Office of the 
Special Trustee is the Cobell settlement. This has been a 
contentious and acrimonious case that has negatively impacted 
the government's relations with Indian country for more than a 
decade. I do not want to jinx the outcome because we still have 
a few more hurdles to jump, but I look forward to the day when 
settlement is finalized and we can close that chapter in 
American history. I will have a few questions about the 
settlement and the fiscal year 2011 budget in general, and I 
look forward to your testimony and our discussion today. Thank 
you for being here.
    Mr. Moran. Thanks, Mr. Simpson. Mr. Cole has been very much 
interested in this issue as well. Did you have anything you 
wanted to add?

                     Opening Statement of Mr. Cole

    Mr. Cole. I thought you were going to ask Mr. Simpson. I 
do, actually, but you might want to correct that to a century 
instead of a decade.
    Mr. Simpson. Yeah, that is true. That is true.
    Mr. Cole. First of all, thank you for the Cobell 
settlement. I really want to commend the Administration on 
this. We have had successive administrations, the Clinton 
Administration, the Bush Administration, that did not sit down 
and bring this to a settlement. The Obama Administration did, 
and they are to be commended for that. And I suspect you are 
going to live through a lot of second-guessing of the details 
and legal fees and all that. But I think it is a fantastic 
achievement, and I told that to Elouise Cobell when I had that 
privilege of meeting her. It is remarkable, and for the role 
you played, again, thank you. It is very significant in Indian 
country.
    Having said that, let me ask you a couple questions about 
that and then one other question.
    Mr. Moran. You know, we have not heard testimony from Ms. 
Erwin----
    Mr. Cole. Oh, I am sorry.
    Mr. Moran. I do the same thing so----
    Mr. Cole. Once again, I just prove I just follow the lead.
    Mr. Moran. So Mr. Cole is clearly brimming with some 
questions but maybe you want to try to answer some of them in 
the testimony, Ms. Erwin. Ms. Erwin, thanks again for being 
here, and please proceed.

       Testimony of Principal Deputy Special Trustee Donna Erwin

    Ms. Erwin. Thank you, Chairman, and members of the 
committee. I appreciate being invited here to testify on our 
2011 budget. I think you mentioned pretty much the things that 
are involved in that. Our request is for $160.2 million, and 
that reflects a $25.8 million reduction below the 2010 enacted. 
And part of that reason is that we have a $25 million reduction 
in the individual Indian accounting area in the Office of 
Historical Trust Accounting. They will continue to perform and 
do litigation support. We still have 95 tribal cases, and that 
involves about 116 tribes.
    So the other decreases that we have, there is about $1.5 
million as a result of us insourcing some records indexing and 
completion of the historical record indexing project. That is 
where we had a lot of records throughout the country that we 
brought in to one central location and did the indexing and 
storage. So that reduction is due to that.
    We have about $1 million as a result of some of our data 
quality and integrity, as we have gone through and continue to 
make sure that the data is correct. That is starting to reduce, 
so as we see the results coming out, we will be reducing that 
budget.
    We have about $110,000 that we are reducing just through 
efficiencies, operation efficiencies, and then we have about 
$332,000 that we are reducing due to the SAVE program and that 
is across the Department and how we are going to be doing those 
things. And that is another efficiency of operations. So that 
is the same thing.
    As you are aware, we were initially tasked and directed to 
have oversight, Office of the Special Trustee. Since that time, 
and that was in the '94 Act, in '96 we then received some 
operational duties. We are doing the receiving, the accounting, 
the investing, disbursing, all of that. Then in 2003, the 
Office of Appraisal Services was moved to the Office of the 
Special Trustee. Then in 2007, the Office of Historical Trust 
Accounting now reports to the Special Trustee.
    One of the things I want to thank the committee for is the 
continued support for Indian trust reform. Without that, we 
would not be where we are today. It is a significant progress, 
and I think without that, we would not have been able to move 
forward with the settlement. So I think it is very important 
that we give you our appreciation for that.
    Several things that we hear particularly from the 
beneficiaries is what have we done to improve and what makes a 
difference.
    Welcome and congratulations, Congressman Dicks. I am sure 
this is sad and exciting for you.
    We now issue quarterly statements to the IIM individuals 
and we issue monthly to the tribes, and that information is so 
much more than they have ever received. It actually tells you 
that you have received this money and where you received it 
from, what piece of land did this come from. They also are able 
to see on their statements, what they own. We actually get 
information from the title plan. When an individual or a tribe 
receives their statement, they know what they own immediately. 
That is a huge enhancement.
    We also, as we have discussed with your staff, use a 
centralized lock box, and that is sometimes confusing. That 
means that all checks, instead of going to 100 different 
locations, are now processed through a post office box. We send 
them to one post office box, they take those by armored car and 
they are deposited every day. They are not scattered across the 
country for people to handle. It is one place, and that has 
really sped up people being able to get their funds, both 
tribes and individuals, much more quickly.
    We balance with Treasury on a daily basis. We reconcile 
with Treasury electronically. We now have centralized systems 
in place.
    We also have two more things, which are the trust officers 
and a toll-free number. We receive approximately 150,000 calls 
at a toll-free call center, something that the beneficiaries--
--
    Mr. Moran. What period of time? 150,000----
    Ms. Erwin. Annually.
    Mr. Moran. Annually?
    Ms. Erwin. Right. And that call center has live people, and 
they are able to answer about 90 percent of the inquiries right 
there and do not have to go back out to the field to ask 
questions. We have also placed about 50 trust officers across 
the country with fiduciary expertise, so that they can save the 
beneficiaries from having to run from one place to the other. 
They can go to one place and get one answer on their fiduciary 
trust. So we feel those have been very important.
    The last two items I want to mention are that we now store 
records. We have heard a lot through the years about the 
records. We now store over 195,000 boxes of records that are 
indexed and we have a partnership with the archives, NARA, to 
be able to store those. That has been a huge improvement.
    And then training. We have heard a lot about training 
through the years, and we have worked with a private sector 
trust firm to come up with certifications for the trust staff, 
all the government or the tribes that are doing fiduciary 
trust. We now have a certification program, and we have about 
125 federal trust people that are certified, and that has been 
a big thing. We have heard, you do not have any people with 
trust experience, and now we have 125 people that are certified 
in trust and we have trained over 4,300 both tribal and Federal 
employees in trust, all the aspects of trust, both processes 
and systems.
    You have my formal statement that has been submitted, and I 
would be happy to answer any questions that you might have.
    [The statement of Donna Erwin follows:]

    [GRAPHIC] [TIFF OMITTED] T7302A.008
    
    [GRAPHIC] [TIFF OMITTED] T7302A.009
    
    [GRAPHIC] [TIFF OMITTED] T7302A.010
    
                           COBELL SETTLEMENT

    Mr. Moran. Thank you very much, Ms. Erwin. This is a 
complicated issue, a very important one, and it needs to be 
settled but it is also a very expensive one.
    I cannot get my mind around how you are going to manage the 
distribution of this. It just seems like a gargantuan task. I 
cannot imagine that BIA really has the resources, the 
capability to do this. I do not know any agency does, even 
Treasury Department. Are you going to contract it out? Is there 
any kind of experience around that you can tap? What is your 
plan to make sure that this is done in a professional way?
    Ms. Erwin. One of the agreements during the negotiations 
and during the settlement is that there will be a claims 
administrator, and as you can imagine, there are a lot of 
class-action lawsuits that have happened across the country, 
some very large ones. There is that expertise across the 
country, and people that do only that. There will be a 
contractor in place that will handle not only the distribution 
but also they will handle being able to get the information out 
to all of the individuals so they know what they can or cannot 
do, what they can opt out of or how do they ask questions.
    Mr. Moran. So you have some reservoir of understanding, 
expertise on this. I see. You are going to have to go through 
the District Court for the--District of Columbia, I understand, 
and will have to take several steps before the settlement can 
be approved. Is that a lengthy process?
    Ms. Erwin. It appears to be somewhat lengthy, but it really 
is not. What we first need to be able to move forward on is the 
legislative approval. After that the court would approve the 
initial settlement, and then from there, the individuals are 
going to have the opportunity to get the information, look at 
the information, ask questions about the information, and then 
there will be a fairness hearing, and that hearing will be in 
front of the court to say, if you feel you have questions or 
you do not understand this, you are able to come forward during 
that hearing.
    Mr. Moran. It is invariable. I guess it is just human 
nature that when there is a big class-action lawsuit like this, 
there are always people who come forward after the fact saying, 
hey, I was supposed to be part of this. How are you going to 
handle that?
    Ms. Erwin. The same claims administrator has a process that 
you will be able to go through and the beneficiary may appeal 
or say ``I think I should be included.'' There is a fund set 
aside for anyone that feels that maybe they were not included.
    Mr. Moran. Assuming they----
    Ms. Erwin. They show----
    Mr. Moran [continuing]. Show legitimacy. Well, thank you. 
Mr. Simpson.

                         HISTORICAL ACCOUNTING

    Mr. Simpson. Thank you, Mr. Chairman. The fiscal year 2011 
budget proposes to eliminate $25 million from the historical 
trust accounting of individual Indian monies accounts as a 
result of the Cobell settlement as you said in your testimony. 
Roughly $27.5 million would remain in the budget for the 
historical accounting of tribal trust fund accounts which are 
the subject of, as you said, 95 current lawsuits filed on 
behalf of approximately 116 tribes.
    Please explain why some of the $25 million should not be 
redirected to assist with the tribal trust fund work load, and 
would increasing the budget for the tribal trust fund 
accounting help to resolve some of these lawsuits more quickly?
    Ms. Erwin. As you know, some of these lawsuits are not 
active and some are very active. What will be happening is that 
the Department, Solicitors, and Justice are working on those, 
and they will be looking at those as we go through them to 
determine what kind of resources we will need and what is the 
priority for settling.
    Mr. Simpson. The question is, could they be settled more 
quickly if some of the money that is being dropped out of the 
budget, $25 million, instead of dropping it out of the budget, 
was redirected toward addressing these issues?
    Ms. Erwin. And I think that probably is a better question 
for the legal counsel, which would be the solicitors and the 
Justice Department. But I am not sure that there would be any--
it would speed things up. It would be something that we would 
have to address to them.
    Mr. Simpson. It is my understanding that the residual 
balances in special deposit accounts amount to roughly $1.5 
million and that we are planning on spending $4 million in the 
fiscal year 2011 to locate the rightful owners and distribute 
the money owed to them, this $1.5 million.
    Please explain the situation and the difficulties 
associated with closing these accounts, and is there an end-
game or is this plan to continue on this track until every last 
penny of the $1.5 million is returned to its rightful owner?
    Ms. Erwin. I am not sure that every last penny will be 
identified. As you pointed out, it gets more difficult. You 
know, you have the low-hanging fruit, the things that were 
easily identifiable, and the special deposit is an old system 
of suspense accounts prior to 2003 and going back quite a way. 
It is getting more difficult, it is getting more expensive to 
do that. We will at some point be addressing Congress saying, 
you know, we have some very small accounts. Is it worth doing 
this? We have to find cost-effectiveness in that project.
    Mr. Simpson. Okay.
    Ms. Erwin. It is excluded from the settlement, so right now 
we still have to address those.

                           COBELL SETTLEMENT

    Mr. Simpson. Okay. In December, the Secretary signed an 
order to establish a five-member secretarial commission on 
Indian trust administration and reform. The commission created 
for an initial 2-year term will make recommendations including 
addressing the issues regarding a performance audit of trust 
systems and controls. The commission's budget does not seem to 
appear in the fiscal year 2011 proposal. How is the commission 
going to be funded?
    Ms. Erwin. You are correct. It appears in the settlement 
agreement, and there is a portion of the settlement, of the $2 
billion, that will be going to a scholarship fund, a portion 
that will be used for Indian land consolidation, and there is 
also a portion for administration and implementation of that. 
In there, that is where the funding is for the commission.
    Mr. Simpson. Okay. And one last question, Mr. Chairman, the 
Cobell settlement includes a $2 billion land consolidation fund 
which supposedly will be administered by Interior using 
existing programs already dedicated to land consolidation. The 
fiscal year 2011 budget does not appear to account for the 
increased workload. For example,appraisal service is 
essentially level funded. Please explain how this fund will be 
administered in fiscal year 2011, how the increased workload will be 
funded, and how many estimated additional FTEs will be required.
    Ms. Erwin. I am not sure that we know how many FTE at this 
point. That is a BIA program in the past, and that program will 
have to be ramped up. It is a large amount of money, but the 
funding for that is in the same line item as the commission. It 
is in the $2 billion, and there is a percentage in there that 
you can use for administrative and implementation. And so that 
is a huge, huge amount of money that needs to be looked at, use 
the expertise, lessons learned from the smaller Indian land 
consolidation program, and then at that point we will be 
addressing how many FTE will be required.
    Mr. Simpson. But that will come out of the settlement 
agreement also?
    Ms. Erwin. It comes out of the settlement fund, the $2 
billion.
    Mr. Simpson. Okay. Thank you.
    Mr. Moran. Thank you, Mr. Simpson. Chairman Dicks.
    Mr. Dicks. Let me ask you, and maybe this was asked, but 
there were 95 other lawsuits brought on this subject. How does 
the Administration intend to handle those?
    Ms. Erwin. As I mentioned earlier, it is something the 
Justice Department and the Solicitor and the Deputy Secretary 
are working with, and so how they plan on handling those will 
be better addressed to them.
    Mr. Dicks. Now as I understand it, the terms of this 
settlement have been extended so that we have a little more 
time here to work on it. Can you tell us about that?
    Ms. Erwin. Yes. There were two things in the extension, one 
was that it was extended to April the 16th, and the other item 
in there is that they extended the time for people that wanted 
to do claims, extended from 60 days to 90 days. So that gave 
some additional time for that process also.
    Mr. Dicks. Is the Administration going to ask for this to 
be funded as an emergency?
    Ms. Erwin. I am a little unclear how we are asking for that 
to be funded. Is that the question?
    Mr. Dicks. In a situation like this, normally this would 
be--Pam can help you.
    Ms. Erwin. I was just going to say, here comes Pam.
    Ms. Haze. So the last we heard, we were waiting for an 
answer from the White House about getting a letter to you all 
that would designate emergency funding for Cobell.
    Mr. Dicks. Okay, so it is under consideration?
    Ms. Haze. Correct.
    Mr. Simpson. What was the total cost of that again?
    Ms. Haze. It was $3.4 billion.
    Mr. Dicks. Okay. And this is much less than was talked 
about originally, right? I mean, we did a lot of assessments on 
this thing, and it was always my opinion that something in this 
range was more realistic. So I hope we can resolve this. I 
think this is a very important issue and I know what a problem 
this has been for the Department of Interior. So hopefully we 
can get this resolved. Who else is left? Mr. Cole.
    Mr. Cole. Thank you, Mr. Chairman. As I said, I am very 
glad you came to settlement. Let me just ask a couple of basic 
questions about that, and then I have one or two other things. 
Why so long in your view? We went through successive 
administrations, which took a long time. The Department's 
position over the years has varied pretty dramatically in terms 
of amount, whether there was a problem, or not. Why do you 
think it took us this long to come to this settlement and what 
finally brought us here?
    Ms. Erwin. Well, I think this Administration was pretty 
dedicated to making sure we received a settlement, and also I 
think as we have done more of the historical trust accounting, 
we have been able to show some actual statistics as to what has 
been found. So I think that combination obviously moves that 
forward.
    Mr. Cole. I remember previous secretaries, though, showing 
us accounting that said that there was essentially nothing 
lost. Is that inaccurate or disingenuous?
    Ms. Erwin. Now that was a loaded question, was it not?
    Mr. Cole. One or the other.
    Ms. Erwin. I think as we moved along, there were certain 
things--it is sort of like we just talked about, the special 
deposit accounts. You get to a point where it is not cost-
effective to find certain documents any longer for less than a 
dollar or a few cents. So I think there is a point in time that 
you come to that you just cannot keep looking for those cents.
    Mr. Cole. Well, is it not true though. I am not asking you 
to undo what you have done, although I would argue that the 
amount is considerably less than ought to have been rendered, 
there is the issue. You can have perfectly accurate documents. 
If somebody is leasing out land or mineral rights and they 
undervalue them and literally say, ``what is worth $100 an acre 
is worth 10'' and they charge you 10 and you pay 10, the 
records look perfectly accurate, but there was massive theft 
that went on. Any account for that type of activity in the 
settlement considerations?
    Ms. Erwin. For things we have seen thus far, we are not 
finding those massive amounts of thefts, but we are looking at 
the accountings and some of the transactions. So that is 
something that probably I could not address.

                         SETTLEMENT LEGAL FEES

    Mr. Cole. I will assure you you will be seeing lawsuits 
about this in the not-too-distant future. I mean I can just 
guarantee it, and I do not think it would be that hard to 
document. But anyway, not to belabor that, but there is a lot 
of concern about this, and I just want to use this opportunity 
maybe to address some of that. What is the structure of the 
legal fees involved here?
    Ms. Erwin. The structure of the legal fees we have not 
received the exact amount on the legal fees. Again, I think the 
Solicitor or Justice would be better able to answer that 
question. But it has not been filed yet to show exactly what 
the legal fees would be.
    Mr. Cole. This may or may not be accurate. It is my 
understanding that it is pretty low. I have heard 3 to 7 
percent. So as these things go, that is a remarkably reasonable 
set of legal fees. If we come in that range, I would be very 
pleased.

                         TRIBAL TRUST LAWSUITS

    We right now have about 100 different Indian tribes, with 
breach of trust suits against the United States. How many of 
those deal specifically with Cobell or the issues raised in 
Cobell? Do they all deal with other issues? I know there are 18 
from my state alone that are involved in various forms of 
litigation.
    Ms. Erwin. Some of these, and I do not know the exact 
number. I would have to get that for you, but some of these are 
asking for accountings, similar to what was asked for in the 
Cobell litigation, and then some of these are everything from 
investments to asking about land.

                           Tribal Trust Cases

    There are currently 95 cases that involve 114 tribes. Of these 
cases, 44 are in Federal District Courts, and these generally represent 
accounting cases. The remaining 51 cases are in the Court of Federal 
Claims, and these generally represent mismanagement cases. However, 
there is often some accounting-related work that is associated with the 
cases in the CFC, so all of the 95 tribal cases could potentially 
involve some sort of accounting work.

    Mr. Cole. So you are going to be very busy for a long time?
    Ms. Erwin. We will be busy for a while.

                      HISTORICAL TRUST ACCOUNTING

    Mr. Cole. Okay. Let me just end with this concern. I would 
really like your comments. One of the things that really 
frustrated me at multiple administrations over the process of 
Cobell was this act of, investigation of the records, 
computations. It went on an awfully long time. Again, I will be 
the first to admit, as an old historian, the state of the 
records were terrible. The state of recordkeeping was terrible. 
The problems that people had in trying to come to a fair 
settlement were real. But I know in Indian country, there is 
also a strong opinion that a lot of this was simply delay 
tactics to sort of push it off to another administration or 
wear out the plaintiffs, and I guess I would want your comment 
on that. I would also just urge you going forward, sometimes 
the pursuit of this precision that probably can never be found, 
it is just better to settle. I had this discussion, before I 
was in Congress with people in the Bush Administration back in 
2000, immediately after the election of 2001, to just settle 
the case. I said, ``You have a remarkable opportunity here 
given what happened before, you can sit down, even though it is 
going to be rough.'' Well, they did not do it. This 
Administration, to its credit, did, and I just think you can 
get way too caught up in these details. It is people's lives 
and assets, and the question is how many generations do you 
want people to wait for something that really should have been 
theirs a long time ago? So what are we doing to make sure that 
that does not happen again?
    Ms. Erwin. Well, I think I mentioned earlier, and my 
background is private-sector trust. I was in banking for 35-
plus years. So as a result, I have friends who are at Bank of 
America and different banks in the large trust departments, and 
they just say we absolutely swamp the size of any trust 
department. And I think as the Chairman mentioned, it is the 
largest land trust in the United States, and very much close to 
the world. And so it is quite complicated when you talk about 
gathering all those records and bringing them to one place. 
That is what the American Indian Records Repository did, and we 
worked in partnership with NARA, to accomplish that. And those 
records now, I invite all of you to please think about coming 
out, not only to see the Albuquerque facility where we are 
doing accounting but to see the records because I think it is 
very important that you see that those records are now in a 
controlled climate, seven stories underground, and we worked 
with NARA and they are indexed and we are able to find them.
    So finding the records, moving them in and actually getting 
them indexed was a large undertaking.
    Mr. Cole. I commend you for doing it. I certainly will take 
you up on your offer--I literally would love to see this and 
understand it a little bit better. Again, last point, a lot of 
tribes have the ability to be much more litigious than they 
have been, and a lot of law firms are much more interested in 
representing them probably than was historically the case. I 
think you are going to see a number of these suits, and I think 
well-grounded suits. I have seen briefs from a number of tribes 
on a whole variety of issues as they think through what they 
are going to do. What I do not want to see is the parties 
caught in litigation that is literally generations long. So 
speeding them up and coming to a settlement is good. Again, 
thank you for your work. I just want to tell the Chairman, when 
that time comes that we are working on this, I look forward to 
working with him and my colleagues on the other side of the 
aisle to make sure that we get this historical obligation of 
the United States taken care of.
    Mr. Moran. Good. Thank you, Mr. Cole. I am stunned that 
they are only talking about 3.5 to 7 percent. If it was one of 
these fancy dancy tort firms, they would be looking for 20 to 
30 percent at least. John Edwards would probably be looking for 
50 percent, no offense to John Edwards and his firm. And if 
this is a non-profit legal defense fund of Native American 
lawyers, then it seems to me that is a particularly low fee, 
and I hope that there is not a whole lot of pushback against 
that because that is very small compensation for as long as 
this has been going on. But I agree with Mr. Cole that we do 
not want to prompt a rash of litigiousness. But this is the 
fundamental one, and this needed to be settled. Mr. Olver. 
Thank you, Mr. Cole.

                   AMERICAN INDIAN RECORDS REPOSITORY

    Mr. Olver. Thank you, Mr. Chairman. You know, I have served 
on the Interior Committee for a number of years now, and I have 
always looked at this settlement issue as one which would never 
be resolved. So I have not paid that close attention to it, and 
to hear that we are moving rather expeditiously toward a fair 
settlement of some of these claims is very gratifying.
    I have not given much thought to it exactly. I do not know 
how to respond to that actually. But let me say, in your 
testimony you, toward the end, indicated that your most 
important goal is better services for beneficiaries, and one of 
these, the last one, is the creation of the American Indian 
Records Repository, AIRR, is that ingathering of records pretty 
well complete? I supposed the ingathering of records goes on, 
as long as anybody finds a record. So to what degree do you 
think that is complete now?
    Ms. Erwin. And I think you made a very good point here, 
Congressman, because it is, as you are creating records every 
day----
    Mr. Olver. This is in Albuquerque?
    Ms. Erwin. No, it is in Lenexa, Kansas. It is very close to 
Haskell, and we take some of the students from Haskell and they 
actually intern at that facility and we do training programs.
    Mr. Olver. What is Haskell?
    Ms. Erwin. Haskell is one of the Indian universities.
    Mr. Olver. Okay.
    Ms. Erwin. And it is just outside of Kansas City. It is 
about seven stories underground in a lime mine, and we work 
with NARA, which is the National Archives, in partnership and 
they store those records----
    Mr. Olver. Did you say a lime----
    Ms. Erwin. Lime. It is an old lime mine.
    Mr. Olver. Lime mine.
    Ms. Erwin. It was originally a lime mine. And so as a 
result, the conditions are perfect for storing these records.So 
we have worked with them. So these records come in and we have gathered 
the records, historical records, throughout the years, and that is what 
that project that we have been doing on the records is about indexing 
them and storing them. Now what we have done is said we do not need the 
contractors any longer, we are going to use our federal workers, and we 
have hired a small staff of federal workers that do the indexing. So 
every day as we create records that we all are holding in our hands, 
every day you are doing accounting. You are going to create more 
records. So those records we are now timely sending over to be stored 
so the----
    Mr. Olver. How many employees do you have doing that job at 
the center?
    Ms. Erwin. At the center we have about 40 people, but doing 
just the indexing, we have approximately 20 people. And those 
20 people, every one in the field now are trained. They have 
been trained on how to handle records, what is a trust record, 
when do you send it in, how do you send it in, how do you index 
it. So they send boxes in, and then this group indexes and 
stores the records on an ongoing basis.
    Mr. Olver. Then the rest of the comment on that point is, 
you speak of the partnership with NARA, and I cannot find it 
anywhere else in here. My Chairman, I am sure, you and the 
Ranking Member know exactly what NARA is, but I do not. What is 
NARA?
    Ms. Erwin. NARA is the National Archives and Records 
Administration.
    Mr. Olver. Oh, so this center is part of the archives, the 
National Archives?
    Ms. Erwin.Yes, it is part. We work with NARA.
    Mr. Olver. Those that my predecessor created in Pittsfield, 
Massachusetts, one of those regional archive centers where 
people can come.
    Ms. Erwin. We have a very unique partnership with them 
because normally you send your records over to the archives. 
They become the property of the archives. We have worked with 
them so that they store our records but they still belong to 
Interior. So we are able to retrieve them.
    Mr. Olver. That is open for individual tribal members from 
all over the country to come in and use, or researchers----
    Ms. Erwin. They can research as long as it is not something 
that is going to invade anyone's privacy. We cannot give out 
the privacy information.
    Mr. Olver. And then lastly, the last comment, the full 
comment here is partnership with NARA and also training at the 
National Indian Training Center, what is the rest of that? What 
is the National Indian Training Center?
    Ms. Erwin. It is the National Indian Programs Training 
Center in Albuquerque. It is adjacent to the Bureau of Indian 
Affairs' regional office there, and we have a training program 
and the funding for that is provided by the Bureau of Indian 
Affairs, Bureau of Indian Education, and OST. And we train 
tribal members, we train all of our staff from across the 
country. We also have the ability to do distance learning out 
of that facility so we do not have to bring----
    Mr. Olver. You mean training in the archives area or what 
training? Training of all sorts? What is this?
    Ms. Erwin. Any type of training on fiduciary trust. We 
train on resource management, we train on records, we train on 
investments, and we train on auditing. We train on all kinds of 
things that have to do with fiduciary trust.
    Mr. Olver. For members of the various recognized tribes?
    Ms. Erwin. If the tribe has a self-governance or self-
determination contract and all of the government employees that 
are involved in fiduciary trust.
    Mr. Olver. Okay. Thank you.
    Mr. Moran. Thank you very much, Mr. Olver. It seems like 
kind of an obvious question, Ms. Erwin. Have you thought about 
computerizing those records instead of having this mammoth cave 
that you will keep all these records?
    Ms. Erwin. There is a combination of the two. We have a 
large imaging undertaking, the historical trust accounting has 
imaged a lot of the records, that we are able to utilize 
without having to pull back down the hard copy records. As we 
move forward, when you see some of the efficiencies, we are 
able to do a lot more things electronically so that we do not 
have to store the hard copy records.
    Mr. Moran. Okay, well, I do not know how expensive that 
would be, but it does seem to me that that is the direction in 
which we want to go.
    Ms. Erwin. Moving forward.
    Mr. Moran. Yes.
    Ms. Erwin. We agree.
    Mr. Moran. I think it would make a lot of sense. There is 
something about the quaintness of where they are being stored 
but you know, it is not cold case. It is time to look into 
computerization. I suspect we would be amenable to your doing 
that.
    It is good testimony, and we appreciate your 
responsiveness.
    Mr. Simpson, did you have anything further?
    Mr. Simpson. No.
    Mr. Moran. Okay. Mr. Olver. Let's conclude this, and again, 
I am sure things are going to start happening quickly. You have 
probably a budgetary nature, and we will work closely together 
and we appreciate your taking the time and the time of all of 
your staff. Thank you, Ms. Erwin. Meeting is adjourned.
    [Questions for the Record for Bureau of Indian Affairs can 
be found on page 639 of this volume.]

[GRAPHIC] [TIFF OMITTED] T7302A.011

[GRAPHIC] [TIFF OMITTED] T7302A.012

[GRAPHIC] [TIFF OMITTED] T7302A.013

[GRAPHIC] [TIFF OMITTED] T7302A.014

[GRAPHIC] [TIFF OMITTED] T7302A.015

[GRAPHIC] [TIFF OMITTED] T7302A.016

[GRAPHIC] [TIFF OMITTED] T7302A.017

[GRAPHIC] [TIFF OMITTED] T7302A.018

[GRAPHIC] [TIFF OMITTED] T7302A.019

[GRAPHIC] [TIFF OMITTED] T7302A.020

[GRAPHIC] [TIFF OMITTED] T7302A.021

                                            Tuesday, March 9, 2010.

NATIONAL SYSTEM OF PUBLIC LANDS; BUREAU OF LAND MANAGEMENT FISCAL YEAR 
                          2011 BUDGET REQUEST

                               WITNESSES

ROBERT ABBEY, DIRECTOR, BUREAU OF LAND MANAGEMENT
MIKE POOL, DEPUTY DIRECTOR, OPERATIONS
KAREN MOURITSEN, BUDGET OFFICER

                  Opening Statement of Chairman Moran

    Mr. Moran. This is the first budget hearing for our new 
director, Bob Abbey. Mr. Abbey is a well-respected career 
individual who came out of retirement to take this job.
    Chairman Dicks, nice to have you on board.
    Mr. Dicks. Mr. Moran, nice to be with you.
    Mr. Moran. Thank you.
    We do respect your expertise and your experience, Mr. 
Abbey, and we thank you for taking on this very challenging 
job.
    The Bureau of Land Management manages more land than any 
other Federal agency, 253 million surface acres. It is more 
than 10 percent of the entire United States of America. BLM 
also manages over 700 million acres of onshore subsurface 
minerals estate. Why do we call it estate? That is just a term 
of art, I guess. But the BLM is also a major contributor to our 
Nation's energy and manages eight of America's ten largest coal 
mines and tens of thousands of oil and gas wells. It is a 
multiple-use agency. In the past it has often been considered 
to be overly friendly to industry, and sometimes during the 
last 8 years there have been charges that it was not careful 
enough about the long-term sustainability of the lands that it 
was responsible for. Managing these lands is a big challenge as 
there are often competing demands from many important 
constituencies.
    BLM also manages the National Landscape Conservation System 
which totals over 27 million acres of special areas, mostly in 
the West. It includes 37 national monuments, conservation 
areas, 16 national historic and scenic trails of over 6,000 
miles, 223 wilderness areas, 545 wilderness study areas, 60 on 
wild and scenic rivers and so on. So we are preaching to the 
choir here, that you know what you manage, but it is important 
to get this on the record, how massive is the responsibility of 
the BLM.
    This does not mean that the other 225 million acres that 
BLM manages, of course, are any less important as critical 
watersheds, as wildlife habitat.
    As the rest of the subcommittee members are arriving, let 
me share with the committee and those in the audience this 
quote from John Muir, because it is quite applicable to the 
Bureau of Land Management.
    ``It is far safer to wander in God's woods than to travel 
on black highways or to stay home. As age comes on, one source 
of enjoyment after another is closed, but nature's sources 
never fail. Like a generous host, she offers her brimming cups 
in endless variety, served in a grand hall, the sky its 
ceiling, the mountains its walls, decorated with glorious 
paintings and enlivened with bands of music ever playing. Fears 
vanish as soon as one is free in the wilderness.''
    That is beautifully poetic, but it really is why we give 
the Bureau of Land Management such responsibility for 
preserving God's gifts to America in terms of our lands that 
need to be conserved.
    So let me now just make a few brief comments on the budget 
request itself and get beyond the poetry into the mundane 
details.
    This is a tight budget for BLM. Although the overall BLM 
request has a slight increase, the operations accounts are 
reduced by $41 million while an additional $16 million in fixed 
costs have not been provided. So they are going to have to be 
absorbed.
    The budget maintains the same operations funding level for 
oil, gas, and coal management programs. There is a plus-up of 
$3 million, for a total of $19 million for renewable energy 
coordination. That is part of Secretary Salazar's new Energy 
Frontier Initiative. There is a $12 million increase for 
operations dealing with the Wild Horse and Burro Management 
program as well as a purchase of land for horse refuge 
somewhere in the central eastern United States. It does 
eliminate the challenge cost-share program that provides 
Department matching funds for habitat improvement and 
recreation access.
    So with that, Mr. Simpson, we would like to hear your 
observations.

                    Opening Statement of Mr. Simpson

    Mr. Simpson. Thank you, Mr. Chairman. That is a beautiful 
quote by John Muir. Apparently he had never been standing in 
front of a stampeding herd of wild horses.
    Mr. Moran. I think he just composed it.
    Mr. Simpson. I was just kidding. I am sorry, I apologize.
    Director Abbey, thank you for being with us today to 
discuss the important work of the BLM. As the largest land 
manager within the Department of the Interior, the BLM has the 
difficult, often imspossible job of managing our public lands 
for multiple use.
    It used to be that the only thing certain in life were 
death and taxes. Now the only thing certain in life are death, 
taxes, and that the BLM will be sued on every decision that 
they make. We all know that many legitimate goals of the BLM 
are undermined by litigation filed by a variety of 
organizations, regardless of merit. Some are justified, some 
are not. In fact, I would suggest some organizations exist 
today primarily to file lawsuits and prevent worthy projects 
from moving forward. Domestic energy projection, grazing, and 
other legitimate efforts on our public lands have been stymied 
as a result. If we could replace the desire to litigate with 
the desire to collaborate, there is no limit to the challenges 
we could overcome and the problems that we could address. 
Energy production is a case in point.
    Last year, our public lands generated 15 percent of our 
country's natural gas and 6 percent of domestic oil. At those 
levels, we haven't even come close to realizing the full energy 
potential of our public lands. Somehow we must find a way to 
overcome the legal and regulatory roadblocks that are 
consistently thrown up in the path leading to our domestic 
energy independence.
    I applaud the administration's emphasis on renewable energy 
sources and recognize the role that solar, wind, and geothermal 
energy will play long term. Today, however, with unemployment 
at nearly 10 percent and imported oil at nearly $81 a barrel, 
we need to do more to unleash the potential available supplies 
of domestic oil and gas.
    I question the wisdom of the administration proposing 
additional fees on onshore and offshore oil producers. If our 
country is ever going to stop its reliance on foreign oil, we 
must do everything possible to encourage energy from every 
possible source, including our public lands.
    Energy is not the only issue on my mind today, though. 
There is the matter of a leaked internal planning document on 
potential monument designations that has caused a great deal of 
concern among my western colleagues, and we couldn't possibly 
see each other again without having a conversation about the 
backlog on grazing permits. And, of course, there is the small 
matter of the sage-grouse that I would like to discuss a little 
bit.
    In closing, I want you to know how much I value the fine 
work of Idaho Director, Tom Dyer, who retired at the end of 
last year. He was like many people in public service today: 
dedicated and faithful to his work, but too often discouraged 
by frivolous, time-consuming litigation that prevents land 
managers from doing their work. Tom served the public trust and 
the people of Idaho well, and he will be greatly missed.
    Thank you again for being here today. I look forward to 
working with you and I look forward to your testimony.
    Mr. Moran. Thank you, Mr. Simpson.
    Chairman Dicks, would you like to make any comments?
    Mr. Dicks. I look forward to Mr. Abbey's testimony.
    Mr. Moran. Very good. Mr. Abbey, you may proceed. Thank 
you.

                   Testimony of Director Robert Abbey

    Mr. Abbey. Thank you, Mr. Chairman, and members of the 
subcommittee. And Congressman Simpson, I echo your statements 
about Tom Dyer. Just an excellent public servant, someone that 
I was fortunate to work with a number of years, and he will be 
missed in that role as State director in Idaho.
    Mr. Chairman, with me this afternoon is Karen Mouritsen, 
who is our budget director for the Bureau of Land Management. 
And also behind me is Mike Pool, who is our deputy director for 
the Bureau of Land Management.
    And I thank each of you for the opportunity to discuss the 
Bureau of Land Management's request for fiscal year 2011. I 
will briefly summarize my prepared testimony and ask that the 
complete statement be part of the record.
    BLM is responsible for protecting the resources and 
managing the uses of our Nation's public lands which are 
located primarily in the 12 Western States, including Alaska. 
These public lands include some of America's most spectacular 
landscapes and important natural resources, and serve as an 
engine of prosperity for our Nation. Energy generated from 
public lands power America's homes and businesses. Minerals and 
timber resources are the building blocks for the products that 
we consume. Grazing helps supply food for our families. And the 
scenery, recreational opportunities, and shared history that 
draws Americans to their public lands also support jobs and 
businesses and communities throughout this country.
    The BLM is doing its part to power America's economic 
recovery and to create jobs here at home. In 2008, BLM managed 
lands and resources contributed over 500,000 total jobs and 
over $60 billion in direct sales, with an estimated total 
impact of over $127 billion on the American economy.
    The BLM's management of public lands and natural resources 
also delivers value on a daily basis to the American public. In 
2011, the public lands will generate an estimated $4.5 billion 
in revenues, mostly from energy development.
    The BLM's budget request for 2011 is $1.1 billion for 
current appropriations, a net increase of $8 million from the 
2010 enacted level.
    I will briefly outline some of our priorities, which 
include our New Energy Frontier, Climate Change Adaptation, 
Treasured Landscapes, and Youth and Natural Resources. I will 
also briefly touch on the Department's Wild Horse and Burro 
strategy.

                          NEW ENERGY FRONTIER

    The BLM is focused on developing renewable energy in an 
expeditious manner that also protects the signature landscapes, 
the wildlife habitats, and cultural resources.
    The budget requests a $3 million increase, which we will 
plan to use to complete environmental studies of potential wind 
and solar energy zones. The budget also has several provisions 
to improve oil and gas management, including a $10 million oil 
and gas inspection and enforcement fee and a $2 million 
increase to improve the BLM's air quality monitoring. To 
encourage diligent development of new oil and gas leases, the 
BLM also is proposing a per-acre fee on nonproducing leases.

                       CLIMATE CHANGE ADAPTATION

    In order to develop strategies that will help native plant 
and animals as well as public land users and local communities 
adapt to climate change, the BLM is working to understand the 
conditions of BLM-managed landscapes on a broader level. The 
budget proposal requests a $2.5 million increase that the BLM 
will use to initiate up to four landscape scales assessments in 
2011 and to develop and implement management strategies for the 
10 eco-regions that we have completed assessments by next year.

                          TREASURED LANDSCAPES

    BLM managed conservation lands are a vibrant array of 
national monuments, national conservation areas, wilderness 
areas, and wild and scenic rivers. The budget request includes 
$37.8 million to fund 20 high-priority line item acquisition 
projects that will give Federal protection to more than 25,000 
acres of land with key natural and cultural resources, and $1.3 
million for management of new wilderness areas designated by 
the Omnibus Public Land Management Act of 2009.

                       YOUTH IN NATURAL RESOURCES

    In 2011, the BLM will continue to support youth programs in 
partnerships through its association with National Fish and 
Wildlife Foundation. BLM will direct $1 million of the 
requested $3 million in pass-through funding to the 
Foundation's youth program.

                     WILD HORSE AND BURRO STRATEGY

    Placing the Wild Horse and Burro program on a sustainable 
track remains one of our highest priorities. BLM's management 
strategy of removing excess animals, offering them for 
adoption, and managing unadopted horses in holding facilities, 
resulted in our spending more than one-half of the 2009 program 
budget on the holding of wild horses. Our new strategy aims to 
slow the wild horse and burro population growth rate to bring 
it into alignment with public adoption demand and calls for the 
creation of wild horse preserves, possibly on the grasslands of 
the Midwest and Eastern United States.
    The budget requests $75 million for the Wild Horse and 
Burro program. A separate request of $42.5 million in the BLM 
land acquisition account is for the purchase of land for a wild 
horse preserve.
    Finally, Mr. Chairman, our budget request represents a 
decrease of $41 million from the 2010 enacted level. A portion 
of this reduction is offset by $10 million in collections from 
the proposed new onshore oil and gas inspection fee.
    Mr. Chairman, members of the subcommittee, thank you for 
the opportunity to testify today. And I will be pleased to 
answer any questions that you might have.
    Mr. Moran. Very good. Thank you very much, Mr. Abbey.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7302A.022
    
    [GRAPHIC] [TIFF OMITTED] T7302A.023
    
    [GRAPHIC] [TIFF OMITTED] T7302A.024
    
    [GRAPHIC] [TIFF OMITTED] T7302A.025
    
    [GRAPHIC] [TIFF OMITTED] T7302A.026
    
    [GRAPHIC] [TIFF OMITTED] T7302A.027
    
    [GRAPHIC] [TIFF OMITTED] T7302A.028
    
    [GRAPHIC] [TIFF OMITTED] T7302A.029
    
    [GRAPHIC] [TIFF OMITTED] T7302A.030
    
    [GRAPHIC] [TIFF OMITTED] T7302A.031
    
    [GRAPHIC] [TIFF OMITTED] T7302A.032
    
    [GRAPHIC] [TIFF OMITTED] T7302A.033
    
    [GRAPHIC] [TIFF OMITTED] T7302A.034
    
                      NATIONAL MONUMENT MEMO LEAK

    Mr. Moran. Let me start out with a couple of questions 
here. It was cited in Mr. Simpson's opening remarks that there 
was an internal Interior document that was leaked. It listed 14 
areas managed by the BLM that could be considered in the future 
as potential national monuments.
    Would you address how serious this memo was, where it fits 
into your budget and planning process? And perhaps address some 
of the anxiety that it caused among Members of Congress?
    Mr. Abbey. I would be happy to. Thank you for the 
opportunity to respond to that question, because it has raised 
anxiety among many of the public land constituency groups and 
stakeholders that we serve every day.
    Let me assure the members of this subcommittee and to 
everyone else that is listening that any major public land 
designation will be done through an open and public process 
that engages the public and Members of Congress. That is a 
commitment that Secretary Ken Salazar has made to Members of 
Congress and that is a commitment that I am making today.
    The information that was conveyed to members of the public 
and to the media was the product of several brainstorming 
sessions that we had internally within the Bureau of Land 
Management looking at areas that we manage that could possibly 
deserve special management attention sometime during the 
future. The use of an Antiquities Act to designate any of those 
parcels of land as national monuments is a tool that certainly 
is available to the administration, as it has been to many of 
other administrations, but it is not one that we have 
recommended.
    Included as part of that document that was leaked to the 
media was a statement, right up front, that said: Prior to 
anyone moving forward with recommending any of these areas for 
national monuments, that there should be further assessment to 
determine public support as well as congressional support.
    So the commitment that I am making to the members of this 
subcommittee today is right in line with the statement that was 
also included in that earlier document.
    Again, I have worked 25 years with the Bureau of Land 
Management in many, many roles. I know how difficult it is to 
build public relations and trusting relationships with public 
land stakeholders. I also know how easy it is for those 
relationships to be adversely affected. I apologize for the 
anxiety that has been caused by the information that has been 
leaked. I don't apologize for the fact that the Bureau of Land 
Management has looked at areas that we manage that some of us 
believe may deserve someday to be considered for special 
management. But, again, at that point in time and when it is 
right for further discussion, we will be sitting here at the 
table with Members of Congress to determine the best approach 
for moving forward.
    Mr. Moran. So it would be extremely premature for anyone to 
act on the basis of this speculative document that is not 
rooted in any kind of budget or short-term, even long-term, 
planning process?
    Mr. Abbey. That is absolutely true, Mr. Chairman. The 
information that was leaked to the media and to other members 
of the public, again, was the product of several brainstorming 
sessions. It does not represent the official position of the 
Bureau of Land Management, and it certainly doesn't represent 
an official position of the Department of Interior.

                          TREASURED LANDSCAPES

    Mr. Dicks. Would you yield, briefly? There has been a lot 
of talk by Secretary Salazar about his Treasured Landscapes 
Initiative. I have been hopeful that we would learn more about 
what this means.
    Could you tell us anything about the Treasured Landscapes 
Initiative? It sounds like a wonderful idea, but I am just 
curious about what it is about.
    Mr. Abbey. Well, again, as was stated by Mr. Chairman in 
some of his opening remarks, those of us who work for the 
Bureau of Land Management, who have the privilege of managing 
the public's assets every day, understand just how significant 
these parcels of land are to public land stakeholders and to 
this great country of the United States.
    As far as the Secretary's Treasured Landscape Initiative, 
it is a recognition that we do manage some tremendous assets on 
behalf of the American public, and that the actions that we 
take each and every day are to make sure that we understand the 
significance of these resources and that the actions that we 
implement are intended to provide the necessary protection for 
those lands.
    As far as treasured landscapes, as you look at the Bureau 
of Land Management--and let me just allude to the public lands 
managed by BLM--We have 27 million acres that are already 
managed under the National Landscape and Conservation system. 
Those lands are including national monuments, they include 
national conservation areas, they include designated wilderness 
as well as wilderness study areas, and wild and scenic rivers 
as well as national trails.
    But over and beyond the 27 million acres that are a part of 
the National Landscape Conservation System, we also manage some 
other tremendous resources. We manage some of the best wildlife 
habitat corridors anywhere in the Western United States. We 
manage some of the most significant cultural and archeological 
resources found on any lands managed by any bureau of the 
Department of Interior. We also manage areas of critical 
environmental concern. All those lands are, at least in my 
opinion, are part of the Secretary's Treasured Landscapes 
Initiative. It is a reflection on the true assets, the true 
values, that are associated with each of those parcels, and an 
understanding and appreciation that every day we need to devote 
the necessary attention to protect those significant resources.
    Mr. Dicks. So in a sense, it is a reappreciation of things 
that we have had out there, but we really think of them in a 
different way, possibly?
    Mr. Abbey. That is true.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Moran. Thanks for the clarification, Mr. Chairman.

                     WILD HORSE AND BURRO STRATEGY

    Mr. Abbey, there continues to be problems with both the 
conditionings of wild horses on the range and in fact the 
watershed condition of the range itself. You are requesting $43 
million to purchase land outside the range of the horses, where 
animals can be held instead of in contract holding facilities.
    I wonder if you would explain to us why you feel this is 
warranted, what your long-term vision for care of wild horses 
and public lands might be, and how we are doing with the idea 
of controlling the population through birth control rather than 
through slaughter or other means. Could you share with us your 
thoughts?
    Mr. Abbey. I would be happy to.
    Under the Secretary's Wild Horse and Burro strategy andwhat 
we have included in our budgetary request, it is a reflection that the 
status quo is unacceptable. That has been recognized by the Government 
Accountability Office. It has certainly been recognized by the Bureau 
of Land Management, and it is certainly recognized by Secretary Ken 
Salazar.
    As we move forward to look at the many challenges that we 
face in managing wild horses and burros to make sure there are 
viable numbers of wild horses and healthy wild horses that 
remain on these public lands, there is still the challenge of 
what do we do with excess numbers of wild horses that exist on 
these public lands.
    When I came into the role of Bureau of Land Management 
Director in August of 2009, one of the first programs that I 
was briefed on was the Wild Horse and Burro program, and 
rightly so, because there are a lot of emotions attached to 
this program. You know, of all the programs that the Bureau of 
Land Management manages and the significance of each and every 
one of those programs, I don't think there is any program that 
we manage that gets the public attention, or certainly the 
scrutiny and certainly the controversy associated with the Wild 
Horse and Burro program.
    When I came on board, we were faced with an estimated 
population of 37,000 wild horses living on public lands within 
herd management areas. That is approximately 10,000 above what 
we have determined to be appropriate management levels. At the 
same time, we had at the time 34,000 horses in holding 
facilities, both short-term and long-term.
    When I said that status quo is unacceptable, I meant that; 
because we cannot continue down the path that we have been 
managing these wild horses for a number of years; and that is 
to continue to round up wild horses, the excess numbers, bring 
them in, put them into holding facilities, and then provide the 
health and care to each of those horses that are going to be 
provided in these holding facilities for the rest of their 
lives. That is irresponsible to the horses and is certainly 
irresponsible to the American taxpayer.
    So we immediately set off on a course of coming up with 
something else that would allow us to refocus our attention 
within the Wild Horse and Burro program, understanding that the 
primary tool that is going to be available to us, that is 
already available to us, to try to control the increases in 
populations for wild horses, is fertility control.
    We are committed as part of our strategy to move forward 
very aggressively to apply fertility control on the wild horse 
herds that remain on public lands.
    Now, that does not mean that we are not going to be moving 
forward with some additional gathers and removals of wild 
horses in some of these herd management areas, especially where 
we are exceeding appropriate management levels by two or three 
or four times the numbers that we have determined that the 
resource can sustain. We are committed to ensuring the health--
that healthy horses remain on public lands in sustainable 
numbers. We again, using our very public planning process, have 
determined that those numbers reflect about a 26,600 figure.
    We will continue down the path of removing horses in excess 
numbers and bringing them in and putting them in holding 
facilities until we can work with Members of Congress to 
provide what we are calling ``horse preserves,'' where we can 
provide a natural environment to place these horses, where 
there is sufficient forage and water to accommodate them for 
the rest of their life. It is an investment that we believe is 
worthy of consideration by the Congress, because by investing 
this amount of money at this point in time, it will allow us to 
create savings that we would not achieve if we maintained 
status quo.
    Those savings would be seen as early as 2019. And I know 
many people will think that is too far into the distance, but 
unfortunately that is the way this program is managed, and that 
is the way that we are going to have to manage it in order to 
achieve the goals of the Wild Horse and Burro Act, at the same 
time being responsible in making sure that the strategy that we 
are implementing is good for the horse, is good for the range, 
and is good for the American taxpayer.
    Mr. Moran. Thanks very much, Mr. Abbey.
    Ranking Member Simpson.

                            ANTIQUITIES ACT

    Mr. Simpson. Thank you, Mr. Chairman. Let me make a 
statement before we start. The problem with the Antiquities 
Act--and I appreciate your statement saying that you will seek 
local input and government input on this. But the problem that 
most Westerners have is that this can be done by executive 
order overnight, and sometimes is done. The first time you hear 
about it is when the executive order is put out. And that is 
not a good way to do it. In fact, I would suggest that in a lot 
of these areas that you suggest may qualify for national 
monument designation it would be good, if you know this in 
advance, to start working with Members of Congress and do it 
legislatively, if possible.
    And in fact, when Secretary Babbitt expanded Craters of the 
Moon by 275,000 acres in my district, he did call me. I credit 
him for this. He called me and worked with me and said what 
they wanted to do. And I asked him at the time, I said, ``You 
know, if this is what you want to do, let me introduce a bill 
and we will do it legislatively, the way it should be done.'' 
And it was toward the end of the Clinton administration. They 
didn't feel that they had time to do that.
    But if you are looking forward, that is really the 
appropriate way to do it and the way to build support for it. 
As you know, I am working on a wilderness bill now. It has 
taken me 8 years to build the public support among Idahoans to 
support this. But when it gets done, I know that the public 
will back it up. And the only way any of these things are 
sustainable is if the public supports them in the long run.
    So if you read the history of the Antiquities Act, when it 
was debated in Congress originally, it was thought that it 
would--in fact, the gentleman that introduced it said that it 
will never be a national monument of more than 5,000 acres. 
That was the most. He couldn't imagine one being 5,000 acres. 
But they were to protect the Southwest tribes'--what do you 
call them--the pots and things that they had found down there 
that were being salvaged by people and stuff. And nobody 
anticipated the Antiquities Act would be used the way it is 
today.
    And while I don't support repeal of the Antiquities Act, 
because there are appropriate times it ought to be used, we 
ought to also understand that it shouldn't be used as a hammer. 
And I appreciate your statement on that, having said that.

                         GRAZING PERMIT BACKLOG

    On to another question, grazing. As you are well aware, the 
grazing program has experienced increased costs due to the very 
significant increase of cost and litigation. As aresult of this 
litigation and the more robust environmental reviews being conducted by 
the Department, the BLM now has an extensive backlog of renewing 
grazing permits.
    Last year's Interior bill directed an additional $1 million 
to begin addressing the grazing backlog this year, and I have 
heard from a variety of sources that BLM had requested $11 
million in its fiscal year 2011 budget to address that backlog, 
but OMB apparently rejected that request.
    Can you provide me a record of the backlog, whether it 
exists? And what I would really like to know, because we look 
at the President's request as a suggestion--ultimately, we have 
to write the appropriation bill. And there will be many areas 
where we agree with him, some we don't. If this committee 
decides that grazing backlog is an issue that needs to be 
addressed, what I would like to know is what would it take 
over, say, a 5-year period of increased appropriations, to 
address the backlog that currently exists in the grazing 
permits?
    If we had that, then the committee would at least have some 
target that we could look at that we thought was a priority. I 
am not suggesting to undermine the budget that is being 
proposed by the administration, but what we need to know from 
the BLM is if we decide to shift things around based on our 
priorities, what it will take over, say, a 5-year period to 
address that. But could you address the backlog?
    And while you are addressing that, what is the sage-grouse 
decision going to do in terms of increasing that backlog on 
grazing permits? Will it increase the backlog because of the 
increased consultation on sage-grouse? Or will there be 
increased consultation? Or how are you going to address that 
issue?
    Mr. Abbey. Well, let me address the sage-grouse question 
first. We have been incorporating sage-grouse stipulations as 
part of our review of grazing permits for the last 10 years.
    There has been a lot going on on public lands in 
preparation for trying to demonstrate progress toward improving 
the overall sage-grouse habitat, and therefore we have taken 
our role very seriously since the Bureau of Land Management is 
the primary manager of sage-grouse habitat. We know that the 
future of the sage-grouse itself, whether it ends up being 
listed as an endangered species, will in many respects be based 
upon the actions that we take from this point forward.
    We have a lot of partnerships in place. We can demonstrate 
that we have had some successes in improving sage-grouse 
habitat in some parts of the Western United States. We continue 
to apply best management practices across the board so that we 
can be able to demonstrate to those that are going to be 
monitoring our actions that we are seeing improvements. And 
hopefully at the end of the day, or whenever the Fish and 
Wildlife Service reconsiders whether or not the sage-grouse 
should be listed, they will be able to see that progress has 
been made and that there will not be a good reason to go 
forward with listing the sage-grouse as an endangered species.
    Mr. Simpson. Is grazing one of the issues in destruction of 
sage-grouse habitat?
    Mr. Abbey. Poor grazing practices can impact sage-grouse 
habitat, especially in some of the core areas. But there are a 
lot of factors that affect sage-grouse habitat. You know, 
wildland fire, and the numbers of wildfires that we have had in 
the Great Basin over the past several years and the vastness of 
those fires.
    Mr. Simpson. As I understand it, normal grazing practices 
that are done appropriately are not destructive of----
    Mr. Abbey. They are not a major factor in impacting the 
sage-grouse habitat. And like I said, Congressman, we have been 
incorporating sage-grouse stipulations into our grazing permits 
the last several years. So I don't see business changing for 
many of the livestock operators. If we have poor performance, 
then we will deal with poor performance so that, again, we can 
meet our goals of demonstrating improvement.
    So moving to your first question. As we move forward with 
the proposed budget from 2011, if we get what we are 
requesting, in 2011 we anticipate having a backlog of around 
5,200 grazing permits. We are averaging around 2,200-2,300 
permit renewals each year. So even with the increase--and I 
want to thank the members of this subcommittee for supporting 
an increase in our range program this year. If we continue down 
the path of the amount of money that we are requesting for 
2011, we will continue to have a backlog. We are continuing to 
make inroads into that backlog, but we also are challenged by 
the continuing litigation that we must address, and make sure 
that any action that we take on these permit renewals can 
withstand the scrutiny that is sure to come.
    Mr. Simpson. I appreciate that. And I do want to work with 
you trying to address this, because I know it is an issue both 
for the BLM and for the grazers out there that want to do their 
work and graze their cattle and have some certainty in it. So 
we want to work with you as a committee.
    Mr. Abbey. Thank you.
    Mr. Moran. Thank you, Mr. Simpson. Chairman Dicks.

                              SAGE-GROUSE

    Mr. Dicks. Are there good examples of habitat restoration 
efforts for the sage-grouse?
    Mr. Abbey. We have several examples, and I would be happy 
to share specific ones with you, you know, after this hearing. 
Unless--Karen has a list in front of you.
    Mr. Dicks. Just tell me what you would do. Would you grow 
more sagebrush?
    Mr. Abbey. We do. Again, we place a high priority on trying 
to protect existing sagebrush. As we go forward and 
rehabilitate or restore public lands, that we also include as 
part of the seeding sufficient sagebrush seeds so that we can 
continue to maintain a sagebrush step ecosystem that is so 
conducive to the health of the sage-grouse.
    As we look at the sage-grouse issue and the actions that we 
are taking, I have already mentioned that we have some 
excellent and outstanding partnerships in place throughout the 
areas. We have incorporated new actions in the State of Wyoming 
in partnership with the State of Wyoming.
    Mr. Dicks. I understand they are a leader. That is somewhat 
surprising to us, but they are really helping on this.
    Mr. Abbey. That is about where----
    Mr. Moran. No offense to Wyoming.
    Mr. Dicks. There is nobody from Wyoming here.
    Mr. Abbey. That is where half the sage-grouse population 
lives. And, therefore, they understand.
    Mr. Dicks. They have a big stake in this.
    Mr. Abbey. Exactly. They have an outstanding stake in all 
this. And they have assumed a leadership role, and we are 
learning from their best management practices.
    As we go forward and we identify the sage-grouse core 
areas, one of the actions that we will take to the degree that 
we can is to avoid those core areas. Those areas where it is 
important for mating, where we have significant populations, we 
would avoid those core areas to the degree that we can. If we 
have a proposed action or we have an existing action within 
those core areas, then we will do our best to mitigate those.
    Mr. Dicks. Has anyone ever thought of using, under the 
Endangered Species Act, a habitat conservation plan which would 
work to try to protect critical habitat for these sage-grouse?
    Mr. Abbey. We do. And we are moving forward aggressively 
throughout the Western United States in putting together such 
habitat conservation plans, again in partnership with many 
others.

                     WILD HORSE AND BURRO STRATEGY

    Mr. Dicks. Let me ask you again, going back on the wild 
burro issue. This is a vexing issue for our committee and for 
the Congress. Let me ask you this question. The BLM recently 
conducted a large gather. I assume that means a roundup?
    Mr. Abbey. Yes.
    Mr. Dicks. Of wild horses in Nevada, during which a number 
of animals perished. Please justify why you are still 
conducting these gathers. Is there a more humane way to deal 
with the horse populations? Is the BLM restricting the land 
available for wild horses so that horse herds are unable to 
find forage?
    Mr. Abbey. Well, there are several questions there. Let me 
try my best to address each.
    Mr. Dicks. And if you forget one, I will remind you.
    Mr. Abbey. I am sure you will. You know, this is not an 
easy program for the Bureau of Land Management.
    Mr. Dicks. No. You have to deal with this every day. I 
understand that.
    Mr. Abbey. But the key, Congressman Dicks, is that as we 
move forward, we are working under our multiple-use mandate. We 
manage these public lands for many purposes, in addition to 
ensuring that we are going to have viable numbers and healthy 
herds of wild horses remaining in these herd management areas.
    The roundup that you referred to is what we call the 
``Calico roundup,'' which is a roundup that included five herd 
management areas within northern Nevada. That particular herd 
was three to four times above what we had determined through 
our public planning process as appropriate management levels. 
So it was three or four times above what we believed the range 
could sustain.
    Mr. Dicks. So it was not sustainable.
    Mr. Abbey. Not over the long term. As we went through and 
began gathering the horses and removing the horses to bring the 
numbers down to the 600 to 900 level, which has been determined 
to be the appropriate management levels, we ended up removing 
approximately 2,000 wild horses during that roundup. Those 
horses were loaded and transported to a holding facility in 
Fallon, Nevada, where we provided the health care to those 
horses that were removed from those public lands. 
Unfortunately, many--or, I say many--some of those horses were 
in such poor condition after being removed from the public 
lands, they died. We also had other horses that did not adapt 
to the change in food.
    Mr. Dicks. In transportation? During the transportation, or 
once they were there?
    Mr. Abbey. In the facility.
    Mr. Dicks. In Nevada.
    Mr. Abbey. In Nevada. We also have a veterinarian report 
that reported on the veterinarian's assessment of why the 
horses died there. Usually, we have less than 1 percent of 
horses die from any of the roundups that we gathered. It is my 
understanding that this time around we had upwards of 50 or 
more horses of the 2,000 that did die in the holding facility 
once they were removed and transported to the holding facility. 
Again, a lot of those deaths are attributed to the poor body 
conditions that those horses were in when they were removed 
from the public lands and transported to the holding 
facilities. And then other horses actually miscarried which, 
again, brought a lot of criticism to the Bureau of Land 
Management for gathering horses so near foaling season. And my 
response to that is that we had planned to move forward with 
the roundup in early December, which was well before foaling 
season which occurs in March and April, for the most part. We 
were stopped from moving forward with our gathering plans 
through a lawsuit that we had to address. We were provided the 
opportunity by the judge to continue with our plans to round up 
the horses there in the Calico complex, and we chose to do so. 
We do not gather our horses during foaling season.
    Mr. Dicks. Now, what about the preserves? You haven't 
identified where they are going to be located, and I don't 
think we know what the cost is of these new preserves. One is 
going to be in the East and one is going to be in the West?
    Mr. Abbey. Well, we haven't determined where they are 
actually going to be located.
    Mr. Dicks. So you are looking?
    Mr. Abbey. We are looking.
    Mr. Dicks. Tell us what your strategy is.
    Mr. Abbey. We would need congressional authorization for us 
to purchase lands, where we would then move horses to and hold 
them in a preserve-type concept.
    The attraction of a preserve is to get them out of a 
contracted holding facility onto lands that are either managed 
or owned by the United States citizens, or owned by partners, 
as we go forward and provide good homes and care for these 
horses over the long term, the horses that are going to be 
removed from public lands. Those preserves would also be open 
to the public for viewing.
    We believe that we could work with local communities on a 
type of tourism to bring people into and visit these icons, 
these American icons in a natural setting, again, as one idea. 
It is an opportunity for us to get out from under these long-
term contracts, or these contracts that are costing us a small 
fortune to hold horses; moving from a contract-type facility to 
a facility that would be owned and managed by the Bureau of 
Land Management or by our partners.
    Mr. Dicks. Thank you. Thank you, Mr. Chairman.
    Mr. Moran. Thank you, Mr. Chairman.

                      FEE ON NON-PRODUCING LEASES

    Mr. Cole.
    Mr. Cole. Thank you. I want to focus on the subject of 
energy development on public lands, particularly this idea 
that, the administration is proposing an initiative to 
encourage--well, to actually charge a fee on ``nonproducing oil 
and gas leases.''
    Could you tell me a little bit about that, and could you 
tell me in your answer is the aim to encourage production or 
discourage production?
    Mr. Abbey. The aim is to encourage production. Congressman 
Cole, as you probably have seen from the statistics that we 
have shared with many others, right now it is my understanding 
that the Bureau of Land Management has leased about 45 million 
acres of public lands for oil and gas. Of that 45 million, we 
believe that there are around 13 million that are being 
produced today. So what we would like to do--and we continue to 
get requests to lease more and more of the public lands as far 
as the acres to increase the number of acres that are under 
lease by oil and gas companies--what we hope to accomplish, is 
encourage companies to be more diligent in developing their 
leases by proposing this fee, with an incentive to move forward 
once they have their lease and once they have an application 
for permit to drill that has been issued by Bureau of Land 
Management, that they actually go out and drill and produce.
    Mr. Cole. Do you have any evidence that companies are 
deliberately sitting on leases? The purpose of oil and gas 
companies is to produce oil and gas. So do you have reason to 
believe that they are deliberately holding, tying up land, as 
opposed to producing on it?
    Mr. Abbey. We have reason to believe that certainly the 
market drives the proposed actions on the part of the oil and 
gas industry. By that, I mean the number of applications for 
permit to drill. You would see that vary based upon the market 
conditions. If oil and gas is high in the market, then you 
would see a significant number of applications for permit to 
drill being submitted to the Bureau of Land Management. When 
the market is lower, you don't see a significant number of 
applications for permit to drill.
    Mr. Cole. I would suggest that the companies are operating 
by economic incentives that the marketplace already produces. 
What worries me here is I think you are going to have a lot of 
companies--because they do operate on those economic 
incentives--say, ``Look, I am not going to automatically agree 
to produce in a certain time frame when I don't know what the 
price is going to be.'' And you may well have a lot of land 
that is currently leased and that you have leased income from, 
ceasing to be leased.
    In the private sector in our State it is certainly not 
uncommon for a lot more land to be leased than be explored. 
Just because land is leased, frankly, doesn't mean it is 
economically viable or could be economically viable at one 
price but not at another. But from a producer's standpoint, you 
are going to get a lot of people who say, ``How in the world am 
I going to know this and operate this? What if oil prices 
collapse?'' Which is not uncommon. I mean, they are high today, 
but they are barely half of what they were in the summer of 
2008.
    So what would have been a productive lease in the summer of 
2008, worthy of investment, would not necessarily be one 
sitting here in the spring of 2010.
    Mr. Abbey. I mean, that is true. I think as we move forward 
with our proposed budget request, we are asking for a $4 per 
acre fee that would be an incentive for oil companies to move 
forward aggressively, and certainly more timely, in applying 
for the necessary permits so that they could drill for that oil 
and gas resource.
    I think one of the dilemmas that we face, one of the 
challenges that we face, Congressman Cole, is, again, that we 
have over 45 million acres already leased, and we continue to 
have more and more demands from many of the companies to 
continue to lease more and more of these public lands. And 
there are sound business reasons to do so.
    Mr. Cole. Again, I can just assure you that in the private 
sector there is probably--I don't know this, but I would 
speculate it is probably a pretty comparable proportion of 
leased land that is not, ``in production.'' That is not 
unusual.
    Just because you do a lease doesn't mean you are going to 
produce, let alone produce in an immediate time frame. I think 
you may be walking into a difficult situation.
    I already know of one major energy company (actually the 
second largest producer of natural gas in the United States) 
that will not lease on Federal lands because they think the 
conditions are so onerous. Now they will just go someplace 
else. You may end up with a significant natural resource that 
has income producing potential for the Federal Government and 
would move us toward energy independence, literally not going 
in the marketplace.
    If you can do it on private land more cheaply and more 
reasonably without these kind of constraints, why in the world 
would you come onto public land? And I think that is happening. 
I really do.
    I understand the intent here, but again I think part of the 
reasoning behind this kind of thinking, too, is the idea that 
somehow a lease is ``nonproducing'' if you are getting revenue 
off of it but they are not drilling, you are still making 
money. They are not leasing--they are writing a check to the 
Federal Government when they lose money.
    So I would just ask you to think long and hard about that, 
and sit down and talk to some of the producers that you want to 
attract into these kinds of lands, because I thinkyou are 
really moving in a very dangerous direction here that is going to cost 
the Federal Government money and reduce the supplies of available oil 
and gas domestically in the United States.
    Mr. Abbey. I appreciate those comments.

                            INSPECTION FEES

    Mr. Cole. Let me ask you one other question. I noticed 
there were inspection fees on the--new proposed inspection fees 
for onshore oil and gas. Could you explain what those are and 
what the purpose is?
    Mr. Abbey. Well, it is to offset the $10 million reduction 
in our budgetary request for oil and gas. So it would be an 
offset.
    Mr. Cole. So essentially it is a tax on the energy 
industry.
    Mr. Abbey. Call it what you may. We call it an offset.
    Mr. Cole. Well, it is a tax if you are paying it.
    Mr. Abbey. But the key, again, is to continue the emphasis 
that we have. And certainly this is something that we receive a 
lot of support from the industry itself on the necessary 
inspections and enforcement of activities.
    Mr. Cole. It may well be. And I am not necessarily against 
it, but that fee will then be added into the price of gasoline 
and product. Basically that is going to be a pass-through to 
the consumers. So effectively here you are not taxing the oil 
companies, you are taxing the consumer. Fair enough?
    Mr. Abbey. I will take those comments to heart.
    Mr. Cole. Well, you will see them at the pump, I can assure 
you.
    Thank you very much, Mr. Chairman. I will yield back.
    Mr. Moran. Thank you, Mr. Cole.
    There may be another point of view that these natural 
resources are not going away, and it might be a good idea to 
preserve some of them for future generations. I understand that 
we want to reduce the cost of energy as much as we can and be 
as energy-independent, but on the other hand, it is not 
something that we are going to lose if we don't use it, and 
subsequent generations will be faced with a substantial squeeze 
on sources of energy themselves.
    So I just offer that there are other points of view in 
terms of the use of these natural resources. But Mr. Abbey is 
the----
    Mr. Cole. Mr. Chairman, if I may.
    Mr. Moran. Sure. Go ahead.
    Mr. Cole. You are kind to let me, just as a quick response. 
If that is the purpose, fair enough. But that is not the stated 
purpose. The stated purpose is you are trying to encourage 
development. It has got to be one or the other, at least if we 
are going to be honest in our public debate and dialogue. Your 
point may well be a perfectly legitimate point: We are going to 
withhold resources from the market. And if you do that, you are 
going to affect price in the market again.
    Mr. Moran. We won't get into an argument now. I just offer 
to make----
    Mr. Cole. Yes, sir. I never argue with the Chairman.

                 AMERICAN RECOVERY AND REINVESTMENT ACT

    Mr. Moran. Mr. Abbey, I am going to have to leave in a 
couple of minutes. Chairman Dicks is going to take over. But I 
did want to ask you about the $125 million in the Management of 
Lands and Resources appropriation that was included; actually 
that not only did you get the $125, but another $180, so we are 
talking $305 million total in the American Recovery and 
Reinvestment Act, so-called stimulus; $180 of that was in the 
Construction account.
    Could you tell us how you decided to allocate that money, 
and how much has been spent? And I know we have experienced a 
very slow rate of spending in some areas. I think much of that 
is to make sure that the money is spent in a way that is fully 
accountable, but you may want to address that. And how many 
jobs have been created or saved with that money?
    Mr. Abbey. I would be happy to address some of your 
questions. And with your okay, I would also like to have Karen 
share some information that she may have.
    Of the $305 million that have been appropriated to the 
Bureau of Land Management, about $41.5 million is being used 
for construction projects. These are primarily to address our 
backlog in construction and maintenance. We also have $41 
million that has been expended or will be expended to expedite 
environmental reviews for renewable energy development. That is 
a really great opportunity for us to expedite our increase in 
renewable energy as part of our Nation's national energy 
portfolio.
    The money has really been welcomed by an agency like the 
Bureau of Land Management who has struggled for a number of 
years from not having sufficient funds to do many of the things 
that we have wanted to do for these years.
    I have to admit that the Bureau of Land Management, as have 
other agencies, struggled to take the actions necessary in 
order to get our projects up, get the contracts awarded, so 
that the moneys could be spent quickly. And by that, I mean 
putting people back to work. We are and have made some 
significant progress over the course of the last couple of 
months. I am pleased to report to the members of this 
subcommittee that by March 31, we will have met all of our 
second quarter goals of obligating the funds from this 
particular funding source. So we have caught up to where we 
should be as far as our proposed expenditures of these funds.
    We are moving forward, addressing some of our highest 
priority needs as a result of this funding being made 
available, and we are committed to helping this Nation to put 
people back to work.
    I don't have a specific number as far as the number of 
jobs. Karen, if you have anything else you would like to share.
    Ms. Mouritsen. Well, it was about 348 jobs through the end 
of January, based on what the contractors have reported through 
the government database. We can't verify that, and we actually 
think maybe they have created more jobs. But that was the 
number in there as to the end of January, and we are going to 
take care of about 16 percent of our deferred maintenance 
backlog.
    Mr. Moran. I need to go on a mission for the Chairman here. 
So, Mr. Chairman, the gavel is yours. Wish me luck.
    Mr. Dicks [presiding]. I wish you luck. Don't come back. 
That was a joke, of course. Mr. Simpson.
    Mr. Simpson. You are going to address 16 percent of your 
backlog maintenance with the ARRA funding? Is that why the 
construction request is down in the fiscal year 2011 budget?
    Ms. Mouritsen. A little bit of that, yes. Balancing the 
needs of the budget in this 2011 budget, we are taking care of 
a big chunk of the deferred maintenance backlog with the 
Recovery funding.
    Mr. Simpson. So will the decrease in construction--we are 
decreasing it by 16 percent with the ARRA funding. Weare 
reducing the construction budget in the future for next year. Is that 
backlog maintenance going to go back up now because we haven't got 
sufficient funds in the construction budget, in the regular 
construction budget for 2011?
    Mr. Abbey. We will continue to have a backlog, but they 
shouldn't be going up. We will continue to seek additional 
funds as appropriate in the future to address our construction 
maintenance needs.
    As far as the construction funds for 2011, at least our 
request, I think we are asking for $5 million less in 
construction than what we had in this year.
    Mr. Simpson. You only had $8 million this year.
    Mr. Abbey. Three million dollars of that is because we are 
making good progress in using the Recovery Act funds to do 
construction projects that would normally have come out of the 
construction budget. The other $2 million of that $5 million 
decrease is attributed to a one-time funding of the California 
Trails Center, which we completed.

                             GENERAL BUDGET

    Mr. Simpson. Let me ask another thing about looking at your 
budget justifications. I see that the management of lands and 
resources see a $36 million decrease; land acquisition sees a 
$54 million increase; and I suspect $42 million of that is the 
horse park.
    Mr. Abbey. That is true.
    Mr. Simpson. But still, we are seeing a 12--that aside, we 
are going to see a $12 million increase in land acquisition, 
while at the same time seeing a $36 million decrease in land 
management.
    Looking at the increased demand on BLM, things as we talked 
about: the sage-grouse, the backlog in grazing permits, et 
cetera, Is the $36 million in decrease in management 
appropriate? Is that the direction we want to head, while at 
the same time increasing the lands available that we have?
    Mr. Abbey. I think the funding request that we have before 
you today will allow us to do those actions that need to be 
done. It will not allow us to do everything we would like to 
do. As you will hear from any member of any bureau, the entire 
Federal Government faces a difficult budget situation. We are 
trying to do our part to maintain our 2011 spending at the 
2010-enacted levels. In order to accomplish that, the figures 
that you see before us are what we have proposed.
    Mr. Simpson. Well, I would think--and I guess the purpose 
of the question is that at a time when we are having a 
difficult budget, compared to last year when things went up 
substantially, is that the time to be purchasing more land at 
the time that we are reducing the management of the lands we 
currently have, reducing the money for the management of the--
that is the question that comes to my mind.
    Mr. Abbey. Well, I think it is an excellent question. I 
think what we do have is a window of opportunity to move 
forward at this point in time and acquire some land holdings 
within designated wilderness areas or national conservation 
areas that were recently designated through the Omnibus Act of 
2009. We also had kind of a backlog of some of those 
acquisition proposals that would allow us to again consolidate 
land holdings within those designated areas, and so we are 
continuing to pursue that type of goal. And it is a trade off.

                      EQUAL ACCESS TO JUSTICE ACT

    Mr. Simpson. Let me ask about another subject, EAJA, the 
Equal Access to Justice Act. I need to understand that a little 
bit better. When someone sues the BLM and we end up paying the 
attorney's fees for someone that sues, does that come out of 
your budget or does that come out of the Judgment fund at the 
Department of Justice?
    Mr. Abbey. It can come out of either fund. And Karen, if I 
say something wrong, you correct me.
    It is part of the negotiations, it is part of the 
settlement discussion. But a lot of times it will come out of 
the Bureau of Land Management's budget. That would be something 
that would be determined in discussions between the Department 
of Interior and Department of Justice.
    Mr. Simpson. Do you budget for that, or does it just come 
out of the programs that you currently have?
    Mr. Abbey. We would absorb those costs. It would come out 
of the existing budget. We do not plan for litigation. We do 
not certainly plan to lose litigation. Unfortunately that has 
not necessarily been the case. And when we are sued and there 
are settlement discussions or we lose in court, then the 
plaintiffs can go after their legal fees.
    Mr. Simpson. Who decides whether you are going to settle a 
case or not? Is that the Department of Justice or the BLM?
    Mr. Abbey. The Department of Justice has the final say.
    Mr. Simpson. In whether to settle a case or not?
    Mr. Abbey. In litigation.
    Mr. Simpson. Who reviews the appropriateness of the 
submitted claim for legal fees, the hourly rate, et cetera?
    Mr. Abbey. It would be a combination of the Office of the 
Solicitor within the Department of the Interior and the 
Department of Justice.
    Mr. Simpson. There doesn't seem to be a lot of transparency 
in this program in that the public doesn't seem to have access 
to who is getting these fees, what they are charging, et 
cetera, whereas if you are submitting a grazing permit, the 
public gets notice, knows who is getting the grazing permit, 
what they are paying for the grazing permit and everything 
else, yet when these EAJA fees go out to law firms, it doesn't 
seem like the public has access to knowing what they are. And 
I'm not suggesting they are inappropriate or anything else, but 
I just would like to know who they are. Is there a way to get 
for Congress to know who these fees are being paid to?
    Mr. Abbey. You know, when I briefly read about that issue 
in anticipation of the question coming up, it is my 
understanding, Congressman Simpson, that there is a poor 
tracking process on the part of whether it is the Department of 
Agriculture, the Department of the Interior, the Department of 
Justice, that a lot of that information is not tracked, at 
least for a number, for a period of time.
    Again, if it is something that is important to Members of 
this Congress, I am sure that we could certainly implement a 
tracking process so that we can report back on those figures.
    Mr. Simpson. Mr. Chairman, that might be something that is 
appropriate within the appropriation bill when we do it, write 
some language in there. I just think it is something the public 
ought to have a right to know just like the public has a right 
to know who is grazing on public lands and what they are paying 
for it and so forth.

                         LEASING REVIEW PROCESS

    One other question I would like to ask. In mid-February, 
the Idaho delegation sent a letter to the Assistant Secretary 
for Land and Minerals Management, Wilma Lewis, expressing 
concern about a new DOI policy regarding energy and mineral 
development on BLM lands. Our specific concern relates to the 
environmental review process which, until recently, included 
involvement by BLM State offices but is now being centralized 
in Washington, DC.
    Until the end of the Clinton administration, this process 
was facilitated entirely at the State BLM level. My 
understanding is that this new change will result in a new 
approval process including 14 reviews at separate offices under 
DOI and BLM. The procedural requirements of the environmental 
review process is already lengthy and centralizing it in 
Washington will only delay approval of worthy, job producing 
projects.
    What are the benefits of centralizing this in Washington 
and what steps are being taken to make sure that the 
environmental reviews can be done in a timely manner?
    Mr. Abbey. Well, first and foremost, we are not trying to 
centralize the decision making process in Washington, DC.
    What we have reported out on is our intentions to move 
forward with an oil and gas leasing reform package that 
includes some directions to our field offices that as they 
entertain proposals for leasing, that we will assure that we 
apply the necessary energy and focus on reviewing those 
proposals prior to leasing those parcels of land rather than 
going forward with a cursory review or cursory analysis of 
those proposed lease areas, and then put and apply our energies 
in dealing with the aftermath of leasing an area that probably 
should not have been leased in the first place.
    Mr. Dicks. Do you hope to avoid lawsuits by that?
    Mr. Abbey. Let me cite one example: That is our hope. I am 
not naive enough to think that it is going to avoid all the 
lawsuits. In 1998, we had 1 percent of all the leases that we 
had offered up were protested, and that is not too long ago, 
1998, 1 percent. In 2009 we had almost 50 percent of all the 
parcels that we offered for lease protested. What we are trying 
to do with our proposed leasing reforms is to ensure some 
certainty to industry. I know there are some in the industry 
and I know probably Members of Congress who believe that all we 
are doing is putting on additional burdens to the industry 
itself.
    I am here to point out that our commitment is to try to 
reduce our dependency on foreign oil and gas. And the best way 
that I can see doing that is to provide some certainty to the 
industry. So by moving forward with this new policy of trying 
to strengthen and provide a morethorough review of parcels that 
have been nominated both by industry or by the Bureau of Land 
Management is available for leasing, that the decisions that we made to 
move forward and lease those areas will withstand the scrutiny that is 
sure to come from members of the public who are sitting there wondering 
whether or not those areas should have been leased in the first place.
    If we, again, apply our energies up front rather than after 
the fact, then I think we can avoid some of the lawsuits, we 
can certainly avoid some of the protests, and if we have 
litigation, then we can win some of this litigation instead of 
always having to defend and losing.
    Mr. Simpson. I appreciate that, and I did just this last 
weekend I had people at a couple banquets I went to come up to 
me and complain about DOI's new regulations, that they were 
trying to restrict the private users of land whether it is 
grazing or whether it is minerals or whatever. And I said I 
don't think that is what they are trying to do. They are not 
trying to put more regulations on to restrict and make it more 
difficult. What they are trying to do is try to do a better job 
up front so that we can avoid some of the lawsuits that come 
along the way. Short of taking away the public's right to sue, 
I don't know of any other way to address it. Because I do think 
as we have talked about we spend far too much money on 
lawsuits, money that could be better spent on managing the 
public lands and if there is a way to get around that I 
certainly would hope so.
    Mr. Abbey. I certainly appreciate your comments and I also 
want to say too, that our policy is intended to also bring some 
balance back to public land management and in our multiple use 
mission. Not all of the lands that have been leased over the 
course of the last couple of years should have been leased. We 
certainly understand that, and we are trying to make sure that 
there is such a thorough review in place so that those lands 
that are appropriate for leasing will go forward and be leased 
and hopefully developed. Those lands that should not be leased, 
that we won't make the mistake of leasing those and then having 
to deal with that and the aftermath of making those poor 
decisions. The work that we are proposing to take under this 
new leasing reform is to come up with better decisions.
    Mr. Simpson. Thank you.

                       GAO MANAGEMENT CHALLENGES

    Mr. Dicks. Last year, the GAO identified a series of 
management challenges that have the potential for fraud, waste 
and abuse at the BLM and other Interior bureaus. A reoccurring 
theme was the need to strengthen resource protection, 
especially with respect to the operation of oil and gas 
operations on Federal lands. We note that the Department and 
the Bureau has begun substantial policy changes. Please 
highlight some of the main policy and management changes you 
are implementing to respond to the GAO recommendations.
    Mr. Abbey. Well, let me just highlight a few. First and 
foremost we have already talked enough I think about the 
proposed oil and gas leasing reforms which I think will address 
some of those issues. We have also identified a need to provide 
appropriate funding, whether that is from a new proposed 
inspection enforcement fees or through the appropriations 
process to allow us to continue to do the necessary inspections 
and enforcement of the wells that have been developed on these 
public lands.
    And also you know we are working diligently with the 
Minerals Management Service to ensure that there is a good 
accountability for the production that is occurring on these 
public lands so that the American taxpayer is receiving its due 
from the leasing and development of their resources. So there 
is an awful lot that is in place.
    We continue to have a very positive and good working 
relationship with the oil and gas industry. Certainly some 
Members do not necessarily agree with the proposed actions or 
some of the actions that we take, but at the same time, we are 
working for the common good of this country. We do want to 
lessen the dependency on foreign oil and resources, our foreign 
oil and gas and other energy resources. As we move forward to 
make sure that the energy portfolio that we have in place 
includes the appropriate representation of renewable energy at 
the time of continuing to focus on conventional sources.

                            RENEWABLE ENERGY

    Mr. Dicks. Tell us about your renewable energy initiative. 
I notice that the administration wants to do more on solar, 
wind and geothermal. Some of the outside environmental groups 
are worried that we have proper environmental oversight of this 
as well as our traditional sources of energy production.
    Mr. Abbey. And rightly so. We want to be smart from the 
start. That is a term that we use. It is one that we take 
seriously as we go forward and entertain proposals.
    We have a lot of actions taking place right now in public 
lands as far as interest in some of these lands for the 
development of solar, wind, geothermal and biomass. We have a 
significant amount of geothermal resources underlying public 
lands that are managed by the Bureau of Land Management. The 
footprints associated with geothermal are much smaller than the 
footprints associated with solar or wind.
    As we go forward and continue to entertain the leasing of 
appropriate areas for geothermal development, we are also 
entertaining applications for rights-of-way that would, if 
approved, result in commercial scale solar projects being built 
on public lands, as well as wind projects.
    Currently, we have 34 fast track projects, and by fast 
track projects, I mean those projects that are in the process 
that have been proposed by proponents who have also filed for 
grants or loans from the stimulus package. So in order to 
qualify and receive those grants or loans from the stimulus, 
they would have to have their projects underway by December 
2010.
    So as we have received these applications primarily for 
solar, geothermal, wind and transmission, we are moving rapidly 
to address those proposals, do the appropriate analysis and 
reach decisions that will result in some of those projects 
likely being approved, while some of the other projects for 
which we are currently doing the analysis will likely be 
denied, based upon the potential impacts to some key habitat, 
to some potential coastal resources or some other resources 
that are of a sensitive nature.
    Just because we are calling them fast track and because of 
the emphasis that we are placing on them and on renewable 
energy does not necessarily mean that every proposal before us 
will be approved for construction.
    Mr. Dicks. Mr. Cole.

                      FEE ON NON-PRODUCING LEASES

    Mr. Cole. Thank you very much, Mr. Chairman. Go back to 
this oil and gas thing just for a minute. I just wanted to make 
a point, because I, again, I accept what you are trying to do. 
I just think the method might not work very well. In the 
private sector if you want to encourage exploration and 
production you just control the length of the lease because it 
comes back up on the market. And in the private sector, usually 
a 3-year lease, is about what it is. Yours are longer.
    Sometimes what you want to do is limit the length of the 
lease. This thing will come up for bid again, you either are 
going to have to rebid it yourself or a competitor will come 
in. I think, ultimately, you would find it works because it 
seems to work well in the private sector.

                               OIL SHALE

    Second let me ask you on a related issue, and I may be 
wrong about this. It is my understanding that in oil shale 
development, you are limiting now acreage to 640 acres. In the 
past it was 5,000 or so that they can lease or would develop. 
Could you explain the thinking behind that to me if I am 
correct?
    Mr. Abbey. Our focus right now, as far as oil shale, is to 
move forward and entertain proposals for research and 
demonstration, to have a better feel for what are the true 
consequences or impacts associated with oil shale development. 
Right now we really don't know. We have certainly proposals, we 
have, right now under round two of the R&DD process, we have 
received three applications, two in Colorado, one in Utah I 
believe.
    As we go forward and look at the results of the research 
that is taking place on these leased areas, all of us will 
learn quite a bit as far as what are the true repercussions or 
ramifications to moving forward with an oil shale-type process 
or development process.
    We know that there are likely to be some impacts to the 
surface. We are not sure how significant the impacts might be 
to groundwater. By going forward and providing the emphasis on 
the R&DD leases that there is an awful lot of lessons that we 
can learn from the results of the efforts underway today.
    Mr. Cole. Are you comfortable that that is a sufficient 
size to actually encourage people to do it and for you to get a 
good reading? Because again, I respect the need and this is a 
relatively new technology and it is pretty important that we 
get it right.
    Mr. Abbey. We really don't know. Again, as we went forward 
with round two, we did limit the numbers of acres that we 
offered up under our proposal. We did not know what the 
reaction of the industry would be. We actually received four 
applications, but after doing the review three of them survived 
the review. There still seems to be some interest on the part 
of industry to go forward and do the research and help us all 
better understand what the possibilities are for developing 
this oil shale.
    Mr. Cole. I would just ask you to keep us posted. There is 
an big difference between traditional oil and gas and there are 
a lot of reasons why gas leasing is down. Frankly, we are 
finding abundant supply way off public land and that really 
affects what goes on in your domain. Oil is quite another 
matter. We probably are never going to have sufficient supplies 
inside the country, and this is potentially a great resource.

                                LAWSUITS

    Two quick other areas, one, just on the lawsuit, you really 
do have a lot of my sympathy. A lot of people suing you, 
frankly their aim is not to protect this or that particular 
parcel of land, it is just to stop all development on public 
lands. That is the only explanation, in my view, for the 
explosion of lawsuits that you have to deal with, and I commend 
you for trying to put yourself in as strong a position as you 
can be to deal with it, but I don't think you are ever going to 
be able to get out of this boat, but good luck.
    Mr. Abbey. Thank you. I need all the luck I can get 
sometimes.

                   ENERGY DEVELOPMENT ON TRIBAL LANDS

    Mr. Cole. You have a tough job. Last area, and you may not 
be able to answer this off the top of your head but it is one 
again I would like to pursue with some appropriate person in 
the department. I am always concerned with development of 
resources on tribal lands. I think this is a history that is 
not a very happy one in this country where there has been a lot 
of abuses, so being careful is a good thing. But I think there 
is also a lot of foot dragging here, and sometimes where tribes 
are sitting on land that can and should be developed are denied 
the opportunity to do that when private development goes on all 
around them. They basically lose the ability to use an asset, 
that honestly given their location, quite a few of these tribes 
in their desperate situation really need to do.
    So can you tell me what we are doing to expedite the 
ability of tribes to lease and develop what is, in the end, a 
trust relationship, but is their own resource and how do you 
see that moving forward?
    Mr. Abbey. I think you summarized it quite well. We do have 
a trust responsibility to provide the advice, counsel and 
expertise to the tribe that we may have that they may have a 
need for.
    The ultimate decision rests with the tribe on how they 
would like to use their resources. There are tribes who are 
very interested in moving forward and developing their natural 
resources, and some of them are sitting on an awful lot of 
natural resources that can be developed that would bring in 
much-needed revenue to the tribal members but again it is a 
decision that only they can make.
    Mr. Cole. I would just ask, and I will conclude withthis, 
thank you, Mr. Chairman, if you could have somebody contact or we will 
contact you. I would like to sit down and explore this a little more 
and get a better understanding for myself about what the process is and 
what might be done to assist tribes to make appropriate decisions where 
their own resources are concerned. Thank you for your focus on that.

                       CLIMATE CHANGE ADAPTATION

    Mr. Dicks. The budget request includes a $2.5 million 
increase for climate change adaptation. Please tell us exactly 
what you have done with the fiscal year 2010 climate change 
funds.
    Mr. Abbey. Well, Mr. Chairman, we have moved forward this 
year and are conducting six ecoregion assessments, and by that, 
I mean we are compiling existing data and information that has 
relevance to baselining our knowledge of the resources as they 
exist today, and setting in motion the necessary monitoring to 
see what affects the climate change may have on those 
resources. We are also, through the ecoregional assessments, 
determining what are those resources that we really need to be 
focusing our attention on, those relative to land health. How 
do we, what actions can we take to increase resiliency to 
climate change, so that the native plants and the native 
species that exist, the animal species that exist in many of 
these ecoregions, will continue to be able to exist for years 
to come and won't be adversely affected by climate change.
    The efforts that we have underway relative to ecoregional 
assessments are quite in line and supportive of what we are 
doing within the Department of the Interior. All the bureaus 
are working much closer together than ever before to gain a 
better understanding of the effects, the true effects, of 
climate change on the resources and assets that we manage on 
behalf of the American public. The Bureau of Land Management 
and information that we are collecting in 2010 from our 
ecoregional assessments are being shared with the new proposed 
climate science centers that will be managed by the USGS in 
partnership with others.
    Mr. Dicks. Our committee created the Center on Wildlife 
Adaptation and Climate Change.
    Mr. Abbey. I fully understand that, and I think it will pay 
huge dividends so you can take pride in that.
    Mr. Dicks. Thank you. I am glad to hear you were working 
together. There was concern. Mr. Simpson, I know, had concern 
and all of us did.
    Mr. Abbey. You should.
    Mr. Dicks. We are all of a sudden seeing money in every 
budget for climate change work and the question the committee 
had was will there be coordination? Are they going to get 
together, share information and use this money effectively?
    Mr. Abbey. To Secretary Salazar's credit, he pulled all the 
bureau directors together and made sure we understand how we 
are going to move forward and work together, not only with the 
climate science centers, but also with the landscape 
conservation, our conservation cooperatives, that are going to 
be developed across the United States. I forget exactly how 
many are being proposed, but that is under the leadership of 
the U.S. Fish and Wildlife Service but at the same time the 
Bureau of Land Management, the Bureau of Reclamation, the 
National Park Service as well as the USGS and the U.S. Forest 
Service are all going to have a role to play in supporting the 
actions from the landscape cooperatives.
    Mr. Dicks. We had a hearing about 2 years ago on the 
various Federal agencies. I can't remember if we had the Bureau 
of Land Management or not, but we heard from them at that time 
that things like drought, bug infestation, fire season was 
longer, there are even some areas where you could see there is 
a rising sea, maybe in Florida, for example. Point Reyes, they 
had certain issues. So we share this concern, and I would even 
think for the people who are still skeptical, making sure that 
we do good science, and that the science is open to public 
review, should help even those who are critical, who are 
skeptical about the conclusions that we have reached.
    So what is your long-term strategy? And where does this fit 
in with the soil, water and air budget?
    Mr. Abbey. Well, the Soil, Water and Air budget primarily, 
the increase that we are proposing in 2011 will allow us to do 
a better job of creating a model and monitoring for air quality 
issues. As we look in some of the more intensive oil and gas 
areas, the one vulnerability we have in many of the lawsuits 
that are raised is our lack of air quality data.
    We are requesting some additional moneys in 2011 that will 
allow us to continue to augment the monitoring stations that we 
have in place so that we can report back to all interested 
parties the effects of being derived from our actions and 
approvals of the authorizations that we are getting for a 
variety of purposes on public lands.

                          CARBON SEQUESTRATION

    So far as the other aspect of Soil, Water and Air, I think 
we all understand, too, that the public lands that are managed 
by the Bureau of Land Management have a significant role in 
carbon sequestration. If we have healthy public lands, healthy 
resources on these public lands, then we can store more carbon 
through biological processes. We are also working very closely 
with the Department of Energy and USGS in doing some further 
testing regarding the potential that we have for geologic 
sequestration of carbon underneath the public lands that are 
managed by the Bureau of Land Management. We believe that there 
is going to be a significant role that the Bureau of Land 
Management can play as far as it relates to climate change.
    Mr. Dicks. Dr. Mark Myers, who I had a great deal of regard 
for, was formerly head of the USGS, one of the things he 
cautioned on this subject was we know a lot about sequestration 
using it in oil and gas fields, but that there hadn't been much 
science done about doing it in other areas. What do you think 
of that?
    Mr. Abbey. I think he is absolutely on the mark and that is 
why we are working with USGS and the Department of Energy so we 
can do that testing so we can have a better understanding of 
what the true impacts might be.
    Mr. Dicks. So we ought to do a few pilot projects 
throughout the country?
    Mr. Abbey. I think we should.
    Mr. Dicks. Because I think carbon sequestration could be a 
huge positive, if we can make it work.
    Mr. Abbey. I agree.
    Mr. Dicks. Mr. Simpson. Mr. Cole.
    Mr. Cole. Just one question, if I may, and I am going to 
take the liberty of reading this if I could.

                           GENERAL MINING LAW

    General mining law of 1872 is one of the major statutes 
directing Federal land management policy. The law grants, as I 
know you know, free access to individuals, corporations to 
prospect for minerals in open public domain lands and allows 
them upon making a discovery to stake or locate a claim or 
deposit. The claim gives the holder the right to develop the 
land.
    That law really hasn't been changed much since 1872, so I 
am curious, are there efforts underway to drastically revise 
the hard rock mining law, do you foresee in the future either 
proposing something or seeing the administration propose 
something? Or are you comfortable with the law as the way, in 
the manner in which it currently operates?
    Mr. Abbey. Well, again, I hesitate to speak for the 
Secretary of the Interior, and I will let him answer that 
himself, but I would say that I think it would certainly be 
beneficial for us to go back and revisit the 1872 law and 
modernize it to the degree that it is necessary.
    We still have a need as a country to develop our natural 
resources. And many of the mineral resources that are 
developed, are located first and foremost and then developed, 
under the mining law.
    We need to be smart about it. We need to make sure there 
are appropriate environmental safeguards that are in place, and 
that those lands being staked and potentially developed for 
mineral resources are the appropriate ones. From my position, I 
do think that it is time, maybe not this year, but certainly in 
the very near future, that we should have conversations with 
Members of Congress to look at the possibilities of at least 
updating that law and bringing it into today's----
    Mr. Cole. If you proceeded in that fashion, I would really 
strongly recommend that this be done slowly and carefully, and 
I say this as a former member of the Resources Committee. I 
recall hearing testimony on a couple occasions, particularly 
where strategic minerals were concerned, where we have a real 
reliance on overseas sources that are in places could be easily 
disrupted. This testimony described that we had quote 
``sufficient quantities'' in the country, but partly because of 
environmental regulation and lawsuits they moved overseas. They 
actually could be developed just as cheaply and reasonably 
here, and frankly, in an environmentally better way than they 
are apt to be in a Third World country without much regulation, 
but that lawsuits and things like that have made it extremely 
difficult and we are pushing some of our companies that do this 
elsewhere.
    So this is just an area that I think, I am really afraid we 
would overreact in, and it is someplace we need to move pretty 
carefully. If you have got some ideas, care to elaborate on 
here, in terms of the directions that you think modernization 
needs to occur, I would love to hear them.
    Mr. Abbey. Well, we would welcome the opportunity to sit 
down with you and share some thoughts along those lines so 
maybe not today but in the future.
    Mr. Cole. We are going to be spending a lot of time 
together. Thank you.
    Mr. Abbey. If I could.
    Mr. Dicks. Go ahead.

                                LAWSUITS

    Mr. Abbey. Let me just say one thing too, because we have 
talked an awful lot about lawsuits. As I have shared with the 
Bureau of Land Management employees, for whom I have the 
highest regard as being some of the most dedicated public 
servants that you find in the Federal Government or in 
government in general, we should not be fearful of lawsuits.
    As we go forward and do the best job we can, we need to 
understand the appropriateness of our action, first and 
foremost, that we also include the best information that is 
available to us, and do the best analysis, and at the end of 
the analysis make the best decisions that we can, and then let 
the chips fall where they may.
    Mr. Cole. If I may, I want to add a qualifier because I 
don't disagree with anything you are saying. Frankly, I 
appreciate that you are moving in a direction to put yourself 
in a defensible position when you make a controversial 
decision, but, if you are really an environmentalist, you think 
globally. And if you push production outside the United States, 
and a lot of areas where again we have a good regulatory 
system, we have dedicated public services, we have a free 
press, we have scrutiny. If companies, because we make it 
impossible to do business here, go someplace else, this stuff 
usually happens someplace else and usually happens worse and 
the consequences for us quite often are becoming more dependent 
on foreign sources when we have abundant sources here.
    So there is a balance to be struck here. And I am not 
saying litigation is the only part of it. But if the production 
then goes someplace else, the environment hasn't been improved 
in a global sense. That is how I understand climate change. The 
main focus, it is a global concern, it is not something we can 
regulate ourselves and we ought to think twice about exporting 
activities outside the United States where it will be less 
environmentally sound when conducted elsewhere.
    Mr. Abbey. Thank you.

                         WESTERN OREGON TIMBER

    Mr. Dicks. Let me ask you this: What is going on with the 
western Oregon Timber and Management plan?
    Mr. Abbey. Prior to my coming on board as the director of 
Bureau of Land Management, the Department looked at the lawsuit 
that had been filed against that planning process and the 
decision that came out of that lawsuit from a Federal judge 
that ruled that there was not appropriate consultation with the 
U.S. Fish and Wildlife Service prior to reaching those 
decisions that came out of that plan. As a result of that, 
Secretary Salazar withdrew the plan, as proposed, and asked me 
when I first came on board to work with then SamHamilton, the 
Director of the U.S. Fish and Wildlife Service to put together----
    Mr. Dicks. Terrible loss.
    Mr. Abbey. Terrible loss--a review team to go in and 
determine first and foremost what type of consultation took 
place, how we could do a better job, how we could continue to 
use the best available information that came out of that plan. 
There is some tremendous data that was generated as part of 
that 3 or 4-year effort to put together that plan. So Sam and I 
designated a team made up of employees from the U.S. Fish and 
Wildlife Service, Bureau of Land Management from the U.S. 
Forest Service, and I believe NOAA, to go forward, to review 
the situation in western Oregon and come back with some 
recommendations that if implemented, could create more of a 
collaborative process where we could hope to bring in the 
various stakeholders around the table so that we could discuss 
the alternatives that are, you know, available to us for 
consideration and then how best to proceed to allow for some 
timber harvest on those areas where the resources lend itself 
for harvesting of timber, at the same time acknowledging that 
there are other sensitive resources out that will need to be 
managed for.
    We have just completed the initial review from the team. We 
are commenting back on their draft report this week. Those 
comments are due actually Monday of next week. Our intentions 
are to complete that report that would contain recommendations 
on how to proceed with future planning in western Oregon, adopt 
those recommendations that we can support, brief the members of 
the Oregon delegation, potentially Washington delegation, on 
what our next steps are, and then put together a strategy of 
that we can pursue and move forward as aggressively as we can 
to put in place a new plan that will guide future actions.

                                BIOMASS

    Mr. Dicks. Now you mentioned biomass as one possible 
alternative energy source. I happen to believe this could be a 
very substantial energy source and that this ought to be 
thoroughly considered. What is your view on that?
    Mr. Abbey. I agree. I think biomass is one of the renewable 
energy sources that we don't make the best use of. We have a 
lot of it. We need to work together with stewardship contracts 
and that means in partnerships with others. We need to make 
sure that there is a market that is reasonable as far as the 
cost of shipping the products to where the market is so that 
they can use biomass.
    Mr. Dicks. That seems to be one of the key factors: how far 
you can go away from a mill and the boiler where you are going 
to use this wood.
    Mr. Abbey. If I could, Mr. Chairman, the other factor that 
comes into place is the sustainability of that biomass resource 
because people are willing to invest in those boilers and 
invest in the technology to put in place a use for that biomass 
but they would like to make sure that over time that biomass 
resource is going to continue to be made available to them.
    Mr. Dicks. And the Federal Government could help there, as 
you know. What is your backlog on thinning or treating the 
forests that you have under your control? The Forest Service is 
80 million acres that need to be treated or thinned. Do you 
have any idea what your backlog is?
    Mr. Abbey. I really don't.
    Mr. Dicks. But I assume it is substantial.
    Mr. Abbey. Well, certainly not as substantial as the Forest 
Service just given the volumes of timber that they manage. We 
do have a backlog. We have a definite need to go forward and 
start managing more proactively the forests that come under our 
jurisdiction. Again, we need to do so smartly. We need to make 
sure that those sensitive resources that exist, primarily 
wildlife, our fisheries, are protected through appropriate 
stipulations, but we do have a need and a desire to go forward 
and thin some of these forests that are quite frankly 
overgrown.
    Mr. Dicks. And sometimes people forget, if you do the 
thinning, first of all, you would have material for your 
biomass, sometimes if it is large enough it can be even 
merchantable or used for chips, but also if you have fires, 
where you have done the thinning, the fires are less intense 
and do less damage to the soil. So to me, it is wrong that we 
just let this thing get worse, and I would like you for the 
record to tell us what your backlog is. But I know what the 
Forest Service backlog is, 80 million acres. (tackling this 
problem) in my view, would create jobs. There is a whole litany 
of positive things that come from this work, but we have just 
neglected it. It is hard for us to take care of it all here, 
because the budget. With a freeze, you have to cut it from 
somewhere else to put it into reducing the backlog.
    Mr. Abbey. I agree wholeheartedly. Appropriate management 
of our forests will result in healthier forests and more 
resilient forests and we wouldn't have the bug infestation that 
we are seeing in some of the areas.
    Mr. Dicks. The other thing is that as the forest is 
regenerating itself, it takes up more carbon dioxide. That is 
one thing that people forget. So the thinning leads to trees 
growing faster and bigger, it takes up more CO<INF>2</INF>.
    Mr. Simpson. Are you suggesting we cut old growth forests?
    Mr. Dicks. I am suggesting that when we have the new 
forests, they are going to take up more carbon dioxide.
    Mr. Simpson. You are absolutely right.
    Mr. Dicks. Any other questions? Okay, thank you, very good 
job.
    Mr. Abbey. Appreciate it. Thank you.

    [GRAPHIC] [TIFF OMITTED] T7302A.035
    
    [GRAPHIC] [TIFF OMITTED] T7302A.036
    
    [GRAPHIC] [TIFF OMITTED] T7302A.037
    
    [GRAPHIC] [TIFF OMITTED] T7302A.038
    
    [GRAPHIC] [TIFF OMITTED] T7302A.039
    
    [GRAPHIC] [TIFF OMITTED] T7302A.040
    
    [GRAPHIC] [TIFF OMITTED] T7302A.041
    
    [GRAPHIC] [TIFF OMITTED] T7302A.042
    
    [GRAPHIC] [TIFF OMITTED] T7302A.043
    
    [GRAPHIC] [TIFF OMITTED] T7302A.044
    
    [GRAPHIC] [TIFF OMITTED] T7302A.045
    
    [GRAPHIC] [TIFF OMITTED] T7302A.046
    
    [GRAPHIC] [TIFF OMITTED] T7302A.047
    
    [GRAPHIC] [TIFF OMITTED] T7302A.048
    
    [GRAPHIC] [TIFF OMITTED] T7302A.049
    
    [GRAPHIC] [TIFF OMITTED] T7302A.050
    
    [GRAPHIC] [TIFF OMITTED] T7302A.051
    
    [GRAPHIC] [TIFF OMITTED] T7302A.052
    
    [GRAPHIC] [TIFF OMITTED] T7302A.053
    
    [GRAPHIC] [TIFF OMITTED] T7302A.054
    
    [GRAPHIC] [TIFF OMITTED] T7302A.055
    
    [GRAPHIC] [TIFF OMITTED] T7302A.056
    
    [GRAPHIC] [TIFF OMITTED] T7302A.057
    
    [GRAPHIC] [TIFF OMITTED] T7302A.058
    
    [GRAPHIC] [TIFF OMITTED] T7302A.059
    
    [GRAPHIC] [TIFF OMITTED] T7302A.060
    
    [GRAPHIC] [TIFF OMITTED] T7302A.061
    
    [GRAPHIC] [TIFF OMITTED] T7302A.062
    
    [GRAPHIC] [TIFF OMITTED] T7302A.063
    
    [GRAPHIC] [TIFF OMITTED] T7302A.064
    
    [GRAPHIC] [TIFF OMITTED] T7302A.065
    
    [GRAPHIC] [TIFF OMITTED] T7302A.066
    
    [GRAPHIC] [TIFF OMITTED] T7302A.067
    
    [GRAPHIC] [TIFF OMITTED] T7302A.068
    
    [GRAPHIC] [TIFF OMITTED] T7302A.069
    
    [GRAPHIC] [TIFF OMITTED] T7302A.070
    
    [GRAPHIC] [TIFF OMITTED] T7302A.071
    
    [GRAPHIC] [TIFF OMITTED] T7302A.072
    
    [GRAPHIC] [TIFF OMITTED] T7302A.073
    
    [GRAPHIC] [TIFF OMITTED] T7302A.074
    
    [GRAPHIC] [TIFF OMITTED] T7302A.075
    
    [GRAPHIC] [TIFF OMITTED] T7302A.076
    
    [GRAPHIC] [TIFF OMITTED] T7302A.077
    
    [GRAPHIC] [TIFF OMITTED] T7302A.078
    
    [GRAPHIC] [TIFF OMITTED] T7302A.079
    
    [GRAPHIC] [TIFF OMITTED] T7302A.080
    
    [GRAPHIC] [TIFF OMITTED] T7302A.081
    
    [GRAPHIC] [TIFF OMITTED] T7302A.082
    
    [GRAPHIC] [TIFF OMITTED] T7302A.083
    
    [GRAPHIC] [TIFF OMITTED] T7302A.084
    
    [GRAPHIC] [TIFF OMITTED] T7302A.085
    
    [GRAPHIC] [TIFF OMITTED] T7302A.086
    
    [GRAPHIC] [TIFF OMITTED] T7302A.087
    
    [GRAPHIC] [TIFF OMITTED] T7302A.088
    
    [GRAPHIC] [TIFF OMITTED] T7302A.089
    
    [GRAPHIC] [TIFF OMITTED] T7302A.090
    
    [GRAPHIC] [TIFF OMITTED] T7302A.091
    
                                           Tuesday, March 16, 2010.

  HEARING ON PRESERVING AMERICA'S CULTURE AND NATIONAL TREASURES: THE 
              NATIONAL PARK SERVICE FY2011 BUDGET REQUEST

                               WITNESSES

JONATHAN JARVIS, DIRECTOR, NATIONAL PARK SERVICE
BRUCE SHEAFFER, COMPTROLLER, NATIONAL PARK SERVICE
DAN WENK, DEPUTY DIRECTOR, NATIONAL PARK SERVICE

                  Opening Statement of Chairman Moran

    Mr. Moran. I give you credit for being here on time along 
with Mr. Cole. Thank you for, Mr. Cole, for being here on time. 
Mr. Jarvis.
    Mr. Jarvis. Chairman.
    Mr. Moran. Nice to see you, and Bruce, it is nice to see 
you.
    Mr. Sheaffer. Mr. Chairman.
    Mr. Moran. We certainly welcome you. This is Mr. Jarvis's 
first hearing before the subcommittee, but it is not your first 
hearing, Mr. Sheaffer.
    Mr. Sheaffer. It is not, Mr. Chairman.
    Mr. Moran. You have had basically a lifetime of appearances 
before this subcommittee, but you have seen that this 
subcommittee has consistently supported the Park Service. I 
suspect we will continue in that consistent support so that not 
only today's visitors but future visitors will have lifetime 
memories as a result.
    Mr. Simpson gets a big kick out of these quotes that I 
offer. ``Short-lived moment of Zen,'' so I will do it again.
    Back in 1875, thousands of tired, nerve-shaken, over-
civilized people are beginning to find out that going to the 
mountains is going home, that wildness is a necessity, and that 
mountain parks and reservations are useful not only as 
fountains of timber and irrigating rivers, but as fountains of 
life.
    So what John Muir understood 135 years ago we are still 
witnessing today, thanks to the National Parks. Visitations are 
on the rise, and, you know, in a difficult economic recession 
this is one of the things that has continually been made 
available to people regardless of their economic condition.
    In 2016, a very short period of time to come, the Park 
Service will celebrate 100 years as the stewards of some of the 
most important lands and national icons in America; 392 park 
units, 23 national scenic and historic trails, and 58 wild and 
scenic rivers. So your responsibilities to these important 
lands and icons are enormous. In addition you are charged with 
preserving cultural and historic sites for future generations. 
Congress likes to help you with that. We will discuss that 
further, but I think we at this point should quickly summarize 
the major components of the 2011, request for the National Park 
Service.
    A total of $2.7 billion, the request is almost $15 million 
less than what was provided last year. I know there is a little 
bit of discrepancy on the 2010 amount, but when funds are 
unobligated, you know, that money is appropriated to have been 
spent, so it is our number that is going to prevail here. The 
2011 request is only half a percent reduction, but within that 
amount you are expected to absorb $32 million in fixed costs 
and realize $17.6 million in management efficiencies, which we 
know is going to be difficult.
    The Operations of the National Parks Accounts does have an 
increase of $35 million. That is part of the President's 
initiative to fully fund the Land and Water Conservation Fund 
by 2014. You have requested a $30 million increase for land 
acquisitions, although you have not requested the personnel 
necessary to properly manage those acquisitions perhaps. But 
these increases do come at the expense of a number of programs 
and projects that are particularly important to this committee 
and the Congress as a whole.
    Your request eliminates both the Save America's Treasures 
and Preserve America Grant Program. This cannot be because 
there was not sufficient interest on the Congress's part. It 
cuts by 50 percent the Heritage Area Partnership Grants. It 
reduces by a third the funds for the Park Partnership Grants, 
and it reduces line item construction by $38 million, even 
though you have billions in construction backlogs. It also 
decreases 73 full-time equivalent positions from last year's 
level.
    We assume that you will absorb the $32 million in fixed 
costs. It is going to make it extraordinarily difficult, 
though, as a result to fill over 400 vacancies. So I assume 
that that is how you are going to deal with absorbing those 
costs. But those vacancies that will not be available next year 
I am sure, and so there will be far fewer vacancies showing.
    Although there is much in your request we are pleased 
about, we clearly have concerns about some of the reductions. 
The subcommittee intends to look closely at all of the requests 
before us to identify, of course, areas of waste and abuse. The 
full committee Chairman is particularly interested in this as 
well. We will have some questions in that area, but we do know 
you are going to help us root out wasteful spending to the 
extent that it exists at the Park Service. Before I ask you to 
begin with your opening statement, Mr. Jarvis, I know we all 
want to hear from Ranking Member, Mr. Simpson.
    So, Mr. Simpson.

                    Opening Statement of Mr. Simpson

    Mr. Simpson. I have to admit it is strange coming from a 
hearing on nuclear waste to one on our National Parks. The 
connection there just does not seem to fit.
    But, Director Jarvis, thank you for being with us today to 
discuss the important work of the National Park Service and 
your priorities for the coming year. Let me begin by thanking 
you and Bruce for your efforts in addressing a number of issues 
over the last years. It was about a year ago that we had our 
first discussions about the large carryover balances in the Rec 
Fee Program. Working together in a collaborative fashion with 
the support of Chairman Dicks, we made tremendous progress in 
developing a workable strategy to better manage this program 
and reduce these balances to an acceptable level.
    I also want to express my thanks to both of you for your 
efforts to address the complex issue relating to the potential 
location of a critical transmission line near the Minidoka 
National Historic Site in Idaho. My understanding is that an 
alternative location has been identified that will minimize 
future impacts and will meet the long-term goals of the Park 
Service, the local power provider, and other affected parties. 
Again, collaboration has been the key to this effort, and I am 
hopeful that we can finalize an agreement through legislation 
this year.
    Your budget request for next year is relatively flat 
overall but makes some bold decisions about winners and losers. 
On the one hand, your request for land acquisition, if 
approved, would represent 144 percent increase over the '09 
level of $64 million. That is a big increase in just 2 years.
    On the other hand, your budget request cuts construction 
funding by $45 million, it terminates the $25 million Save 
America's Treasures Grant Program that was mentioned by the 
Chairman, and like other bureaus of the Department of Interior, 
you are being forced by OMB to absorb increase in fixed costs, 
as was also mentioned by the Chairman. That concerns me.
    I would like to delve into these and many other issues with 
you today and look forward to your testimony. Thank you, Mr. 
Chairman.

                      Testimony of Director Jarvis

    Mr. Moran. Mr. Director of the Park Service, you may 
proceed with your statement.
    Mr. Jarvis. Okay.
    Mr. Moran. Thank you, Mr. Simpson.
    Mr. Jarvis. Thank you. Mr. Chairman and members of the 
subcommittee, I appreciate this opportunity to appear before 
you today to present the National Park Service's fiscal year 
2011 budget, and if I may, I would submit the written testimony 
for the record, and I will just kind of cut to the chase and 
summarize my remarks.
    Mr. Moran. Thank you.
    Mr. Jarvis. As you already indicated, I am accompanied by 
Comptroller Bruce Sheaffer. How many of these have you done 
now, Bruce?
    Mr. Sheaffer. A lot.
    Mr. Jarvis. A lot. And also Deputy Director, Dan Wenk, is 
with me as well.
    We really appreciate the support of Congress in achieving 
our goals as stewards of America's treasures. The National Park 
Service is charged with preserving unimpaired lands and 
historic sites valued for their environmental resources, 
recreation, and scenic worth; cultural and historic 
significance; and their open space.
    I hope all of you have seen the Ken Burns film. If not, I 
can get you a copy. ``The National Parks: America's Best 
Idea.'' I know many of you are fans of this great production. 
It reminded Americans of the courage and vision that created 
the National Park Service in this country. Mr. Burns 
highlighted individuals from Presidents, like Teddy Roosevelt 
to our first National Park Service Director, Stephen Mather, 
but also leaders in Congress and private individuals whose 
strength really was their conviction that these places that 
they loved would be preserved and protected for the enjoyment 
of present and future generations.
    The film also served testament to the National Park 
Service's incomparable workforce, and this is one of my 
priorities as Director. The employees highlighted, like Mount 
Rushmore Superintendent Gerard Baker and Yosemite Ranger 
Sheldon Johnson, showed that for them, their work is far more 
than just a job. It is a mission to carry out and carry on the 
legacy of inspiring future stewards that began nearly 100 years 
ago.
    We are looking forward to our 100th anniversary in 2016, 
and we believe this budget will advance our goals for the 
preservation, interpretation, and restoration of these 
incredible resources.
    The 2011 budget request supports gains made in past years, 
and we really appreciate the support of this committee in 
investing in the National Park System. The budget request 
supports several of the Secretary's goals, including preserving 
treasured landscapes, addressing the challenge of resource 
stewardship that can be and will be made more difficult by 
global climate change, and reaching out and engaging all 
Americans, especially the youth of our Nation, to create a 
personal connection with our National Parks.
    My personal priorities, I mentioned workforce, also include 
relevancy, education, and stewardship. They dovetail precisely 
with the goals of the Secretary, the Administration, and this 
budget.
    The budget proposal includes $2.7 billion for discretionary 
appropriations and a total of $3.1 billion when all sources are 
added together. It is essentially unchanged from fiscal 2010, 
and it reflects, frankly, the difficult budget and economic 
environment that we find ourselves in this country today, and 
the National Park Service is doing its part in that regard.
    It does reflect strategic increases, combined with selected 
program reductions and eliminations made after long, arduous, 
careful and serious deliberations.
    The increases include $51 million for our treasured 
landscapes. The increases would build operational capacity, 
maintain NPS facilities, ensure our organizational capacity and 
professional development, and some of our critical stewardship 
programs, as well as security.
    For instance, there is an investment of $5.8 million that 
will augment our efforts to reach this country's youth and 
instill in them an appreciation of the National Parks. These 
are strategic investments in parks that will be sustained over 
the long term to connect kids to parks. That is being matched 
with $6.4 million in recreational fee revenues, a total of $2 
million over the 2010 level.
    This really does help us achieve both my and the 
Secretary's goal of getting youth into nature, and ultimately 
it could lead to some of these young folks seeking careers in 
conservation, perhaps in the National Park Service.
    You mentioned the Land and Water Conservation Fund. The 
National Park Service works to assist both the state side and 
the federal side of LWCF, and the Administration is committed 
to full funding of LWCF at $900 million by 2014. Towards this 
effort we are requesting an additional $30 million for federal 
land acquisition and state conservation grants for fiscal year 
2011.
    Climate change is really one of our greatest challenges to 
the parks and is one that I have a deep passion for 
understanding and addressing, so I fully support the Department 
of Interior's decision to reemphasize the role of science in 
the federal land management decision-making process. While 
there are no additional funds in the FY 2011 budget for climate 
change, we are sustaining the $10 million that was provided in 
fiscal year 2010, and we will be strategically applying that 
funding to the Departmental initiative to ensure there is no 
duplication.
    All of that is the good news. Now, the downside. Certainly 
everyone in this room is aware of the difficult economic 
challenges that are facing our country right now, so this 
budget reflects some hard choices.
    The $87 million in critical increases are offset by $91 
million in reductions. The proposed budget requests no funding 
for Save America's Treasures, Preserve America, the Challenge 
Cost Share, and the Competitive Sourcing Programs. It 
eliminates 2010 Congressional earmarks for Statutory Assistance 
and proposes reductions in the Construction and Heritage Area 
Programs.
    We are asking all of our partners to tighten their belts, 
but we are doing our part as well. We are looking to realize 
management savings through approximately $18 million in 
reductions in travel, information technology, centralized 
acquisition, and energy efficiencies.
    For instance, energy savings are expected to be achieved 
from the implementation of our American Recovery and 
Reinvestment Act of 2009. On top of that we will also be 
absorbing, as you indicated, $32 million in pay increases and 
fixed costs, primarily in operations.
    The budget underscores cost containment, program 
consolidation, and management efficiencies to meet these fiscal 
realities.
    The National Park Service has made investments in our 
future and put Americans to work using the $750 million in ARRA 
funds, plus $170 million in roadwork provided to the Department 
of Transportation. We want to thank you all for your support. 
This funding is going to be completely obligated by September 
30, 2010, and it is anticipated it will reach about 1,000 
capital investment and deferred maintenance projects in the 
park system, hitting facilities, roads, and a variety of other 
resources. Projects include restoration of roads, abandoned 
mine lands mitigation, renewable energy retrofits in parks as I 
have already mentioned, trail maintenance, and critical 
equipment replacement. The level of ARRA funding was actually a 
critical factor in determining our fiscal 2011 construction 
request.
    Mr. Chairman, in closing, may I say how much we appreciate 
the support you and the members here have provided the National 
Park System in the past. We are excited to work with you to lay 
out the next century of stewardship. That concludes my remarks 
and I am open for questions.
    [The statement of Jonathan Jarvis follows:]

    [GRAPHIC] [TIFF OMITTED] T7302A.092
    
    [GRAPHIC] [TIFF OMITTED] T7302A.093
    
    [GRAPHIC] [TIFF OMITTED] T7302A.094
    
    [GRAPHIC] [TIFF OMITTED] T7302A.095
    
    [GRAPHIC] [TIFF OMITTED] T7302A.096
    
    [GRAPHIC] [TIFF OMITTED] T7302A.097
    
    [GRAPHIC] [TIFF OMITTED] T7302A.098
    
                MANAGEMENT EFFICIENCIES AND FIXED COSTS

    Mr. Moran. Thank you very much, Mr. Jarvis.
    Within your budget it is assumed, as we mentioned, that the 
Park Service will absorb $32 million in fixed costs; cost of 
living, rent increases, and so on, and another $17.6 million in 
management efficiencies. I was a budget officer 40 years ago, 
and you know, I was either directly or marginally involved in 
these things, putting a line item for waste, fraud, and abuse 
or management efficiency. It is a bit of a fudge factor 
oftentimes.
    We would like to kind of pin you down on how you intend to 
realize those efficiencies and how you intend to absorb such a 
large amount of fixed costs. The concern obviously is what 
effect it will have on the Park Service programs and staff. So 
we start with that question.
    Mr. Jarvis. Thank you, Chairman. As you and most of the 
folks in here know, the National Park Service is an 
organization that has a very large workforce. We are very much 
a frontline workforce. Discretionary budgets are provided 
principally at the park level for seasonal operations. So this 
absorption of fixed costs will result in a reduction of 
frontline employees. We estimate somewhere in the neighborhood 
of 400 FTE across the system.
    Now, having said that, fiscal year 2010 was a pretty good 
budget year, and our fixed costs were covered for several years 
in the past. There has been some restoration of our frontline 
operations.
    The second piece is that over the last three or four years 
we have also been working with our park superintendents to 
build a larger discretionary component to their budget and a 
smaller fixed cost ratio so that they can build in some 
flexibility to make it through these periods in which there is 
a reduction in fixed costs.
    We are also emphasizing in this budget where there are 
opportunities for shared resources between parks at the network 
level, and I think that allows us in many cases to continue 
high-quality service to the public in these tight budgetary 
times.
    On the management efficiency side, we are still working on 
the details to be very blunt about it, exactly how this is 
going to be carried forward. Some of it is at the Departmental 
level. We have identified that there can be efficiencies wrung 
from some of our program areas like information technology, 
consolidations of servers, use of video technology rather than 
travel, and so those are the kind of things that we are 
currently focusing on.
    Mr. Moran. That is going to produce $17.6 million?
    Mr. Jarvis. I actually have not seen the details on that 
plan yet. We are awaiting the Departmental guidance on this.

                     SMITHSONIAN FOLKLIFE FESTIVAL

    Mr. Moran. Well, we will wait with bated breath to see the 
specifics as well.
    Mr. Director, we hear from the Smithsonian Institution that 
the Park Service has told them to move all of this year's 
Folklife Festival activities out from under the trees, which 
give them shade. But the Park Service has told them to move all 
those activities, out from under the elm trees to the side, 
onto the gravel walkways where we have thousands of people, of 
course, that walk that area every day and tens of thousands 
sometimes on the weekends.
    This is based on an anticipated implementation of a 50-year 
plan for the Mall. I have some concern that you are making 
these changes a bit prematurely. We might want to take a look 
at the ecological effect on the elm trees and so on. Have you 
considered allowing the Smithsonian to proceed with their 
planned use of the elm tree area for this year's Folklife 
Festival while you work to develop an appropriate, cooperative, 
long-term solution with the Smithsonian for future Folklife 
Festivals?
    Mr. Jarvis. The simple answer to that question is, yes, 
sir.
    Mr. Moran. That is the right answer.
    Mr. Jarvis. As you know, the Mall has had a lot of uses 
over the years and results in a Mall that really does not 
reflect its stature as America's front lawn. The Mall was never 
constructed in such a manner to be used in that manner. The 
Mall is basically a very small layer of topsoil on the top, and 
these kinds of large events do have their impact.
    The Mall Plan that we are doing right now, was released in 
December for public comment. I have reached out to the 
Smithsonian to sit down and talk. We have a meeting scheduled 
very soon to talk about how we can adjust the Festival of 
American Folklife to minimize the impact in terms of length of 
time that it is there, the storage of equipment, how much is 
set on the ground during operations, and all of those things 
are in play right now.
    We have also suggested an independent evaluation of the 
actual effect on the trees so that we can have an independent 
review in terms of what is actually affecting these trees, 
which are a very important asset for everyone.

               NATIONAL MALL--REENGINEERING SOIL AND TURF

    Mr. Moran. Good. Well, the answer yes was a good one, and 
we appreciate that. It saves a lot of back and forth then. 
Thank you, Mr. Jarvis.
    You have requested $16 million this year and a total of $26 
million to reengineer the soil and the irrigation system for 
the grass on the Mall. Now, some have suggested that $26 
million is a high price to reseed the Mall.
    How would you intend to go about this, and of course, 
bearing in mind that you do not want to compromise the public's 
right, really, to assemble on our Nation's front lawns.
    Mr. Jarvis. We are looking to the technology that is used 
in sports fields, where essentially you dig down to a pretty 
deep layer and put in drainage and fabric and irrigation 
systems. You basically create a system that can resist and 
withstand active use and recover quickly. We are not spending 
millions of dollars on just grass seed. Basically, we need to 
reengineer the Mall. We need to put utilities underground so 
that for each event users can be able to just pull the 
utilities right up out of the ground and use them for their 
operations rather than running new materials each time.
    We need to think about the Mall and where the best places 
for these kinds of events to occur are as well as invest in the 
development of those places so that the Mall really can be 
resilient. That has just never been done for the Mall. The 
Mall, as much of Washington, DC is, is made of fill. It was 
never designed for this heavy use and we are going tohave to 
fix it, a piece at a time.
    Mr. Moran. We recognize that this was a swamp that was in-
filled, but I think some of us have some concern that another 
decade or two after this we are going to be faced with the same 
kind of situation. So we will be anxious to see how you intend 
to make those major improvements sustainable.
    At this point let me turn to Mr. Simpson.

                            YOUTH IN NATURE

    Mr. Simpson. Thank you, Mr. Chairman, and following up on 
what the Chairman said, as I told you, most of my constituents 
that come out here, the one thing I hear the first time they 
have been here is their disappointment in the Mall, from the 
beautiful pictures they see to the reality of what is on the 
ground. So what I do not want to do is invest hundreds of 
millions of dollars, not only in appropriated dollars but in 
donated dollars, into something that as the Chairman said, in 
20 years is going to look just like it does today.
    So if that means we have to adjust activities and those 
types of things to go on there and take a good look at how we 
use the Mall, I think we ought to do that, and I know that with 
the Smithsonian and other organizations, that is sometimes 
going to cause a little bit of a heartburn, but sometimes it is 
what has got to be done. So I encourage you to work with them 
and see what can be done, but in the long run make sure that we 
make the National Mall really the Nation's front yard that it 
ought to be.
    You mentioned Ken Burns' film. The other day, I had a 
conversation with someone who, like me, just loved the program 
and watched it a couple of times. I was surprised to hear him 
say he took his, I think it was his 12 or 13-year-old daughter 
and forced her to watch it also, and he said it was ``forced'' 
her to watch it. And then what he said to me is, this film was 
made for adults, and it really was. If I would have been, 14, 
15 years old, I am not sure that is something that would have 
been that exciting to me. I did not think about it at the time 
because I loved watching it, and some people think I am an 
adult.
    But that got me to thinking about how do we get our youth 
involved, and I mean, they are going to be the ones that are 
engaged in making sure that our gems, our jewels, our National 
Parks are maintained in the future, and how do we get them 
involved. So I was interested in your comments about the $5.8 
million and then the $6.4 million from the rec fee that is the 
Youth and Nature Program.
    What exactly are you going to do with that? And I will tell 
you, here is what some people have suggested to me is when, and 
I never realized this until I watched the film, that a lot of 
the advertising for our parks, a lot of promotion activity for 
our parks, came about when they were created by the railroads. 
They were the destination places for a lot of the railroads, so 
in their magazines, their pamphlets, promotional activity, it 
was always, come and see Yellowstone National Park on whatever 
railroad that was, you know, and on and on.
    That does not happen anymore. Who is out there promoting 
our National Parks, and should we have a promotion program from 
the National Park Service that is maybe a portion of the user 
fees or the admission fees or whatever? Should there be 
something like that within the National Park Service, and how 
could that be coordinated with the Youth and Nature Program?
    Mr. Jarvis. That is a great question, and I agree with you 
100 percent about your concerns. As I indicated, one of my 
goals is relevancy. A key issue is how do we make our parks 
relevant to the next generation. If we do not, then, this 
extraordinary institution that was created by this country, is 
ultimately in jeopardy.
    Let me give you a very good example of how we are deploying 
this money. Recently I traveled up to Fort McHenry in Baltimore 
and spent the day up there with the park staff engaging young 
people, in this case almost all African-American teenagers from 
Francis Scott Key High School and a charter school called 
Coppin Academy. My Deputy Director, Mickey Fearn, and I and the 
superintendent sat with some of these kids for several hours. 
We engaged them with a dialogue about how we can make the story 
at Fort McHenry, the War of 1812, relevant to their lives 
today.
    Mr. Simpson. Uh-huh.
    Mr. Jarvis. I will give you a for instance. One of these 
just extraordinarily bright kids, a young woman, said, ``You 
tell the story of the soldier, you told the story of the war. 
We were not around, so it does not matter. At some point you 
figured out that there were actually African-American soldiers 
here. So you got a little bit of relevancy there. Then at some 
point you began to tell the story of the women that were here 
during the War of 1812, but you are not telling the story of 
the teenagers. What were the teenagers doing in Baltimore in 
1812?''
    It was, one of those blinding flashes of the obvious that 
in order to connect to that generation we need to be telling a 
story that they can personally relate to.
    Another thing that Fort McHenry is doing is they have got 
an internship program that is working with both of these 
schools and the school teachers and the counselors to connect 
the best of the best of those kids to the park. The park 
developed this program on their own and they currently have two 
interns. They have two teenagers working in uniform who act as 
emissaries for us back to their school.
    That is a program we are going to invest in. In fiscal year 
2011, we are requesting $370,000 for Fort McHenry to develop 
and expand their internship program to reach out and build that 
sort of relationship. There are actually 19 of these parks, 
many of them urban, like Everglades, where we are going to do 
the same thing. We will give them sustainable money to build 
internship programs and to work with youth so that we can 
understand how we can be more relevant.
    Mr. Simpson. Are there programs that bring urban youth out 
to parks like Yellowstone or----
    Mr. Jarvis. There are. I can give you an example. There is 
a program, a partner program that we work with called Nature 
Bridge; they bring about 35,000 kids a year for a week-long 
residential program in Yosemite, Golden Gate, Olympic and Santa 
Monica Mountains. They are proposing one here in Prince William 
Forest Park just down the road here.
    Mr. Simpson. Where do these kids come from?
    Mr. Jarvis. Inner-city in many cases. Their focus is on 
fourth and fifth graders.Most of the students attend on 
scholarships through fundraising. Some of these kids have never seen 
stars.
    Mr. Simpson. Yeah.
    Mr. Jarvis. They have never seen dark, they have never been 
anywhere there have not been street lights, some kids have 
never walked on anything but asphalt and concrete.
    Mr. Simpson. Yeah.

                             PARK PROMOTION

    Mr. Jarvis. So it can be life changing for them.
    But your question about promotion, I want to get to that 
question. The National Park Hospitality Association, which is 
the representative trade group for about 83 of our 
concessionaires, generates about $1 billion gross a year in 
revenues. They have created a National Park Promotion Council, 
which I met with a week or so ago, to develop promotional 
materials to market the parks. We talked a lot about how you 
can do it more targeted than has been done in the past.
    We are also developing pod casts. We are totally revising 
our websites to make them more interesting and interactive with 
kids because technology is the universal language of youth.We 
have got to make it more interesting than it has been in the 
past.
    Mr. Moran. We will go to Mr. Hinchey and then have a second 
round.

                          NEW YORK STATE PARKS

    Mr. Hinchey. Thank you, Mr. Chairman, and thank you very 
much.
    I have got a little local issue that I want to mention to 
you. The economic circumstances around the country are having 
adverse affects on virtually every state, and in New York it is 
kind of an interesting one in a lot of ways. The State of New 
York has proposed closing 41 state parks and 14 historic sites. 
It has also proposed reducing services at 23 other parks. Well, 
the state faces a serious challenge, but, you know, this is 
remarkable because this is going to reduce funding for the 
state.
    So one of the main reasons I bring this up is because a 
majority of the sites that ought to be closed have received 
federal funds from the Land and Water Conservation Fund and are 
listed as national historic landmarks. Section VI of the Land 
and Water Conservation Fund Act contains strong provisions to 
protect federal investments and discourage casual discards of 
federally-supported park lands.
    In addition, the National Historic Preservation Act set 
forth standards that states are to follow with respect to 
federally-recognized historic sites.
    Given these statutes, I believe that there is clearly a 
role for the Federal Government when it comes to federally-
supported parks. So I am wondering: was the National Park 
Service consulted by the State of New York before it proposed 
closing state parks that have received these federal funds and 
are federally recognized as significant historic sites? And 
maybe even more importantly, is there anything that the 
National Park Service can do to stem these state park 
foreclosures?
    Mr. Jarvis. Thank you, Congressman. I do not know the 
specific answer regarding New York, but I am very familiar with 
our responsibilities under the state side of the Land and Water 
Conservation Fund and have been active in this issue.
    Prior to receiving my confirmation as Director of the 
National Park Service, I was the Regional Director for the 
National Park Service in the Pacific West. The State of 
California was going through this exact same process. The 
Governor announced the closure of about 100 State parks, and we 
looked at our database in the Pacific West and determined 60 of 
those parks were LWCF parks. They were parks in which there had 
been a Federal investment at some point in its creation, either 
we bought the land for the state or we developed it for public 
use.
    You are absolutely right. There is a perpetuity deed 
restriction on those properties held by the Federal Government 
and administered by the National Park Service that those places 
must remain open for the public. So we began working directly 
with the State of California and the bottom line is that the 60 
parks that were LWCF, the state changed its mind about the 
closure of those.
    Mr. Hinchey. What year was that?
    Mr. Jarvis. This was two years ago.
    Mr. Hinchey. Two years ago.
    Mr. Jarvis. Yes, sir. We are engaged, and New York is not 
alone in this. There are states across the system. This is a 
very disturbing trend for us in the parks business. As you may 
know, the National Park Service was very active in actually 
creating the State Park System across the country and very 
active in the planning and design of these parks. Public 
recreation can never be totally provided by the National Park 
System or even the Federal Government for that matter; states 
have a role.
    As we rebuild the Land and Water Conservation Fund, we are 
reminding the states that in order to receive their 
apportionment they need to make a commitment that these 
facilities are provided for public use.
    Mr. Hinchey. Are you or have you, I assume you have not 
yet, but are you willing or prepared to provide that 
information to----
    Mr. Jarvis. Absolutely.
    Mr. Hinchey [continuing]. The State of New York?
    Mr. Jarvis. Yes, sir.
    Mr. Hinchey. Directly to the Governor?
    Mr. Jarvis. Yes, sir.
    Mr. Hinchey. Is there anything else that you could do to 
sustain that situation? Is there any contribution that you 
could make, is there anything in the funding process that you 
could provide to keep them alive?
    Mr. Sheaffer. We have no authority to do so right now, Mr. 
Hinchey.
    Mr. Hinchey. No authority to do so.
    Mr. Sheaffer. We also do not have the resources to do it 
right now. We have heard anecdotally, as the Director 
mentioned, that there are other states that are having similar 
issues, maybe not to the extent of the states the size of 
California and New York and their park systems, but we do know, 
in fact, that there are others who have----

                               EVERGLADES

    Mr. Hinchey. Well, I would like to work with you on this, 
and I would deeply appreciate it if you could send me a copy of 
whatever communication that you provide to the Governor of the 
State of New York on this issue, because I am in touch with 
them also, and we are trying to persuade them that what they 
are doing is not a very good thing to do. So if we could work 
together on this, stay together on this, I would appreciate it 
very much.
    I wanted to ask you a question about the Everglades. Now, 
the Everglades is a project that this committee has been 
working on for a long time. I think that we have been working 
on this project ever since I became a member of this 
Appropriations Committee some years ago. And some progress was 
made, but then the situation seemed to slow down, and it seems 
now to be in a situation where it has slowed down 
significantly.
    Now, there is a major problem at U.S. Sugar, a major 
landholder there, and there were a number of articles in ``The 
New York Times'' recently that talked about this, and the state 
process has been very difficult. The land which the state has 
operated has been very, very difficult, and I think that that 
is just putting it mildly. And a final deal seems to be out of 
reach now between the state and their negotiations with U.S. 
Sugar and getting this system fully operated.
    Now, if this happens, this would be a deep tragedy. An 
awful lot of money has been spent here, an awful lot of things 
have been done, and this is something that is really 
significant. It really, really needs to be done.
    So I just wonder if, you may not be able to answer this 
right now, but in any case, can you update us on the status of 
the Everglades Restoration Project, and how important it is for 
the Everglades Restoration Project that the State of Florida 
buy out those private landholders?
    Mr. Jarvis. I can give you at least a partial update. I 
traveled down to the Everglades about a month ago and spent a 
great deal of time meeting with all of the players, the State, 
the Army Corps of Engineers, the National Park Service, and the 
U.S. Fish and Wildlife Service to deepen my understanding. I 
know this has been a priority of this committee for a long 
time. You have invested significant millions of dollars in the 
restoration of the Everglades.
    Let us set the U.S. Sugar lands aside for a moment. On the 
project side of the house I think we are making some progress. 
The raising of the Tamiami Trail to allow water flow back to 
the Glades is a significant project.
    Mr. Hinchey. Yes.
    Mr. Jarvis. We are doing the one-mile bridge project.
    Mr. Hinchey. It has been a significant project for many, 
many years.
    Mr. Jarvis. And we are actually doing it.
    Mr. Hinchey. Oh, hallelujah.
    Mr. Jarvis. I was down in the Everglades for the 
groundbreaking of another project the C-111 Spreader Canal 
project, which is basically a protection of the developed side 
of the Everglades on the eastern border. Once this water begins 
to flow it will not flood the developed side.
    These two projects are critical steps in really restoring 
the water flow. There is still a lot to be done. I am not 
saying that there is not.
    The U.S. Sugar lands acquisition is a potential game 
changer to the Everglades because it provides greater 
opportunity for storage and water-quality improvement before 
the water potentially comes down. I am not at this point 
knowledgeable enough of its current status to give you an 
update, but I would be glad to get back to you regarding the 
Sugar lands acquisition.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7302A.099
    
    Mr. Hinchey. Thank you. I would deeply appreciate that, 
because it is something that is very important to me. It is 
something that we have been working on, as I said, for a lot of 
time, and it has been very frustrating over the course of the 
last several years, but this is something that really needs to 
be done.
    Mr. Moran. Thank you, Mr. Hinchey.
    Mr. Cole.

                        SAVE AMERICA'S TREASURES

    Mr. Cole. Thank you, Mr. Chairman. I hate to begin by 
disagreeing with you, Director, but as Ken Burns should know, 
actually baseball and cold beer is America's best idea. You 
guys are a very close second.
    I have got two areas that I wanted to ask you about, one 
general and one shamelessly parochial.
    On the general one, you did make some tough decisions here, 
and I am not critical of that. I think that is something you 
are required to do, but as an old historian the Save America's 
Treasures Grant Program is a great program. We have been able 
to save some remarkable things. I think in my own state the old 
capital of the Cherokee Nation, a lot of things have been saved 
through that program.
    So if we are not going to do that through you, one, should 
we continue doing it? Does the program have merit? Was this 
mostly a budgetary decision, or are you concerned about how the 
program was operated? Second, if not you, who? In other words, 
where should this kind of program go, and where does the 
Administration, if you are privy to that, envision it moving 
to?
    Mr. Jarvis. Well, let me just say that the decision to 
reduce or eliminate the Save America's Treasures Grant Program 
was purely a budgetary decision. The program does have great 
results on the ground. It is a bricks and mortar investment 
program in properties that are listed on the National Register 
of Historic Places and as you indicated, it has been very 
successful around the country.
    The program has a matching component as well, to leverage 
the investment. It is a program that the National Park Service 
supports, but it was just purely a budgetary decision.

                        CHICKASAW VISITOR CENTER

    Mr. Cole. Mr. Chairman, I think this is one of those issues 
that we ought to look carefully at because it does bring in 
extra money and because quite frankly, I think it builds a lot 
of support for the National Park System because parks obviously 
are not distributed evenly all across the country, and it 
really does a wonderful job of educating people about the 
superb services that you do provide.
    So let me be parochial here if I may for a second, and 
everybody will hear about this until I someday solve this 
problem, but in my district the Chickasaw National Recreation 
Area is one of our premier resources. I think it is actually 
the only park that was established with a donation from an 
Indian tribe. The core of that park was actually given by the 
Chickasaw Nation to the United States Government so it would be 
preserved at a pretty traumatic time when the Chickasaw 
Government was being liquidated essentially and its lands 
opened up for settlement. But they preserved this particular 
area because it was culturally important, and it is scenically 
beautiful.
    A number of years ago we were going to get a new visitor's 
center. That was online to happen. You were forced that year to 
not fund that legitimately because we had wildfire outbreak and 
so all construction projects were canceled. However, we had 
actually broken ground on this thing. We were assured that 
everything will be taken care of, and that we were at the top 
of the list the next time. That did not happen. Still has not 
happened.
    This committee did appropriate half a million dollars last 
year to try and begin the planning process. So, number one, I 
would like to know where we are at and where you envision this 
going, and number two, I do have some concern, again, I 
recognize you have got budget realities here, but the $44 
million cut in construction is going to hurt a lot of these 
things, and obviously I have a particular point of view on this 
one in particular.
    Mr. Jarvis. Thank you. That is a great question. The 
$500,000 is secure.
    Mr. Cole. Heard that one before. Not from you, though. Not 
from you.
    Mr. Jarvis. Not from me.
    Mr. Cole. Not from you and not from this Administration.
    Mr. Jarvis. Right. The park and the region are in 
conversations right now with an A&E firm to update the design. 
In this lag period there have been changes in building codes, 
and since one of my priorities for any new construction is 
sustainability so that meeting some of the green building LEED 
certifications are crucial to reducing our utility costs and 
lifecycle costs on these facilities.

                       CHICKASAW PARK MANAGEMENT

    Mr. Cole. I would appreciate if you would just keep me 
updated on that, because I will be asking regularly.
    The last question actually somewhat related, and this does 
not come from the point of view of being in favor or opposed, 
but I know there is some consideration at the tribal level of 
actually talking with the National Park Service about operating 
the park themselves, which they do in other areas. For 
instance, our tribe operates its own healthcare. We contract 
with the Federal Government, we deal with eight other tribes 
and actually put a lot of additional money and resources well 
beyond what the Federal Government can do.
    There is some beginning thought about this, I think, at the 
tribal level in Oklahoma, so I am curious, number one, have you 
heard about that, and number two, and I am not asking for any 
binding answer, I am just curious what the general attitude 
would be, is there any precedent for that sort of thing within 
the Park System?
    Mr. Jarvis. I have not heard about this specifically 
related to Chickasaw, but we have interest in other units and 
have been in very positive discussions with tribes who are 
developing expertise and are interested in either developing a 
park of their own or being more actively involved or perhaps 
even managing some of the units that represent their culture, 
history and ways of life.
    In my own personal and professional view I am very open to 
that kind of discussion. I lived in bush Alaska and I have 
worked with tribes throughout the system. I think that we have 
some extraordinarily good relationships with tribes, for 
example, in Mr. Dicks' district with the Lower Elwha and our 
Elwha project and others.
    Mr. Cole. I can tell you have very good people on the 
ground in Oklahoma. You have had a succession of very good 
people, and I would just love some time, again, to get briefed 
on this general approach, because it may be a way, certainly in 
this case, to bring additional resource to the table for the 
park. We are not talking about some sort of takeover here. We 
are talking about a cooperative arrangement and negotiated 
agreement, but it could result in extra funds being available 
to do a lot of things I know everybody would like to do, but we 
are all under constraints.
    Mr. Moran. Thank you, Mr. Cole----
    Mr. Cole. Thank you, Mr. Chairman.
    Mr. Moran [continuing]. For the good comments, and I know 
the gentleman is aware it is the Legislative Branch's 
responsibility to determine how the money should be spent and 
then the Executive Branch, of course, implements it 
professionally and efficiently. So we will continue to maintain 
some control over our priorities. I appreciate you mentioning 
Save America's Treasures.
    Chairman Dicks.

                         PROGRAMMATIC INCREASES

    Mr. Dicks. Thank you, and Director Jarvis, it is good to 
have you here in this role, and Bruce, it is always good to see 
you.
    While your overall net budget request is slightly less than 
last year, the budget also includes a number of focused 
increases and advanced Department or Service goals. Please 
outline for us these programmatic increases and explain how 
they will enhance park operations.
    Mr. Jarvis. Okay. We talked a little bit earlier and I am 
not sure whether you were in the room for youth in natural 
resources. That is one of our primary initiatives which 
includes targeted base increases to connect young people to the 
Park Service.
    Mr. Dicks. Is this separate from the Youth Conservation 
Corps? A separate initiative?
    Mr. Jarvis. Separate initiative.
    Mr. Dicks. Okay.
    Mr. Jarvis. Right. This would be operational base increases 
for 19 parks for a sustained interconnection for youth.
    We have several increases in the administrative functions 
area including human resources, our workforce management. We 
have been consolidating those functions into offices that 
provide all of the human resources, personnel functions, and it 
will be a far-more efficient service to our employees. We are 
requesting a $6 million increase.
    There is also the consolidation of our acquisition and 
contracting offices to provide a more professional, focused and 
capable workforce.
    We also have a funding request for employee development, 
investing in training and development for our employees.
    Land acquisition is up $30 million, and as I indicated, it 
is our goal and the Secretary's goal to achieve $900 million 
funding for LWCF by 2014.
    There are a few other smaller items as well. We want to 
maintain our investment from the ARRA projects, so we are 
bumping up cyclic maintenance about $3 million. There is a 
small request in here, an increase of $485,000 for Special 
Resource Studies. We have 43 studies underway, and we can 
complete roughly 15 a year, so there is a small request for 
that.
    Mr. Dicks. Well, that is a very comprehensive answer, and 
they all sound like very important projects. I just want to say 
how much I appreciate the Park Service's commitment to the 
Elwha Dam Project out in the State of Washington. Our committee 
at one point went out there, and I think the members would be 
pleased because their position at the time was we ought to 
accelerate the project, and it took awhile to prepare ourselves 
for this, but we are ready to go. And as I understand it, this 
year we will put out the RFPs for the dam removal.
    Mr. Sheaffer. That is correct.
    Mr. Dicks. Considering the fact we started this has thing 
back, what was it, 1992, or thereabouts, it is remarkable how 
far we have come, and the Water Treatment Projects, I know we 
are finishing, and those are going to be opened pretty 
quickly----
    Mr. Sheaffer. Yes.

                              FIXED COSTS

    Mr. Dicks [continuing]. In April. This has gone through 
three different Administrations to keep this thing on track. I 
think it is going to be one of the greatest restoration 
projects that we have done, and you know, taking these dams out 
which need to be taken out, they are old and need to be 
replaced. One is in the park. One isoutside the park, and we 
are working with the Lower Elwha Tribe, and they have been pretty 
cooperative overall. But I just want to say how much I appreciate 
keeping this thing going.
    And the other thing is, you know, again, we want to just 
talk generally, did you get your fixed costs covered? I know 
you probably covered this, but I want to hear what you have to 
say.
    Mr. Jarvis. Our fixed costs are not covered.
    Mr. Dicks. Not covered. So how many people does that 
involve?
    Mr. Jarvis. We estimate an absorption of about $32 million, 
which is about 400 FTE.
    Mr. Dicks. Can you do that all with attrition or not?
    Mr. Jarvis. Well, we will do our best, but the bottom line 
is that that will probably affect, as you well know, the front 
line seasonal workforce.
    Mr. Sheaffer. All of the $32 million will not come from 
staff. The estimate is that 400 staff will be affected. Many of 
them will likely be seasonal as has been the tradition. So it 
would be the summer hires.
    Mr. Dicks. But the seasonal workers are important. They 
come in and help you operate the parks during the summers when 
the people are there. So that is of concern.
    Why was that done? Why did the Administration decide to 
have their initiatives and so they make you absorb the fixed 
costs?
    Mr. Sheaffer. This is not the first year that----
    Mr. Dicks. Oh, I know it has been done before.
    Mr. Sheaffer. It has been done over 20 years. It has been 
done several times, and it is simply to hit the number and to 
encourage us to find more efficient ways to operate.
    Mr. Dicks. If we solve the problem, though, you would not 
object, would you, Bruce?
    Mr. Sheaffer. Certainly not, Mr. Dicks.
    Mr. Dicks. That is all I have, Mr. Chairman.

                  STATE HISTORIC PRESERVATION OFFICES

    Mr. Moran. Thank you, Mr. Chairman.
    We have asked them why they chose to cut out some of the 
most favored Congressional priorities in order to fund other 
things in the budget, so we are hot on this, and----
    Mr. Dicks. If you will yield to me for just one more 
second.
    Mr. Moran. Sure.
    Mr. Dicks. One thing I did pick up from our state historic 
preservation officer is that with all these ARRA Projects, they 
are under tremendous pressure to do the work necessary to 
approve these things, and every department is having some 
difficulty obligating the funds and getting them spent. Have 
you thought about this in terms of having an initiative to try 
to help these state historic preservation officers so that they 
can help get these projects out on time?
    I really heard a big plea from our state on this.
    Mr. Sheaffer. So did we. They actually came and talked to 
us representing not just the workload that we were putting on 
them but other Federal agencies as well.
    Mr. Dicks. Right.
    Mr. Sheaffer. To their credit we had no mechanism for 
getting them money. It was not included as part of the ARRA 
funding though in retrospect, maybe it should have been. 
However even with all the additional workload they did step up 
and take care of the compliance work that needed to be done.
    Mr. Dicks. Yeah.
    Mr. Sheaffer. As far as we are concerned, and I do not know 
how it has affected the other agencies, but I have not heard 
anything within Interior about it being a stumbling block. I am 
sure they had to set other things aside in order to do it----
    Mr. Dicks. Yeah.
    Mr. Sheaffer [continuing]. But it is clear that it was an 
additional workload on them.
    Mr. Dicks. All right. Thank you, Mr. Chairman.

                           FIREARMS IN PARKS

    Mr. Moran. Thank you, Mr. Dicks.
    On February 22 a new federal law went into place that 
allows people to carry loaded firearms on National Park 
property unless it is a designated federal facility. It affects 
370 units of the Park Service's 392 units. On April 19 of this 
year there is planned a demonstration on Park Service property 
just to the north of National Airport. The staff has alerted me 
to the Web sites that have been promoting this. The first one 
says, ``First, I am not going to ask permission from a foreign 
government what can and cannot be done on a friendly state's 
land. I do not recognize U.S. government possession of this 
land. I intend to attend. My rifle will be loaded and slung in 
front for ready use. I will have a combat load of ammo, 
chemical protective mask, and likely an armored vest.''
    And then the others say, ``Pray. Our work will start at the 
rally. Being sporting we will give them the first volley. After 
that they get no quarter. I am thankful that the patriots in 
1776, did not--to celebrate April 19, 1775. I am thankful they 
did not show up with unloaded weapons. Either stand up and make 
a statement that needs to be made or be willing to die in doing 
so or stay the hell home. We need real patriots ready to take 
real action.'' There is another one that says, ``We need to 
march on Washington. Unless they change their ways, we need to 
march on DC with loaded weapons and defined targets,'' et 
cetera and so on and so forth.
    I mean, it goes on and on. There are hundreds of these 
things. This is the Western Rifle Shooters' Association. They 
are all coming to Washington.
    I have an obvious concern, Gravelly Point, is used by 
hundreds of families. On every weekend day you have got 
hundreds of families that go there for picnics, they play 
soccer on the fields. It is a well-used area, and these do not 
seem to be friendly visitors. They have a clear purpose, and I 
do not want to overstate this, but we just had two what would 
have to be considered terrorist attacks. A guy flies a plane 
into an IRS building, another guy with similar anti-government 
attitudes has a gun fight with two Pentagon guards.
    So I guess what I want to hear from you is, are you 
monitoring this? How are you going to deal with this, and do 
you think there is any cause for concern given the attitudes of 
the people who intend to come to Gravelly Point and make a 
statement on Park Service property?
    Mr. Jarvis. Thank you, Chairman. This law was passed last 
year and then became effective on February 22. The National 
Park Service spent a great deal of time in the last 6 to 8 
months preparing for the implementation of this rule, both in 
terms of outreach to citizens as well as preparing our own 
employees and to properly sign the National Park facilities. As 
of February 22nd, all citizens could possess firearms in 
compliance with the governing state law.
    The state laws vary and we believe it is incumbent on the 
individual citizen to understand that state law. If the state 
law allows concealed and not open carry, then they have to be 
in compliance with that.
    Mr. Moran. Well, a number of states do, and in fact, 
Virginia does.
    Mr. Jarvis. Right. So, now, these websites have a lot of 
that kind of stuff on them. They also have said things like, 
``let's go have a picnic and bring our guns, and who's bringing 
the relish?'' I mean, they have that going on, too.
    Mr. Moran. I did not notice that e-mail.
    Mr. Jarvis. I will send you that one. This will be at least 
the fourth of these kinds of events that I am aware of. There 
was one in Valley Forge and there was one, I believe, in 
Gettysburg. There was one recently at a beach clean-up in San 
Francisco, where individual citizens came in compliance with 
state law, they were carrying weapons, unloaded because that is 
the State's requirement. These events have all happened without 
incident.
    I am not concerned about this. We will have our staff 
ready, and contacts will be made for those that are violating 
the state law. If they are in compliance with the state law, it 
will be fine.

             SAVE AMERICA'S TREASURES AND PRESERVE AMERICA

    Mr. Moran. Okay. I hope you are right. You know, I just 
think there is just such anti-government fervor taking place. 
We do not have to worry about the mainstream Americans. It is 
just some folks that get carried away with the rhetoric and the 
temper of the times.
    Let me just ask one more question, and then I am going to 
conclude my questions, but we will hear from the rest of the 
subcommittee. I want you to explain why you felt it was 
necessary and appropriate to eliminate the Save America's 
Treasures Program and the Preserve America Program.
    You have been blunt. Do you want to be so blunt as to 
suggest you thought Congress would restate it anyway, so we 
will get credit for cutting it?
    Mr. Jarvis. I will not be that blunt.
    Mr. Moran. You will not be that blunt?
    Mr. Jarvis. It was purely a budgetary decision. The Park 
Service has very few programs that are grant programs. Most of 
our budget, the vast majority of our budget, is operational. 
Not to say that one is better than the other, but the 
operational budget has a direct affect on our ability to 
provide direct public service in our 392 units and through our 
programs. This was a grant program, and I do not want to in any 
way project that we do not value historic preservation and this 
investment in America's cultural resources.
    It was purely a budgetary decision.
    Mr. Moran. So everything was a budgetary decision. I gather 
you do not feel as though you own this program like you do 
those that are more directly under your control, but let me 
turn to Mr. Simpson.
    Mr. Simpson. I agree with Mr. Cole and with the Chairman. 
It is a very valuable program, and you know, this Nation is 
still a young Nation, and we can save a lot of our history. 
Historic preservation is very important. Some of the work we 
have done out in Idaho and in fact, 2 weeks ago I did a video 
for a group that is going to go out and raise money to finish a 
restoration that we helped start with one of these grants. 
Overwhelmingly the majority of the money is going to be raised 
privately, donated time doing restoration, all that kind of 
stuff.
    It is kind of a little bit of seed money to get some of 
these things started. If it is not done here, it needs to be 
done somewhere, and you know, I do not know of a better place 
to put it than where it currently is, but I understand some of 
the decisions you had to make when you put your budget 
together, and oftentimes programs are eliminated that Congress 
very much supports. Why you do that I do not know.I suspect 
that everybody anticipates that we will fund this at some level, but 
historic preservation is very important in this country. Otherwise, we 
are going to wake up and find out that we do not have it anymore.

                              FIXED COSTS

    A couple of questions. Four hundred staff are going to be 
affected by eating $32 million in fixed costs. Most of them 
seasonal or a significant portion of them seasonal. I assume 
you did not hire people that are seasonal or full time to drink 
coffee. What will not be done then?
    Mr. Jarvis. I think what happens in these cases where we 
reduce our seasonal workforce, we reduce our summer operations. 
Those are our front-line programs, so those are the walks and 
talks, evening programs, front-line visitor center operations, 
trail maintenance crews, and cyclic maintenance. The kinds of 
things that are done by seasonal workers.
    The Park Service has a very deep pride in providing quality 
service, so we come up with all kinds of ways to provide 
service, to be blunt about it. We will use volunteers, we will 
work with partners. In some cases we may have to have one less 
person doing something, or cut an evening program or have fewer 
walks in the Paradise Meadows or wherever, but it will have 
some absolute affect in the field.

                      DEFERRED MAINTENANCE BACKLOG

    Mr. Simpson. What is your current backlog of maintenance?
    Mr. Jarvis. The best figure we have at the moment is $9.5 
billion.
    Mr. Simpson. What would it take annually to address that 
backlog maintenance, I mean, because it grows every year, and 
part of it, you know, is additional need every year. So over a 
20-year period, do we know what it would take in the budget to 
address that backlog maintenance so we were actually reducing 
it over a 20-year period?
    Mr. Jarvis. We would need an additional $500 million a year 
on top of what we currently have.
    Mr. Simpson. So a $45 million reduction is not really going 
to get us there? Is that accurate?
    Mr. Jarvis. That is good math. Yes.
    Mr. Simpson. Well, that is a concern. I think most of us on 
this committee had taken very serious view of trying to address 
the backlog maintenance. I know that Chairman Dicks did when he 
was Chairman of the subcommittee, that we needed to start 
looking at trying to reduce that backlog maintenance. This 
seems to set us back a little bit.
    Mr. Sheaffer. I think we need to mention the $500 million 
was a recent estimate that was made at the request of OMB in a 
study that would overtake the critical system deferred 
maintenance backlog decline by 2016.
    Mr. Simpson. Right.
    Mr. Sheaffer [continuing]. Or addition----
    Mr. Simpson. Plus----
    Mr. Sheaffer [continuing]. Either way. That portion of the 
backlog which we consider to be for critical systems, not the 
entire backlog but those systems, HVAC systems, and the like 
that are the most vital.
    Mr. Simpson. Uh-huh.
    Mr. Sheaffer. So that was a notion of eliminating it by 
that time. However, I think it is worth mentioning on the 
positive side that the Recovery Act Program has really advanced 
us significantly in taking care of some of the deferred 
maintenance.
    Mr. Simpson. Is that why we can cut out $45 million this 
year because they got----
    Mr. Sheaffer. It certainly eases----
    Mr. Simpson [continuing]. Money in----
    Mr. Sheaffer [continuing]. It. Yes. In the short term we 
exhausted our ready projects.
    Mr. Simpson. In your 5-year plan do you see it going up 
after this year?
    Mr. Sheaffer. I certainly think that will be a part of the 
discussion, Mr. Simpson.

                     FORD'S THEATRE--PETERSEN HOUSE

    Mr. Simpson. One last question. Recently I went on a tour 
of the renovation of Ford's Theatre. Across the street is 
Petersen House, something that we need to restore before it is 
not there to restore. What are your plans to do that? What 
would be the total investment? Are there any monies available 
in ARRA funds that are left over or in this year's budget to 
address that?
    Mr. Sheaffer. The region has a plan to address the needs of 
the Petersen House. They have it incorporated into their multi-
year plan. At this point there seems to be funding available. 
It was not incorporated in ARRA because they simply were not 
ready. They did not have the structures reports that they 
needed to advance the work.
    Mr. Simpson. All the ARRA funds have been spent?
    Mr. Sheaffer. No, sir, but they have all been programmed 
and the projects reviewed by this committee.
    Mr. Simpson. So there is nothing left over?
    Mr. Sheaffer. At this point it is not on the list, and I am 
not certain that they would have any of this work ready in time 
to be done. The ARRA money has to be exhausted by September 30, 
so I am not sure we would be in a position to do it.
    Mr. Simpson. What about this year's budget? Is there any 
money in the FY '11 budget?
    Mr. Sheaffer. The fund source likely to be used for the 
Petersen House is the Repair and Rehabilitation Program, and 
the region has adequate funds, they tell me, and are giving the 
Petersen House the priority it needs in order to be funded.
    Mr. Simpson. I appreciate that. Do not screw up and lose 
this history.

                      DEFERRED MAINTENANCE BACKLOG

    Mr. Moran. On the first subject you mentioned, Mr. Simpson, 
of the $9.5 billion, only half of it is funded by our 
committee. Half of it is from the Federal Highway Trust Fund.
    Mr. Dicks.

                             NATIONAL MALL

    Mr. Dicks. I know that the Mall has been mentioned here, 
but could you kind of tell us what your overall strategy is on 
the Mall? I know this flood must have had a big impact at the 
Jefferson Memorial. I hear one of the parking areas was 
completely flooded. We took a look at this, and I realize this 
a very big number that we are talking about, and I know that 
there is a lot of dispute about how we raise money for this 
like we did for the Statue of Liberty and for the World War II 
Memorial. Some people think that this is more challenging.
    So what is your overall plan? I know that Secretary Salazar 
is very committed to working on this. So what is our overall 
strategy?
    Mr. Jarvis. Mr. Chairman, the challenge with the Mallis 
that on any given day you have thousands of people out there, so there 
is no way we can do all at once, plus we could not expend the money. We 
have to do the Mall in chunks.
    Mr. Dicks. Right.
    Mr. Jarvis. As I was saying earlier, the Mall needs to be 
reconstructed, basically disassembled and rebuilt. The soil 
areas of the Mall need a style that you would have for a sports 
field. If you are going to use the Mall like we tend to use it, 
which is intensely, then it needs to be designed so that it is 
a resilient system, and right now it is basically a thin layer 
of topsoil on fill with a little bit of grass on top. That can 
be fixed.
    Mr. Dicks. So you are you thinking about Astroturf? I 
mean----
    Mr. Jarvis. No, not Astroturf. I am talking about an 
engineered soil system that would allow this kind of use. As 
you know, we are developing a Mall plan right now, and that has 
been out for public----
    Mr. Dicks. Right.
    Mr. Jarvis [continuing]. Comment. I think we have got about 
30,000 comments so far. We will be coming up with a final plan, 
part of which is working with those activities that are on the 
Mall to have less impact. Part of the plan is to zone the Mall 
so that there are places where we can build the infrastructure 
such as underground utilities.
    The other piece is actually constructing the Mall so that 
it will be resilient and look good. This is the centerpiece for 
our country. We have millions of visitors from around the 
world. It should look its absolute best, and I know the 
Secretary and I, and I know this committee as well, are 
committed to this. We need to bring it to you in digestible 
chunks so that we can get this accomplished.
    Mr. Simpson. Chairman Dicks.
    Mr. Dicks. Yeah. I yield.
    Mr. Simpson. Would you yield for just a second?
    Mr. Dicks. Sure.

                       JEFFERSON MEMORIAL SEAWALL

    Mr. Simpson. He mentioned also the Jefferson Memorial, and 
we talked at the time when we traveled down there about the 
fact that the Army Corps of Engineers could help with that or 
should help with that or whatever. Have we talked to the Army 
Corps? Is there anything in their budget that could help with 
the restoration of the Tidal Basin and stuff?
    Mr. Jarvis. We have a contract working right now on the 
Tidal Basin and Seawall. There is a contractor working as we 
speak.
    Mr. Sheaffer. On the Jefferson Memorial.
    Mr. Jarvis. On the Jefferson Memorial. I do not know if we 
have talked to the Corps. You have to talk to the Corps if you 
are working in the water but whether or not they would help----
    Mr. Simpson. We just mentioned that when we were down there 
at the time. I do not know if there was any practicality to it 
or not, but we were talking about it.
    Mr. Sheaffer. Well, probably the largest single project 
that we will take on will be the Tidal Basin wall beyond the 
Jefferson Memorial.
    Mr. Jarvis. Right.
    Mr. Sheaffer. This flooding occurs regularly and some of it 
is because the seawall is well below what it needs to be during 
high water. This project is a large ticket and then there is 
the ARRA reflecting pool project which will be a vast 
improvement, something that has been needed for years.
    Mr. Dicks. Well, I just think this is such an important 
project, and I hope that we can continue to work with the 
Administration to move this thing forward, and I know it is not 
going to be overnight, but I think we have to keep working on 
it and keep trying to inspire the private sector groups that 
are interested in this----
    Mr. Jarvis. Yes.
    Mr. Dicks [continuing]. Who I think are generally out there 
trying to raise money for this would be a big help.
    Mr. Jarvis. I think they will.
    Mr. Moran. It came very close to getting funded last year, 
and thank you for the reference.
    Mr. Cole.

                 TRAIL OF TEARS NATIONAL HISTORIC TRAIL

    Mr. Cole. Thank you, Mr. Chairman. I just wanted to ask you 
quickly, in the Omnibus Public Lands Act in 2009, we actually 
added several segments to the National Trail of Tears, national 
historic sites, spanned six states. We are a lot closer now to 
being accurate as to what the actual trails were.
    And so could you just sort of give me an update of where we 
are at, and are we on schedule, and where do you see us going 
with that particular project?
    Mr. Jarvis. We will have to get back with you.
    [The information follows:]

                 Trail of Tears National Historic Trail

    The National Park Service partners with Federal agencies, state and 
local governments, organizations, tribes, and private individuals to 
administer the Trail of Tears National Historic Trail (TRTE). The NPS 
certifies sites and segments that are not owned by the Federal 
government as official components of the TRTE. These sites and segments 
are the foundation of the national historic trail and it is through 
voluntary agreements that they are made available for public use and 
enjoyment. The Trail of Tears Association, a national organization 
dedicated to the preservation, public awareness, and appreciation of 
the Trail of Tears, is a major partner with the NPS. Other major 
partners include the Cherokee Nation of Oklahoma and the Eastern Band 
of Cherokee Indians.
    Currently there are 65 certified sites on the TRTE and an 
additional ten Federal components. The NPS is proactively certifying 
segments as willing landowners are identified. The NPS does not pursue 
land acquisition, nor does it provide personnel at certified sites. 
However, the NPS does provide interpretive media, preservation 
assistance, development assistance, and signage, based on site needs, 
partner needs, and capacity.
    NPS is currently engaging new partners on the new routes authorized 
under the Omnibus Public Land Management Act of 2009. The addition of 
the new routes will require an amendment to the current management 
plan.

    Mr. Cole. That would be great. I realize it was kind of a 
parochial question, but, again, I have an interest there, so if 
you could do that----
    Mr. Jarvis. We will definitely circle back.
    Mr. Cole. Thank you. Yield back, Mr. Chairman.
    Mr. Jarvis. I do not think it is so parochial. It covers 
several states.
    Mr. Moran. I am glad you asked. Thank you, Mr. Cole.
    Mr. Hinchey.

         NATIONAL HERITAGE AREAS AND SECOND CENTURY COMMISSION

    Mr. Hinchey. Thank you very much, Mr. Chairman, and, again, 
thank you very much for everything you are doing in response to 
these questions.
    I just wanted to raise a question about the national 
heritage area. National Heritage Area are very important to 
this country. There are 49 National Heritage Areas all around 
the Nation.
    Unfortunately, the Administration's budget would 
drastically cut funding for the National Heritage Areas and all 
of those that were established prior to 2001, would have the 
funding cut for them completely. Now, I cannot help but say 
that that would be a mistake, and it would be a big mistake in 
more than one way.
    One of the ways it would be a big mistake is that we know 
that on the basis of every dollar that the Federal Government 
invests, you get back about $5.50 from that $1 investment in 
this particular context for these National Heritage Areas.
    So I am hoping that this will be reconsidered, and this 
will not stop. There is a National Heritage Area in New York, 
the Hudson River Valley National Heritage Area, which is 
turning out to be one of the most significant in the Nation. So 
I am deeply concerned about it, and I want to see if we can 
change this and keep it going because it is in the best 
interest of the country historically but also economically.
    I understand that the Second Century Commission called for 
a strengthening of the National Heritage Area System. What is 
the National Park Service's general position on the National 
Heritage Service position?
    Mr. Jarvis. Thank you, Congressman.
    I have been actively involved in the Heritage Area Program 
as well and served as staff to the National Park Service 
Advisory Board when they did their heritage area review a few 
years ago. I also traveled with the Second Century Commission 
to Essex, Massachusetts to look at the heritage areas; they 
have been very successful in instilling the local story and 
providing economic benefits.
    Again, the decision to reduce the funding in the Heritage 
Areas Program, again, was a budgetary decision in terms of 
where we could find any cuts to meet the goals of the 
Administration.
    Having said that, there is one other aspect of the Heritage 
Areas Program that I do believe needs work. There needs to be 
some organic legislation that defines the process by which a 
heritage area is studied and ultimately determined and also 
that looks at its economic viability in terms of its 
contribution, because they were never intended to live 
completely on the Federal appropriation. There was always to be 
some non-Federal contribution for that. Heritage Areas, as yet, 
do not have that sort of organic piece of legislation that 
defines the study process and economic sustainability.
    That is also a recommendation of the Second Century 
Commission report; that there would be this legislative action, 
and if the Congress would do that, I think it would help our 
position in terms of ensuring there is long-term funding and 
sustainability.
    Mr. Hinchey. Well, I would love to work with you on that, 
because I think what you are saying makes perfect sense, and it 
is something that could be done and probably should be done.
    In the meantime, we have a situation in New York and a 
number of other places where the National Park, where the state 
parks are being closed, and we are trying to save them, and 
then at the same time the Federal Government is closing the 
National Heritage Area in New York, where most of the state 
parks are located in that same region.
    So this is a situation that is being dealt with in the 
context of the economic conditions that we are dealing with, 
but I do not think it is being done wisely. I think it is being 
done under pressure and in the sense of things that have to be 
done, but these are little things that are going to have 
adverse consequences, negative consequences if they are allowed 
to continue.
    So this is another situation that I would love to work with 
you on and in the context of that legislation that you proposed 
I would like to see if we can do something on that as well, and 
I hope that we can.

                           YELLOWSTONE BISON

    Just one last question I wanted to talk about, and it is 
the Yellowstone bison. Yellowstone bison have been something 
that this committee, again, has been deeply concerned about, 
and there have been a number of discussions on this subject for 
years.
    And it has to do with the fact that the bison that we are 
dealing with are the last of America's genetically pure, wild 
bison, and as we know, it was not too long ago, in the last 
century, when they were down to just a handful, and then 
somebody wised up and came in and started taking care of it, 
and it worked very successfully. That number expanded in a very 
positive way.
    But the killing of these natural bison now is posing a 
threat to their maintenance and continuation. So I am just 
wondering how has the interagency bison management plan 
impacted Yellowstone's bison population? Yellowstone is where 
the vast majority of these bison are, and when they come out of 
the Yellowstone, struggling along, looking for food, they walk 
up into Montana, they get shot,and they get killed. And there 
is a lot of that activity going on, and I am just wondering if there is 
anything that is going to be engaged in to stop this. I think that this 
Administration probably realizes that this is not a wise thing to do.
    Mr. Jarvis. The question is a great one. In the last 2 
years, 2009 and 2010, there were only 5 bison that were killed 
as a result of the implementation of the Interagency Bison 
Management Plan, which we believe is actually being quite 
successful. We are in the process of developing a draft 
Environmental Impact Statement for remote vaccination against 
brucellosis in the bison herd. We have been doing limited 
capture vaccination because the primary concern regarding bison 
coming out of Yellowstone National Park is the potential 
transmission of brucellosis.
    We are starting an EIS on remote vaccination.
    The second piece, which we are very interested in, and the 
Secretary is very interested in, is developing capacity within 
American Indian tribes, within reservations, to take bison and 
develop their own herds. We are engaged with the Office of 
Indian Affairs and with some of the tribes that have expressed 
an interest in developing that capacity. We recently shipped 
bison to Mexico to begin reestablishing their herd. Bison are 
also native in Mexico. We just shipped 26 down there, and they 
are doing great.
    Mr. Hinchey. That is an important thing, and I very much 
appreciate it.
    Mr. Jarvis. Yeah. We really do want to get away from the 
requirement to slaughter, to kill bison, and so finding new 
places that bison herd can exist, ensuring that they are not 
contributing to the spread of brucellosis, is key.
    Mr. Hinchey. Have there been any discussions with the 
Government of Montana about the way in which they are engaging 
these wild bison that flow out of Yellowstone?
    Mr. Jarvis. I do not know the details. If I could ask Dan 
Wenk to come up and answer.
    Mr. Wenk. In January of 2009, the National Park Service 
expended $1.5 million to buy 30-year grazing rights in Paradise 
Valley. That is in combination with the State of Montana which 
is going to be paying $50,000 a year to the Royal Teton Ranch 
so that we can start to allow for the free range of bison under 
very limited controlled conditions in Paradise Valley and on 
the Royal Teton Ranch.
    Mr. Hinchey. Okay. Well, this is something I think we have 
to keep an eye on. We do not want that species to be 
eliminated.
    Mr. Jarvis. No, sir. They are an iconic species. We are 
committed, and there is a great deal of constituency around 
this as well. We are seeking all kinds of solutions.
    Mr. Wenk. There are about 3,200 animals now in the 
Yellowstone system.
    Mr. Hinchey. Thanks very much.
    Mr. Moran. Thank you, Mr. Hinchey, and that is encouraging 
information.
    How do you ship them down? Do you put them in horse 
trailers?
    Mr. Wenk. It is a natural migration. This year, at this 
point, there are no animals that have gone out the north end. 
There have been a few animals that have exited through west 
Yellowstone, but that is an area where they are allowed to be. 
This year, right now, they are being contained within the park 
naturally.

                           YELLOWSTONE WOLVES

    Mr. Simpson. If I could just follow up on that. Just out of 
curiosity, how many bison have been killed by wolves that were 
introduced into Yellowstone? I understand there has been a 
significant number.
    Mr. Wenk. Significant is as close as I can get, Mr. 
Simpson. I do not have the number.
    Mr. Simpson. Thank you.
    Mr. Moran. I think we will conclude this hearing at this 
point. Is it acceptable to you if we conclude the hearing?
    Mr. Simpson. Sure. I have several pages of questions that 
we will submit for the record.
    Mr. Moran. Very good. I do think it is appropriate to 
mention that the committee has concerns with $30 million for 
land acquisition as part of a larger $106 million department-
wide land acquisition program, particularly in the context of 
reducing personnel who would have to manage those additional 
lands. So that may be something we want to address in the 
markup, but we appreciate very much your testimony, Mr. 
Director. We appreciate Mr. Sheaffer's budget acumen, and this 
hearing will stand adjourned. Thank you very much.

[GRAPHIC] [TIFF OMITTED] T7302A.100

[GRAPHIC] [TIFF OMITTED] T7302A.101

[GRAPHIC] [TIFF OMITTED] T7302A.102

[GRAPHIC] [TIFF OMITTED] T7302A.103

[GRAPHIC] [TIFF OMITTED] T7302A.104

[GRAPHIC] [TIFF OMITTED] T7302A.105

[GRAPHIC] [TIFF OMITTED] T7302A.106

[GRAPHIC] [TIFF OMITTED] T7302A.107

[GRAPHIC] [TIFF OMITTED] T7302A.108

[GRAPHIC] [TIFF OMITTED] T7302A.109

[GRAPHIC] [TIFF OMITTED] T7302A.110

[GRAPHIC] [TIFF OMITTED] T7302A.111

[GRAPHIC] [TIFF OMITTED] T7302A.112

[GRAPHIC] [TIFF OMITTED] T7302A.113

[GRAPHIC] [TIFF OMITTED] T7302A.114

[GRAPHIC] [TIFF OMITTED] T7302A.115

[GRAPHIC] [TIFF OMITTED] T7302A.116

[GRAPHIC] [TIFF OMITTED] T7302A.117

[GRAPHIC] [TIFF OMITTED] T7302A.118

[GRAPHIC] [TIFF OMITTED] T7302A.119

[GRAPHIC] [TIFF OMITTED] T7302A.120

[GRAPHIC] [TIFF OMITTED] T7302A.121

[GRAPHIC] [TIFF OMITTED] T7302A.122

[GRAPHIC] [TIFF OMITTED] T7302A.123

[GRAPHIC] [TIFF OMITTED] T7302A.124

[GRAPHIC] [TIFF OMITTED] T7302A.125

[GRAPHIC] [TIFF OMITTED] T7302A.126

[GRAPHIC] [TIFF OMITTED] T7302A.127

[GRAPHIC] [TIFF OMITTED] T7302A.128

[GRAPHIC] [TIFF OMITTED] T7302A.129

[GRAPHIC] [TIFF OMITTED] T7302A.130

[GRAPHIC] [TIFF OMITTED] T7302A.131

[GRAPHIC] [TIFF OMITTED] T7302A.132

[GRAPHIC] [TIFF OMITTED] T7302A.133

[GRAPHIC] [TIFF OMITTED] T7302A.134

[GRAPHIC] [TIFF OMITTED] T7302A.135

[GRAPHIC] [TIFF OMITTED] T7302A.136

[GRAPHIC] [TIFF OMITTED] T7302A.137

[GRAPHIC] [TIFF OMITTED] T7302A.138

[GRAPHIC] [TIFF OMITTED] T7302A.139

[GRAPHIC] [TIFF OMITTED] T7302A.140

[GRAPHIC] [TIFF OMITTED] T7302A.141

[GRAPHIC] [TIFF OMITTED] T7302A.142

[GRAPHIC] [TIFF OMITTED] T7302A.143

[GRAPHIC] [TIFF OMITTED] T7302A.144

[GRAPHIC] [TIFF OMITTED] T7302A.145

[GRAPHIC] [TIFF OMITTED] T7302A.146

[GRAPHIC] [TIFF OMITTED] T7302A.147

[GRAPHIC] [TIFF OMITTED] T7302A.148

[GRAPHIC] [TIFF OMITTED] T7302A.149

[GRAPHIC] [TIFF OMITTED] T7302A.150

[GRAPHIC] [TIFF OMITTED] T7302A.151

[GRAPHIC] [TIFF OMITTED] T7302A.152

[GRAPHIC] [TIFF OMITTED] T7302A.153

[GRAPHIC] [TIFF OMITTED] T7302A.154

[GRAPHIC] [TIFF OMITTED] T7302A.155

[GRAPHIC] [TIFF OMITTED] T7302A.156

[GRAPHIC] [TIFF OMITTED] T7302A.157

[GRAPHIC] [TIFF OMITTED] T7302A.158

[GRAPHIC] [TIFF OMITTED] T7302A.159

[GRAPHIC] [TIFF OMITTED] T7302A.160

[GRAPHIC] [TIFF OMITTED] T7302A.161

[GRAPHIC] [TIFF OMITTED] T7302A.162

[GRAPHIC] [TIFF OMITTED] T7302A.163

[GRAPHIC] [TIFF OMITTED] T7302A.164

[GRAPHIC] [TIFF OMITTED] T7302A.165

[GRAPHIC] [TIFF OMITTED] T7302A.166

[GRAPHIC] [TIFF OMITTED] T7302A.167

[GRAPHIC] [TIFF OMITTED] T7302A.168

                                         Wednesday, March 17, 2010.

     HEARING ON FY 2011 BUDGET FOR THE FISH AND WILDLIFE SERVICE: 
      SUSTAINABLE CONSERVATION; SPECIES, PARTNERSHIPS, AND SCIENCE

                               WITNESSES

TOM STRICKLAND, ASSISTANT SECRETARY FOR FISH AND WILDLIFE AND PARKS
ROWAN GOULD, ACTING DIRECTOR, FISH AND WILDLIFE SERVICE
CHRIS NOLIN, BUDGET OFFICER

                  Opening Statement of Chairman Moran

    Mr. Moran. We want to welcome you, Mr. Assistant Secretary, 
and Rowan Gould, who is the Acting Director of the Fish and 
Wildlife Service. We appreciate you taking the time today, and 
Ms. Nolin, thank you.
    On behalf of this subcommittee we want to once again 
express our condolences to Mr. Hamilton's family and 
colleagues, whose passing is a true loss to all of us because 
he represented the best of our civil servants. I understand 
that he got his start building fences on wildlife refuges 
during the summers and transformed his love of the outdoors 
into an outstanding career.
    As we consider the proposed fiscal year 2011 budget for the 
Fish and Wildlife Service, we are aware that it represents a 
transformation really, led largely by Mr. Hamilton, to look 
beyond a particular project, place, or species and consider how 
ecological systems work to sustain themselves. The Fish and 
Wildlife Service is steward to over 551 units in the National 
Wildlife Refuge System, consists of approximately 150 million 
acres, including 53 million acres for marine national 
monuments, 14 of those refuges are in the Commonwealth of 
Virginia. I am sure a lot more are in Idaho and Oklahoma, 
places like that, but we like ours very much. Ohio, too. No 
question about that.
    They all support resource conservation by providing species 
protection and recreational opportunities for the surrounding 
communities. According to the outdoor Industry Foundation, 
outdoor recreation activities contribute $730 billion annually 
to the U.S. economy, supports 6.5 million jobs across the 
country, generates almost $50 billion in annual national tax 
revenue, and produce $290 billion annually in retail sales and 
services across the country.
    In addition to managing the National Refuge System, the 
Service is also responsible for implementing the Endangered 
Species Act, which is terribly important and should be to all 
of us. The service does this either by working with partners to 
keep species off the threatened or endangered list, or working 
to recover species that are on the federal threatened or 
endangered list.
    As a Nation we have over 1,320 endangered or threatened 
species, and we have been able to recover such icons as the 
bald eagle and the peregrine falcon. I can see a bald eagle 
each morning now nesting above the Potomac River. It is a 
wonderful sight, not so much when they are sitting there on the 
branch, but when they take off, what a majestic sight. It is 
understandable why we have chosen them as our national emblem.
    As we look to the future, our management and stewardship of 
these species and resources becomes even more critical, and 
that is particularly the case in light of the very real threat 
of climate change. As John Muir said, you haveheard of John 
Muir, Mr. Simpson.
    Mr. Simpson. This is a Zen moment?
    Mr. Moran. It is so I want you to prepare.
    Mr. Simpson. Okay.
    Mr. Moran. When we tug at a single thing in nature, we find 
it attached to the whole rest of the world, and that is the 
point that we want to make that, you know, it is all 
interconnected, and that is the importance of the Fish and 
Wildlife Service to the quality of life of everyone.
    So we are interested in hearing how you will continue to 
support your mission and transition to the landscape scale when 
you are proposing a $4.6 million decrease in the Fish and 
Wildlife Service's budget and absorbing over $14 million in 
fixed costs.
    We also have concerns about the $4 million in proposed cuts 
for operations of the National Wildlife Refuges. As you know, 
this subcommittee has worked hard over the past several years 
to help the refuges receive adequate funding for their 
operations.
    And finally, it cannot go without mentioning that the $20 
million proposed increase for land acquisitions should be an 
issue subject to discussion with this committee. It is a large 
increase. When you are asking your agency to absorb $14 million 
in fixed costs and decrease your refuge operations and other 
important programs, we obviously will be interested in 
understanding your explanation for why you chose to do that.
    Mr. Moran. And at this point I know we would like to hear 
from Mr. Simpson.

                    Opening Statement of Mr. Simpson

    Mr. Simpson. Thank you, Mr. Chairman. Good afternoon, 
Assistant Secretary Strickland and Deputy Director Gould.
    In all sincerity I wish we were meeting here today under 
different circumstances. I, too, like many of you, were deeply 
saddened by the loss of the late Fish and Wildlife Director, 
Sam Hamilton. I only knew him for a brief time, but I came to 
know him as an honest man and a man of his word.
    As you well know, Mr. Hamilton was at the helm of an agency 
going through a major organizational change. The Fish and 
Wildlife Service is trying to move towards a landscape-level 
approach to conservation. I am not entirely sure what that 
means or how that will work with the constraints of the 
Endangered Species Act, but if it enables the agency, together 
with the states, to move more quickly to de-list species and to 
more effectively prevent listings, then you will have my full 
support.
    I am looking forward to this discussion today and coming 
out with a better understanding of where the Service is headed 
with this Landscape Conservation Cooperative, how the Service's 
existing programs tie into this effort, and how this effort 
compares and contrasts to existing regional collaborative 
scientific efforts led by other Interior bureaus.
    This Nation has a long history of fish and wildlife 
conservation, which has long been led by hunters and anglers, 
including the late President Theodore Roosevelt, who said 
rather wisely and succinctly, I have to put quotes in now 
because if there Chairman is going to throw in quotes, I have 
to put in quotes, too. So as Theodore Roosevelt once said, 
``There can be no greater issue than that of conservation in 
this country.''
    Mr. Moran. Excellent.
    Mr. Simpson. Thank you.
    Mr. Moran. Profound.
    Mr. Simpson. My own father, himself a hunter and an angler, 
instilled conservation ethics in me at a very young age. It is 
my privilege to be able to sit here today with you who 
represent so many that share this same ethic.
    Again, thank you for being with us today, and I look 
forward to your testimony and working with you on the Fish and 
Wildlife budget.
    Mr. Moran. Thank you very much, Mr. Simpson, and Mr. 
Strickland, would you care to proceed with your statement?

                      Testimony of Tom Strickland

    Mr. Strickland. Thank you, Mr. Chairman and members of the 
subcommittee and staff and guests in the audience. It is an 
honor to be here today to introduce the 2011 budget request for 
the U.S. Fish and Wildlife Service and to assist our Acting 
Director Rowan Gould and other members of the Fish and Wildlife 
team to answer your questions.
    As you know I am also the Secretary of Interior's Chief of 
Staff. In that role I see the breadth of the influence of this 
subcommittee, and I want to share my appreciation for your 
support. In my role as the Assistant Secretary for Fish and 
Wildlife and Parks, I have a special appreciation for your 
leadership in these areas and with these bureaus. Your support 
is helping us to build a strong foundation in these agencies to 
tackle climate change impacts, conserve our treasured 
landscapes, support energy development, and engage America's 
youth in natural resources programs. I look forward to working 
closely with you to continue to advance these priorities.
    The mission of the Department of Interior is as simple as 
it is profound, and each of you in your statements alluded to 
those points. We protect America's natural resources and 
cultural heritage. The Fish and Wildlife Service has a very big 
part of that mission; conserving, protecting, and enhancing 
fish, wildlife, plants, and their habitats for the continuing 
benefit of the American people.
    Through extensive partnerships across the Nation, the 
Service protects and conserves migratory birds, threatened and 
endangered species, certain marine mammals, and inter-
jurisdictional fish, and we administer the National Wildlife 
Refuge System.
    We have almost 9,000 employees who are a dedicated cadre of 
professionals that face enormous challenges. Challenges they 
confront every day to protect fish and wildlife, adaptively 
manage in the face of climate change, support accelerated 
energy development, and restore our treasured landscapes.

                              SAGE-GROUSE

    Recently we announced our decision for protection of the 
greater sage-grouse. As with every decision, the Service 
utilized extensive scientific and commercial information to 
ensure that its decision was based on the best possible 
information.

                              Sam Hamilton

    Most recently, the Service, and its employees, were faced 
with perhaps the biggest challenge in recent memory, and you 
each alluded to it, and I thank you very much for your 
acknowledgement of the loss of our Director, Sam Hamilton. Sam 
was a visionary and a professional whose years in the Service 
and passionate dedication to his work have left an indelible 
mark on these lands and wildlife that we cherish. His forward-
thinking approach to conservation, including his view that we 
must think beyond boundaries and think in the landscape scale. 
Congressman, we look forward to responding a little bit more to 
your desire for fleshing that idea out--will continue to shape 
our Nation's stewardship for years to come. He was a remarkable 
leader, and he was a compassionate, wise, and very optimistic 
man.
    When he became the Director of the Fish and Wildlife 
Service on September 1 of last year, he brought over 30 years 
of experience with the Service, beginning when he was a 15 year 
old, Mr. Chairman, as you acknowledged, working as a Youth 
Conservation Corps member in the Noxubee National Wildlife 
Refuge in Mississippi. In fact, I think it was Senator Cochran 
who introduced him at his confirmation hearing.
    Throughout his career, Sam exhibited outstanding leadership 
and fostered creative and innovative solutions to the 
challenges facing wildlife conservation. In the southeast 
region, which he ran for 12 years, he supported efforts leading 
to the establishment of a carbon sequestration program that has 
helped biologists restore roughly 80,000 acres of wildlife 
habitat. He had great emphasis on partnerships with other 
landowners and State and local and private entities.
    He has bolstered our Fisheries Program, and he helped 
establish the Southeast Aquatic Resources Partnership that 
restored vital aquatic habitats around the country.
    We recognize, and we honor Sam. We are going to actually 
have a service at the Department on April the 9th, with his 
family, to continue to pay our respects to him. He played a key 
role in the recovery after Hurricanes Rita and Katrina, which 
had devastating impacts to our natural resources and certainly 
our human resources down in the southeast.

                          2011 BUDGET OVERVIEW

    Let me turn to an overview of our 2011 budget. The 2011 
budget for the Department reflects the challenges of our 
constrained economic times. The overall budget request for 
current appropriations is essentially level with the 2010 
enacted level. We recognize the significant increase that the 
Congress provided to us in 2010, and we sustain most of that in 
this 2011 proposed budget.
    The proposed budget for 2011 is $1.6 billion, which is $4.6 
million below 2010. It is 194 million, however, above the 2009 
enacted level. The tough choices we made across the Department 
are reflected in our own reductions in the Fish and Wildlife 
Service budget. Department-wide we identified reductions of 
$750 million that enable us to direct funding to maintain 
progress on a set of key priorities for a new energy frontier, 
climate change adaptation, treasured landscapes, WaterSMART, 
which is our water sustainability initiative, youth in natural 
resources, and empowering tribal nations.
    These cuts include $82 million in management efficiencies, 
Department-wide again, such as reduced travel, and $620 million 
in program reductions and $54 million in Congressional 
earmarks.
    The funding increases for these initiatives in the 2011 
budget will allow the Service to do the following things: to be 
able to confront the realities of climate change; continue to 
implement an integrated strategy for climate change adaptation; 
and develop a 21st century conservation agenda that protects 
treasured landscapes, including funding for Land and Water 
Conservation Fund programs, and investments in major ecosystem 
restoration projects throughout the country, including but not 
limited to the Chesapeake Bay, California's Bay-Delta, the Gulf 
Coast of Louisiana and Mississippi, and the Everglades.
    It also allows us to support the New Energy Frontier 
strategy that creates jobs and reduces the Nation's dependence 
on foreign oil and reduces environmental impacts.
    Finally, we will engage America's youth in natural 
resources commitment.

                        CLIMATE CHANGE ADAPTION

    In the area of climate change adaptation, I will just say a 
few words. The Service's contributions to these initiatives and 
their importance to ensure success cannot be overstated. The 
Service created the Landscape Conservation Cooperative (LCC) 
approach that is now one of the organizing principles for the 
Department's Climate Change Program. The Service has moved out 
quickly to establish LCCs and will have nine created this 
fiscal year. They are working collaboratively with the other 
Interior bureaus, other departments, States, Tribes, and 
partners based on a well-thought-out and comprehensive 
strategy.
    Just for a second, I might add Sam Hamilton was very 
involved in this, along with Dan Ash and other leaders, but it 
literally is the work of the Fish and Wildlife Service over the 
last few years that has been the organizing effort to bring a 
coordinated approach to the entire Department of Interior as we 
look out and approach climate change. A year ago at this 
hearing we would not have been able to say that. We did not 
have our people in place, and we did not have this coordinated 
strategy. Today, as we sit here, we can say with great 
confidence that we are all on the same page, all five bureaus 
at the Department of Interior.
    This subcommittee supported a robust 2010 budget for the 
Service's Climate Change Program, and we are moving swiftly to 
execute the program in a way that honors your request that we 
be strategic.
    I would like to assure the subcommittee that we are 
responding to your request to develop a National Fish and 
Wildlife Adaptation Strategy. We recently provided a timeline 
to the subcommittee on this project.

                          NEW ENERGY FRONTIER

    In the area of the New Energy Frontier, I would like to say 
that as the stewards of the Nation's natural and cultural 
resources, we are mindful of your concerns that we ensure 
careful consideration of the potential impacts of energy 
development. The 2011 budget includes increased resources to 
carry out endangered species consultation and other wildlife 
conservation efforts and provide timely environmental review of 
renewable energy projects.
    The Service does not bear the responsibility for the 
protection of resources on its own, however, as the other 
bureaus are also committed to the protection of our treasured 
landscapes.
    I grew up hunting and fishing, like many of you around the 
table, with my father and my family, and I bring the 
perspective of a sportsman to this job. Our system of wildlife 
refuges spans all 50 states, and they play an invaluable role 
in preserving and protecting countless species. Yet these vital 
lands face enormous pressures from population growth and 
climate change. We must develop a strategic plan to ensure that 
these challenges are addressed so that we have a vibrant 21st 
century Wildlife Refuge System.
    The 2011 budget proposes $106.3 million, that is an 
increase of $20 million, for additions to 44 refuges and 
wildlife management areas. These additions will protect 
endangered species, migratory birds, and plants while providing 
increased areas for wildlife viewing and other recreational 
pursuits. Mr. Chairman, I will be happy to speak to you about 
the strategic goals there as compared to other needs and will 
look forward to your questions in that area.

                               ECOSYSTEMS

    The budget also includes increases targeted to key 
ecosystems for restoration and renewal. I mentioned those a 
moment ago; the Everglades, California's Bay-Delta, the Gulf 
Coast of Louisiana and Mississippi, and the Chesapeake Bay. We 
will talk about these a little further during Mr. Gould's 
testimony.

               NORTH AMERICAN WETLANDS CONSERVATION FUND

    The budget also continues important programs that 
complement these efforts. The North American Wetlands 
Conservation Fund budget request is $42.7 million. It is a 
reduction of $5 million from the 2010 level. This program 
leverages Federal funding by more than one to one and funds 
partnerships with others to protect wetlands and waterfowl 
habitat.

                       YOUTH IN NATURAL RESOURCES

    Our Youth in Natural Resources funding is one of the bright 
spots in the 2011 budget, and this is a program that reaches 
young people from all backgrounds. The Service's budget 
includes an additional $2 million for youth employment programs 
at National Wildlife Refuges and $1 million to partner with the 
National Fish and Wildlife Foundation in public-private 
partnerships to engage youth through conservation projects on 
public and private lands.

                 NATIONAL FISH AND WILDLIFE FOUNDATION

    I just want to take a moment to say that we have a great 
partnership with the National Fish and Wildlife Foundation, not 
only on this youth program but on a whole range of things, and 
we want to point out what a great partner they are, and of 
course, their connection to this committee is well known to 
you.

                       YOUTH IN NATURAL RESOURCES

    In 2010, the Service will increase youth employment by 50 
percent and by an additional 25 percent in 2011. You can tell 
that that is a big priority for us.
    In summary let me say, again, thank you for the opportunity 
to testify on behalf of the President's 2011 budget request for 
the Fish and Wildlife Service. I want to reiterate my 
appreciation for the longstanding support of this subcommittee 
and to say that I look forward to working with you throughout 
the 2011 budget process. We have a tremendous opportunity to 
improve the future for our children and grandchildren by 
developing wise investments in clean energy, managing the 
impacts of climate impacts, conserving treasured landscapes, 
and engaging our youth in natural resources.
    This concludes my written statement. I am happy to answer 
questions you may have. I know Mr. Gould has some prepared 
remarks as well.
    [The statement of Tom Strickland follows:]

    [GRAPHIC] [TIFF OMITTED] T7302A.169
    
    [GRAPHIC] [TIFF OMITTED] T7302A.170
    
    [GRAPHIC] [TIFF OMITTED] T7302A.171
    
    [GRAPHIC] [TIFF OMITTED] T7302A.172
    
    [GRAPHIC] [TIFF OMITTED] T7302A.173
    
    Mr. Moran. Thanks very much, Mr. Strickland, and maybe Mr. 
Gould, I see that your statement, although it is not on both 
pages, it appears to be at least as long or perhaps more than 
Mr. Strickland's. We might want to summarize it a bit and then 
get into the questions if it is okay with you.
    Mr. Gould. I would be happy to do that, Mr. Chairman.
    Mr. Moran. Thank you.
    Mr. Gould. By the way, congratulations on your becoming 
Chair of this Subcommittee.
    Mr. Moran. Thank you, sir.

                        Testimony of Rowan Gould

    Mr. Gould. We have worked with you in the past and look 
forward to continue to work with you in the future, and I would 
also like to thank Mr. Simpson. It is always a pleasure to be 
working with you. You have supported us in the past, and this 
committee has been hugely helpful. The Fish and Wildlife 
Service wants to thank you for that.
    I will summarize my remarks considerably. The President's 
fiscal year 2011 budget request for $1.6 billion for the U.S. 
Fish and Wildlife Service will focus funding on the agency's 
highest priority conservation initiatives, while containing 
costs to address government fiscal realities.
    Among our top investments are increases of $18.8 million 
for climate change adaptation, an additional $16.2 million for 
ecosystem restoration and $20 million for federal land 
acquisition. The budget focuses on key ecosystems threatened by 
pollution, water shortages, and habitat disruptions through our 
treasured landscapes initiatives. It also includes an 
additional $3 million as Tom indicated in Youth in Natural 
Resources.

                             CLIMATE CHANGE

    As previously indicated, the Fish and Wildlife's 2011 
budget provides for an increase of $18.8 million for climate 
change, and that is one area where I specifically want to 
address my remarks. The budget will build on the new Landscape 
Conservation Cooperatives, LCCs, which are partner-based, 
centers for biological planning and shared science. Notice I 
did not say shared management. It is planning and shared 
science. By the end of fiscal year 2010, nine LCCs will be 
established as indicated, and fiscal year 2011, three 
additional LCCs will be established with $3.8 million of the 
requested increase for climate change planning.
    That is our expected amount. Because of the active 
involvement of other agencies in the Department of Interior, we 
may even move forward faster in establishing these LCCs. The 
Secretary has shown great support for the concept, and other 
agencies are really working with us to help convene some of 
these LCCs along with other government agencies including State 
agencies. It has been a great success so far. We are in this 
development phase, but we are showing a lot of success.
    To press these scientific needs we are adding upon the 
funds that were provided to us in 2011. We are adding an 
additional $5 million to provide funding for climate models, 
species and habitat assessments, and other information needed 
to make required management decisions by the various partners 
that are part of the steering committees of these LCCs.
    The budget also provides $8 million for continued 
development of our Refuge System Climate Science Inventory and 
Monitoring Effort, as well as $2 million for conservation 
measures on private lands through the Partners for Fish and 
Wildlife Program. The availability of additional scientific 
information and better decision support tools make the Service 
and its partners more effective in delivering conservation on 
the ground by identifying high-priority areas for conservation, 
as well as tailoring actions collaboratively to achieve 
population objectives.
    Similarly, additional science capacity will expand our 
ability to monitor and evaluate our collective successes in 
sustaining fish and wildlife in the face of climate change. 
These monitoring efforts are not just with the Fish and 
Wildlife Service and other DOI agencies, but with the Forest 
Service, and other partners that will bring together a 
monitoring system that will allow us to look at our successes 
over a large landscape level. The whole LCC concept is seamless 
in this geographic scope and will allow everybody to coordinate 
and cooperate without, at the same time, infringing upon folks' 
management authorities and responsibilities.

                          TREASURED LANDSCAPES

    Tom indicated that we have $16.2 million for treasured 
landscapes. He indicated I was going to go into some more 
detail, but in the interest of brevity, I will forego that.

                       YOUTH IN NATURAL RESOURCES

    When we talk about funding for jobs in natural resources 
for youth, $2 million of that is going to our National Wildlife 
Refuge System, and that is for our YCC Programs and other youth 
employment activities. An additional $1 million is going to go 
to the National Fish and Wildlife Foundation, an incredible 
partner of the Fish and Wildlife Service. They are actually 
going to leverage that $1 million with private contributions 
and implement a competitive grant program to develop new and 
existing conservation job initiatives. So we thank them for 
that.
    The 2011 budget for the refuge systems is roughly $500 
million, a net decrease of $3.3 million. This includes an 
increase of $8 million for the Climate Change Inventory and 
Monitoring Program, the improved information that we will 
develop from our inventory and monitoring program, as well as 
the biological planning support from LCCs will provide us with 
much better information to enhance Service decisions in the 
refuge system and elsewhere throughout the Service.

                           ENDANGERED SPECIES

    In endangered species, the budget includes a total of 
$181.3 million, which is an increase of $2 million from the 
2010 level. The budget includes funding to support the 
Department's New Energy Frontier Initiative, providing 
consultations on renewable energy projects. The budget also 
provides additional funding for high-priority species recovery 
activities.
    Additionally, there is an increase in recovery to fund 
projects for species on the brink of extinction or within reach 
of recovery. The Cooperative Endangered Species Conservation 
Fund, very important to the states, is funded at $85 million, 
matching the fiscal year 2010 enacted level.

                 AMERICAN RECOVERY AND REINVESTMENT ACT

    The Service was fortunate to be able to help with our 
Nation's financial recovery through the American Recovery and 
Reinvestment Act. The act provided the Service with $115 
million for 733 construction projects, roughly three times the 
size of the Service's average annual construction budget. In 
2011, the Service will be completing many of the ARRA-funded 
projects, and therefore, the budget proposes a smaller-than-
average construction program to be funded with annual 
appropriations. The 2011 Construction Request of 23.7 million 
will fund the highest-priority projects not funded through 
Recovery Act funding.
    The budget proposes to increase land acquisition by $20 
million to a total of $106.3 million. The fiscal year 2011 
project list includes several large landscape-scale projects, 
several examples of these projects would provide us with 
increased acreage into the system that is consistent with the 
types of decisions we are making in these Landscape 
Conservation Cooperatives.
    The Service will also purchase additional acreage in many 
of the areas that you guys are interested in, locally, 
Virginia, Idaho, so on and so forth. So hopefully that budget 
will be successful for all of you.
    I thank you for the opportunity to testify this afternoon, 
and I look forward to answering any questions as well as 
working with you through the appropriations process, and I 
think I cut it in half.
    [The statement of Rowan Gould follows:]

    [GRAPHIC] [TIFF OMITTED] T7302A.174
    
    [GRAPHIC] [TIFF OMITTED] T7302A.175
    
    [GRAPHIC] [TIFF OMITTED] T7302A.176
    
    [GRAPHIC] [TIFF OMITTED] T7302A.177
    
    [GRAPHIC] [TIFF OMITTED] T7302A.178
    
    [GRAPHIC] [TIFF OMITTED] T7302A.179
    
    [GRAPHIC] [TIFF OMITTED] T7302A.180
    
    [GRAPHIC] [TIFF OMITTED] T7302A.181
    
    Mr. Moran. Thank you, Mr. Gould. We thank you very much.

                 LAND ACQUISITION AND REFUSE OPERATIONS

    Mr. Strickland, you have requested $106 million for federal 
land acquisition. It is an increase of $20 million over last 
year's level, but you have not requested any increase for 
operations and maintenance. Instead you have proposed 
reductions in refuge operations, law enforcement. You failed to 
fund the full fixed costs for the Fish and Wildlife Service 
itself.
    So the question that the committee wonders is can we really 
afford to add new land when funding for operations is 
deliberately constrained. You have a maintenance backlog of 
$2.7 billion, and so some would wonder if you cannot fully 
improve habitat on the land that the Service already owns, I 
guess the question we would like to ask you is should we not 
work on reducing that maintenance backlog and improving habitat 
on the land we already own first. Mr. Strickland.
    Mr. Strickland. Mr. Chairman, thank you for that question, 
and it is a very good question. Budgets are always about 
priorities, and they do reflect the values that you bring to an 
undertaking, and so those are very good questions.
    It certainly is not ideal to take a cut in any of these 
areas, because there has been a long-term under-funding of the 
Service, and we are trying to restore that now. This committee 
was very, very supportive in the 2010 budget, and so we were 
able to make some big steps forward. When you add to that the 
Recovery Act dollars that Rowan just talked about, we were able 
to pick up a big chunk of the most important backlog in 
deferred maintenance and construction projects with an emphasis 
on immediate job creation.
    The most precise answer that I can give your question is we 
were balancing competing priorities, which are way beyond what 
we have the dollars to deal with, but we have, we believe, an 
urgency with respect to certain acquisitions. About half of the 
acquisitions are fee and half are acquisition of conservation 
easements. We have land prices at a record low. The land 
acquisitions are all within existing refuge boundaries. The 
added operational costs are minimal because in some ways it 
actually makes it easier to manage the lands because you have 
unified ownership.
    It is a balancing act, and different folks might come at 
that differently, and you all certainly have your imprimatur to 
bring to this exercise, but we tried to use our best judgment 
to look at where we could accommodate and absorb further 
efficiencies in our operations and still take advantage of 
these record low prices. Climate change is putting huge 
pressures on our habitat, and our portfolio of refuges and 
habitat will have to make adjustments as we deal with differing 
impacts of climate change.
    Mr. Moran. That is a good answer, underscoring the 
historically low price of land and the fact that these pieces 
of land are being bought up within areas that are already being 
managed so it does not apparently require as many new 
personnel. I do think it is still a concern for the committee, 
though.

                             CLIMATE CHANGE

    Last year's statement of the managers of the Appropriations 
Subcommittee asked that you be mindful of the need to 
effectively and efficiently use this funding, so we want to ask 
how are you ensuring that you are not duplicating the climate 
change efforts of other agencies such as the U.S. Geological 
Survey, who are also very much involved in climate change. What 
kind of resources are the partners bringing to the table to 
leverage federal funding for climate change? We are all in this 
together, so how are you coordinating?
    Mr. Strickland. Thank you for the opportunity to answer 
that question, and I can say that we are in a much better 
position to answer that question I think satisfactorily to the 
committee today than we were a year ago because a lot has 
happened, and this is one of the areas where Sam Hamilton 
really led. I am going to let Rowan elaborate here, but frankly 
the approach that the Fish and Wildlife Service has developed 
over the last few years, these Landscape Conservation 
Cooperatives, are now not just a Fish and Wildlife exercise, 
the entire Department, all the bureaus are organizing around 
these operations. We are going to have these sets of regional 
climate science centers and then at a lower level, I guess, or 
a more closer level to the landscape we are going to have 17 
or----

                  LANDSCAPE CONSERVATION COOPERATIVES

    Mr. Gould. Twenty-one.
    Mr. Strickland [continuing]. 21 now. It has been a moving 
number but 21 Landscape Conservation Cooperatives. The 
Department of Interior, the Secretary is committed to that, and 
he has put out a Secretarial directive to that effect.
    I am going to let Rowan add to that as well as talk about 
the fact, and you might pick an example of one that we have 
stood up, because we have partners stepping up with their own 
dollars at the local level and----
    Mr. Moran. In doing that you are asking for three brand new 
Landscape Conservation Cooperatives, LCCs. Where are you going 
to put those?
    Mr. Gould. Well, actually, the three have not been 
delineated. The answer is there may be more, and the reason is 
because we are getting a lot of support from Bureau of 
Reclamation and the National Park Service to bring additional 
resources into this whole process.
    For instance, Landscape Conservation Cooperatives are an 
offshoot, as Sam envisioned it, of the joint ventures that 
still exist, and are very effective, and what LCCs are are all-
species joint ventures. We have actually had two joint 
ventures; one in Florida and one in the Great Plains area, 
stand up and say, we want to stand up these LCCs, co-convene 
with the Fish and Wildlife Service.
    There are other resources coming to bear to stand these 
things up outside of the Federal Government, and that is very 
gratifying. The states are supportive of participating in some 
of these, so the exact three have not been defined yet. I 
cannot tell you exactly what they are, but the resources we 
will bring to the table will be able to stand up in partnership 
and co-convene at least three more. So that is good news.
    In terms of the coordination with other agencies, as you 
are aware, NOAA is looking at this climate change issue from a 
very large perspective. It is looking at weather change 
patterns, sea level rise, ocean acidification, that sort of 
thing. They have resources going into climate change this year 
and next year.
    The next level down are Climate Science Centers that are 
funded by USGS, and these folks will take this very large, 
high-level information, step it down into taking physical 
models and physical understandings of the changes that are 
going to occur, and allow a biological assessment at a larger 
landscape level to then pass down to the LCCs so that that 
shared scientific capability can use that information to 
predict effects on population size, where we do restoration 
projects, and take into consideration the moving landscape, 
that sort of thing.
    The coordination between agencies, all the participants, at 
all different levels is at this point, from a conceptual phase, 
seamless. We have already stood up an LCC, for instance, in 
Hawaii that considers existing partnerships. They are using the 
science money that is going into the LCCs to determine effects 
of climate change on island habitats, sea bird islands, that 
sort of thing, which could be profound. This particular process 
has been accepted by the Governor as the way wildlife 
adaptation is considered from a state perspective in the larger 
plans they are putting together to deal with climate change in 
the future.
    Mr. Moran. Okay. When Mr. Simpson gets free, we will give 
him an opportunity to ask another question.
    Mr. Simpson. I have been ready for so long.
    Mr. Moran. Well, now is your chance.

                 NATIONAL FISH AND WILDLIFE FOUNDATION

    Mr. Simpson. Not to miss out on any of the love going 
around the table, let me just tell you. I want to endorse what 
you said about the National Fish and Wildlife Foundation. It is 
a great organization. What do you think about it, Greg? You 
have not told us yet. I do not know what they had to do to get 
in both your testimonies. I am just kidding. Well, not really 
but----

                REFUGE AND HATCHERY DEFERRED MAINTENANCE

    I see that as was mentioned, the maintenance budgets for 
the refuges and fisheries have always been kind of low, and we 
caught up with those with the ARRA funding. I mean, we tried to 
address all of that in the ARRA funding?
    Mr. Strickland. We made some progress.
    Mr. Simpson. What this kind of reminds me of is what 
happened with the National Institutes of Health, NIH. In 1996, 
Congress said that they were going to double the NIH budget 
over a 5-year period, which they did. I came in '98, kind of in 
the middle of that doubling period, and we did double their 
budget over a 5-year period. The next 5 years it was the de-
doubling of the 5-year increase because everybody said, well, 
we have done that for NIH. Now we do not have to do that 
anymore. Let us go do something else, and I think they may have 
been better off had we not said we are going to double your 
budget and just done a normal, you know, over that 10-year 
period some normal increases.
    And I wonder if we are putting a whole bunch of money into 
this in the ARRA funding, saying, well, we have addressed this 
need or at least taken care of a lot of it, and now we are 
going to see degradation of the maintenance and so forth 
because we think we do not have to do that anymore.
    Mr. Strickland. Actually, we will always be investing in 
our deferred maintenance, and we will always be making a 
commitment. It just allowed us to catch up, you know, cut the 
backlog, if you will, but the effort is ongoing. We have to do 
it----
    Mr. Simpson. The level we are at now is going to add to the 
backlog. Right?
    Mr. Strickland. Well, I will let Rowan step in here as 
well. I think that we are keeping up. I think with the 
increases that we saw in 2010, to our budget, it was an 
increase over the funding we had in the previous years. Then 
the boost from the ARRA funding allowed us to do, I think it 
was 3 years in 1 year. That has given us a little bit of 
breathing room, but we have to continue to make a strong effort 
every year, and we are going to be here. We are not done with 
that, and the ARRA funding did not get us altogether out of 
that backlog. The same thing for the parks. You had the hearing 
on that, and you heard that we----
    Mr. Simpson. Sure.
    Mr. Strickland [continuing]. Have a $9 billion backlog 
there. I think it is going to be a continued priority and a 
continued effort. I do not think this is going to put us 
further behind.
    Mr. Gould. In fact, the $280 million we received of ARRA 
funding, $105 million was for construction projects, $100 
million went toward deferred maintenance program, both in 
fisheries and refuges.
    Mr. Simpson. Okay. So we addressed the deferred 
maintenance.
    Mr. Gould. Right. That is correct.
    Mr. Simpson. With the budget that you requested this year, 
will that deferred maintenance backlog grow or decrease?
    Mr. Gould. It will decrease. We actually accelerated our 
work on the construction side of things 4 years, and we 
accelerated our progress 2 years on deferred maintenance 
projects.
    Mr. Simpson. With the ARRA funding.
    Mr. Gould. With the ARRA funding.
    Mr. Simpson. I am not suggesting that that----
    Mr. Gould. We are still----
    Mr. Simpson. I am saying with the amount that we have got 
for the next budget year----
    Mr. Gould. Right.
    Mr. Simpson [continuing]. Ignoring the ARRA funding----
    Mr. Gould. Right.
    Mr. Simpson [continuing]. How much would we have to put 
into the deferred maintenance to address it over say the next 
20 years? To reduce it to zero over the next 20 years.
    Mr. Gould.  We do not have that information here today and 
would be glad to provide that to the committee later, but $2.7 
billion is our backlog.
    Mr. Simpson. Is the backlog.
    Mr. Gould. Yes.
    Mr. Simpson. Okay. Well, I would just like to make sure 
that we are not just talking about Fish and Wildlife Service. I 
am talking about all of our agencies, that we do not take 
advantage of the ARRA funding to reduce what we need in the 
future, which I have seen happen, not particularly here but in 
other types of instances.

                           ENDANGERED SPECIES

    Let me talk for a minute about sage-grouse, or let you talk 
for a minute about sage-grouse, since it has huge impacts 
obviously, potential impacts on Idaho. Could you tell me what 
the main threats to the species are, and along with that, is 
grazing, properly-managed grazing, a threat to sage-grouse, and 
for that matter, the slickspot peppergrass either. And I say 
properly managed because obviously you can overdo everything. I 
mean, you can graze ground to the nubbins where there is no 
grass left, which we have all seen happen in some instances 
before, but properly-managed grazing--is it one of the threats 
to the habitat of the sage-grouse or to the condition of the 
peppergrass?
    Mr. Strickland. Well, I will let Rowan speak to the 
peppergrass. Congressman Simpson, your focus on proper grazing, 
there is a way to have a harmonious development orharmonious 
activities with grazing, just as there is an opportunity to do energy 
development on public lands and private lands and do it in a 
responsible way.
    Your Governor and certainly Governor Freudenthal of Wyoming 
have identified core areas where there are the nesting areas. 
If we are smart from the start and we figure out where the most 
sensitive areas are and then we manage with those areas in mind 
and we have special protections where they matter the most, 
then we can have a wide range of activities.
    Now, the sage-grouse is an interesting situation because I 
think 60 percent of the habitat, the remaining habitat of the 
sage-grouse is BLM land. We have to get it right, and your 
question really kind of speaks to that in terms of BLM grazing 
and that sort of thing. We are confident that this sage-grouse 
strategy that has been put together, really was premised, on 
creating an opportunity based on science. We made the decision 
that the listing was warranted but precluded based on higher 
priorities.
    That also reflected the sense of urgency or lack thereof 
relative to the immediate threat. Now, the threat with the 
grouse is not immediately the numbers, because the numbers are 
decent, they are solid, and they are dispersed out over a wide 
geographic area, but it is the habitat. It is the threat to the 
habitat, which is only a fraction of what it was historically.
    We have to manage the remaining habitat wisely. We have to 
start in our own backyard at the Department of Interior because 
we have such a huge impact on that.
    Mr. Simpson. Right.
    Mr. Strickland. The answer to reiterate is that we can have 
grazing, and we can have energy development, and we can have 
human activities, but the fact is the spread of the grass, the 
development over time that was not consistent or did not take 
into account good science has caused, you know, pressures to be 
placed on the sage-grouse. We are cautiously hopeful that we 
can avoid having to actually list it if we take advantage of 
some of the very good partnerships. This is probably as good an 
area as any where we see good leadership.
    Mr. Simpson. Will this affect any of the CCAAs that have 
been going on out there?
    Mr. Strickland. They are very consistent. That is exactly 
the kind of thing we want to have more of.
    Mr. Simpson. I am sure you understand that cattle ranchers 
and others are frightened to death because they have seen in 
the past listings used to essentially what they would consider 
run them off the ground, and so I understand the basis of their 
fear, and I would hope that the Department and the Interior 
Department as well as the Fish and Wildlife Service would work 
cooperatively with these people.
    We have examples out there where working with landowners we 
can actually accomplish more than using the hammer, you know. 
If you look at organizations like the Peregrine Fund and the 
Birds of Prey, what they have done with the Aplomado falcon and 
working with landowners in Texas to cooperatives. I mean, you 
know, the Texas ranchers actually like the birds, and we can 
do, I think, a lot better in preservation and restoring a lot 
of these species than we have done working with landowners by 
making it an advantage to have something on your land rather 
than a shoot, shovel, and shut up sort of situation.
    But I will turn it back to you for a minute, Mr. Chairman.
    Mr. Moran. Thank you, Mr. Simpson.
    Mr. Dicks.
    You know that they deferred it. I think you would agree 
with their decision for the time being not to pursue this 
aggressively. Warranted but precluded.
    Mr. Simpson. Yeah. You have not seen any bad press out of 
me.
    Mr. Moran. Mr. Dicks.

                           SOLICITOR OPINION

    Mr. Dicks. Well, first of all, I want to welcome Tom 
Strickland here to the committee, and sorry I was not here for 
your testimony. Actually, I am very pleased with the direction 
of the Fish and Wildlife Service. Our committee on a bipartisan 
basis has been very supportive, after we knew that we had a 
major problem with refuges. We had a public hearing, and the 
witnesses came in and members of the Refuge Caucus talked about 
the fact that the Refuge System was under threat, just like the 
Park Service had been a few years before.
    And I think on a very bipartisan basis this committee has 
addressed both of those problems, and I think the Park Service 
and the Fish and Wildlife Service are at a better place because 
of it.
    Now, I want to ask you a question. Last year I raised 
concerns and asked you about a 2007 opinion by the previous 
Solicitor, interpreting the definition of significant portion 
of the range under the Endangered Species Act. You offered to 
work with Congress on ways to improve the administration of the 
ESA. Three months ago on November 6, 2009, myself and three 
other House committee chairmen sent you a letter requesting 
that you immediately withdraw the opinion.
    We recently received a letter stating that you were still 
reviewing the issue. As you are well aware, the erroneous 
interpretation of the Endangered Species Act, at least in my 
judgment, has already been relied upon by your Department to 
de-list wolves in portions of the Northern Rockies, including 
Montana and Idaho.
    However, a federal Judge last year issued a preliminary 
ruling that this de-listing and the former Solicitor's 
interpretation of the significant portion of range upon which 
the de-listing was based are not rational or consistent with 
the ESA.
    What are we going to do about this?
    Mr. Strickland. Well, Mr. Chairman, as you know and we have 
had many conversations about this and the specifics of the wolf 
decisions that have been made-enormously complicated issues. We 
inherited a lot of Solicitor opinions that are currently being 
revisited. This is one of them. I do not have a definitive 
answer for you today other than to say that they are top 
priority issues. We are looking at them in the context of a 
broader evaluation of ESA.
    We have a number of outstanding issues through court 
decisions and otherwise that are open issues, definitional 
issues that really do need attention. When we were putting our 
team together, we paid respects as I know you have as well to 
the loss of Sam Hamilton, but Sam was very aware of and focused 
on this issue, and he was a key part of our team reviewing the 
opinion and the situation with the wolf.
    We understand because it is in litigation, the court could 
rule any day on that, and the court did make some indications 
of where it might land when it finally rules. We are trying to 
sort through a whole range of Solicitor opinions, not only on 
this issue but a number of others, and we are doing that, and 
as you know, it took us awhile to get our team in place. Mr. 
Hamilton was not confirmed until September the 1st, and our 
Solicitor not much before that.
    We are working to be in a position to answer your questions 
definitively and to try and add more stability to the ESA 
across the board. We think the ESA can be made to work better. 
We have to answer these ambiguous questions. We inherited, 
frankly, a morass of litigation in terms of the administration 
of the ESA, questions about whether science had been used 
appropriately in arriving at listing decisions, and we want and 
try and look at these legal questions not in a one-off way, Mr. 
Chairman, but in the context of a broader review of our 
administration of ESA. We want to do it in a way that it will 
hold up, not just as a series of individual reviews. That 
review is underway.
    We brought Michael Bean onto the team. He is one of my 
Deputy Assistant Secretaries. Michael Bean is probably the 
country's leading expert on ESA, and he is a key part of our 
team that is reviewing the ESA at this time.
    Mr. Moran. Incidentally, I want to associate myself with 
Chairman Dicks' perspective on the endangered species.
    Mr. Dicks. Well, I appreciate that.

                    NATIONAL WILDLIFE REFUGE SYSTEM

    So let me ask you this. How are we doing with the refuges, 
Mr. Gould? Do we have better staffing now, and have you 
utilized the money under the Recovery Act?
    Mr. Gould. Yes. We actually are doing well with refuges. We 
obviously could do better, but given the tight fiscal year and 
the fact that there are different needs for the refuges than we 
saw a few years ago. For instance, we are putting $8 million 
into monitoring programs related to climate change, monitoring 
that could also be important in dealing with invasive species 
issues, dealing with water issues, disease issues, all the 
things that are important to us now. The biological programs 
are going to be beefed up considerably, and more importantly, I 
think, with the kind of information that we are going to get 
from these Landscape Conservation Cooperatives, we are going to 
make better decisions about our management actions on refuges. 
From that perspective, efficiency of what we do with a long-
term view about the actions we take and its affect on the 
species, we are in much better shape.
    Mr. Dicks. Well, I want to tell you that I have followed 
one refuge quite closely on the Nisqually River in Washington 
State, and this has been a good project between the Fish and 
Wildlife Service, the Nisqually Indian Tribe, several citizens' 
groups and the state agencies. And we have taken out some of 
the dykes there, and by this one project we have recreated 30 
percent more estuary than Puget Sound had before we started. It 
is hard to believe that we have taken away that much estuary at 
Puget Sound, which is one of the major issues in salmon 
restoration.
    Jean Takekawa has done a phenomenal job, and we had great 
support from the Administration on that project. We needed just 
a little bit of money to finish. In fact, I called her and told 
her we had the money, but she did not believe me. She just did 
not really believe what could happen, but you all helped us, 
and it was a relatively small amount of money, but we needed to 
finish the project.
    And this is one of those projects where also there is 
tremendous citizen interest, and we had to take away some of 
the walking trails that were on the top of the dykes, but we 
worked it out so that you could still have a way to walk in and 
really have a great view of what is going on but at the same 
time achieve what we needed to do.
    And another one I will mention is the Skokomish River with 
the Skokomish Tribe, and they had another area which had been 
dyked for agriculture. It was a terrible mistake, and they 
worked with the Fish and Wildlife Service to restore that area, 
and it immediately helped the salmon. In Nisqually there is 
indications that the small smelts from other rivers actually 
are coming over to that area.
    These are all examples of really good efforts where the 
people all worked together in the community for a great 
outcome. So I want to tell you I think you have got some great 
people out there.
    Mr. Gould. Very good.

                           SALMON RESTORATION

    Mr. Strickland. I appreciate that. I just wanted to point 
out that many of the programs that you have championed over the 
years, obviously, we put into our base program in 2009 related 
to salmon and habitat restoration for the salmon issue out 
there are now starting to show some great results, including 
great partnerships on other issues, and thank you very much for 
what you did.

                    STATE AND TRIBAL WILDLIFE GRANTS

    Mr. Dicks. Could I have time for one more?
    What about the State Fish and Wildlife Grant Program? How 
is that doing? State and Tribal Wildlife Grants.
    Mr. Gould. For the State and Tribal Wildlife Grant Program, 
we are maintaining our funding at essentially level this year. 
We do have a competitive State grant program of $5 million. It 
has been a huge boon for the states to enact activities that 
support the State Wildlife Action Plans, which were the result 
of this money originally being proposed and appropriated. It 
has been a greatly successful program.
    The states are now counting on it to implement their non-
game programs, and in fact, are using some of these funds to be 
more involved in climate change and other landscape-level 
activities that are appropriate within their specific 
boundaries. We are looking at the State Wildlife Action Plans 
and the State Wildlife Grant money. We are talking with the 
states about how that money could better be used, specifically 
the $5 million that is presently in place for competitive 
grants. We are discussing how those grants might be best used 
by states to be more active in participating in LCCs.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Moran. Thank you, Mr. Dicks.
    Mr. LaTourette.

                        GREAT LAKES RESTORATION

    Mr. LaTourette. Thank you, Mr. Chairman, and thank you for 
your testimony.
    The one thing that I did not hear in your testimony was the 
Great Lakes, and that is kind of important to me. The 
Administration I think deserves great credit for the Great 
Lakes Restoration Initiative. We were a little disappointed 
that it went from $475 million to $300 million this year, but 
when we had Administrator Jackson in front of us she explained 
that they were not ready to put it out the door, but I am 
asking for $475 million again.
    My disappointment, I guess, in the way that it is 
structured is that most of the money remains in the EPA, I 
think of the $300 million proposed it is retaining $169, $170 
million. But I noticed in fiscal year 2010, the Service got $58 
million. I just want to ask you what you spent the dough on and 
what you plan to spend the money on in 2011. I think you are 
only getting $32 million.
    Mr. Gould. That is correct.
    Mr. Strickland. Let me just speak, Congressman, for a 
moment, and our oversight in not mentioning it is duly noted 
because it is a high priority. We are not the lead agency 
there. As you noted the EPA is, but it is very important, and 
we have meaningful dollars.
    I have personally been involved in an inter-agency effort 
with the Asian carp, which is a huge, huge concern we know to 
the Great Lakes States. The Fish and Wildlife Service is 
playing a key role there in terms of bio-barriers and 
monitoring, trying to do everything we can to keep the Asian 
carp out of the lakes. I just wanted to highlight that. I 
appreciate that.
    Mr. Gould. Some of that money that we are getting is 
actually funding that activity, part of that activity anyway, 
and we are also looking at toxic substances. We are also 
looking at invasive species, other invasive species issue.
    If Mr. Dicks were here, he would be very glad to know that 
we are now using that money for the mass marking effort to 
determine wild fish versus hatchery fish, those sorts of 
things. It has been a hugely-productivepartnership, and while 
it is funded by EPA, the partnership is well-coordinated, everybody is 
talking with one another, and it is actually kind of an example of how 
disparate agencies can come together with common goals and move forward 
to save an incredibly important resource.
    Mr. LaTourette. One of the best exhibits I have seen since 
I have been here was when the Fish and Wildlife Service set up 
a display in the atrium of the Rayburn Building and brought 
some critters over. When you talk about invasive species, some 
people, you know, when I talk about sea lamprey, their eyes 
glaze over, and they think it is like an electric eel or 
something, but when you actually see a couple of them swimming 
around and know that they are going to suck the life out of 
game fish on a regular basis, it is an eye-opening experience.
    I did mention to Administrator Jackson, because this big 
pot of money, just from my perspective, the EPA is a regulatory 
agency. They are an enforcement agency. They are really not a 
boots-on-the-ground, going out and cleaning up toxic areas of 
concern or restoring habitat.
    And so I attempted to indicate to her, maybe if you re-
jostled the percentages and the Fish and Wildlife Service got 
more, the Park Service got more, the Corps got more, we would 
actually see more things done. And they are talking about 
taking this big chunk of money and apparently having 
competitive bidding, and my concern is you are going to get a 
lot of little projects that are not going to accomplish much 
rather than really focusing on, for example in my part of the 
world, the Ashtabula Harbor. It costs $54 million bucks. It 
would not have done us any good if we had gotten the $2 
million. So I think people in our part of the world would 
understand that it is not our turn this year, so we are going 
to do something in Michigan, but eventually we are going to get 
the whole shooting match.
    So if you agree with that, if you could advocate for that. 
You mentioned the Asian carp. When USGS was in to see me, they 
said they are working with some of their money on a pill 
apparently to kill the Asian carp. There is a big dust-up going 
on between Illinois and Michigan at the moment about the 
closure of two locks. The news today is that the Supreme Court 
is going to reconsider whether or not to look at that case. I 
do not know if you have seen the YouTube videos of the Asian 
carp, but this is a big deal. The zebra mussels were bad for 
water intake, the round goby is annoying, the sea lamprey, you 
know, by spraying the eggs, we got it under control. But this 
Asian carp thing is serious, serious business.
    So aside from your barrier work and some other things, have 
you looked into the idea that we could make dog food out of 
these fish?
    Mr. Gould. What I do know is----
    Mr. LaTourette. Or cat food.
    Mr. Gould [continuing]. The partnership is looking at every 
possible means that we can to, first, keep them out of the lake 
through the electric barriers, through the Chicago Ship Canal, 
and other areas. We are looking more comprehensively, at the 
DNA to look for the presence of them, and more importantly, to 
look for other biological controls. The partnership, with USGS 
obviously is very active in this particular area, and we need 
to Rotenone. It is the old standard process, but we got to know 
where they are and what life stages, you literally have to have 
the biology of the animal worked out pretty well to use those 
techniques.
    I can guarantee you we are leaving no stone unturned to try 
to figure out how to keep these fish out of the lake. It would 
be a disaster if they went into the lake.
    Mr. Strickland. To add to that, we actually had a meeting 
in the Roosevelt Room at the White House with several of the 
Governors, the head of CEQ, Secretary Salazar, myself, several 
other Cabinet Secretaries, and this is in the time that I have 
been here, in the last year, I cannot think of another issue 
that has so quickly gotten on our radar screen, at this high 
level, with the kind of commitment of resources and sense of 
urgency.
    Mr. LaTourette. I appreciate that, and Mr. Chairman, have 
you ever seen the YouTube videos of these Asian carp?They weigh 
like 100 pounds, they knock grown men out of boats, and they eat 40 
percent of their weight every day, which I am only about 33 percent a 
day. I mean, it really is a big deal. Actually USGS, and I will close 
with this, said they had some Chinese scientists come over to study 
what they were doing, and they wanted to know how come we were so 
successful in breeding Asian carp because all the Asian carp in China 
are dying.
    And so maybe if we had a little technology trading we would 
work this thing out.
    Mr. Moran. Would you tell us what the outlay level will be 
for the Great Lakes Initiative in fiscal year 2010 and fiscal 
year 2011, assuming that there is a cut in actual appropriation 
from the $475 to $300?
    Ms. Nolin. The 2010 level was $58 million, and the 2011, 
level will be $32 million.
    Mr. Gould. Of the $32 million in 2011, there is 
approximately $6 million that the Fish and Wildlife Foundation 
is assisting on.
    Mr. Moran. Thank you. Mr. Cole.
    Mr. Cole. Thank you very much.
    Mr. Moran. Incidentally, I should let everyone know we have 
twelve minutes left on the first vote, and then there are four 
more after that. So we will conclude this hearing before we go 
to vote.
    Mr. Cole. Thank you, Chairman. I just want to tell my good 
friend Mr. LaTourette, there are still lots of invasive species 
around the Longworth Atrium if you just keep your eyes open.

                         TRIBAL WILDLIFE GRANTS

    I want to pick up on something Mr. Dicks asked about 
actually and go a little bit further. He mentioned state and 
tribal wildlife grants, and I am, with him, a great admirer of 
these tribal wildlife grants. They have been very successful. 
You guys have done a great job administering them.
    But in 2010, when the budget went up for the agency, they 
stayed flat. If you look at the state wildlife grants, they 
moved from $63 million--all $15 million went to the states. 
There was nothing for the territories, nothing for the tribes. 
About one out of five of those grants now, as I understand it, 
get approved.
    So why nothing for the tribes, nothing for the territories, 
but a pretty major expansion for the states?
    Mr. Gould. There was a proposed increase and because of the 
tough budget times, quite frankly, it did not----
    Mr. Cole. But that was not a tough budget year. They were 
held flat in the good budget year. They are being held flat 
now.
    Mr. Gould. Not this year.
    Mr. Cole. Yeah. The year that the state ones went up, they 
were flat.
    Mr. Gould. Yeah. I am told that it was Congress that held 
that level flat.
    Mr. Cole. I would ask you to look at that going forward, 
because frankly, it is hard to believe that all the increase 
needed to be in one area than the other two, but I am not 
surprised if somehow Indians did not fare well in Congress.

                            MIGRATORY BIRDS

    Secondly, I have two additional questions that are really 
local but with national sort of perspective. I want to explain 
a problem I had a few years ago. I was a freshman, and all of 
the sudden out of nowhere in a little town, a little area in 
southwest Oklahoma we had an egret rookery emerge. I mean, you 
have never seen anything like it, Mr. Chairman, because when 
tens and tens and tens of thousands of egrets descend on an 
area, and there were homes in this area. It absolutely just 
destroyed properties. It became almost unlivable, a health 
hazard.
    Now, when the egrets migrated, I learned a lot more about 
this than I ever had before. Evidently, they migrate with other 
species of birds that are not nearly so common, and so these 
folks were prohibited by federal law, and I assume by Fish and 
Wildlife, from actually dealing with them or trying to drive 
them off, and you can understand. You do not want to kill, 
endangered species in the process, and that was certainly a 
risk.
    But they got zero help out of Fish and Wildlife. 
Eventually, to get this problem dealt with, they told us the 
state would have to deal with it. They did not have any money 
to deal with it. My good friend, Henry Bonilla, was chairman of 
the Ag Subcommittee then. I went and begged him, and he managed 
to somehow get money out of the Department of Agriculture, but 
it was a matter of concern to me that the agency in charge and 
legitimately protecting the wildlife, had nothing to do to 
mitigate when they were the invasive species so to speak in 
what was not a refuge. This was not park land. This was 
commercial land, but no money there to help people protect 
their own property.
    Mr. Gould. Well, I do not have any specific answer on the 
case you are talking about. I do know that there is a process 
we can go through to deal with, for instance, seagulls in large 
numbers around airports. There is a permitting process you can 
go through to allow the take of those animals using whatever--
--
    Mr. Cole. These folks had done everything, and, again, it 
was a problem. You cannot wait months when this stuff is 
destroying your home. So I would just ask, again, and this is 
not directed at you guys. These things happen in government, 
but there needs to be money set aside so when what are supposed 
to be protected species traveling with unprotected species, and 
you don't have to protect these animals at the expense of 
people. That actually breeds a lot of resentment at what is a 
pretty good program, which is to try and protect migratory 
birds. There was an enormous amount of resentment in the 
southern end of my district when this happened. This was not a 
matter of days or weeks. This was months to finally get rid of 
it, and I cannot imagine this is a unique incident. It must 
happen in other places. I never seen anything like it in my 
life, and evidently this is somewhat common with egrets.

                    NATIONAL WILDLIFE REFUGE SYSTEM

    The last question is about the Wichita Wildlife Preserve. 
It is one of the crown jewels of the wildlife refuges and you 
guys do a great job. It is one of the first ones. It is one of 
the places where we brought buffalo back for the first time and 
moved them to other places in the country. It is a splendid, 
splendid reserve.
    We do have the normal tension, I would think, between 
people that want to use the preserve and officials at the 
preserve. These are issues that come up regularly and frankly, 
we are never quite sure where to resolve them.
    You have got a town of 90,000 that has always been there 
but never that size, and they want to do things like, a 10-K 
race for the local heart fund and they have a terrifically 
difficult time. This is actually graveside, sacred land for a 
lot of Indian tribes. Sometimes they have trouble getting 
access there. The Wichita Mountains are very sacred to the 
Commanches, the Southern Cheyenne, the Arapahos.
    So do you guys look at that?
    Mr. Gould. Yes, we do. Usually it is through some special 
use permits that applications are made to the refuge manager 
and then we go through a process to determine whether that use, 
in fact, is compatible with the purposes for which the refuge 
was established. We work very hard to be as accommodating as we 
can within the constraints of the Refuge Improvement Act and 
the regulations that surround that act.
    Usually the way we get those things done is by having very 
tight relationships with the local community, finding out the 
needs of the local community well ahead of the actual event or 
whatever it may be, and see if we can work out some process by 
which we can accommodate the needs. The issue always comes down 
to communications and working with one another and 
understanding each other's responsibilities and the regulations 
that we have to by law live by.
    Mr. Cole. Well, again, I would just ask you to look at 
those. I do not want the three concerns I have to make you 
think I have anything other than enormous respect for what you 
do and how well you do it under the complexity of problems. 
Especially the tribal grant situation. Maybe it was Congress, I 
am sure it was, but there was not a request for an increase 
this year, and we are much less balanced than we were. And I 
think that is actually really a superb program. Again, you guys 
do a good job with the money you have. I just think you need a 
little bit more.
    Thank you, Mr. Chairman.
    Mr. Moran. Thank you, Mr. Cole and Mr. LaTourette, Mr. 
Simpson. We will conclude the hearing at this point because we 
do have a vote on. We appreciate the testimony, and we 
appreciate all the great service that the Fish and Wildlife 
Service provides America.
    Thank you very much.

    [GRAPHIC] [TIFF OMITTED] T7302A.182
    
    [GRAPHIC] [TIFF OMITTED] T7302A.183
    
    [GRAPHIC] [TIFF OMITTED] T7302A.184
    
    [GRAPHIC] [TIFF OMITTED] T7302A.185
    
    [GRAPHIC] [TIFF OMITTED] T7302A.186
    
    [GRAPHIC] [TIFF OMITTED] T7302A.187
    
    [GRAPHIC] [TIFF OMITTED] T7302A.188
    
    [GRAPHIC] [TIFF OMITTED] T7302A.189
    
    [GRAPHIC] [TIFF OMITTED] T7302A.190
    
    [GRAPHIC] [TIFF OMITTED] T7302A.191
    
    [GRAPHIC] [TIFF OMITTED] T7302A.192
    
    [GRAPHIC] [TIFF OMITTED] T7302A.193
    
    [GRAPHIC] [TIFF OMITTED] T7302A.194
    
    [GRAPHIC] [TIFF OMITTED] T7302A.195
    
    [GRAPHIC] [TIFF OMITTED] T7302A.196
    
    [GRAPHIC] [TIFF OMITTED] T7302A.197
    
    [GRAPHIC] [TIFF OMITTED] T7302A.198
    
    [GRAPHIC] [TIFF OMITTED] T7302A.199
    
    [GRAPHIC] [TIFF OMITTED] T7302A.200
    
    [GRAPHIC] [TIFF OMITTED] T7302A.201
    
    [GRAPHIC] [TIFF OMITTED] T7302A.202
    
    [GRAPHIC] [TIFF OMITTED] T7302A.203
    
    [GRAPHIC] [TIFF OMITTED] T7302A.204
    
    [GRAPHIC] [TIFF OMITTED] T7302A.205
    
    [GRAPHIC] [TIFF OMITTED] T7302A.206
    
    [GRAPHIC] [TIFF OMITTED] T7302A.207
    
    [GRAPHIC] [TIFF OMITTED] T7302A.208
    
    [GRAPHIC] [TIFF OMITTED] T7302A.209
    
    [GRAPHIC] [TIFF OMITTED] T7302A.210
    
    [GRAPHIC] [TIFF OMITTED] T7302A.211
    
    [GRAPHIC] [TIFF OMITTED] T7302A.212
    
    [GRAPHIC] [TIFF OMITTED] T7302A.213
    
    [GRAPHIC] [TIFF OMITTED] T7302A.214
    
    [GRAPHIC] [TIFF OMITTED] T7302A.215
    
    [GRAPHIC] [TIFF OMITTED] T7302A.216
    
    [GRAPHIC] [TIFF OMITTED] T7302A.217
    
    [GRAPHIC] [TIFF OMITTED] T7302A.218
    
    [GRAPHIC] [TIFF OMITTED] T7302A.219
    
                                          Thursday, March 18, 2010.

 CONSERVING AMERICA'S LAND AND HERITAGE: DEPARTMENT OF THE INTERIOR FY 
                          2011 BUDGET REQUEST

                               WITNESSES

HON. KEN SALAZAR, SECRETARY OF THE INTERIOR
PAMELA HAZE, DEPUTY ASSISTANT SECRETARY, BUDGET, FINANCE, PERFORMANCE, 
    AND ACQUISITION

                     Opening Statement of Mr. Moran

    Mr. Moran. We are very happy to welcome you, Secretary 
Salazar, to explain the President's fiscal year 2011 budget 
request for the Department of the Interior. You have made much 
progress in the last year, and I know you have a very 
substantial agenda for the Department of the Interior and for 
the Nation as a whole, and we applaud your vision.
    Those of us who sit on this subcommittee do so because we 
have a love of the land and a deep and abiding commitment to 
protect our natural resources and our environment. Your 
Department is at the forefront of those efforts. Our Nation has 
a long history of efforts to protect our natural resources, and 
both Mr. Simpson and I enjoy quoting Theodore Roosevelt; so out 
of deference to----
    Mr. Simpson. This is the first time you have quoted him.
    Mr. Moran. Yes. But it doesn't mean I don't enjoy quoting 
him.
    Back in 1907--you remember that, Mike.
    Mr. Simpson. This is a quote from memory.
    Mr. Moran. Theodore Roosevelt said, ``Conservation means 
development as much as it does protection. I recognize the 
right and duty of this generation to develop and use the 
natural resources of our land, but I do not recognize the right 
to waste them or to rob by wasteful use the generations that 
come after us.''
    Had Theodore Roosevelt and his generation of visionaries 
not created the forest reserves and today's parks and refuges, 
our Nation would be a much poorer and diminished place to live. 
But it is also true that in our management of these public 
lands, we are not without competing and often conflicting 
interests.
    President Roosevelt also said, ``The conservation of 
natural resources is the fundamental problem. Unless we solve 
that problem, it will avail us little to solve all others.''
    I mention that because I have a strong sense that it is 
wholly consistent with your vision, Mr. Secretary, the same 
vision that Theodore Roosevelt had for our country of 
conservation and protection of our most important natural 
resources. His words are as true today as they were at the turn 
of the last century, and the challenge is just as great, if not 
greater.
    The Department of the Interior plays the most essential 
role in integrating the protection of our natural resources 
with the American economy and our cultural identity. Your 
Department manages 20 percent of the land area of the United 
States and substantial areas of subsurface minerals and the 
Outer Continental Shelf energy areas. These areas produce one-
third of our Nation's energy. The Department is expected to 
collect $14 billion in fiscal year 2011, in revenues for 
deposit into the U.S. Treasury. I kind of wish we could figure 
out a way to put those into this bill to offset some other 
things, but they go right into the Treasury. We won't be able 
to change that this year.
    The Department's lands, including the 392 national park 
units and 551 national wildlife refuges, host more than 470 
million visits each year.
    The Department of Interior also honors the Federal 
commitment to the first Americans by supporting social service, 
education and justice programs for nearly 2 million Native 
American areas, and underlying all is unbiased science, which 
helps the Department and all Americans make better decisions.
    Your budget requests nearly $11 billion to fulfill all 
these responsibilities. It is basically level with the amount 
that was provided for fiscal year 2010. I know there are some 
in this body who believe last year's budget was too high. I 
don't happen to be among them, but there is some sense of that, 
and that justifies the 2011 request. I do firmly believe that 
our work over these past 3 years to increase funding for the 
Department has only partially increased the previous trend, 
which had seen a 17 percent reduction in the Department's 
budget request.
    I also recognize the need for deficit reduction. We will 
scrutinize this request. We may have to plus-up some areas and 
decrease others, and we will look to find some areas of waste. 
I do applaud your initial efforts to deal with the number of 
management problems at the Department such as occurred at the 
Minerals Management Services. That was an embarrassment. But we 
can't stop there. We will work with the Inspector General to 
identify additional actions needed to eliminate remnants of 
waste, fraud, and abuse.
    We are also very much interested in your initiatives. The 
Energy Initiative; the Climate Change Science and Adaptive 
Management Initiative. There is a large increase, of course, 
requested for land acquisitions. We will discuss that.
    We will have, in fact, many questions as we move forward. 
One, for example, will involve the fact that the request 
assumes your Department will absorb 96 percent, or more than 
$100 million, of the increase for fixed costs such as salaries 
and rent.
    Now, before I turn to Mr. Simpson, whom I know everyone is 
anxious to hear from, I want to recognize one of your staff. 
Pamela Haze has to be one of the hardest-working people in the 
Federal Government. She is truly an important human resource, 
and without her we wouldn't be doing as good a job managing our 
natural resources. I welcome the opportunity today to thank her 
for all she does day in and day out, and I know my colleagues 
here beside and behind me count on her so much every day, all 
day long and into the evening to serve both you and your 
priorities, Mr. Secretary, and, of course, this Committee.
    Mr. Moran. So at this point, now that Mr. LaTourette has 
arrived because he wants to hear Mr. Simpson as well, we would 
like to turn it to Mr. Simpson for his opening statement.
    Mr. LaTourette. I apologize for not hearing you. I did come 
for Simpson.
    Mr. Moran. I just filibustered so that you could hear 
everything that Mike had to say.
    So now Mr. Simpson.

                    Opening Statement of Mr. Simpson

    Mr. Simpson. I will put my opening statement in the record. 
No.
    Thank you, Mr. Chairman. I don't have a quote from Theodore 
Roosevelt today, and I am sure it wasn't him that said--gee, 
let me think of one. Never mind.
    Mr. Secretary, I would like to join Chairman Moran in 
welcoming you back to our subcommittee, along with other 
members of the subcommittee. I hope to cover a lot of ground 
with you today on energy, grazing, land acquisition, climate 
change and other issues.
    It is clear from your first year in office that you set an 
ambitious agenda for the Department. While I might not agree 
with every decision you made--in fact, it would probably scare 
you if I agreed with every decision that you have made--I do 
believe that overall you are setting a tone that is balanced 
and reasonable. The fact that people on opposite ends of the 
political spectrum can be happy with you on one day and mad at 
you the next is a pretty good sign that you are doing a decent 
job.
    Let me begin by expressing my appreciation, as the Chairman 
did, to Pam Haze and others in the Department for your 
collaboration on several issues important to my constituents in 
the State of Idaho. I greatly appreciate the close coordination 
and communication between the Department and my office on the 
recent sage-grouse announcement.
    I am also grateful for the considerable efforts taken to 
resolve complex and emotional issues relating to the Minidoka 
national historic site in Idaho. I am hopeful that we can soon 
finalize an agreement acceptable to all parties.
    I want to make several brief points before we receive your 
testimony. First, I am puzzled, as the Chairman said, by 
several decisions made by OMB with regard to your budget 
request. The fact that your bureaus are being asked to absorb 
$109 million in pay and fixed costs next year really, I think, 
is unacceptable.
    I also question the request for a Presidential Wildlife 
Contingency Reserve Fund, which would essentially be a third 
pot of money to address fire suppression needs. Congress 
created the FLAME Wildfire Suppression Reserve Fund last year 
for both the Department of Interior and the Forest Service to 
prevent borrowing from nonfire accounts to pay forfire 
suppression. Let us test that, what we did before, before we tinker any 
further.
    Lastly, I am very disappointed that next year's budget 
fails to address the considerable backlog in grazing permits. I 
hope to work closely with the Department and with Chairman 
Moran to address the grazing issue and these other issues this 
year.
    Mr. Secretary, while your budget request is relatively flat 
after a healthy increase last year, I am concerned about the 
trade-offs your budget makes, particularly when it comes to 
increases in the Land and Water Conservation Fund at the 
expense of other critical base programs. These rapid increases 
in land acquisition coupled with decreases in construction and 
maintenance budgets tells me that the administration places a 
higher priority on acquiring more land rather than responsibly 
managing what the government already owns.
    I would like to touch on one other issue today, and that is 
energy. Shortly after the President nominated you to be 
Secretary, you made a commitment that you wanted to ``take the 
moon shot'' at achieving America's energy independence. I agree 
with you on that it can be done through a combination of 
renewable energy, nuclear energy, clean coal, and both offshore 
and onshore oil and gas drilling. But up until now the Obama 
administration has seemed determined to drive up the price of 
energy, including the price of gas at the pump. It has done 
this through promoting cap-and-trade legislation, new rules on 
greenhouse gases, and new fees on domestic oil and gas 
production, all efforts that will drive up the costs that will 
be passed on to the consumers.
    The administration's emphasis on renewable energy, 
including tax incentives and expedited environmental reviews, 
is a positive sign. Yet if our goal is to become less reliant 
on imported oil and gas, why aren't we with equal zeal 
advocating the development and production of proven domestic 
sources of oil and gas? When it comes to energy, the 
President's budget clearly creates winners and losers. 
Renewables are the big winners; oil and gas are the big losers. 
With gas prices edging ever closer to $3 per gallon, we are 
reminded of the need for a balanced energy portfolio. To 
achieve energy independence, we ought to be vigorously pursuing 
an assortment of proven energy sources rather than pitting one 
energy sector against another.
    In closing, I want to compliment you on the fine 
professional staff the Department has that serves you and 
serves this country well. As I said, and as the Chairman said, 
Pam has done a wonderful job in working with our committee, and 
her willingness to work with us to seek solutions to some very 
difficult problems is much appreciated.
    With that, I thank you for being here today.
    Thank you, Mr. Chairman.
    Mr. Moran. Thank you, Mr. Simpson.
    Mr. Moran. And I hope, Mr. Secretary, you noticed the 
purple shirt and tie. Mr. Simpson had heard a rumor that purple 
was your favorite color.
    Mr. Simpson. No. It is the royal color.
    Mr. Moran. Oh, the royal color. Excuse me. Just to make 
sure he was fully appreciated.
    Mr. Secretary, we are obviously delighted to have you with 
us, and we look forward to your testimony.

                     Testimony of Secretary Salazar

    Secretary Salazar. Thank you very much, Chairman Moran.
    Let me first, Mr. Chairman, congratulate you for your 
chairmanship of this committee, which is so important to the 
United States of America and to the interests that you share as 
a responsible steward with the Department of Interior. I 
congratulate you, and I very much look forward to working with 
you on all of the issues you addressed in your opening 
statement, as well as other issues included within this budget.
    To Congressman Simpson, likewise, I look forward to working 
with you on many issues.
    I do think one of the things that typifies this committee 
is the fact you are able to develop a bipartisan approach to 
many of the challenges that we face. Certainly that was the 
relationship that I had with Chairman Dicks and you, 
Congressman Simpson, and I very much look forward to having 
that same relationship with the new Chairman, Moran.
    Let me at the outset recognize and acknowledge your 
wonderful staff, from Delia, to staff on both the Democratic 
and Republican side, and the staff who work at the Department 
of the Interior. Pam Haze, as you say, walks on water and, 
frankly, probably does the work of four people. She is one of 
our great efficiency personnel in the Department of the 
Interior because it would take four people to replace her. With 
me also is Rhea Suh, who is the Assistant Secretary for Policy, 
Management and Budget; and Christopher Mansour, who is in 
charge of congressional affairs and who worked here in the 
House of Representatives for many years.
    Let me just make a couple of opening comments, and then I 
would be delighted to take your questions.
    First, the mission of the Department of the Interior, 
Chairman Moran, you set out very clearly in your opening 
statement, and the way I have seen it and I have articulated it 
from day one is we really are the custodians of America's 
natural resources and America's cultural heritage. That is 
manifested in our work in our national parks, where we are the 
guardians of the national icons of America, but also the 
custodians of telling America's story. It is recognized with 
respect to our 551 national wildlife refuges which support our 
wildlife in this country and in so many other ways.

                            ECONOMIC IMPACTS

    I could describe the Department in great detail, but let me 
just say there is one thing that I think often is missing when 
people think about the Department of the Interior, and that is 
we are a huge economic generator and job creator for the United 
States of America. I recently had the Department of the 
Interior develop an economic analysis identifying the number of 
jobs created through the efforts of this Department. We create, 
according to our economists, 1.4 million jobs that are 
supported across this country. I think at this time when this 
Congress and this President are so involved in trying to get 
our economy stood up again, we ought not to lose the huge 
economic contribution that comes from the efforts of the 
Department of the Interior, supported through this 
Appropriations Committee.
    We generate over $370 billion in economic activity, from 
recreation to the oil and gas and mineral development around 
the country. We have 414 million visitors that come to visit 
our places around this country, and we truly are the Department 
of America. From sea to shining sea, into the territories, and 
into the Outer Continental Shelf, we have major 
responsibilities on behalf of the American people.
    When I came on as Secretary of the Department of the 
Interior, I was on the other side of the Capitol as a United 
States Senator for the State of Colorado, and I did not 
relinquish my position as a United States Senator very easily 
because it was a great position that I held. I also recognize 
that within the Department of the Interior, the mission of this 
Department is an exciting one and one in which we are forging 
the future of this country's natural resources and moving 
forward with the kind of vision and the kind of agenda that 
President Theodore Roosevelt had for this Department almost 100 
years ago.

                       CLIMATE CHANGE AND ENERGY

    My priorities have been fairly simple. First, I want to be 
and have been a part of the President's energy and climate 
change team. That includes the development of conventional oil 
and gas resources, and I will Congressman Simpson, respond to 
some of your statements on energy development. We have also 
been the guardians of establishing a new energy frontier for 
public lands and in the OCS offshore. We look forward to 
developing wind, solar, and geothermal in significant numbers, 
including, hopefully, by December 1 of this year having 
approximately 5,000 megawatts of renewable energy power onshore 
and moving forward with new efforts in offshore wind 
development off the Atlantic, which I know, Congressman Moran, 
you have been very supportive of.

                              CONSERVATION

    Secondly, I want us to move forward with a new conservation 
agenda for the United States. It is true when President Teddy 
Roosevelt became the conservation President of our country, he 
was ahead of his times in many ways. When Doug Brinkley wrote 
the biography of Teddy Roosevelt and called him the 
``Wilderness Warrior,'' it was a very different time than the 
time we face today.
    The challenges are different today than they were then. We 
now look at wildlife habitat fragmentation, we look at the 
challenges of climate change. We recognize that we lose about 2 
million acres a year to development as farms are converted over 
to development. The conservation challenges are different today 
than they were 100 years ago. Nonetheless, I believe that by 
working with and respecting private landowners and private 
property rights, and working with local governments and State 
governments, we can develop a conservation agenda for this 21st 
century that President Obama has asked me to develop with all 
of you.

                             INDIAN AFFAIRS

    Third, I want us to move forward in my time as Secretary of 
the Interior and do everything we can to help the Nation's 
first Americans. For too long the Nation's first Americans have 
been forgotten, and we need to have a new beginning. That is 
why in this first year we moved forward with the settlement of 
the Cobell litigation, which essentially had hamstrung this 
Department for 13 years. I hope to have that question resolved 
with congressional approval of the settlement, which we worked 
on very hard in the last year. We are also working on law 
enforcement initiatives within Indian Country, as well as 
education, and economic development within Indian Country.

                                 YOUTH

    Finally, with respect to our next generation of 
conservation leaders and young people who really understand the 
outdoors, we have moved forward with a youth initiative. Part 
of it is reflected here in the budget. When one thinks about 
what the Civilian Conservation Corps did during the era of 
Franklin Roosevelt, the last time we had a huge economic crisis 
in this country that rivaled some of the economic crisis we 
have been through here, it was the young people of America that 
built much of the legacy we depend on today. We believe we can 
do some of the same things with our partners in the nonprofit 
world as well as by providing employment within the Department 
of the Interior. We hope to, over the next several years, more 
than double the number of young people who are working in all 
of the different programs we have within the Department of the 
Interior.
    In conclusion, Mr. Chairman, I very much look forward to 
working with all of you. I know there are tough issues. This 
budget that is presented to you is a tough choices budget. It 
would not have been the budget I would have presented had we 
not been dealing with the fiscal reality we are facing here 
today. We had to make some hard choices, and it is the best 
budget relative to how we can move forward to accomplish the 
mission for the Department of the Interior.
    Mr. Moran. Mr. Secretary, thank you. A very good statement.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7302B.001
    
    [GRAPHIC] [TIFF OMITTED] T7302B.002
    
    [GRAPHIC] [TIFF OMITTED] T7302B.003
    
    [GRAPHIC] [TIFF OMITTED] T7302B.004
    
    [GRAPHIC] [TIFF OMITTED] T7302B.005
    
    [GRAPHIC] [TIFF OMITTED] T7302B.006
    
    [GRAPHIC] [TIFF OMITTED] T7302B.007
    
    [GRAPHIC] [TIFF OMITTED] T7302B.008
    
    [GRAPHIC] [TIFF OMITTED] T7302B.009
    
    [GRAPHIC] [TIFF OMITTED] T7302B.010
    
    [GRAPHIC] [TIFF OMITTED] T7302B.011
    
    [GRAPHIC] [TIFF OMITTED] T7302B.012
    
    [GRAPHIC] [TIFF OMITTED] T7302B.013
    
                           ENERGY DEVELOPMENT

    Mr. Moran. I would like to begin with a discussion of the 
issue of energy and your stewardship of oil and gas programs. 
You are to be commended for proposing a very impressive, 
comprehensive and long overdue list of reforms of the Federal 
Government's onshore oil and gas programs. In January you 
proposed a new oil and gas leasing program for the BLM that is 
intended to introduce the balance that is sorely needed between 
oil and gas development and protecting the environmental values 
on our public lands. I wonder if you could tell us when you 
plan to get those new reforms finalized and underway. What is 
the time schedule for that, Mr. Secretary?
    Secretary Salazar. In the very near time, Chairman Moran, 
we have the instruction memorandum which had been sent out by 
BLM to the field for review and comment, and the Director of 
the BLM, Bob Abbey, will soon be able to issue those 
instruction memoranda.
    Mr. Chairman, I know time is valuable here, but I also 
think we have had a balanced energy approach, and partly in 
response to Congressman Simpson's statement, the fact of the 
matter is that President Obama has long said our energy program 
for the Nation has got to be comprehensive in nature. It has to 
include conventional energy as well as renewable energy. It 
also has to address the realities of global warming which are 
affecting our children. We have been moving forward with an 
agenda that embraces that comprehensive package.
    The one thing I would point out to this committee, because 
you have overseen what happens with oil and gas development, is 
that we have had a robust oil and gas development program in 
the Department of the Interior. I won't go through all the 
statistics, but let me just give you a couple.
    In 2009, we leased more acres in the Gulf of Mexico than in 
any other year since 2000, with the exception of 2008, which 
was a high record year for prices for oil and gas. In 2009, our 
onshore, which I know, Congressman Simpson, you care a lot 
about, we had the highest level of bonus revenues since 2001. 
The onshore acres leased in 2009 actually increased over where 
they were in previous years, and onshore oil production 
increased, and offshore acres leased also increased.
    When you look at the statistics, the fact of the matter is 
we have had a significant production component of the 
President's comprehensive energy plan.

                             ENERGY REFORMS

    Mr. Moran. Mr. Secretary, will the new reforms that you 
have cited include explicitly rescinding the various 
instruction memoranda? They were issued throughout the previous 
administration's tenure that are counter to the intended policy 
of balance, but they seem to still be in place. Do you have any 
intention of rescinding some of those instruction memoranda?
    Secretary Salazar. Chairman Moran, we have moved forward 
with rescinding policies from the past we thought did not 
achieve the balance the President and I believe ought to be 
achieved on our public lands. They have included, for example, 
our efforts to make sure we are protecting our national parks 
and wildlife refuges and special places from development.
    Our motto, Chairman Moran, is to really be smart from the 
start. I think in the past what happened is that oil and gas 
leases were essentially just given out like pieces of paper to 
whoever came in and actually bid on these places. The approach 
we are taking is to be proactive in identifying those areas 
best suited for oil and gas development, because otherwise what 
ends up happening is that we end up creating uncertainty for 
the oil and gas industry. Forty-nine percent of the leases that 
were issued in 2008 were actually protested and went into some 
form of administrative litigation or even beyond that. Steps 
are now being taken to carefully manage decisions with respect 
to those areas that we leased.

                           OCS FIVE YEAR PLAN

    Mr. Moran. That is very interesting.
    Now, we are also interested in the activities concerning 
new Outer Continental Shelf oil and gas development. I know 
that you are reevaluating the proposed new 5-year planning 
process which the previous administration began 2 years ahead 
of schedule, just before they left town. I know that you 
recently announced environmental studies which will precede 
geological surveys off the east coast. We would like to know 
what is going on now and how might this impact areas that have 
not seen drilling for decades, such as the mid-Atlantic.
    Secretary Salazar. Chairman Moran, we are getting close to 
the point where we will have an announcement on the Outer 
Continental Shelf and what our plans are with respect to oil 
and gas development. I will say it has been a matter that has 
been in litigation in large part because the prior 
administration didn't do the environmental work that it should 
have done. A conservative court judge in the D.C. Circuit court 
writing the opinion said the environmental analysis for the 
2007-2012 plan had not been appropriately done. We had to go 
back and redo the 2007-2012 plan as well as deal with the new 
5-year plan. We are within weeks of completing the 
decisionmaking process, and you can look forward to an 
announcement.
    That plan is guided by a number of different factors, 
including the eight factors set forth in the law that governs 
development in the Outer Continental Shelf. Included in that 
plan and in those factors is that we need to assess and 
understand the science as well as the geophysical information 
that is available to us in each of the different areas we are 
considering.

                      RENEWABLE ENERGY ON THE OCS

    Mr. Moran. Thank you.
    The Minerals Management Service also has responsibility 
under you for renewable energy development in the Outer 
Continental Shelf, such as wind and wave projects. I think we 
would be interested in how that is progressing, the energy 
potential for this resource. I wonder if you could just give us 
an update before I turn to Mr. Simpson. What is happening to 
the cape wind project off Massachusetts, and what are the 
barriers to this project and to others, such as the potential 
wind farm off the coast of Virginia, that might be proposed in 
the future?
    Secretary Salazar. Let me say three things. First, I 
believe standing up the Atlantic wind energy potential is 
something we can do and will do in the timeframe of this 
administration. There is huge potential out there, including 
the National Renewable Energy Lab that has quantified the 
amount of wind energy that could be produced from the OCS off 
the Atlantic as well as other areas.
    Second, we have broken what had been a regulatory logjam, 
because of a jurisdictional dispute between MMS and FERC last 
year, and we now have a set of rules that allow us to move 
forward with renewable energy permitting for offshore wind.
    Third, we have created or are in the process of creating a 
consortium of the States along the Atlantic so we can work 
closely with them in the development of offshore wind off the 
Atlantic. I think there is huge potential, because unlike in 
Congressman Simpson's State where we are actually working to 
stand up transmission on a fast-track program in Idaho, one of 
the things that is an opportunity in the Atlantic is you don't 
have to go through a lot of the same considerations you have to 
go through when you are standing up transmission on the 
onshore. There is huge potential for the offshore wind, 
including putting in a backbone for transmission off the 
Atlantic. You will be hearing a lot more about that in the very 
near future.

                               CAPE WIND

    The final point on Cape Wind, we are in the process of 
getting close to a decision. I have terminated the consultation 
process that had been in place and have moved it over to the 
Advisory Council on Historic Preservation. Their deadline to 
report to me with their advisory opinion is, I believe, April 
15th. I will take that opinion, along with all of the rest of 
the information that I have the record on, and I will render a 
decision on the Cape Wind application. That decision will 
either be to have cape wind move forward, or, in 
thealternative, it will be to deny the application.
    Mr. Moran. And when would you be making that decision?
    Secretary Salazar. It will be probably towards the latter 
part of April.
    Mr. Moran. Mr. Secretary, thank you very much.
    Mr. Simpson.

                            OCS DEVELOPMENT

    Mr. Simpson. Thank you, Mr. Chairman.
    I suspect you saw the Washington Post yesterday and the 
article on the front of it that said, ``Tide for Drilling off 
Virginia Turns Favorable,'' and that it is not a partisan 
issue. Both the Democratic Senators from Virginia and the 
Governor of Virginia, a Republican, both support offshore 
drilling off of Virginia since the 25-year moratorium lapsed in 
2008.
    Just out of curiosity, when we built the Woodrow Wilson 
Bridge across here, we waived more environmental laws than 
Carter has liver pills to get that built. Is there anything 
that Congress or the Administration can do to speed up the 
process to access that oil and natural gas off the Virginia 
coast?
    Secretary Salazar. Congressman Simpson, we spent a lot of 
time on that, and that will be part of the announcement we have 
on the OCS. Because this is still a matter under court 
jurisdiction, without telling you where I will end up on that 
decision, I will say the particular area you are interested in, 
Lease Sale 220 off the Virginia coast, ought not to be seen as 
the panacea for any of the budgetary woes that are being seen 
in Virginia. The reason for that is, first of all, the seismic 
information that we have off the Atlantic coast is 30 years 
old. So what is there, in the triangular area off the coast, is 
still something which is an unknown. It is not something that 
is going to be developed in the next however many years.
    Secondly, even if the decision is to move forward with 
Lease Sale 220, there is still the need to move forward with 
the environmental impact statement which needs to address the 
military issues in part and other issues that are impacted by 
whatever happens within that particular area.
    The long and short of it is, Congressman Simpson, you say 
that the tide has turned. The fact is whenever we do any 
decision with respect to offshore drilling, the policy of the 
State which is involved is one of the factors we look at, and I 
am certainly aware of the policy of the State of Virginia and 
the statements you talked about in that Washington Post 
article.
    Mr. Simpson. So you wouldn't suggest that we waive all the 
environmental laws like we did on the Woodrow Wilson Bridge? 
You don't have to answer that.
    Secretary Salazar. No.
    Mr. Moran. I am not sure we are planning on building a 
bridge to England from Virginia, but go ahead, Mr. Simpson. I 
don't want to interrupt you.

                      EQUAL ACCESS TO JUSTICE ACT

    Mr. Simpson. I think he got my point.
    EAJA, the Equal Access to Justice Act, it is very difficult 
to find out how much money we have paid under that act. As you 
know, it is an act set up with the best of intentions to help 
citizens pay for attorneys' fees when they bring lawsuits and 
prevail. How is that being handled by your Department? Who pays 
it? Is it the judgement fund? Is it your Department? If they 
have a lawsuit and end up paying attorneys' fees, is there any 
way to get an accounting of, governmentwide, how much we are 
paying into this fund?
    As you know, there are organizations, probably 
organizations on both sides of the issues, that almost look at 
this as a way of funding the organization. Again, is there any 
accounting? Is there any way of determining who assesses the 
fees that are being charged and so forth? Can we get that 
information? From what I understand, originally when it started 
off, there was an accounting of that, and the public actually 
had access to it, and then it just kind of disappeared, and it 
has been--nobody knows.
    Secretary Salazar. Congressman Simpson, that matter really 
is something which comes from the Department of Justice because 
that is where the judgment fund is----
    Mr. Simpson. Is that who pays it?
    Secretary Salazar. It comes out of the judgment fund. For 
example, in the Cobell litigation we have been involved in, the 
money that ultimately would pay for the attorneys' fees and, in 
fact, for the settlement, is money that comes out from the 
judgement fund. I think that is a question which I will be 
happy to raise with the Attorney General.
    Mr. Simpson. If someone sues the BLM over a grazing permit, 
and it goes through all the court procedures, and a settlement 
is made, BLM doesn't end up paying the EAJA fees for that 
plaintiff; it is the judgement fund?
    Secretary Salazar. I believe that to be the case, 
Congressman Simpson, but I will check further on that and get a 
more specific answer back to you. Or perhaps this is something 
that Pam Haze might know something about.
    Mr. Simpson. And I am not trying to ask this in a way that 
says it is not justified or anything else. I would just like to 
know how much we are paying and if we appropriate money for it. 
But if you would get back to us----
    Secretary Salazar. Let me just ask Pam to provide the 
answer.
    Ms. Haze. My understanding is the Department of Justice 
pays it, and they have an accounting, and we are supposed to 
over time reimburse those costs.
    Mr. Simpson. Through appropriated dollars?
    Ms. Haze. Through whatever means it is available. If it was 
a mandatory account where the action was related to, that way.
    Mr. Simpson. So essentially the Department pays for those 
in the long run?
    Ms. Haze. I think it is fair to say many of the departments 
have not been keeping up with all of the reimbursements.
    Mr. Simpson. Because we have not been able to find an 
accounting of who is getting these fees and how much they are 
being paid? I would sure like to find out, but I will follow 
up----
    Secretary Salazar. I think it is an important question, and 
let us get some information back to you that will be responsive 
to your question.
    [The information follows:]

                      Equal Access to Justice Act

    The Equal Access to Justice Act (EAJA) (5 U.S.C. Sec. 504; 28 
U.S.C. Sec. 2412) provides for the award of attorney fees (up to $125 
per hour) and other expenses to eligible individuals and small entities 
that are parties to litigation against the government. An eligible 
party may receive an award when it prevails over the government, unless 
the government's position was ``substantially justified'' or special 
circumstances make an award unjust.
    To recover under EAJA, a claimant must show that it is a 
``prevailing party.'' Parties are considered to be prevailing parties 
when they have been successful on any significant issue in litigation 
that achieves some of the benefit the parties sought. A party must also 
show that the lawsuit was a material factor in bringing about the 
desired result and the outcome was required by law and was not a 
gratuitous act by the government. Finally, whether a party is a small 
entity for purposes of EAJA is determined by a unique size standard 
included in the act. Compliance with the size standard is a threshold 
requirement for an award of fees under the Act.

                            GRAZING PERMITS

    Mr. Simpson. I appreciate it. Last year we appropriated a 
million dollars to address the backlog in grazing permits. This 
year OMB and the Department left that out. What are we doing to 
address the backlog in the grazing permits and trying to get 
that up to speed so that we don't have the problems we have 
with the grazing going on across the country?
    Secretary Salazar. Director Abbey has been very involved in 
addressing this issue. I don't know whether he has testified 
before the committee yet, but he is the Director of BLM and 
worked in the BLM for about 30 years, was State Director in 
Nevada, and he is aware of the grazing permit backlog, and I 
know that he is working at it.
    At the end of 2009, there were 4,326 grazing permits that 
were backlogged, and about 90 percent of 18,000 permits have 
been processed at least once in their ten-year expiration 
cycle. We are working on it.
    Mr. Simpson. We appropriated money last year to work on it. 
That money is not proposed in your budget. Added on top of 
that, $109 million throughout the Department in fixed costs 
that have to be absorbed by the Department somewhere. Assuming, 
as I said, during I think it was the hearing at the BLM that 
you don't hire people just to drink coffee, without fixed costs 
there is going to be something that doesn't get done. There are 
going to be fewer people to do something, to decide to do some 
activities rather than other things. How are we going to 
address the backlog in that arena and others if we have reduced 
personnel and so forth in the future?

                              FIXED COSTS

    Secretary Salazar. Well, Bob Abbey says we are going to be 
smarter about it, and that what BLM will do is to prioritize 
the permit renewals where we are able to move forward where, 
for example, we are not tied up in litigation.
    On your broader question on fixed costs, and absorbing the 
fixed costs that we have, it is a tough budget. It is not the 
budget I would have proposed if we were not dealing with the 
fiscal situation that we are currently dealing with. We had to 
take some cuts. I think it is $62 million or so just with 
respect to travel, acquisitions and information technology. One 
of the things that we did is Rhea Suh and Pam Haze took the 
budget line by line, working with our Bureau Directors, looking 
at where we could make the cuts. As we move forward, there may 
be some areas where we can find greater efficiencies and still 
do the job; there may be other areas where we need to revisit 
with this committee relative to some of those allocations.

                         INFORMATION TECHNOLOGY

    I will say, for example, not on the fixed costs, but on 
information technology, our Department essentially was 
spending, I believe, $1.3 billion a year on information 
technology. Part of what was happening is we have such a 
stovepiped Department because of its history that there wasn't 
the kind of coordinated, integrated approach to information 
technology. We believe we can achieve efficiencies in IT 
through a more coordinated approach.

                                 TRAVEL

    We believe we can cut back on travel by eliminating 
unnecessary travel and by not as many people traveling to 
conferences.
    It is in that vein that we are trying to come up with a 
realistic budget for these very tough budget times. We absorbed 
the fixed costs for our employees. Our view is we can find 
smart ways of doing our work, but recognize that it is not the 
preferable way to go.

                              COST-CUTTING

    Mr. Simpson. Let me just conclude by saying it somewhat 
reminds me of what we around here always do when we want to 
save some money: We just say, we will just get it through 
waste, fraud, and abuse. Nobody knows what that is, but we are 
going to get it through waste, fraud, and abuse.
    And when I look at this overall budget, it kind of concerns 
me that while we are trying to address things like backlog 
maintenance, we are trying to do backlog and grazing permits 
and so forth, we are putting money into acquisition of land and 
increasing the appropriation for that and some other things, 
while it seems like we are shorting some of this backlog stuff. 
So I would expect if we continue this over the next 3 or 4 
years, we will see an increase in the backlog, and that 
concerns me, because I think one of our primary concerns over 
the years as a committee has been to try to address the backlog 
whether it is in maintenance, whether it is in grazing permits, 
whether it is in other things, but try to get the Department 
caught up rather than expanding, if you know what I mean. Thank 
you.
    Mr. Moran. Thank you, Mr. Simpson.
    Incidentally, for what it is worth, it took 10 years to 
build the Wilson Bridge, including 2 full years for the NEPA 
environmental review.
    Mr. Simpson. It would have taken 100 if it was in the West.
    Mr. Moran. Moving along. Mr. Chandler.

                   Opening Statement of Mr. Chandler

    Mr. Chandler. Thank you, Mr. Chairman.
    Mr. Secretary, it is nice to see you. You and I have known 
each other for a long time, and I think that this Department 
and this country are awfully lucky to have you serving in that 
role, a difficult role, in my opinion. The challenges are 
pretty great. The main challenge is one of balance, and I know 
you deal with that every single day, how you balance 
preservation and development and so forth on so many different 
fronts and all the decisions that you make. You are the number 
one steward for our country. That is your responsibility, to be 
a good steward for this Nation, and I thank you and the 
Department,and I think you do a tremendous job.
    I was just wondering, first of all, if there are any 
specific areas in which you have--in your first year being 
Secretary--seen instances in which you have struck that 
balance; that you have dealt with some things that have been 
difficult, and you found the balance that you were looking for, 
which, of course, led to a better stewardship for any 
particular part of the country.
    And another thing I am curious about is where we are headed 
in terms of putting together a strategic plan on climate change 
and what the Interior Department is doing in that regard. I 
know that there was a GAO report that came out last year that 
said that the Federal Government really had not had a 
coordinated strategic plan related to climate change, and I 
assume that there are some folks in the Interior Department who 
are interested in how climate change is going to affect certain 
parts of the country and how we would adapt to those effects. 
Thank you.

                              OIL AND GAS

    Secretary Salazar. Thank you, Congressman Chandler and 
Attorney General Chandler and great friend from Kentucky. Let 
me just say first in terms of the areas of balance, probably 
the area that has received the most attention has been what we 
have done with oil and gas. Some people have not been happy 
with what we have done there, but we believe and I believe we 
found the right balance. We have allowed oil and gas 
exploration and development to move forward in the right places 
and at the right time. We also have done it in a way that we 
are protecting other values that are very important, including 
national parks and wildlife areas and places that have very 
special ecological or historical values. That is a balance I 
think we are achieving.
    We have still got a way to go on the onshore. I believe the 
plan you see on the Outer Continental Shelf will also reflect 
that kind of balance.

                      CLIMATE CHANGE COORDINATION

    Second, with respect to climate change and how we are 
coordinating the Federal Government effort on that, let me 
respond in two ways. First, it is an issue which the President 
has been very focused on and has wanted to make sure that the 
agencies of the Federal Government are, in fact, working in a 
coordinated fashion. An interagency council has been created to 
deal with climate change and adaptation, and our Department 
works closely with the other departments working on that issue 
to make sure we have a coordinated strategy going forward.
    Second, with respect to the Department of the Interior, we 
have coordinated our own efforts with a Climate Change Response 
Council, which I created, which I chair, and which includes all 
of the different agencies of the Department of the Interior. 
Prior to my coming on board, on this issue as well as with many 
other issues, we essentially had what was a stovepiped 
Department with each of the agencies doing its own thing. We 
aren't doing that anymore. We are working hard to make sure the 
efforts of the United States Geological Survey, the Fish and 
Wildlife Service, the National Park Service, the BLM, and the 
Bureau of Indian Affairs on the issue of climate change are, in 
fact, coordinated.
    Let me just say one final thing, Congressman Chandler. I 
know you and Congressman Salazar often talk about this issue of 
climate change, as does Congressman Simpson. Let me say, for 
me, the place where I sit in the United States Government on 
this Cabinet level, I see it in some very real ways. I see it 
when I go to a place like Pelican Island, as I was there a 
couple of months ago with Sam Hamilton, who passed away 
recently. I see Pelican Island, the first national wildlife 
refuge, essentially disappearing because of the fact that the 
sea is rising. I see it in Montana, where I visited Glacier 
National Park with Senator Baucus in the summer of last year, 
and they tell us that the glaciers at Glacier National Park 
will no longer be there in the year 2020. And I see it in 
places like the Apostle Islands, where Dave Obey and I, in 
going to the islands, received the assessment of the scientists 
there that the surface water temperature is now 5 degrees 
warmer than it used to be. The consequences of that for the 
fishery and for the other ecological values of the Great Lakes 
ought to be sending off some alarm bells in people.
    I know there is debate still going on in the Congress about 
how we fix the climate change challenge of our time, but as a 
steward of our Nation's natural resources I see the impacts of 
climate change in a very real way. I have seen them through my 
eyes. It is an urgent problem that is crying out for a 
solution.
    Mr. Chandler. I appreciate that, Mr. Secretary, and thank 
you for watching out for that. I believe it is very important, 
too, and I am glad that you could enlighten us a little bit on 
some of the real things that you are seeing along those lines. 
I hope you have just completed your first of eight good years 
as Secretary. Thank you.
    Secretary Salazar. Thank you very much.
    Mr. Moran. Thank you very much, Mr. Chandler.
    Mr. LaTourette.

                  Opening Statement of Mr. LaTourette

    Mr. LaTourette. Thank you, Mr. Chairman.
    I would just say to my friend from Kentucky that I will do 
my level best to make sure that the next Republican President 
of the United States keeps the Secretary in place.
    Welcome, and thanks for being here.
    Last year we talked a little bit, and I give 
PresidentObama, you and your Department very high marks for finally 
treating the Great Lakes as an entire ecosystem. I think the 
President's Great Lakes Restoration Initiative is a great one. But we 
have had the opportunity to have Administrator Jackson in front of us, 
and we had your Chief of Staff who was filling in for Mr. Hamilton the 
other day on the Fish and Wildlife Service. And my concern--and I will 
invite your comment on it if you want to comment on it, but you don't 
have to--is that I get why it went from 475 million to 300 million. I 
think Administrator Jackson did a good job of explaining that.
    My concern continues to be that the lion's share of the 
money is being maintained in EPA, and if you take Fish and 
Wildlife, for instance, they got $58 million out of the$475 
million. This year they are only slated for $32 million, and 
you see that kind of pattern, whereas the EPA out of $300 
million is going to retain for their disposal $169 million, I 
think.
    Now, the problem with that is EPA is a great organization, 
but when you talk about cleaning up the Great Lakes or making 
sure the Asian carp doesn't get into Lake Michigan, they are 
really not the ``boots on the ground'' people. It is the 
outstanding people that you have at the Fish and Wildlife 
Service and the Park Service and the Corps of Engineers and 
everything else.
    I think when the Administrator of the EPA was in front of 
us, she said, well, the game plan is to accept grants, 
applications from State and locals and distribute that money, 
you know, sometime after the rules are put in place. And as 
somebody who had an area of concern on the Great Lakes, a place 
called Ashtabula Harbor, it took us a long time and $53 million 
to get it done. You know, I think the analogy I would give is 
you are going to have a lot of check presentations, but not a 
lot of ribbon cuttings, because a problem that takes $53 
million, if you throw a million at it, you are really not going 
to get it done.
    So I asked both of your Directors to sort of think about 
maybe, one, getting some of the cash out of EPA's hands in the 
future; and two, redesigning this grant program so that--and 
you know I would--I think there are 52 areas of concern left in 
the Great Lakes. So I would understand if today Michigan got 
the $50 million and we would have to come back next year. I 
mean, I think we all get that. My concern if we each get a 
million dollars is that we are not going to get it done. So any 
thoughts that you have and----

                              GREAT LAKES

    Secretary Salazar. Congressman LaTourette, let me respond 
just in two ways. First, I think we ought not lose sight that 
the President has put a spotlight on the Great Lakes, and I 
think the initiative says a lot when you talk about additional 
increases in funding for the Great Lakes initiatives. We are 
involved in that through a number of our agencies, including 
the Fish and Wildlife Service. We will continue to be part of 
that broader effort.
    I do think one of the questions you raised, which I think 
is a very legitimate question for this committee and this 
country, is how we develop the right templates for the 
restoration of these complex ecosystems. We are involved in a 
number of these initiatives all over the country, including 
right now in a very heated controversy concerning the water 
supply issues in California and the San Francisco Bay Delta. I 
have asked the National Academy of Sciences to help us try to 
figure out the best practices relative to how we actually 
succeed in the restoration of these ecosystems.
    Congressman Moran and others who follow what has happened 
here in the Chesapeake Bay know the amount of money that has 
gone into the Chesapeake Bay. We still have a lot of progress 
that we have to make there. The same thing is true for the 
Great Lakes.
    A place where we have made very significant progress has 
been the Everglades. The Everglades restoration may, in fact, 
be a template for one of these very complex ecosystems which 
can be restored.
    If there are suggestions you have, Congressman, about how 
we can be more effective with the boots on the ground relative 
to the restoration of the Great Lakes, I believe that our 
administration would be very open to hearing from you.

                     BIOLOGICAL RESOURCES DIVISION

    Mr. LaTourette. I would say Administrator Jackson has been 
kind enough to send people over who are in dialogue. I just 
wanted to bring it to your attention. And because of my great 
respect for you on the water issue in California, I am not 
going to pull any questions out of my pocket from Congressman 
Nunes. We are going to talk about something else.
    Several years ago when my colleague Ralph Regula was the 
Chairman of this subcommittee, he worked with former Secretary 
Babbitt to develop a biological expertise for the entire 
Department, especially the land management agencies at USGS, 
through the establishment of a Biological Resources Division, 
and I guess a multipart question is, are you committed to this 
division and the support that it is providing to your land 
management agencies, and why does it appear, I guess, that 
agencies within the Department appear to be building their own 
capacity in this regard rather than relying on the initiative 
of Chairman Regula and Secretary Babbitt?
    Secretary Salazar. I believe that the efforts of Secretary 
Babbitt in establishing the biological survey and integrating 
the efforts of the Department was a very worthycause. I believe 
we need to integrate the efforts of our Department and do away with the 
stovepipes of the Department. I am supportive of efforts that do away 
with the stovepipes and provide the kind of information sharing across 
the bureaus that is important. That is part of the reason why we have 
established a Climate Change Council, which I chair, because I want to 
make sure the science we are developing at USGS is science we can use 
with the Fish and Wildlife Service, we can use with the Bureau of 
Reclamation and so on.
    Mr. LaTourette. I think that was Secretary Babbitt's 
vision. My only concern is that we are receiving reports that 
different land management agencies are sort of standing up 
their own redundant services. If that is not true, I am happy 
to hear that. If it is, then I guess that is my concern.
    Secretary Salazar. I would appreciate it if you have the 
specifics of concern there, because that is something that we 
will look into. Just if I may, Congressman LaTourette, you 
think about a Department that has been around since 1849. It 
has been around for a very long time, and each of these 
agencies has its own history and its own culture. One of the 
challenges is how you work across the bureaus to essentially 
find the efficiencies and share the information that we need to 
share. We are doing much better at that because of the way we 
are working with all the bureaus of the Department of Interior. 
It has been one of the management signature initiatives where I 
put a lot of personal energy into it, and that is trying to cut 
down the silo activity to provide efficiencies such as we are 
doing with information technology and science development.
    Mr. LaTourette. I will be happy to send you a letter, but 
my great staff has just indicated that two examples are Fish 
and Wildlife Service--Landscape Conservation Cooperatives at 
$18.8 million, and, in the Park Service, the cooperative 
ecosystem study units. So I will send you a letter, and maybe 
we can talk about it another day. Thank you.
    Mr. Moran. Thank you, Mr. LaTourette.
    Mr. Cole.
    Mr. Cole. Thank you very much, Mr. Chairman. And actually I 
have Congressman Nunes' questions, but--not really.
    Mr. Simpson. I do.

                           COBELL SETTLEMENT

    Mr. Cole. You do. Well, they gave them to the big guy.
    Seriously, I want to begin by, number one, just thank you 
on the Cobell settlement. That was an extraordinarily important 
issue. Count me in the camp that thinks it is not enough money. 
I feel that very strongly. On the other hand, you did what two 
previous administrations, one Democrat and one Republican, 
couldn't do. I think it is very important for the progress in 
Indian Country, I think it was very important for the 
Department, and I really appreciate the role that you played in 
sort of pulling the poison out of this thing. And if there is 
any way, when the appropriate time comes, that I can be helpful 
working with my friends on the other side of the aisle to make 
sure that Congress then follows through on your work, you 
certainly have my commitment to do that, and I look forward to 
working with you.
    I want to thank you, in addition, just again for your whole 
attitude, you know, bringing the tribal nations together early 
in the administration in the manner in which you and the 
President did, and the manner in which you have operated and, 
frankly, the administration has operated across the board in 
agency after agency where tribal nations are concerned. They 
are to be highly commended. So you guys are off to a great 
start, and I appreciate it.

                        TRIBAL TRUST LITIGATION

    Cobell, of course, is not the only litigation issue. As I 
am sure you know better than anybody on this side of the dais, 
you have got 100 different cases out there, all sorts of cases, 
litigation pending. Seventeen of them are from my own State. 
And in full disclosure, although I am not going to talk about a 
specific case, but one is from my own tribe.

                        COBELL SETTLEMENT COSTS

    Looking forward across that broad range of issues, do you 
have any idea financially what you are looking at in terms of 
potential settlement costs and length of time? What are you 
doing to expedite and move these cases forward? You have 
certainly done that in the Cobell case, and I assume that will 
be the approach, where you can, across-the-board.
    Secretary Salazar. Thank you, Congressman Cole. Let me 
first thank you for your leadership in this arena as well as 
for your help as we have dealt with the great challenges that 
face Indian Country all over this Nation, and I know in 
particular in Oklahoma, many of the issues that we are facing 
there. I want to respond to your second question, but first I 
want to make a comment about Cobell.
    Chairman Moran and Ranking Member Simpson and all the 
members of this committee, we are at a point, frankly, where 
unless we get congressional approval of the Cobell settlement, 
it essentially could blow up in our very hands, because when we 
arrived at that settlement in December, the judge who was in 
that case was about ready to retire. He has stayed on that 
court in order to see the settlement through.
    Mr. Simpson. Could I interrupt for just a second? What does 
Congress need to do there? Do we have to appropriate the money? 
Have you submitted that request?
    Secretary Salazar. It needs to be approved and 
appropriated. The language has been approved, and I think there 
have been discussions that have been going on to try to figure 
out when it is appropriate to get that done.
    Mr. Cole. As the Secretary knows, there was an initial 
date, this was to be done by a date in February. We are in 
extension now, to I think April 16th, if I recall correctly. 
But there is a point where this stops. We could slide right 
back into litigation.
    There is criticism coming from both sides. A lot of folks 
say, ``Gosh, it is not near enough and we need to fight for 
another 15 or 20 years.'' But the reality is that this is an 
agreement negotiated in good faith on both sides of the table. 
It is awfully reasonable, and we really do need to deal with 
this now. Frankly, we have seen great leadership by the 
administration in bringing this to closure.
    This thing dragged on for the Clinton years, this dragged 
on through the Bush years. There is a lot of bipartisan finger 
pointing that could legitimately go on in this case. But the 
fact that we have a chance to settle is a big deal, and we 
ought to do it. And it will be very well received broadly in 
Indian Country, just that the historic problem has been 
recognized, people have tried to deal with it in good faith. It 
is just very important, I think.
    Mr. Moran. Will the gentleman yield for a moment?
    Mr. Cole. I will certainly yield.
    Mr. Moran. I agree with everything you have said, Mr. Cole, 
I think you know that, and I think Mr. Simpson agrees. The 
problem is that it is $3.4 billion, and the Office of 
Management and Budget has decided it will not give it emergency 
designation, which means that we really can't get it into the 
supplemental, which was the plan.
    Mr. Simpson. Who makes that determination, them or us?
    Mr. Moran. The Office of Management and Budget said they 
will not consider it for emergency designation. It was not 
submitted with an emergency designation. So that makes the 
situation problematic for us.
    I don't know what we are going to do. We need to work on 
it. I think we are all in agreement it needs to be paid. But it 
is a problem if it doesn't get emergency designation, because 
then it falls under the PAYGO requirement.
    Mr. Simpson. Well, I would suggest that what falls under 
emergency designation is up to us, not OMB, and that if we need 
to do it, we need to do it, however we need to do it. So I 
would be more than willing to work with you to make sure this 
gets done.
    Mr. Moran. Let's try to do that. Sorry for the 
interruption.
    Mr. Cole. No, it is enlightening. Again, I think the 
Secretary has brought us to the brink of closure and victory, 
and it would really be a shame if one part of the bureaucracy 
or Congress blew an opportunity to settle a case whose roots 
reach back into the 19th Century and which has been actively 
litigated for 14 or 15 years. It is sure an emergency if you 
are one of the recipients who have been waiting a long time. It 
is sure an emergency if you are in the Department, which I 
agree very much with the Secretary, certainly the BIA has been 
tied in knots over this thing, and it has impacted other things 
that needed attention. So I don't know how much more of an 
emergency it can be than that.
    Mr. Moran. Agreed. But if we don't get emergency 
designation, I don't know where we find the offset.
    Mr. Cole. I will be happy to work with you. I don't have a 
lot of stroke at OMB these days. I never did though. But 
whatever we can do to be helpful. I think this is an issue that 
the time is right and it ought to be dealt on this.
    Mr. Moran. Mr. Secretary, did you want to weigh in on Mr. 
Cole's question?

                           COBELL SETTLEMENT

    Secretary Salazar. Let me say all of you are correct. It is 
a huge issue that we have a very unique opportunity in history 
to resolve, and it has been a problem that has built up over 
100 years. What we have here is a very fiscally responsible 
settlement. Senator McCain and a couple other Senators along 
with former Attorney General Gonzales and Secretary of Interior 
Kempthorne had offered to settle for nearly $7.5 or $8 billion 
a few years ago. How we structured this settlement I think is a 
very good settlement for the United States of America, as well 
as for Indian Country.
    In addition to just being a settlement to those historic 
damage claims, it also, Chairman Moran, addresses the issue 
going forward so that we won't have the issue of fractionation 
in the future and we won't find ourselves in the same situation 
10 or 15 years from now.
    I know the President is strongly behind reaching 
congressional approval of the settlement. We are having 
discussions with OMB and with CBO and the Members of Congress, 
and I am very optimistic and hopeful that we will be able to 
make it happen.

                        TRIBAL TRUST LITIGATION

    With respect to just very quickly your second question on 
the tribal cases, they are out there, and our view is we 
believe that if we can get this settlement done, the tribes 
themselves are interested also and have approached us to engage 
in a dialogue about how we resolve those cases.
    There are about 100 of those cases out there. We don't have 
a sense of what kind of money we may be talking about there. 
But in this particular case we are dealing with, Cobell, we are 
dealing with millions of fractionated interests and hundreds of 
thousands of people. So the complexity of this case is probably 
1,000-fold over whatever the complexity will be in dealing with 
the specific tribal cases.
    Mr. Cole. Let me just finish, because I know I have taken a 
lot of time, Mr. Chairman. Thank you for your kindness.
    Mr. Moran. But we intervened as well, so please proceed if 
you would like to.

                           LAND FRACTIONATION

    Mr. Cole. I will go back to my other issues in another 
round. I do want to finish with this.
    I am glad you touched on the fractionated issue. I think 
that was a brilliant settlement. It was a great way to deal 
with a thorny issue, and frankly a way for tribes to have land 
effectively returned to them that they can utilize. It takes 
care of a lot of individuals in the system. And the scholarship 
fund is really a welcome addition.
    So there is a lot of attractive features to the package 
which you negotiated and was negotiated by the other side. It 
really is good. Frankly, it solves a lot of problems at one 
time. You are just to be commended for that.

                TRIBAL JURISDICTION AND LAW ENFORCEMENT

    If I can, I will ask one other question in the area of 
tribal jurisdiction and law enforcement. I commend you again 
for putting a lot of emphasis on law enforcement problems that 
we have in Indian Country. I particularly would like to get 
your views.
    Stephanie Herseth Sandlin has a great bill, there is a 
companion bill in the Senate, actually that is where it 
originated. In the meantime, what are the things that we can do 
to enhance jurisdiction and direct involvement by tribes?
    When tribes can control their affairs--their education 
system, their health care system--and individual tribal members 
know where the decisions are made, it is not somewhere hundreds 
or thousands of miles away, it is in their community with their 
own leadership that they can hold responsible they do better. 
The more of that that can happen, the more levels, the better 
off I think you are, because you are withdrawn from some of 
that, and the better off the tribal members are, because they 
are in control and they know who to hold responsible.
    There are some transitions that need to be made, but I have 
seen this happen in my own tribe. It makes all the difference 
just to let people control their own assets, resources and 
governance.
    There is a lot there, but I would appreciate your response.
    Secretary Salazar. Let me just say, Chairman Moran, that I 
think Congressman Cole raises a very legitimate issue, and 
there is tremendous confusion frankly over jurisdictional 
issues between the tribes and non-tribal law enforcement 
agencies. Attorney General Holder and I have established a task 
force that is working on developing recommendations on how we 
can address the issue of lawlessness and crime we see on Indian 
reservations across the country.
    We believe we are going to be able to cut down the level of 
crime on reservations essentially just by having the Federal 
Government coordinated in its own efforts and then working 
alongside with tribal law enforcement authorities. We also have 
in this budget, we are looking at expanding the law enforcement 
authorities within the reservations themselves, including 
training.
    Finally, I would say the legislation being proposed by 
Senator Dorgan and Representative Stephanie Herseth Sandlin, 
the legislation they have put together, has a good framework 
for us to be able to move forward to address justice and law 
enforcement issues on reservations.
    Mr. Moran. A good question and good response. Thank you.
    We notice that both you and Mr. Calvert have been on the 
floor speaking, so we appreciate the fact that both of you 
chose to return to us.
    Mr. Hinchey and then Mr. Calvert.
    Mr. Hinchey. Thank you very much, Mr. Chairman. It is a 
great pleasure to be back here with you, and it is a great 
pleasure to be with you.
    I just want to express to you, Secretary Salazar, my great 
appreciation for you and for all the very appropriate and high 
quality attention you are giving to the responsibilities that 
you have. I think that in so many ways this country is in much 
better condition as a result of you being there and the work 
that you are doing.
    I am just saying that because of the deep way I feel about 
all of the things that really need to be done and the way in 
which your attention is being focused on all of these things in 
such a positive way. So I just want to express my appreciation 
to you and thank you.
    Secretary Salazar. Thank you very much, Congressman 
Hinchey.

                         OFF-RESERVATION GAMING

    Mr. Hinchey. The oil and gas reforms that you proposed 
earlier this year were among those that were very positive, and 
I and many others thank you for proposing them and we look 
forward to seeing the policies in place soon, whenever that 
might be.
    I want to mention something about off-reservation gaming. 
This is a very local issue in New York State.
    Last August, your Assistant Secretary for Indian Affairs, 
Larry Echohawk, visited Sullivan County, New York, a place that 
I represent, and he came there to discuss the issue of off-
reservation gaming with the local community. He met with people 
on both sides of this issue, and by all accounts his visit was 
a big success. Everybody, no matter what they thought about it, 
whether they were opposed to it or for it, thought that he was 
very good. He did a great job, and the event was very positive.
    Sullivan County was previously one of the Nation's premier 
resort destinations. That was in the last century, probably 
most of the first half, a little bit into the second half of 
the last century. Thousands of people from the New York 
Metropolitan Area and across the country visited the county for 
its many resorts and its pristine natural resources. Today, 
almost all of those resorts are gone. There is little industry. 
Unemployment is rising.
    One growth opportunity that has received a lot of attention 
and local support is off-reservation casino gaming. Several 
tribes, with the support of the local communities and with the 
State of New York and the local congressional delegation, 
worked in good faith with the Interior Department for several 
years to complete the rigorous review process for off-
reservation gaming operations.
    A couple of the tribes had essentially completed the 
process and were preparing to move forward with their projects, 
but they were stopped when your predecessor abruptly changed 
the rules of the game and essentially prohibited new off-
reservation gaming.
    For some time now, we have been told that your Department 
was reconsidering its off-reservation gaming policy, but to 
date no decision has been announced, and I can understand this 
may not be an easy thing to deal with.
    But I would just like to put this question to you for your 
consideration: Do you plan to keep in place the current 
policies that essentially prohibit new off-reservation gaming 
operations, or are you considering, just considering, changing 
this policy, and what can we expect to hear in the context of 
some kind of a final decision on this matter and when do you 
think that might happen?
    Secretary Salazar. Thank you, Congressman Hinchey, for your 
very, very good question. Let me just say that the issue of 
gaming and Indian gaming in general is a very complicated and 
emotional issue across this country, and there are really two 
sets of applications that one needs to look at.
    The first set of applications with respect to gaming are 
those applications where frankly there is not any discretion on 
the part of the Secretary of the Department of the Interior in 
terms of granting them. For example, if the tribe wants to 
build a casino on the reservation and other requirements of law 
are met, then there is not a problem with those kinds of 
establishments.
    When you get to the issue of off-reservation gaming, it 
becomes more complex, especially when you get into 
discretionary parts of the statute that allow for the Secretary 
to make a determination based essentially on what is a hardship 
case.
    The Assistant Secretary and I have been trying to work 
through a process that will provide some clarity with respect 
to how we address the gaming issues. We had meetings as recent 
as yesterday trying to figure out a path forward that will 
provide some clarity to those who are regulated by us. I can't 
give you an exact time when we will be able to move forward 
with the policies, but we are working on it very hard.
    Mr. Hinchey. Well, I very much appreciate that, and I 
appreciate that answer to the question. I know how complicated 
this is and I know all the other aspects of it that have to be 
taken into consideration as you deal with it. So I appreciate 
very much what you are doing and what you just said.
    This is something that economically, financially, could be 
very significant. In Sullivan County and in Ulster County, in a 
place called Monticello in Sullivan County and a place in 
Ulster County just outside of Ellenville in southern Ulster 
County, it could make a very significant difference. It could 
bring back a lot of energy, it could bring back a lot of 
enterprise in various ways, it could bring back a lot of jobs, 
and it could elevate the context of the economy there in those 
two counties very substantially. So it is something that we are 
interested in.
    It would have to be done in the right way, it would have to 
be done responsibly, of course, but it is something that we are 
very interested in for both of those counties, Monticello in 
Sullivan County, and just outside of Ellenville in Ulster 
County.
    So, whatever you could do to try to make some kind of a 
decision on that would be deeply appreciated.
    Do I have any more time, Mr. Chairman?
    Mr. Moran. Do you have a quick question? Normally members 
have raised a couple of points, and you stuck to one, although 
I think you fully exhausted the first issue.
    Mr. Hinchey. Yes, I fully exhausted the first issue, no 
doubt about it, and I fully exhausted it very intentionally, 
Mr. Chairman. It wasn't accidental at all. But there are other 
things we could talk about. But I will be happy to wait my 
turn.
    Thank you very much.
    Mr. Moran. Thank you, Mr. Hinchey.
    Mr. Calvert.

                          CALIFORNIA BAY-DELTA

    Mr. Calvert. Thank you, Mr. Chairman.
    Mr. Secretary, being from California I can't let you escape 
without talking about the Central Valley a little bit. As you 
know, and you have been up there a number of times, it is 
literally a Steinbeck novel up there. It is a chapter out of 
Grapes of Wrath and it is not getting any better.
    Mr. Cole. They are actually going back the other way now.
    Mr. Calvert. They are going back to Oklahoma. But it is no 
laughing matter. It is a huge problem.
    I am from Southern California, but we are impacted also. 
When we are talking about the Bay Delta, we are not just 
talking about the Central Valley. We are talking about water 
exports to the southern part of California also.
    As you know, the snow pack is greater than it has been in a 
number of years. I know you have changed your allocation. We 
thank you for that decision recently. I think you went up to 25 
percent allocation on the west side. I would hope that that 
would go up significantly from there based upon the amount of 
snow pack and amount of water that I believe is in Shasta at 
the present time.
    I had met with David Hayes over a year ago, and we talked 
about some interim projects to resolve some of the problems 
with the Delta Smelt. One of those was the Two Gates Project 
that seemed to be a good idea to help mitigate the smelt going 
into those pumps, and the second project was the intertie 
between the State water project and the Federal water project.
    It has been frustrating for a number of folks that these 
projects haven't moved ahead. I understand the Army Corps of 
Engineers is involved with these projects, and sometimes things 
don't work out as quickly as you would like it.
    Literally the future of many Californians is in your hands 
and how we handle this problem. They can't go another year. A 
lot of the folks that have permanent crops up there have 
stressed their crops as much as they possibly can and they need 
to get water on them in order to save those permanent crops 
this year.
    So, if you would like for the record to say what you can 
do, and I know you are familiar with these projects, to get 
this moved along so we can give some folks up there in the 
Central Valley some level of relief.
    Secretary Salazar. I appreciate the question, and in terms 
of issues, we have an all-hands-on-deck approach to dealing 
with the California water crisis we are facing.
    There are really two concepts we are moving forward with. 
The first is dealing with the short-term problem and the short-
term pain. The second, which is the longer term issue, is the 
collapse of the entire ecosystem and the water supply system 
that was built for a population which was less than half the 
size it is serving today. How we move forward with that longer-
term initiative is something on which we have been working 
closely with Governor Schwarzenegger and members of the 
California delegation to try to develop the long-term plan for 
the Bay Delta, as well as the water supply needs of those who 
depend on that water.
    In the short term, we have been taking a number ofdifferent 
initiatives to provide water supply to those places that you describe 
as The Grapes of Wrath and right out of John Steinbeck's novel, because 
it is true, and I have seen the pain down there in Mendota and all of 
these other places.
    We have tried to do what we can within the constraints of 
the law, and also being true to the science, the guides and 
biological opinions from the Fish and Wildlife Service and from 
NOAA. Within those constraints, we were able to expedite the 
timing for announcing the allocation of water, so instead of 
waiting until the end of the month we were able to make those 
announcements in the middle of the month.
    With respect to a number of other projects, including the 
intertie, our hope is we will actually be able to move forward 
and construct the intertie between the two canals.
    With respect to the Two Gates project, Congressman Calvert, 
there probably is a less costly way for us to be able to gather 
the same information that the Two Gates demonstration project 
was supposed to fulfill. There were problems with that project 
relative to the costs, as well as to the evaluation that was 
going to take place.
    What we have done with respect to Two Gates is we have had 
the United States Geological Survey actually going out and 
doing studies on the turbidity of the water and how that 
affects the smelt within the Delta. We believe the studies have 
been positive in terms of giving us the kind of information we 
would have gotten through the Two Gates project.
    Let me just assure you, I spent my first hour of the 
morning today receiving a report from the National Academy of 
Sciences, and that report essentially was an evaluation of the 
reasonable, prudent alternatives that were set forth in the 
biological opinions. David Hayes is on his way to California 
over the weekend to also continue his work on the water issue.
    So we are focused on it very much.
    Mr. Calvert. One last point on that. Anecdotally, it seems 
that the pumping has been significantly curtailed and the smelt 
population continues to crash. It would seem that, as 
Representative Costa I am sure has mentioned to you, that there 
are other factors inpacting the smelt population other than 
pumping: the wildland urban interface within the bay area, in 
the San Francisco region, along with the islands in the Delta 
and the farming activities there. There are a number of reasons 
why that smelt population has probably diminished over the 
years.
    We ought to look at those factors rather than just pumping, 
because I don't think the answer is as simplistic as turning 
off the pumps. I would hope we could come up with some interim 
solution, because, as you know, a long-term solution obviously 
is the bypass, but that is going to take some time.
    Interim solutions are necessary immediately, because we 
don't have any time to waste, as you know. If these California 
farmers lose those crops, the packinghouses are next, the 
communities are shuttered up. A solution is something we have 
to jump on right away.
    Secretary Salazar. I agree with you, Congressman, that 
there are a number of different stressors affecting that 
ecosystem, and they include invasive species and water quality 
and a whole host of other issues that affect the ecosystem 
there in the Bay Delta. That is why we are moving forward to a 
long-term solution. An effort that I think will rival what we 
have done in the Everglades is what I think is going to be 
necessary in the San Francisco Bay Delta.
    Mr. Moran. Thank you, Mr. Calvert.
    Mr. Dicks.

                           ENDANGERED SPECIES

    Mr. Dicks. Mr. Secretary, I regret that I wasn't here to 
hear your statement, but I am sure it was very good. We have 
had a number of these major issues under the Endangered Species 
Act. We had to face it up in the Northwest on the Spotted Owl 
and Marbled Murrelet.
    I guess the thing I would say is it has to be scientific. 
Whatever you do has to be scientifically credible and legally 
defensible. I know you will follow the science and the law, and 
I think that is what you have to do in these situations.
    I am sorry Mr. Calvert left. There are circumstances in 
which there is the so-called god-squad provision in the 
Endangered Species Act. If something is of such a magnitude 
that you could bring in other people to evaluate it, I think it 
is the head of the Corps and yourself and others. But I think 
what you are doing sounds as if you are addressing this thing 
in an appropriate way.

                         LANDSCAPE CONSERVATION

    One thing I know that you have been very committed to, 
besides getting young people back out into the woods and into 
our forests and out doing things, is developing these important 
national landscapes. I just would like to have you, again for 
the edification of the committee, explain what you have in mind 
here, what your thinking is here. I know you played a big role 
in doing this in Colorado, and I am very favorable towards 
this. I just would like to better understand what your concept 
is.
    Secretary Salazar. Thank you very much, Chairman Dicks.
    What we did in the State of Colorado when I was the 
Director of the Department of Natural Resources there was we 
developed a conservation program whichI think has become the 
envy of conservation in the country, essentially creating a pot of 
money that has allowed for incentives for private landowners, for 
conservation easements, for river corridor protections, and for 
community separators between cities. It was an effort that was brought 
together in part by the business community and part by the conservation 
community in recognition that the quality of life we had in Colorado 
was very important to job creation in our State. As a result I think 
there has been an indelible mark that has been placed on Colorado in a 
very positive way.
    It seems to me we ought to be able to do a similar thing 
here at the national level, and I think we are doing it, and 
doing it without necessarily the hand of the Federal Government 
coming in in a heavy-handed way.
    There are landscapes of national significance, such as the 
Great Lakes and the Everglades, the San Francisco Bay Delta, 
the Chesapeake and the Crown of the Rockies and the Appalachian 
area, and the list goes on, and Puget Sound and the Outlook 
River and Olympic National Park. I think all of these 
landscapes of national significance deserve the kind of 
attention that 5 or 10 years from now will make us proud of 
what we have done to invest in those places.
    In addition to that, I think that part of the conservation 
agenda for this country has to involve urban communities, and 
that is through urban rivers. Our population is no longer as 
urban as they used to be. So how we restore urban parks and 
urban rivers, I can see the great urban parks of St. Louis 
connected up to the Arch in Missouri, or in New York on the 
Hudson River and all of the historic sites and properties that 
are overseen and managed by the National Park Service. I can 
see all of these places all around the country.
    Mr. Dicks. So part of your vision isn't just something new, 
it is to reevaluate and re-look at and restore existing places 
that could be made better.
    I think of Puget Sound. I think of the Elwha River, taking 
the two dams out. That river corridor will be incredibly 
enhanced by that. So there is a lot of things we can do in 
terms of restoration that will enhance existing areas that have 
been protected or should be protected.
    Secretary Salazar. Very much so. Whether it is the Elwha 
River and the efforts in Puget Sound or the San Francisco Bay 
Delta, I think there are probably 100s of those landscapes of 
national significance that are in fact valuable places to 
protect in their own right as an ecosystem, but they also are 
valuable places to protect because of the economic value they 
inject into their economies. I think that is one of the parts 
that has been missing in the discussion about conservation.
    Mr. Dicks. You know, one area up in the State of 
Washington, right near Seattle, is Lake Washington. When I was 
a kid growing up in Bremerton my dad would take us over to the 
baseball games, and we would go out to Lake Washington. And 
there were signs up at the time, ``Do not go into the lake.'' 
You could not swim in the lake because it was so polluted. This 
was before the Clean Water Act. This was back in the early 
fifties.
    The people of Seattle and the surrounding area bonded 
themselves for $140 million and they cleaned up Lake 
Washington. Now, there is one house today on that lake, Mr. 
Gates owns it, and it is worth $140 million. So you think about 
the value that was enhanced and protected by just that one 
restoration.
    I think of Puget Sound, a deteriorating polluted Puget 
Sound would have a major economic impact in the Pacific 
Northwest. But if we restore it and bring back the Salmon, 
bring back the Orcas, bring back the wildlife, that would have 
enormous economic value. But it would also be a wonderful 
environmental thing to do as well.
    So these are not in conflict. I see this as something that 
the Everglades, the Chesapeake Bay, the Great Lakes, all of 
this would add value if we can make these restorations work.
    So I commend you for challenging us. I think what you have 
done is lay out a new opportunity, and I think it is very 
positive.
    Thank you, Mr. Chairman.
    Mr. Moran. Terrific point.

                    Leadership of Congressman Dicks

    Secretary Salazar. Mr. Chairman, if I could publicly in 
front of this committee and both the Democratic staff and 
Republican staff, say that Chairman Dicks has been an enormous 
and Herculean champion for all of the Interior missions. There 
have been good times and there have been bad times at Interior. 
There have been times of Secretaries of the Interior that 
probably were not so great, and the times of people like 
Stewart Udall and Harold Ickes. Through the good and the bad, 
Chairman Dicks and this committee have been there making sure 
that as the custodians of this Nation's natural resources and 
its heritage, this committee has watched out for the 
Department. I just very, very much want to thank you, Chairman 
Dicks, for your leadership.
    Mr. Moran. It is so true that Mr. Yates began the 
tradition, and then Mr. Dicks was such a stalwart supporter of 
our environment that he really has established quite a legacy.

                             HERITAGE AREAS

    Mr. Secretary, as you know, Congress has designated 49 
National Heritage Areas, adding nine new areas to the list most 
recently just one year ago. We are told that in thispast year 
alone, these areas had 87 million visitors. Clearly they succeed in not 
only drawing tourism, but exposing Americans to their distinctive 
regional cultures.
    Earlier this week we heard testimony from your Park Service 
Director in response to a question about Heritage Area 
partnerships wondering why there was the reduction in them. He 
did say they have been very successful in instilling the local 
story and providing economic benefits and a wide range of 
things.
    Your request reduces this program by 49 percent from last 
year's level that was provided by this committee. We understand 
from Mr. Jarvis that the reduction was a purely budgetary 
decision made to meet your allocation, but everything is a 
budgetary decision. Some things do well, others don't.
    We are wondering why reduce the Heritage Areas? Do you 
envision Heritage Areas as a permanent part of the Park System, 
and if so, would you consider sending up a legislative proposal 
to structure the program and provide criteria for selection of 
new areas?
    Mr. Secretary.
    Secretary Salazar. Chairman Moran, this is a tough budget 
with tough choices. I would be the first to say that I have 
been a great champion of the National Heritage Areas because as 
a U.S. Senator I pushed legislation that created two of them in 
my State of Colorado, the Sangre de Cristo National Heritage 
Area and the Park County National Heritage Area.
    I think it is important for the Department of the Interior 
as the custodian of America's heritage to tell America's story, 
as we do in the battlefields and as we do in the Heritage 
Areas. We have many partnerships that we form in the Department 
of the Interior and we will continue to work on those 
partnerships, and perhaps as we move forward with the budget 
there will be some ways in which we can come back and revisit 
this issue with respect to the Heritage Areas. In my view, they 
are very important.
    Mr. Moran. Good. We figured they were. That is why we were 
surprised at the budget mark.

                    BLM NATIONAL MONUMENT MEMO LEAK

    In February, someone----
    Mr. Simpson. It wasn't me.
    Mr. Moran [continuing]. Leaked portions of an internal 
Interior Department document that listed 14 areas managed by 
the BLM that could be considered in the future as potential 
National Monuments.
    I know you have discussed this at other hearings, but I 
think it is important to put on the record your perspective on 
this, what the background was behind the Bureau compiling such 
a document, and how you expect your Department and this 
administration to go forward with National Monument 
designations? How real was this, or was it just kind of let's 
throw everything at the wall and look at the big picture, or 
were these specific pieces of property that you clearly intend 
to purchase?
    Mr. Secretary.
    Secretary Salazar. Chairman Moran, the memorandum that had 
been prepared by BLM personnel contained information with 
respect to places that might be considered for additional 
protection. The tools that are available for additional 
protection are many, and one of them does include the 
Antiquities Act. I can say without any equivocation, Chairman 
Moran, there has been no direction from the White House to move 
forward with anything on the Antiquities Act, not one single 
monument, and that is where the effort would have to be 
initiated, because that is where the power is.
    Having said that, I think this committee, Democrats and 
Republicans, would always want me to ask the people who have 
come in to run our services and bureaus to take a look and to 
come up with their best ideas of those places that do need 
additional protection, and that is what I have done with my 
agencies.
    When the Bureau of Land Management responded, they oversee 
over 250 million acres and there are some very special places 
within that public domain. Some of them may be places where the 
Members of the House of Representatives will in their 
particular districts want to move forward and add additional 
protection to those special places.
    At the end of the day, my view on these issues, Chairman 
Moran, is that we should work with the local communities and 
with the Members of Congress to essentially do what we did last 
year. What I consider to be one of the foundational pieces of 
work of this Congress and this administration is the passage of 
what was known as the 2009 Omnibus Public Lands Management Act, 
which I see as a first chapter in the Great Outdoors America 
chapter of these times. But in those cases, in places like 
Utah, where there is a lot of controversy over these public 
lands issues, it was working with the local communities to come 
up with the places that deserve that kind of special 
protection, and that is the approach that we intend to take.
    Mr. Moran. Thank you for clarifying that, Mr. Secretary.
    Mr. Simpson.
    Mr. Simpson. Would you give me some assurance that you will 
not make any National Monument designations under the 
Antiquities Act without seeking local input and congressional 
input before making any of those determinations?
    Secretary Salazar. Yes.

                    LAND AND WATER CONSERVATION FUND

    Mr. Simpson. I appreciate that. Back to where I started, or 
where I ended, I guess, the last conversation, within your 
budget you are seeking a $106 million boost in the Land and 
Water Conservation Fund. I happen to support the Land and Water 
Conservation Fund. As a matter of fact, there is not much in 
your budget I don't support. The question is some of the 
priorities.
    A $106 million increase in the Land and Water Conservation 
Fund to $445 million, a 30 percent increase over fiscal year 
2010. At the same time, construction accounts within the 
Department are reduced substantially next year. Employee 
housing across the National Park Service is rated as poor by 
the Facilities Condition Index, and yet the fiscal year 2011 
budget requested a 40 percent reduction in funding. And 
particularly concerning to me is the fiscal year 2011 budget 
for the Interior Wild Land Fire eliminates rural fire 
assistance and cuts hazardous fuels by $43 million.
    So I understand it is a tough budget, only so much money. 
Why the decision to increase Land and Water Conservation 
funding at the expense of some of the other programs that I 
think we all recognize are important, and is it going to lead 
to eventually an increase in the backlog and a lot of the 
problems that we will have to address down the road?
    In other words, are we acquiring more and not taking care 
of what we have got?
    Secretary Salazar. I think it is a very important question 
that you ask, Congressman Simpson, and let me respond in this 
fashion:
    First, we believe we can carry out the mission of the 
Department of the Interior and do a good job with the increases 
that this committee has pushed through in the last several 
years.
    Our budget for 2011 essentially flat lines us at 2010. You 
who have been on this committee for a long time know that the 
budget for the Department was significantly eroded under the 
prior administration, and we have been playing catch up. But 
when we look at the increases of 2009 and 2010, which 
Congressman Norm Dicks and you and the members of this 
committee helped push through, we believe, within those 
resources, we can find efficiencies to allow us to do a good 
job and continue to address the issues of backlogs in 
permitting, on grazing permits and some of the other issues 
that you raised.
    At the same time, it has seemed to us and it is part of the 
Great Outdoors America agenda, we need to move forward towards 
full funding of the Land and Water Conservation Fund.
    We have had many conversations, including with members of 
this committee, about the creation of LWCF by Secretary of the 
Interior Udall and President Kennedy back in the sixties. The 
idea at the time was as we take something from the Earth, oil, 
gas, and mineral resources, some of those royalties would be 
devoted back into a fund that would help us with wildlife 
habitat and other conservation initiatives.
    The fact of the matter is, very little of that money has 
been appropriated into the Land and Water Conservation Fund. 
There have been champions for LWCF in this Congress in a 
bipartisan fashion, but it has become essentially a paper 
entry, where if you were to look at the founders of the Land 
and Water Conservation Fund today, I think what they would say 
is it has been a broken promise to America.
    The President's budget presented here puts us on a 
trajectory to get to full funding of LWCF by the year 2014. We 
believe it is an important thing for us to do as part of our 
history of conservation here in America.

                             STATESIDE LWCF

    Mr. Simpson. What about stateside Land and Water 
Conservation funding?
    Secretary Salazar. Stateside, we are moving forward as 
well. It is part of the effort to try to get full funding for 
LWCF.

                             CLIMATE CHANGE

    Mr. Simpson. One other question. I hate to even mention the 
word, because every time I do, somebody thinks I am against it 
or dragging my knuckles on the ground or something like that. 
Climate change.
    One of my concerns has been not that we are studying it or 
anything else. I don't even know that I am concerned about the 
amount of money we are spending on it. What I am concerned 
about is coordination. I know we have had meetings set up that 
got canceled because of snowstorms, but we are rescheduling 
those.
    But within the various departments, within the Department 
of Interior, almost every agency has some money for climate 
change. As we have listened to testimony from these various 
departments, it is surprising to me, or maybe surprising isn't 
the right word, but some of the testimony sounds like some of 
the agencies are doing the same thing. USGS is studying the 
impact on lands and how that is going to impact fire 
suppression ability on public lands. BLM is looking at the 
impact on lands and the fire suppression ability on public 
lands.
    I question whether not just within the Department of 
Interior, but government-wide, we know how much money we are 
spending on climate change, and if our response to climate 
change isn't ``let's just appropriate a bunch of money for it 
and that will show we are committed to it,'' instead of 
coordinating an effort on it.
    Do you have a concern in that way?
    Secretary Salazar. I do have a concern there is that 
perception out there, and there may be some reality that the 
efforts in addressing climate change across the Federal 
Government are not as coordinated as they should be.
    We have taken an effort to make sure we are coordinated and 
that there is not a duplication of effort within Interior 
through the creation, by Secretarial order, of a Climate Change 
Response Council, which I personally chair. For every one of 
those meetings which I hold, which have been already many, I 
have each of the Assistant Secretaries and Bureau Directors 
come to those meetings to ensure there is not a duplication of 
effort and that we are doing the best in terms of assembling 
the science needed for all of us to understand the realities of 
climate change we are seeing, and we are developing the 
adaptation strategy so we can adapt to the changing science.
    Sam Hamilton, who is not here because of his untimely 
death, would have told you this is probably the greatest threat 
we have to wildlife in America. For hunters and anglers in this 
country, how we address the issue of climate change I think is 
a real issue for all of them.
    What we will try to do at the Department of the Interior is 
to maximize the use of the resources this committee has 
appropriated for us to address the issue of climate change, and 
we also will work with other members of the Federal family to 
make sure there is a more coordinated approach.
    The President has created the Interagency Council on 
Climate Change and Adaptation, and it is through that forum we 
are trying to coordinate our efforts.
    Mr. Simpson. I appreciate that. Hopefully we are going to 
get this meeting set up with your different bureaus and climate 
change people in those different bureaus so we can sit down. I 
am not comfortable with the amount of money that we are 
spending that I know what it is going for. Maybe that is just 
my ignorance in not knowing. So I am trying to educate myself 
to it, and I am trying to raise the issue not only with 
Interior but across the agencies.
    I have talked with Rahm Emanuel about it, and I spent a 
little time with Carol Browner last week talking about it also. 
So it is something that we need to do. The Department of Energy 
plays a big role in this also. But there is money in virtually 
every single budget that goes through here for climate change.
    I appreciate your answer. Thank you.
    Secretary Salazar. I am aware that David Hayes, the Deputy 
Secretary, along with the Council on Environmental Quality, has 
set up a briefing, I am not sure if it is with you or the 
entire committee. They will be prepared to answer those 
questions, because it is a very legitimate question. You don't 
want to be throwing money at a climate change initiative where 
there is duplication and waste.
    Mr. Moran. I think we may want to have the head of the 
Council of Environmental Quality at the interagency meeting, 
because she is trying to pull them all together in response to 
your concern.
    Mr. Hinchey.

                          HYDRAULIC FRACTURING

    Mr. Hinchey. Thank you, Mr. Chairman.
    Mr. Secretary, I just wanted to ask a question about 
hydraulic fracturing and chemicals disclosure. I regard it as a 
very important issue.
    As you know, back in the mid-1970s there was legislation 
passed that would require whenever there was drilling in the 
ground for chemicals, oil, but also natural gas, and there were 
the injections of chemicals in the context of that drilling, 
there had to be disclosures of the context of those chemicals. 
That came about as a result of the prior experience of those 
chemicals that were injected causing a lot of problems, very 
serious problems. But, unfortunately, that provision was 
extracted from the law back here in 2005.
    So we are introducing legislation that would require that 
process to come back, requiring that when the drilling takes 
place and there are chemicals that are introduced in the ground 
in the context of that drilling, they have to be revealed.
    Now, in the meantime, I know that the BLM, for example, 
cannot require oil and gas operators to comply with the Safe 
Drinking Water Act, but you could require operators on Federal 
leases, Federal lands, to publicly disclose all of the chemical 
compounds they use in drilling operations on those Federal 
leases.
    While some of these disclosures take place now--only a few 
of them take place, not very many of them--they are very 
limited. For example, there was a situation in Colorado where a 
nurse in that State died after being exposed to fracturing 
fluids, in part because the drilling company refused to provide 
doctors with the list of chemicals to which she was exposed.
    I believe this incident was related to drilling on State 
lands that BLM does not manage, but the point remains the same, 
and that is that there are public needs that require these 
chemicals to be revealed. We need to know what they are, and I 
think if we know what they are, if there is a requirement they 
be revealed, the whole situation is going to be changed and 
made much safer.
    So I just wonder if you may have considered requiring 
operators on Federal leases to publicly disclose all of 
thechemical compounds they use in operations on those leases? In doing 
so, that would be very important as we struggle to get this bill passed 
here, that would bring back the requirements of the Safe Drinking Water 
Act, and in fact the Clean Water Act as well.
    If it were possible for you to do this, such a requirement 
would help set a national standard for disclosure that could be 
emulated by States that have regulatory responsibility for the 
oil and gas drilling on their lands and therefore on non-
Federal lands.
    So I think that this is a very important issue, and I 
wonder if there is any insight going on, any consideration 
going on, to try to deal with this in the same way that it was 
dealt with back in the 1970s based upon all of the damage that 
took place prior to the establishment of the Safe Drinking 
Water Act and the Clean Water Act?
    Secretary Salazar. Congressman Hinchey, let me just say it 
is an issue we are looking at. I don't have a definitive 
response for you. I have in meetings with oil and gas companies 
asked that same question, what is the problem in terms of 
disclosure. The response I have gotten from oil and gas 
executives has been there is a proprietary nature to some of 
the fluids that are injected.
    There is a way in which I think the proprietary nature 
could be safeguarded, but still require the disclosure of the 
fluids that are being injected. I know there are oil and gas 
companies, for example, that follow a best practices guide to 
hydraulic fracking, and they will bring in the community to let 
them know what the fluids are that are being injected and use 
what they call green fluids to make sure they aren't creating 
environmental problems. It seems to me that it is a good way 
for oil and gas companies to go in terms of relating to the 
communities affected by their activities.
    I don't have a definitive response to the specific issue 
you raised, which is to use the authority under the statutes 
that apply to the BLM to require the disclosure. It is 
something we are looking at.
    Mr. Hinchey. It is something that is being examined. That 
is very comforting, to know that. It is something being 
examined here in the context of this Congress in legislation 
that has been introduced on both sides, both in the House of 
Representatives and in the Senate, and we are trying to 
generate more support for it.
    If I have another minute, I would like to ask another 
question, if I may.
    Mr. Moran. Go ahead.

                           WILDERNESS POLICY

    Mr. Hinchey. Thank you, Mr. Chairman. It is on wilderness 
policy. The protecting of our wild public lands, of course, as 
we know, is something that is deeply important, and I know no 
one more so than you shares that understanding.
    I have deep concerns about some of the legacy policies put 
in place under the previous administration and which remain in 
effect today, unfortunately. One of those policies is the so-
called Norton Settlement, which prohibits BLM from carrying out 
one of its core missions, that being the identification of, and 
administrative protection of, public lands that have these 
wilderness characteristics.
    Your Department has been working on a new policy to address 
how best to protect and manage BLM lands with wilderness 
qualities that have not yet been designated as Wilderness Study 
Areas.
    So I wonder, can you tell us when that new policy is likely 
to be put into place?
    Secretary Salazar. We are looking at various alternatives, 
including the possibility of rescinding straight out the 
Norton-Leavitt Settlement, to other authorities that we have to 
make sure we are protecting special places that have wilderness 
characteristics. I expect in the months ahead, perhaps as we 
have a dialogue on the conservation agenda for this country, we 
will make an announcement about how we are moving forward with 
respect to wilderness policy.
    I disagree with the Norton-Leavitt Settlement because Ido 
not think it was an appropriate way to essentially cede the authority 
of the Bureau of Land Management, which essentially is what happened in 
that particular case. It is something that is very much on my mind and 
something to which we are devoting a significant amount of time.
    At the end of the day, Congressman Hinchey, where we will 
aim for is to make sure we have the appropriate level of 
protection for these special places that do have wilderness 
characteristics, but at the same time recognizing the BLM in 
its mission also has a multiple use responsibility and there 
are activities, such as grazing and oil and gas activity, that 
need to proceed.
    It is part of the effort we are undertaking with Assistant 
Secretary Wilma Lewis and Director Abbey.
    Mr. Hinchey. Mr. Secretary, thank you very much. I deeply 
appreciate it.
    Mr. Moran. Thank you, Mr. Hinchey.
    Mr. Cole.

                          HYDRAULIC FRACTURING

    Mr. Cole. I hadn't intended to ask this, but I just want to 
get a couple of things on the record about hydraulic 
fracturing, which I know my friend has serious concerns about.
    Mr. Secretary, do you have any idea how long this 
particular process has been used, how many wells have been 
drilled using hydraulic fracturing?
    Secretary Salazar. Congressman Cole, I am aware that 
thousands upon thousands of wells have been drilled.
    Mr. Cole. It is literally in the neighborhood of 1 million 
wells. So this is not a new thing. It is new now to certain 
areas of the country, but it is pretty well established, and 
certainly in our State it has been used very widely.
    Are you aware of any studies that suggest it is a health 
hazard? Have there been any scientific studies or anything like 
that that you are aware of?
    Secretary Salazar. Congressman Cole, I am not aware of any 
studies personally, but I am not saying there aren't studies 
out there that reach the opposite conclusion.
    Mr. Cole. I am not trying to trap you. Because I am not 
either. And, again, this is an old established technology. It 
is not new. It has had extensive use. To my knowledge at least 
there has been no evidence of health hazards here.
    Just for the record, it is very heavily regulated at the 
State level, where the regulations have been pretty successful, 
because, again, when you are talking about this technology, it 
usually, frankly, is so deep, that we don't drill this deep for 
water.
    Anyway, I am sure we will have an opportunity for a lot of 
discussion about this. Again, I recognize the legitimacy of the 
concern, particularly in certain parts of the country, because 
it is emerging now as a concern, not in the places where it has 
been used in the historic oil field States so much, but in new 
areas, particularly where natural gas is now being discovered 
in terrific quantities and may offer the solution to at least 
part of our energy puzzle.
    So I just want to be very careful as we go forward in this 
area, and I am just speaking for myself, that we not take away 
proven technologies or walk into litigation situations without 
meaning to on something that has been proven, used for 
literally decades. This is not, again, new science, new 
technology. But it is an extraordinarily valuable tool in 
reaching what I know is a shared goal of as much energy 
independence as we can get. And particularly in the natural gas 
area you are talking about the cleanest form of fossil fuel 
that we have. So there is a lot to be said for it.
    If you want to respond, that is great. If you want to just 
leave it there, that is fine, too.
    Secretary Salazar. Let me just respond because I think it 
is a good discussion to have and a good forum to have the 
discussion in. I would say Congressman Hinchey is correct, if 
we can prevent pollution from occurring and dangers to the 
public health, we certainly ought to do that because we have 
huge examples for many centuries in this country where we 
haven't prevented the pollution and we end up having to pay a 
lot more to clean it up after it occurs. So it is a legitimate 
question that he raises.
    Your point also is a point well taken, that fracking has 
been a practice of the industry for a very long time. I would 
caution, as I cautioned the members of the industry, that as we 
look at the potential contribution of natural gas to the energy 
portfolio of the Nation, which is something the President and I 
support, much of that natural gas development will depend on 
hydraulic fracturing.
    As we move forward with the development of those resources, 
it is also going to be very important to make sure there is a 
level of public confidence. If the public does not know what it 
is that is being injected into these underground aquifers 
because of a faulty disclosure system we have, that is 
something I think is ultimately going to hurt the natural gas 
industry.
    Mr. Cole. I think that is a fair point, and I think the 
discussion will be very helpful for all concerned. One of the 
problems you deal with in your capacity as Secretary is the 
amount of litigation that goes on now that frankly I think is 
pointed at--you mentioned, I think, the figure 48 percent of 
the leases you have let are under some sort of litigation. Some 
of that is very legitimate. A lot of it is frankly just simply 
designed, in my view, to stop the development of fossil fuels 
on Federal lands. I think particularly if you look at the 
explosion of litigation over the course of a decade, it is hard 
to believe there is that much local issue, there is a national 
concern here.
    So I just want to be very careful as we move forward. And 
anyway I appreciate your approach. I certainly appreciate my 
friend's questions. I think they are very legitimate ones. But 
I did want to get into the record that, again, hydraulic 
fracturing is not a new technology. It has been used very 
widely in a lot of States. It is regulated and we don't have, 
at least to date, any sort of information that would suggest a 
significant public health hazard to my knowledge. But I am sure 
we will have this talk again. I suspect so.
    Secretary Salazar. Chairman Moran, if I may.
    Mr. Moran. Please.
    Secretary Salazar. I had a 4:30 phone call I had to make 
and I am running a little late, but I will be happy to make the 
call and then come back.
    Mr. Cole. I apologize. I will hold my other question, which 
was pretty minor, for the record and get it to you.
    Mr. Moran. Thank you, Mr. Cole.
    Go make your phone call. Thanks very much for the time you 
have spent with us, Secretary Salazar. It has been very 
enlightening.
    The hearing is concluded.

    [GRAPHIC] [TIFF OMITTED] T7302B.014
    
    [GRAPHIC] [TIFF OMITTED] T7302B.015
    
    [GRAPHIC] [TIFF OMITTED] T7302B.016
    
    [GRAPHIC] [TIFF OMITTED] T7302B.017
    
    [GRAPHIC] [TIFF OMITTED] T7302B.018
    
    [GRAPHIC] [TIFF OMITTED] T7302B.019
    
    [GRAPHIC] [TIFF OMITTED] T7302B.020
    
    [GRAPHIC] [TIFF OMITTED] T7302B.021
    
    [GRAPHIC] [TIFF OMITTED] T7302B.022
    
    [GRAPHIC] [TIFF OMITTED] T7302B.023
    
    [GRAPHIC] [TIFF OMITTED] T7302B.024
    
    [GRAPHIC] [TIFF OMITTED] T7302B.025
    
    [GRAPHIC] [TIFF OMITTED] T7302B.026
    
    [GRAPHIC] [TIFF OMITTED] T7302B.027
    
    [GRAPHIC] [TIFF OMITTED] T7302B.028
    
    [GRAPHIC] [TIFF OMITTED] T7302B.029
    
    [GRAPHIC] [TIFF OMITTED] T7302B.030
    
    [GRAPHIC] [TIFF OMITTED] T7302B.031
    
    [GRAPHIC] [TIFF OMITTED] T7302B.032
    
    [GRAPHIC] [TIFF OMITTED] T7302B.033
    
    [GRAPHIC] [TIFF OMITTED] T7302B.034
    
    [GRAPHIC] [TIFF OMITTED] T7302B.035
    
    [GRAPHIC] [TIFF OMITTED] T7302B.036
    
    [GRAPHIC] [TIFF OMITTED] T7302B.037
    
    [GRAPHIC] [TIFF OMITTED] T7302B.038
    
    [GRAPHIC] [TIFF OMITTED] T7302B.039
    
    [GRAPHIC] [TIFF OMITTED] T7302B.040
    
    [GRAPHIC] [TIFF OMITTED] T7302B.041
    
    [GRAPHIC] [TIFF OMITTED] T7302B.042
    
    [GRAPHIC] [TIFF OMITTED] T7302B.043
    
    [GRAPHIC] [TIFF OMITTED] T7302B.044
    
    [GRAPHIC] [TIFF OMITTED] T7302B.045
    
    [GRAPHIC] [TIFF OMITTED] T7302B.046
    
    [GRAPHIC] [TIFF OMITTED] T7302B.047
    
    [GRAPHIC] [TIFF OMITTED] T7302B.048
    
    [GRAPHIC] [TIFF OMITTED] T7302B.049
    
    [GRAPHIC] [TIFF OMITTED] T7302B.050
    
    [GRAPHIC] [TIFF OMITTED] T7302B.051
    
    [GRAPHIC] [TIFF OMITTED] T7302B.052
    
    [GRAPHIC] [TIFF OMITTED] T7302B.053
    
    [GRAPHIC] [TIFF OMITTED] T7302B.054
    
    [GRAPHIC] [TIFF OMITTED] T7302B.055
    
    [GRAPHIC] [TIFF OMITTED] T7302B.056
    
    [GRAPHIC] [TIFF OMITTED] T7302B.057
    
    [GRAPHIC] [TIFF OMITTED] T7302B.058
    
    [GRAPHIC] [TIFF OMITTED] T7302B.059
    
    [GRAPHIC] [TIFF OMITTED] T7302B.060
    
    [GRAPHIC] [TIFF OMITTED] T7302B.061
    
    [GRAPHIC] [TIFF OMITTED] T7302B.062
    
    [GRAPHIC] [TIFF OMITTED] T7302B.063
    
    [GRAPHIC] [TIFF OMITTED] T7302B.064
    
    [GRAPHIC] [TIFF OMITTED] T7302B.065
    
    [GRAPHIC] [TIFF OMITTED] T7302B.066
    
    [GRAPHIC] [TIFF OMITTED] T7302B.067
    
    [GRAPHIC] [TIFF OMITTED] T7302B.068
    
    [GRAPHIC] [TIFF OMITTED] T7302B.069
    
    [GRAPHIC] [TIFF OMITTED] T7302B.070
    
    [GRAPHIC] [TIFF OMITTED] T7302B.071
    
    [GRAPHIC] [TIFF OMITTED] T7302B.072
    
    [GRAPHIC] [TIFF OMITTED] T7302B.073
    
    [GRAPHIC] [TIFF OMITTED] T7302B.074
    
    [GRAPHIC] [TIFF OMITTED] T7302B.075
    
    [GRAPHIC] [TIFF OMITTED] T7302B.076
    
    [GRAPHIC] [TIFF OMITTED] T7302B.077
    
    [GRAPHIC] [TIFF OMITTED] T7302B.078
    
    [GRAPHIC] [TIFF OMITTED] T7302B.079
    
    [GRAPHIC] [TIFF OMITTED] T7302B.080
    
    [GRAPHIC] [TIFF OMITTED] T7302B.081
    
                                         Wednesday, April 14, 2010.

 MAINTAINING NATIONAL CULTURAL AND SCIENTIFIC CENTERS: FY 2011 BUDGET 
   REQUEST FOR THE SMITHSONIAN INSTITUTION, NATIONAL GALLERY OF ART, 
         KENNEDY CENTER, WOODROW WILSON CENTER, PRESIDIO TRUST

                    Opening Statement of Mr. Hinchey

    Mr. Hinchey [presiding]. We will have a very busy and 
interesting session, so I want to get started right away. Today 
we will examine the budget request for five of our Nation's 
leading cultural and knowledge generating institutions, the 
Smithsonian Institution, the National Gallery of Art, the 
Kennedy Center, the Woodrow Wilson Center, and the Presidio 
Trust.
    Our plan is to deal with each institution one at a time, 
giving each witness the chance to make their case and for the 
committee members to pursue issues of interest.
    First, I would like to welcome Dr. Wayne Clough, Secretary 
of the Smithsonian Institution. This Subcommittee held an 
oversight hearing on the Smithsonian last December. At that 
hearing, the GAO and the Smithsonian's Inspector General 
reviewed the progress the Institution is making to implement 
important governance reforms. Previously, there were major 
concerns about Smithsonian management before the time of 
Secretary Clough.
    I think it is safe to say that the Members were generally 
pleased that the Secretary and his team have made as much 
progress as they have and probably could. It is important that 
we examine the Smithsonian's budget request closely because 
this institution is important to the Nation and it is a 
keystone to the national capital region's culture and tourism.
    I am generally pleased with the Smithsonian's fiscal year 
2011 budget request. It appears to be a responsible request. It 
helps to see it organized around the four major themes of the 
new strategic plan, Mysteries of the Universe, Biodiversity, 
Valuing World Cultures and Understanding the American 
Experience. The requests build on this Subcommittee's work last 
year to strengthen the collections, and the request has a 
small, targeted increase for key research and science. I will 
be interested to hear more about the Smithsonian's role in 
climate change science.
    The capital budget also has $20 million for design of the 
new National Museum of African-American History and Culture to 
be built next to the Washington Monument.
    Lastly, I note the request has $106 million for baseline 
facilities revitalization, which will help with the huge 
deferred maintenance backlog.
    Mr. Hinchey. And I want to thank you for being here, Wayne. 
Thanks very much. And before I ask you to begin your statement, 
I would like to turn to our Ranking Member, Mr. Simpson.
    Mr. Simpson. Thank you, Mr. Chairman.
    Mr. Hinchey. Mr. Simpson, it is a great pleasure to be with 
you, and frankly, I must tell you, it is a great pleasure to be 
this close to you.

                    Opening Statement of Mr. Simpson

    Mr. Simpson. Well, thank you. I appreciate that. I am not 
quite sure how to take that. Thank you. Dr. Clough, thank you 
for appearing today. I apologize for being late because of the 
Virginia traffic. That would never happen in my district. We do 
not have that many cars in my district, especially in one 
place.
    One of the wonderful things about serving on this 
Subcommittee is the opportunity to spend time with interesting 
people who enlighten and educate us. Our conversation with you 
today is a case in point. We appreciate you joining us this 
morning to share your vision for the future of the Smithsonian 
and to discuss your budget request for next year.
    It was not long ago that you laid out an ambitious 5-year 
strategic plan for the Smithsonian. As we have discussed on 
more than one occasion, I am particularly interested in your 
plans to reach a larger and broadercross-section of America, 
including small communities in rural America, like those in my home 
State of Idaho. The resources of the Smithsonian are incredible, but 
not everyone has the means to travel to the Nation's capital to visit 
the national treasures that reside in the Smithsonian's many museums. 
Providing content-rich educational materials on line and connecting 
with rural communities through traveling exhibitions are worthwhile 
endeavors that I fully support.
    Earlier this week I was reminded yet again of the vastness 
of the Smithsonian's reach. With the help of your staff, I had 
the opportunity to tour the Smithsonian's American Art Museum 
where I saw the Framing of the West, an exhibition featuring 
the work of photographer Timothy O'Sullivan who captured in 
stark terms the complex and rugged landscape of the American 
West. O'Sullivan was a photographer for two of the most 
ambitious geographical surveys of the 19th century, and he 
spent a lot of time in the mountains and desert regions of the 
western United States. Some of his best work captures the 
beauty and the majesty of the Shoshone Falls and the Snake 
River in Idaho.
    Dr. Clough, in closing I want to thank you for the fine 
work of the professional staff that serves you and the 
Smithsonian so well. Nell Payne, Maura Reidy, and countless 
other dedicated professionals do an incredible job 
communicating with us, educating us and keeping us informed of 
the Smithsonian's many activities, and we greatly appreciate 
their efforts.
    I look forward to your testimony today and continuing to 
work with you. Thank you.
    Mr. Clough. Thank you, Congressman Simpson.
    Mr. Hinchey. Mr. Clough. Thank you.
                              ----------                              --
--------

                                         Wednesday, April 14, 2010.

                        SMITHSONIAN INSTITUTION


                                WITNESS

DR. G. WAYNE CLOUGH, SECRETARY

                  Testimony of Secretary Wayne Clough

    Mr. Clough. Thank you, Mr. Chairman. I appreciate it very 
much. We are pleased to be here, and we are thankful for the 
support that Congress has given to the Smithsonian and to its 
future.
    We would like to think we have begun a new era at the 
Smithsonian. We have put a lot of the past behind us and are 
moving forward with our new strategic plan.
    As you know, our new plan calls for us to shape the future 
by preserving our heritage, discovering new knowledge and 
sharing our resources with the world. And Mr. Chairman, you 
very nicely described the four grand challenges which are 
intended really to take this institution with its many moving 
parts and focus it in these challenging areas. Also, they allow 
us to do cross-disciplinary things, in other words, to take the 
resources of the Smithsonian and use them, in a way, more 
creatively, to cross the disciplines and cross the different 
museums and different ways to address the major topics of the 
day.
    Added to this, as Congressman Simpson has indicated, we 
want broadened access to the Smithsonian. We want to actually 
take the museum to the people through partnerships and using 
digital technology as well as traveling exhibits.
    So this is an ambitious plan, we think, but we think we can 
do it because we have 6,000 very talented people, passionate 
people, who work at the Smithsonian. And in addition, we have 
6,500 volunteers who love it just as much. I gave a 50-year pin 
to a volunteer the other day. That is a long time for volunteer 
work.
    We are, we believe, making progress on many fronts: 
exhibitions, visits, collections, digitization, outreach, 
education, and more, and I will give you a few examples.

                              EXHIBITIONS

    Last year through the help that we received from Congress, 
our Collections Care and Preservation Fund directly improved 
the care of 1.5 million items, and we opened a state-of-the-art 
facility on Pennsy Drive which offers us much more capacity to 
protect the assets that we have for the American people. Last 
month we celebrated the 100th anniversary of the opening of the 
National Museum of Natural History, the most visited museum in 
the United States. It has an exciting new, permanent exhibit 
called What Does It Mean To Be Human? I hope you all have a 
chance to visit that. If you would like to and you have not, we 
would love to give you a tour.
    But this is one of only 10 brand-new exhibits that we have, 
and you mentioned one, Framing the West, which is a very good 
one, across the Smithsonian for the visitors who are starting 
to come in droves in the spring and the summer.
    This month also we are celebrating the truly original 
American art form, jazz. We have our own jazz group, and others 
are invited to participate with us. All of these arefree events 
and live performances. This week marks the 40th anniversary of Apollo 
13, and Commander James Lovell is joining us at the Air and Space 
Museum to help relive that mission and that dramatic space flight which 
we will remember for all time because of his words, Houston, we have 
had a problem.

                                 VISITS

    From kites on the mall, the Smithsonian sponsors the 
National Kite Festival, to curators on YouTube, we are reaching 
out locally, globally, in person and on-line. If you cannot 
come to us, our motto is, we will come to you. We had 30 
million visitors last year, 6 million more than the year before 
but nearly 190 million visitors to our websites. We reached 
another 5 million visitors in person through our traveling 
exhibits program. We now have nearly 200 social media accounts 
across the institution, and on our central social media 
accounts alone, we have 50,000 Facebook fans, 62,000 Twitter 
followers and our YouTube videos are being viewed at very high 
rates, particularly the First Lady's gown exhibit, and that 
indeed is the leave behind for you today. You have four of our 
new YouTube videos. I hope you will have a chance to take a 
look at them.
    People have told us the most popular one of these four is 
the First Lady's gown event which was marvelous, and the First 
Lady was delightful. But my favorite is the one that you will 
see shown on the CD cover with a gorilla eating.
    It is about the chef at the zoo. The chef at the zoo 
prepares daily meals for 2,200 animals with completely 
different appetites and different nutritional requirements. I 
found it fascinating. The idea is to bring out from behind the 
walls more of what is happening at this institution.

                              DIGITIZATION

    We are hiring a new director of digitization and will issue 
a digitization strategic plan this month. We are making steady 
progress on creating the digital Smithsonian. For example, our 
Encyclopedia of Life Project, which has the objective to have 
one web page for every species of life on earth already 
provides access to 400,000 species pages, and that is up by 
200,000, or doubling the number that we had last year. We have 
20 million pages of literature devoted to biological diversity 
through the Biodiversity Heritage Library which we share with 
others.
    Mr. Chairman, good to see you.
    Mr. Moran [presiding]. Good to see you. This is 
embarrassing. The 20-minute trip took nearly an hour and a 
half. But that is not your responsibility.
    Excuse me very much for interrupting you.
    Mr. Clough. Not a problem.
    Mr. Moran. Doctor, please proceed. It is very nice to see 
you.
    Mr. Clough. Good to see you. So we were just going over our 
efforts in digitization and global outreach, and you have this 
in front of you. That is YouTube videos which you can see at 
your own time when you have a chance to do it.
    So we are trying to share our resources with others around 
the country and indeed around the world. In fact, we would like 
to begin to use these resources to revitalize K through 12 
education in the country. So we have been having discussions 
with the Department of Education and with many others who do 
just that. And we just hired our new Director of Education, 
Claudine Brown, who actually worked with the Smithsonian in her 
past life, to coordinate our efforts in education.

                               EDUCATION

    We have much to offer students, teachers and parents, and 
indeed learners of all ages. For example, today actually is Day 
2 of a four-day Smithsonian on-line education conference 
sponsored by Microsoft Partners in Learning. Microsoft Partners 
in Learning reaches 2 million students in this country and some 
around the world. The conference addresses our four grand 
challenges that we have in our strategic plan, and it allows 
participants not only to hear from our experts but to ask them 
questions. It reaches all 50 states, six continents and the 
Microsoft network of 2 million teachers and students. It will 
be archived for continued access, and we have plans for more 
such on-lineseminars in the future.

                  COLLABORATION WITH FEDERAL AGENCIES

    We are also proud of our collaborations with other 
government agencies. We indeed want to make sure we do not 
overlap too much, that in fact we are working consistently with 
them.
    For example, we are working with the State Department on a 
number of fronts. Last month with the State Department we 
hosted the President and First Lady of the Republic of Senegal 
at our African Art Museum for a lunch, and Saturday we hosted 
the President of Argentina to help launch our 26-event schedule 
that will celebrate the bicentennial of Argentina this year. 
And in Haiti, we are working closely with the State Department, 
the President's Committee for Arts and Humanities, the Defense 
Department, the NEA, the NEH, and the Institute of Museum and 
Library Services and many American cultural institutions who 
want to help Haiti recover its cultural assets, many of which 
lie today in the rubble of the buildings there that need to be 
rescued and restored.
    The Smithsonian has always been an international 
institution explaining what it means to be an American to both 
our citizens and to those of the world. Our fiscal 2011 budget 
totals $797.6 million. This is the proposal to you from OMB. I 
want to assure the Committee we are determined to use every 
penny as wisely as we can. We just received an unqualified 
audit opinion of the whole institution from KPMG with no 
significant deficiencies and no material weaknesses, and on 
Friday we will complete a big study we have been doing called 
the Best Practices Study so that we will become a better 
institution, use our resources more clearly and carefully and 
communicate with our people about how we do that. We want to 
run a tight ship and maximize every dollar because we know 
those dollars are hard to come by today.
    So thank you for your continued support, and I am very 
optimistic about the future of the Smithsonian.
    [The statement of Mr. Clough follows:]

    [GRAPHIC] [TIFF OMITTED] T7302B.082
    
    [GRAPHIC] [TIFF OMITTED] T7302B.083
    
    [GRAPHIC] [TIFF OMITTED] T7302B.084
    
    [GRAPHIC] [TIFF OMITTED] T7302B.085
    
    [GRAPHIC] [TIFF OMITTED] T7302B.086
    
    [GRAPHIC] [TIFF OMITTED] T7302B.087
    
    [GRAPHIC] [TIFF OMITTED] T7302B.088
    
    [GRAPHIC] [TIFF OMITTED] T7302B.089
    
    [GRAPHIC] [TIFF OMITTED] T7302B.090
    
    [GRAPHIC] [TIFF OMITTED] T7302B.091
    
    [GRAPHIC] [TIFF OMITTED] T7302B.092
    
                               EDUCATION

    Mr. Moran. Thank you very much, Mr. Chairman. Let me 
inquire into two or three areas and then give an opportunity to 
my friends and colleagues here.
    You talked about education, and yet there is no additional 
money to pursue that educational initiative. How are you going 
to get the resources to accomplish that?
    Mr. Clough. Well, the good news is that my colleagues at 
the Smithsonian recognized this as an important issue a long 
time ago. And so they have basically built that into their 
budget since, so almost all of our museums and research centers 
have educational outreach programs already built into their 
budgets. But what we are doing at this point in time before we 
actually look for places to actually get the funding from the 
federal side is that we have brought in private money. We are 
paying, for example, the salary of our new Director of 
Education with a grant from Bob Kogod, one of our regents, who 
is very interested in education. We think there will be a lot 
of private interest in this, and there will be grant processes 
that we can go through with the Department of Education and 
other institutions. We will be opening two learning labs at the 
Smithsonian working with the Pearson Foundation. They will pay 
entirely for the software and hardware, and those two labs will 
be run by existing organizations at the Smithsonian for which 
we already have the funding in our budget.

                              REGENTS ROLE

    Mr. Moran. Good answer. You mentioned Mr. Kogod, and it 
brings up the role of the regents. The GAO did a pretty 
intensive investigation because we have had some problems in 
the past, some questions have been raised, particularly with 
regard to the role of the regents. Could you give us a brief 
description of how the regents now provide that oversight and 
guidance as was intended when it was set up?
    Mr. Clough. After they had the problems, I think to the 
regents' credit, they brought in folks who could really speak 
to the idea of best practices for governance. And those best 
practice reviews showed that the Smithsonian really was lacking 
in some areas. And I would say after having looked at those 
myself and having been at a public institution which was a non-
profit, that the Smithsonian was behind the times. Many of the 
things that they were recommending were things that 
universities had already done, needed to do. But it amounted to 
25 new policies and procedures which were fairly extensive, 
some of which really went deep into the institution. So an 
effort was undertaken to implement all 25 of those procedures 
and policies. Now the GAO sort of parsed those in a different 
way, and their version of it was that it was the same set of 
parameters, but they identified 46 different ways to look at it 
as opposed to 25.
    The Smithsonian has completed all of those activities. When 
the GAO did their latest review which was fairly recently, they 
found the Smithsonian had completed 38 of the 46. Three of 
those sort of lay on the institutional side, and we have 
completed all three of those. Three of those lay on the Regents 
side. An example of that would be advisory boards. The 
Smithsonian is a big place with a lot of moving parts. And so 
to its credit it has many advisory boards. Every museum has an 
advisory board, and the question as raised by GAO and others is 
how do those boards communicate with the Board of Regents, 
which is the governing board. And so the regents have taken 
this very seriously. Many of the regents serve on some of these 
boards as well. And then the chair of the boards, for example, 
and I meet annually or since we have been active with the 
strategic planning and other processes, we are meeting twice a 
year with all the chairs of all the committees. And when I say 
that, there are about 30 of them. So there are lots of those 
boards. So that was one of the findings is find a way to 
integrate the planning and the board activities for all of the 
advisory boards. Now, all the boards that I mentioned are just 
advisory boards. The fiduciary board is the Board of Regents. 
And so they are working themselves to satisfy all the GAO 
recommendations. We think we will be done with all those very 
soon.
    Mr. Moran. Very good. It seems as though you were almost 
prepped on these. I guess they are obvious questions to ask.
    Mr. Clough. I have had to live with this----

                        INTERNATIONAL ASSISTANCE

    Mr. Moran. They are not particularly original questions, I 
guess. Let me ask you one for which I am sure you are not fully 
prepared, but I know we will get a good answer.
    Mr. Dreier, Dave Dreier and I were on a CODEL a few years 
ago, and we went to Mali which not a whole lot of CODELs go 
there because it is something of a God-forsaken country, very 
poverty stricken. We went to one of the oldest mosques in the 
world, and they had manuscripts written down by original, some 
they say were at the time of Mohammed. I do not know that that 
is true, but clearly well over 1,000 years old. But there was 
no temperature control, and in fact, we saw insects eating away 
at the paper.
    You mentioned that you are an international institution. Do 
you ever, for example, have people go there, give them 
instructions and maybe in return for whatever cost might be, 
they might lend us some of those manuscripts once they are 
restored? We wouldn't want to take them from the country, 
obviously. But there could be some benefit to the United 
States, but more importantly, you are an international 
institution, and it is an international resource.
    Mr. Clough. Right.
    Mr. Moran. Do you do that kind of thing?
    Mr. Clough. Well, on any given day, there are people from 
countries like that who are here seeking our help, seeking our 
advice. And we provide that readily to them. We have something 
called Museum Conservation Institute which deals specifically 
with issues like that because we have issues like that 
ourselves. We have documents, we have artifacts that can be 
attacked by insects and things of that sort. We have expertise. 
And I recognize after having been there a little while that 
this is an expertise that most museums cannot have. They just 
cannot afford the kind of talent that is necessary or the 
equipment because there is equipment involved to make sure you 
understand the quality of the artifact and so forth.
    We make this kind of information readily available to 
people. We have thought, however, because it seems if we are 
getting more of those requests than we did in the past that we 
should create a structure. And so our regents recently approved 
something called a Museum Professional Studies Program for us 
so that we will have a central resource. So rather than having 
someone from Mali, for example, come to three of our museums or 
not know which one to go to, we will have a central entity that 
will be a gateway for people who have requests like that so we 
can refer them to different places.
    In addition, we have thought about the fact that weshould 
recover costs because this does take time away from people who are in 
demand here to do the things we have to do here. So we are putting it 
on the basis of a cost structure, if you will, to recover our cost for 
these kind of activities. It only makes sense when we do these kind of 
things.
    Now, there are cases where people simply do not have the 
money, and that would be Haiti as an example. We have worked 
with the First Lady and others on how do we help Haiti because 
their whole cultural heritage is at risk there. And somehow 
they will have to have an international coalition come 
together, donors, and we have already had a donor gift, for 
example, to provide art materials to many of the artists in 
Haiti, and we will help sell the materials for them and the 
monies will go back to a fund that will be controlled by a non-
profit agency to see that it gets back to the right people.
    So we are trying to think about how we do this in a more 
structured way as opposed to highly unstructured.
    Mr. Moran. Thank you, Mr. Secretary. Mr. Ranking Member 
Simpson.

                                OUTREACH

    Mr. Simpson. Thanks, Mr. Chairman. I mentioned during my 
opening statement and you mentioned during yours getting the 
Smithsonian out to rural America. Most people from Idaho that 
come here, after the White House, the next thing they want to 
see is the Smithsonian when they call our office and ask, you 
know, what should we do, where can we go. They do not realize 
the Smithsonian is big. They are thinking of a building, you 
know.
    You mentioned you had a new education director, I guess it 
was. But what are we doing to get the Smithsonian out to the 
rest of the country because while it is nice that while I am 
here, I have the opportunity to go to the Smithsonian. Most 
people in Idaho are never going to be in Washington.
    Mr. Clough. And that is a subject that is very sensitive 
with me personally because I grew up in a rural part of the 
State of Georgia. My parents did not have a lot of money, and 
so we never came to Washington until later in life. And I 
thought about that. My parents actually helped pay for the 
Smithsonian, and they never had the benefit of it in a way. So 
to me, I think we need to reach out to these communities. We 
need to let them know what we have. Fundamentally, if you think 
about it, although I think our demographic is fairly broad 
because we get 30 million visits a year but still, it tends to 
be more college-educated, more higher income bracket, fewer 
young people. We really have to find a way to connect to the 
young people. That is why we are getting into YouTube. Fewer 
folks from rural areas really get to see us. Now, we have 
traditionally done traveling exhibits which is a very effective 
way to travel exhibits, and we may have an exhibit that we 
start here at the Smithsonian, but it will end up in 30 cities 
over a period of 3 years. And we do that and that is provided 
by free access, and upwards of 5 million people see those 
traveling exhibits. But digitally we can reach everybody.
    And so we are in the process, and you have been very 
generous to support us in our efforts to digitize our 
collections, and we want to do that in a very dynamic way. We 
do not want to just show somebody a picture or something. It 
should be, for example, if you are interested in air and space 
and Amelia Earhart that you see not only her beautiful plane 
that she flew but you could turn it over and see the struts and 
how the wheels work and look on the inside of the cockpit. And 
some day, it will take off and you will be able to watch that 
happen.
    So we want to make that experience as engaging as we can 
make it for those folks and encourage them to come to see the 
real thing when we do it. With the Director of Education, we 
want to get more focused as opposed to just making it available 
for free on the web which these are, and we have had tremendous 
response to the things that we are putting on the web. But in 
that case, we want to say to a particular school district, for 
example, what do you need? Because we have all these 
collections, 137 million objects that can be used for science 
lessons, used for history lessons, used for culture lessons. 
And so what we want to do is to try to find out how far down 
the road we can go to sort of customizing the delivery of what 
we do to some of the K through 12 districts that need the help.
    As you know, the K through 12 system is run by the states 
anyway, and so we are working hard. One of the most effective 
connections for us is the Council of Chief State School 
Officers, CCSSO, and their headquarters is not far from here. 
We are working closely with them. We, for example, honor the 
teachers of the year from all 50 states, and we do not just let 
them go. Once we honor them, they become part of a network for 
us. And so over a period of years, we built a network of 
teachers of the year all over the different states. We are 
trying every way we can to reach and get more structure about 
delivery.

                             NATIONAL MALL

    Mr. Simpson. One of the other things you do is the Folk 
Life Festival that has been going on at the mall for a number 
of years. As you know, we are trying to restore the mall with 
the National Park Service, and have talked about this, I do not 
want to say, conflict, but sometimes competing needs, trying to 
restore the mall so that it is--I guess probably the biggest 
disappointment that most people have when they come and when 
they see the pictures of the mall and how green and beautiful 
it is in the pictures and then they go down there and go wow, 
that is not anything like thepictures. And so this committee is 
trying to restore this mall to the prominence that it should have. 
Sometimes that creates competing needs and overuse. And you recently 
received a letter from the Parks Service allowing you to do the permit 
for this year----
    Mr. Clough. Yes.
    Mr. Simpson [continuing]. For the Folk Life Festival. Are 
you going to be able to work with the Park Service and try to 
work out a plan where you can still do the Folk Life Festival 
understanding the needs that the mall is going to have?
    Mr. Clough. Absolutely, and I am meeting with Mr. Jarvis 
tomorrow, I think it is. So we are going to have that 
discussion. And they have been very good in allowing us to 
comment on their process. We have tried to be responsible in 
our responses back, and I have helped draft them personally 
myself because I have a strong interest in this. If you really 
want to see the condition of the mall, go up to the top of the 
tower of the Castle Building and you can see how poorly 
maintained it is presently and you know, how much traffic it 
gets on it and that kind of thing. So it really impacts us and 
the impression people have of the Smithsonian. We are very 
anxious to work to improve this. We did ask that they undertake 
a scientific study to try to look at this balance of public use 
versus the look of the mall, and they are doing that. We will 
be very supportive of them in that activity.

                       ARTS AND INDUSTRY BUILDING

    Mr. Simpson. Okay. I appreciate that. Arts and Industry 
Building. The committee went down and took a look at it last 
year. I think the committee is very interested in seeing that 
building reopened for use. Where are we on that, and what is it 
going to take in the way of funding to do that? How much of it 
is going to be raised privately, how much by the committee?
    Mr. Clough. Bear with me for a moment and I will tell you 
where we are because you did provide us with $25 million of 
stimulus funding which was very helpful to us. And because of 
the stipulations about being shovel-ready, we can only use 
about $5 million on the building. But we did apply that and I 
think very effectively. That contract is just being completed 
today. We did repoint the outside. That was a very important 
thing to do, and on the inside, over time that building has 
been built up with many, many offices which should not have 
been there. And as a result, the original concept for the 
building which was to kind of see through it was lost. And so 
we really--you know, I indicated to the contractor, go in and 
take those walls out. And so they have done a lot of that, have 
not quite completed, and to work on the hazardous materials. 
This is an old building with hazardous materials. Get that 
stuff out of there.
    And so you can go there today, and we would invite you 
again if you want to come back and take a look. I was just 
there with our regents because the regents wanted to see it on 
Monday. And you can actually begin to see what it used to look 
like back in the days when it was the only museum or the only 
exhibition hall on the mall.
    So that has been done. And we have $12.6 million in fiscal 
year 2010 which we are applying to design and really to try to 
get at the core issue which you raised and that is how much 
really will it cost to bring this building back? And there are 
some basic elements that have to be undertaken for this 
building no matter what its ultimate use. For example, it has 
to be brought up to code. It is not up to code. And it has 
issues. You have to blast proof it. The roof is a very 
complicated roof. It has 137 different angles on top of it if 
you ever look at it. So it has leaked over time. It has no 
insulation. It took a heavy snow load during the snow. I came 
in during the snow. I can walk to work fortunately, do not have 
to go on the GW parkway, and you know, when you are standing 
there you can see water coming through in certain places where 
they have the valleys and so forth. So the roof is a big 
problem. We do not know quite what the cost will be. It will 
not be inexpensive. Now, simultaneously, some time back, our 
regents had tasked me with figuring out what would we do with 
it if we could open it, and there were various proposals that 
were there in place. And we have had groups in the Smithsonian 
and other advisory groups who have given us pro bono advice on 
what to do with it. And the notion is that we could create what 
we call a gateway center. Because the Smithsonian is such a 
diverse institution, very few people know as you said about all 
these museums. They do not know we have this magnificent 
Reynolds Center up on 7th and G where the Portrait Gallery and 
the Smithsonian American Art Museum are. And so the idea would 
be that this would be an entryway where people could come in 
and understand the history and the entirety of the Smithsonian 
and understand something about the history of the mall as well 
which is a fascinating story in itself. And we have had an 
architect engage with us who specializes in taking old 
buildings and doing fairly dramatic things inside them that are 
engaging for folks. And so we just had a presentation on that. 
It is an exciting possibility. We think it would be very 
reasonable in terms of the cost of that part of it, but the 
basic part will be relatively expensive. We just do not have a 
number on that yet. But we are moving down that road.
    In addition, so you should be aware, the Latino Commission 
which is considering the possibility of a Latino museum and 
considering who should run it--we are not necessarily 
designated or will not be necessarily chosen to do that--have 
indicated and sent me a letter that the A&Ibuilding is one 
possibility they are considering among a number. And they have a group 
that is looking just at siting as we speak, and we should hear from 
them in the fall. But regardless of what purpose, we need to do a lot 
of things to that building that have to be done to bring it up to code.
    Mr. Simpson. It is truly an iconic building for the mall 
and for the Smithsonian, and it would be nice to have it as an 
entry structure for the rest of the Smithsonian to see what was 
going on with the rest of the museums, and it would be nice to 
be able to do it at the time we refurbish the mall also----
    Mr. Clough. Yes.
    Mr. Simpson [continuing]. To have all that done.
    Mr. Clough. It would be wonderful. It is exciting to think 
about the prospects, and this new plan is a very exciting plan. 
And you know, I am out on the mall a lot on the weekend because 
I live nearby, probably every fifth group that comes by tries 
to get in the building. And it is a shame for the building not 
to be open, and it is an iconic building built in 1881, one of 
the most spectacular buildings in Washington. It can be used as 
an exhibition hall, not as a museum. You would never get the 
temperature and light controls as you would like.
    But we have done the studies on sustainability. We could 
probably make it what we call a Gold LEEDS building. The roof 
does capture water, and we can put that in cisterns. And it 
does have beautiful, now that you open it up, natural lighting. 
You do not need artificial light in that.
    Mr. Simpson. Really?
    Mr. Clough. The architect was a genius when you think about 
it.
    Mr. Simpson. Go ahead. I have got a couple other questions.
    Mr. Moran. Good. Thank you, Mr. Simpson, Mr. Hinchey, and 
thanks again for enabling us to start a little closer to the 
scheduled time.
    Mr. Hinchey. Thank you.
    Mr. Moran. Thank you for your time.
    Mr. Hinchey. It was a great pleasure. Thank you very much.
    Mr. Secretary, thank you. It was great listening to you, 
and it is great listening to your response to these questions. 
They are very important and intriguing. I was deeply interested 
in what you were talking about in the initiation of your 
remarks. All of the things that you are involved in from 
gorilla behavior, to jazz to the expansion of space travel, and 
a whole host of other things are deeply intriguing and very 
important for our country. They are particularly important in 
helping people understand it and see what is going on, and I 
think this is one of the wonderful things that you do. I am 
deeply grateful for everything that you do.
    Mr. Clough. Thank you.

                          FOUR KEY CHALLENGES

    Mr. Hinchey. The four key challenges of the new strategic 
plan are also very intriguing and very interesting and are 
going to produce a great deal of interesting new developments. 
So I would appreciate it if you might talk to us about that and 
tell us exactly what that situation is going to be and how it 
is going to develop and how the Smithsonian is going to operate 
in the context of those new four operations.
    Mr. Clough. Well, thank you for that. We are excited about 
it, and this was a plan that was developed that was very 
inclusive. It has never been done before at the Smithsonian, 
but we do have a lot of moving parts at the Smithsonian and we 
have people who are around the world. We brought everybody 
together to talk about this. And so I think it is a very 
focused vision. It captures our current efforts by and large, 
the core efforts that we want to focus on and then allows us to 
do cross-cutting things across.
    A good example of that I think is the American Experience. 
What does it mean to be an American? And I find that a very 
compelling topic. And when I start to talk to people about it 
at first there is not a connection, but the more you talk to 
people about it, the more they realize how important that is. 
What is the glue that holds a country together that is made up 
of peoples who have come from so many different places, some of 
whom were here in the beginning, many of whom came here to seek 
opportunity, some who came here under bondage. And so there are 
many different stories to be told.
    And the Smithsonian is unique because it has different 
aspects of this topic within it and also in addition, we hope 
to collaborate with other institutions. We could work with the 
National Gallery, we can certainly work with the Library of 
Congress and others to help tell these stories. But if you take 
the Smithsonian alone, we have the National Portrait Gallery, 
we have the Smithsonian American Art Museum, we have the 
National Museum of American History, we have the National 
Museum of the American Indian, we have the National Museum of 
African-American History and Culture, we have the Air and Space 
Museum which tells another side of the great story of America 
as creating in essence the aerospace industry and both the 
airplanes as well as the space part of that.
    And so the idea is to bring all of these resources together 
to speak to these common issues and we have to organize 
ourselves to do that because the museums by themselves do not 
have the capacity to do that.
    So we are going to create what we call a consortium or 
acenter that will speak to this issue. And we are going to make it so 
that it will be very lightly administered, that is, we do not want to 
build up another silo or another organization. This is an organization 
designed to facilitate the working together of different groups within 
the Smithsonian, as well as reaching out, for example, to the Park 
Service, because if you are going to tell the story of the American 
experience, well, there is a monument right there that is next to us 
that is part of that story, there is the Lincoln Memorial, there is the 
Jefferson Memorial. And so reaching out to the Park Service, reaching 
out to the National Gallery, reaching out to others who have resources 
we do not have will help tell that story.
    So organizationally we are creating this consortium. We 
believe shortly we will have a nice announcement to make about 
a foundation that is very keen on this idea that will give us a 
significant amount of funds to get this rolling and get it 
started and get our folks going. We had our first what we call 
idea fair. We are going to have four idea fairs, and so what we 
are doing is the idea fair will address each one of these 
topics. And so the first one was on this very subject, and we 
had 200 proposals that were sent in from across the Smithsonian 
about ideas of ways they thought they could fulfill this 
destiny or this story. We ended up discussing 70 of them--we 
could not do them all--at the idea fair, and 250 people came to 
the idea fair, and it was interesting. It was not just the arts 
and the history museum but the scientists were there because 
the story of American science is also the story of America.
    We had some fascinating topics that were brought to the 
table. We are in the process of recruiting directors for each 
of the centers. We are going to situate them in the Castle 
building, and then we will all have one common source of 
administrative support so we do not have to duplicate that. But 
we are very excited about this prospect. We think we can do it. 
We think it is a great way for us also to reach out to our 
fellow cultural and scientific institutions and universities as 
well to help us tell the story. But it is a powerful thing 
because this country is getting ever more diverse and needs to 
think about how it is going to stick together in the future. So 
we think it is historic but it is all about the future as well.

                           EDUCATION/OUTREACH

    Mr. Hinchey. Yes, I agree. I think it is a wonderful thing 
to do. One of the most important things that you deal with is 
the expansion of education around this country and how 
significant it is for some local educational institutions, 
particularly for high schools that can actually come here. Not 
very many of them are able to do that, but nevertheless, it is 
a great experience. And I know that the educational aspect of 
what you do is something that is critically important to you 
and something that you are expanding on. Could you mention a 
couple of things about that as well?
    Mr. Clough. Well, we try to build on this idea from several 
points of view, one is the conventional museum visit, to enrich 
that visit because we call it the Learning Journey. And this is 
a place where we try to tie together the digital outreach with 
the conventional visit. So if a high school group from New York 
is coming down and they are doing a civics lesson on what does 
it mean to be an American, they would have been able to access 
our website, access our digital material on that kind of 
information beforehand and would have been able to virtually 
talk to a docent or possibly one of our experts on this very 
topic or reach into our archived sources and get that material.
    So when they come here, they are prepared for their visit. 
They are not just wandering around hoping to see something, 
they really know--because the Smithsonian can be overwhelming. 
There are so many different places to go. And while they are 
here, they would hopefully have a very meaningful visit. And 
then when they go back home, they can still continue to 
interact with our docents using the Internet. So the idea is to 
build up the essence and the engagement activities regarding a 
visit. Now, in addition, we will be developing educational 
modules in and aroundtopics. For example, we did an on-line 
seminar on Lincoln earlier this year, his 200th birthday, and six of 
our curators had six different exhibitions on Lincoln, spoke to their 
exhibitions, why they chose the objects, how Lincoln had--you know, 
each thing we have, Lincoln touched in some way. So how was it Lincoln 
touched these objects. It made it very real, and the students could 
blog in and talk to the curators and talk to the docents, and we got to 
Douglas, Georgia, my hometown. So there were about 150 kids in Douglas, 
Georgia, who participated in that. So we want to get more formal about 
this, we want to work with the school districts and really make sure 
that we are not doing something they do not want. We give them 
something they need, and they can build it into their curriculum 
because they are losing the arts, they are losing the civics and they 
are losing the sciences, and we can fill that gap with that.
    I should say incidentally some great credit to our 
Smithsonian American Art Museum. They already have a contract 
with the Department of Defense which operates the largest K 
through 12 system in the world, and we are providing arts 
education to youngsters on military bases all over the world.
    Mr. Hinchey. Mr. Secretary, thank you. Thank you very much.
    Mr. Clough. Thank you.
    Mr. Hinchey. Thank you particularly for everything that you 
are doing.
    Mr. Clough. Thank you.
    Mr. Hinchey. And how fortunate it is for this country.
    Mr. Clough. I have a great group of people who are working 
with me, let me tell you.

                 PROLIFERATION OF MONUMENTS AND MUSEUMS

    Mr. Moran. Thanks very much, Mr. Hinchey. Let me just 
register an observation because it is probably only--it may be 
unique to me but since I happen to be in this position, I want 
to take advantage of the opportunity to share it and then I 
want to give Mr. Simpson the opportunity to ask the rest of his 
questions.
    You have more money for, a substantial request actually, 
for the design of the African-American Museum as part of the 
Smithsonian. There is a request to turn the Arts and Industries 
Building into a Hispanic-American Museum. We have the Indian 
Museum, the new one. I am concerned about the proliferation of 
museums, and as we do that, we do not integrate as well. What 
is told in the African-American Museum should also be reflected 
in the Museum of American History fully. We just had a little 
spat over the proclamation on the Confederacy leaving out 
slavery which was an inexcusable omission. Unfortunately, it 
was only after the fact that it has been corrected. I had 
occasion to talk to the Park Service. They were almost doing 
the same thing in their commemoration, 150th anniversary. I 
think they are going to make sure that that is corrected and 
that the true cause of the Civil War is fully expressed in 
their depiction of it. Part of the proliferation of buildings 
is not your responsibility at all. The World War II History 
Museum, for example, had nothing to do with 50 states but had 
everything to do with one Nation. I find it inappropriate, 
frankly, and taking up an awful lot of space. The Indian Museum 
does not tell the story of Native Americans. It is kind of a 
glorified arts and crafts museum, frankly. I wish it was more 
evocative like the Holocaust Museum. It has told a story and 
left people emotionally affected.
    But as we proliferate, it is almost as though our 
generation, as large as my generation is, the baby boomers, it 
is almost as though our heroes and icons are the only ones that 
matter to history. There are going to be subsequent generations 
that will have their own heroes and ought to and ought to be 
able to have some space on the mall to express what inspired 
them to greatness, if you will. And there is going to be no 
room left. We are going to build an Eisenhower Memorial now on 
a little grassy plot in front of the education building. I 
think Eisenhower was a terrific president, but it is not so 
much a reflection on the individuals as where we are going with 
this. And particularly with the African-American and Hispanic 
museum, it almost gives an excuse not to fully reflect the true 
history of the country if you have a separate museum that 
reflects that. I find that objectionable.
    So this is kind of a personal statement, although I really 
would like to elicit from you a reaction from you, if you have 
given any thought to this because I do have great respect for 
your insight and reflection.
    Mr. Clough. Thank you.
    Mr. Moran. Mr. Secretary, do you have any thoughts on that?
    Mr. Clough. Sure, and I think we all share some concerns in 
this process, and I would say the Smithsonian shares some of 
the blame, if you want to take it that way, that we do have 
this proliferation of museums. I think if the Smithsonian had 
been doing its job, if it had been a more inclusive institution 
in the beginning and it had taken its job seriously to tell the 
story of the American experience at large, that you would have 
been able to do it within a larger context as opposed to sort 
of a smaller context. But this has already happened, and so I 
think our job is to say this is what it is. What can we do to 
bring coherence to this story? Because obviously we now know 
the melting pot idea is probably not the true way life works. 
All of us have roots somewhere, and all of us like to think 
about those roots andthat is a fine thing. But there is a 
commonality. There is this glue that holds us all together. And I think 
we learned a little bit from the experience at the American Indian 
museum which I think is a fine museum and--its future still needs to be 
shaped for us. And fortunately we have a great director there, Kevin 
Gover, who is outstanding and who understands some of what might be 
considered shortcomings of that museum, and he is working hard on that. 
He is working hard to bring that more current, to bring more artifacts 
into that museum so people can really understand it better and more 
programs that are meaningful. And some of them are whimsical, and I 
like that. He just had one on skateboards, Indians and skateboards, you 
know, and why not because actually the kids on reservations or wherever 
they are love the same culture that other kids do. The Brian Jungen 
Exhibit is about the Northwestern Indian artifacts as you have behind 
you here, but it is done in a remarkable way where he talks about deep 
time but he uses artifacts that are very contemporary and very temporal 
and we lose them. And I think he has done a great job of trying to 
bring more people in so then you can tell your story.
    To the Smithsonian's great credit, enduring credit, they 
hired Lonnie Bunch to be the Director of the National Museum of 
African-American History and Culture, and Lonnie is a 
remarkable individual. He had many years at the Smithsonian, 
but then he went on to a distinguished career outside of the 
Smithsonian and getting him back was important. He understands 
the point you just made. And having worked in the Museum of 
American History, if we had done our job there well, we would 
have been able to I think address these issues more 
holistically than we are doing them today. But Lonnie clearly 
understands this museum has many missions, if you will, one of 
which is to tell the American story. You know, the African-
American story is an American story, to tell it in the context 
of America and what it means to be an American. But also to 
tell the dimensions of that story that were unique to the 
African-American community and the horrors of slavery and how 
those slaves were brought here. But he does not want this to be 
a museum where that is the only story that is told because 
there is a story of redemption, there is a story of greatness, 
and the African-American story of people making their way 
through this country, fighting for their rights, and finding 
fortunately some allies along the way and making a difference 
in the country.
    And so you will find celebration of African-American 
contributions to music, to sports, to science, to all these 
other areas and to arts and so forth in this museum. I think 
they have done a great job of thinking this through about 
balancing the parts of the story that need to be told. And he 
has been all over this country in an attempt to make sure that 
all of the African-American smaller museums are a part of this, 
to see us as their national partner. And so he has done a great 
job of doing that. So he has listened a lot. I was with him at 
the Atlanta History Center just about 2 months ago with John 
Lewis who made an absolutely compelling case for this museum 
from his point of view.
    So I think that Lonnie understands it, I think Kevin 
understands, and I think we learned some lessons in the 
American Indian museum. Kevin is working I think to make that a 
broader approach to the issues that that museum represents. For 
example, in education, we note that an awful lot of American 
Indian youngsters live on reservations, go to Bureau of Indian 
Affairs schools and we need to reach them. And so you know, we 
are working with the Department of Education lastly on a plan 
to literally deliver education using the information background 
we have in that museum to these youngsters about what does it 
mean to be an American from their point of view and realizing 
they have a special set of issues that they deal with, an 
unfinished project with the American Indian in this country, 
and it is a tragic story, clearly.
    Mr. Moran. Thank you, Mr. Secretary. Mr. Simpson?

                      COLLECTIONS CARE INITIATIVE

    Mr. Simpson. A couple quick questions. One of the most 
important things you do is obviously preserve over 100 million 
items. You got a $2.5 million increase in the Collections Care 
initiative. What exactly are we going to do with that, and 
where are we on the emphasis that the committee put on the 
military uniforms collection last year?
    Mr. Clough. A full assessment has been made of where we are 
with the military uniforms and what needs to be done, and they 
are in the process of implementing that. So I think that 
project is well under way to take care of that. Those uniforms 
are in American History. And so it is a fairly targeted issue 
that we can deal with and address. But overall we have 
continued the need to add to our capacity to take care of 137 
million artifacts. We are not intentionally trying to grow that 
collection, but there are times when it grows. For example, if 
we are going to have a Museum of African-American History and 
Culture, and right now that museum started out initially with 
no collection, they are up to 10,000 items now that they have 
been able to add to their collection. We have to preserve 
those. And so there is a component that addresses the growing 
collections. We are trying to work with other museums. For 
example, in our bird collection, we have 650,000 birds that we 
use that are used to help people for example with bird strikes. 
When the United flight went down on the Hudson River, the first 
place they came to was the Smithsonian, and we were able to 
tell them exactly what birds were, as they say, ingested into 
the engines, where they came from and where they had 
beenresiding. It is a remarkable story. But we work with the Field 
Museum and the American Museum of Natural History in New York to say 
let's do not duplicate our collections. If you have a collection that 
covers a different set of species than we do, that is fine. We will 
work with you. So we use the Field Museum collections in that process.
    Mr. Simpson. Are you able to keep up with the $2.5 million 
increase in this initiative? Are you able to keep up with the 
needs of preserving what we have got?
    Mr. Clough. We think so. We think we made a lot of 
progress, as I mentioned in my statement, particularly with the 
new Pennsy facility. It gives us much better facilities than we 
had before. We do suffer that we still have some old 
facilities, the old Garber facilities out at Suitland, and you 
may remember we had a little collapse out there, one of our 
buildings. It was a very old building. Classical story that you 
see with a big institution. Somebody built that in 1967, said 
it was going to be temporary and it stayed. Now, we are going 
to tear it down, and our goal is to get all those torn down and 
get all those objects out into good places for them to be cared 
for.

              REVITALIZATION, CONSTRUCTION AND MAINTENANCE

    Mr. Simpson. That leads to the other question and that is 
that in 2005 and 2007 the Smithsonian needed an investment of 
$2.5 billion for revitalization, construction and maintenance 
over a 10-year period. We have got $137 million for facilities 
capital program to make major repairs to current building. What 
specific projects are we going to undertake with that funding 
and how do you prioritize those projects?
    Mr. Clough. Yeah, and those are kind of two different 
things because the $2.5 billion was really $250 million a year, 
and that was made up of two parts, one was the facilities 
revitalization and the second part was maintenance. And so we 
are fortunate in this budget, for example, to have $137 million 
targeted toward revitalization and another $73 million which 
covers the salaries and expenses category for maintenance. 
Ideally you would like to have $150 million in revitalization 
each year and $100 million in maintenance. So what we have is 
$137 million for revitalization and $73 million. So we are not 
quite there, but there has been a lot of progress, and we are 
very proud of that.
    So we are making steady progress against the challenges, 
but when you are open every day of the year and you get 30 
million visitors a year, that is a lot of boots on the ground 
in your buildings.
    Mr. Simpson. Well, thank you. It is obvious that you have a 
passion for your job. There are a lot of things we could talk 
about. I am interested in the Encyclopedia of Life and what is 
being planned there, but we will have an opportunity to talk 
about that in the future. And I want to reemphasize again, you 
have got great employees there. Whenever people talk about you 
know, those lums that work for the Federal Government and 
federal employees or state employees and all that kind of 
stuff, all you have to do is point to some of your own 
employees who are doing a fantastic job, and we really enjoy 
working with them. So thank you, and do not lose those 
employees. And congratulations to the Rambling Wreck. They had 
a great year.
    Mr. Clough. They did. Thanks. Well, I will certainly pass 
on your high regards to our people because they would 
appreciate it, especially during the snowstorm. You know, we 
kept a museum open every day during that snowstorm, and you 
know, I was up here and I pushed a few snow shovels around and 
things. But I did not do anything really. There were a lot of 
people out there who were working 12-hour days, and quite a few 
of them stayed and slept over in their buildings to try to keep 
something going for the American people. So they will be very 
appreciative of those words.
    Mr. Simpson. Thank them for us.
    Mr. Moran. Thank you, Mr. Simpson. Excellent testimony.
    Mr. Clough. Thank you very much, Mr. Chairman.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7302B.093
    
    [GRAPHIC] [TIFF OMITTED] T7302B.094
    
    [GRAPHIC] [TIFF OMITTED] T7302B.095
    
    [GRAPHIC] [TIFF OMITTED] T7302B.096
    
    [GRAPHIC] [TIFF OMITTED] T7302B.097
    
    [GRAPHIC] [TIFF OMITTED] T7302B.098
    
    [GRAPHIC] [TIFF OMITTED] T7302B.099
    
    [GRAPHIC] [TIFF OMITTED] T7302B.100
    
                                         Wednesday, April 14, 2010.

                        NATIONAL GALLERY OF ART


                                WITNESS

EARL A. POWELL, III, DIRECTOR

                  Opening Statement of Chairman Moran

    Mr. Moran. Next we will hear from Earl Powell, the Director 
of the National Gallery of Art. We got a little show and tell 
here. We are going to have to talk about this because this is a 
big issue. But let us first go through the formality of 
welcoming you, Mr. Powell, as the Director of the National 
Gallery of Art. It has been a couple of years since you were 
last before this subcommittee. The Gallery of Art was 
established in 1937, by a joint resolution of Congress which 
pledged the United States to provide the necessary funds for 
the upkeep of the gallery, its administration, costs of 
operations, and the protection and care of the art.
    The gallery we enjoy today is considered one of the world's 
premiere art museums. It has a renowned collection of American 
and European masterworks. There is actually even some Eastern 
works that are terrific. But we owe a debt of gratitude 
particularly to the Mellon family, who provided the museum's 
original collection and financed the buildings that house these 
great masterpieces.
    This year's budget request totals $163 million. It is a 
little bit less than last year's appropriation. Of that almost 
$150 million is for the care of the art. No new collections or 
anything, just the maintenance, operation, and protection of 
the buildings and grounds. The remaining $48 million dollars 
funds repair, restoration, and renovation of the buildings.
    Your request includes funds needed to complete the repair 
of the East Building's exterior marble veneer. Last year we 
provided $40 million to begin this urgent work on repairing the 
facade of the East Building. This year you have asked for a 
second installment of another $42.250 million to hopefully 
complete this work.
    What really started this, Mr. Simpson, was that this 
arrowhead fell off the top, came down, had somebody been 
standing underneath it, it would have killed them. It stuck 
right into the ground. Mr. Powell wants to share that with us.
    Mr. Powell. That is all that has fallen, Mr. Chairman.
    Mr. Moran. Yes. Well, that is the concern, and we have met 
on this before. It is troubling at least to me and I know 
others that there was not a tough contract that would have 
enabled you to go back to the contractor and really make them 
liable for what would appear to be a construction defect. Now 
the taxpayers have to spend over $80 million to fix this.
    Now, you are going to tell us that it is a lot older than 
it appears to be, it is a beautiful building. But that is what 
we want to talk about particularly because I know we would much 
rather see this go into expansion of the collection and the 
presentation of the collections instead of the nitty-gritty 
work of taking down panels and putting them back up again and 
so on. That is really not what the taxpayers think they are 
funding when they fund the National Gallery of Art.
    But that is what we will want to ask you about, of course, 
and I want to give Mr. Simpson an opportunity to say something 
if he would like to make an introductory comment.

                    Opening Statement of Mr. Simpson

    Mr. Simpson. Thanks, Mr. Chairman. I thought the same thing 
when I had to replace the front steps at my house two years 
after they built the house because they sank. That kind of 
stuff happens, and while we can complain about it all, the fact 
is we need to fix it, and that is just the reality.
    But, Director Powell, I will be very brief, and I want to 
join Chairman Moran in welcoming you to the subcommittee this 
morning. As an aspiring artist myself I marvel at the 
incredible collections contained within your gallery walls as I 
walk through the gallery and take in room after room of 
magnificent paintings. I think to myself, what if these walls 
could talk, but then I realize that these gallery walls really 
do talk, and the incredible masterpieces say something quite 
different to each and every one of us. That is the beauty and 
magic of art. I enjoy my work in Congress, but I must confess 
that you have one of the greatest jobs in Washington, DC, and 
quite possibly in the entire world.
    Lastly, I want to thank you, Director Powell, for 
surrounding yourself with dedicated professionals who are 
committed to their work and are truly a pleasure to work with. 
Pam Jenkinson and Bill McClure and your entire team serve you 
and the gallery well and the American people well.
    So thank you for being here today.
    Mr. Powell. Thank you, Mr. Simpson. I appreciate that, and 
I know the staff does.
    Mr. Moran. Nice comments, Mr. Simpson. Thank you. Mr. 
Powell, you may proceed.

                   Testimony of Director Earl Powell

    Mr. Powell. That would be the central point I would like to 
discuss also, I know, but there are an enormous number of very 
positive things that have happened. This is an unanticipated, 
unwanted problem, but we certainly appreciate Congress's 
support in helping resolve it. And that will be done in another 
two to three years, and the building will be restored to the 
pristine beauty that it was when it opened in 1978.
    The gallery we are very proud of. I know Congress is and 
the Nation is, and we appreciate your incredible support in the 
operations and maintenance of the building. It is not only an 
art museum. I was reminded of Secretary Clough's comments about 
the Smithsonian, but it is an institution of higher learning. 
It was created and sustained by the Federal Government and the 
private sector, and in fiscal 2009, we welcomed 4.8 million 
visitors from throughout the country and abroad. That is the 
highest attendance of any art museum in this country, and I 
think the third highest in the world. We are very proud of 
that, and that is a trend that has been sustained and is 
growing. So we are excited about that.
    Mr. Moran. I hate to interrupt, but it would be the Louvre 
and then London?
    Mr. Powell. The Louvre and the British Museum are alleged. 
I would say alleged but I will have to take it on face value, 
but I know our numbers are right.
    Mr. Moran. Excuse the interruption. I just wondered who 
were the top two.
    Mr. Powell. And you are very kind to mention the fact that 
the Mellon family did the donation of the art collection and 
the funds to construct the West Building and Paul Mellon and 
sister, Alisa, funds to construct the East Building, all 
private funds. Federal Government's commitment to operate the 
gallery originates in the 1937, joint resolution, and I think 
it has been arguably, I certainly believe, the most positive, 
sustained private/public partnership that exists that I can 
think of.
    The Federal Government has been matched by private donors 
who following Mellon have generously given works of art and 
funds to create the great collections. The Special Exhibitions 
Program is one of our great prides and joys, and that is a 
critical part of the gallery's educational mission and another 
example of private and public sectors working together for the 
benefit of the American public. Major works of art are brought 
together from public and private collections around the world 
for the many millions of visitors to the gallery and to our 
website, which is another extremely important component in our 
outreach to the Nation and abroad as well.

                                WEBSITE

    That is a website that is ten years old now, and it is by 
those terms antediluvian, and we are redesigning the website, 
which has had millions and millions of visitors with private 
funding donated for that purpose. It is one of our great 
educational opportunities and initiatives, and I think the 
National Gallery, the kids' site alone, has won numerable 
awards.

                       PUBLIC EDUCATION PROGRAMS

    Public education features are in fiscal 2009, more than 
40,000 students took part in over 2,200 programs. National 
Teaching Training Institute is held each summer in addition to 
teacher workshops, which are held throughout the academic year. 
We hosted 123 specially-planned family programs for some 13,500 
attendees, including summer programs for families with children 
ages 8 to 11. In addition, we have an extensive loan program of 
educational resources, which reach a viewing audience of more 
than 30 million through the elementary and secondary schools, 
colleges and universities, museums and television stations in 
towns and cities throughout the country. Our website extended 
the experience to more than 16.7 million virtual visitors to 
us, and that will certainly grow.

                     REPAIR OF EAST BUILDING FACADE

    The West and East Buildings we consider works of art as 
well, and they are landmark buildings and significant as great 
works of art which house the works of the collections and 
protect them and make them available to our millions of 
visitors, and I want to take this opportunity to thank Congress 
and the Appropriations Committee and staff for your support for 
the repair, restoration, and renovation program.
    The repair of the East Building facade is obviously for all 
of the unfortunately obvious reasons, included in the fiscal 
year 2011, budget request. This was first discovered in 2005, 
in the large stone veneer panels on the East Building exterior. 
I would stress the interior has not been a problem, but the 
exterior has, and that is due to a combination of 
circumstances, largely because of temperature changes, heat, et 
cetera, on the outside over 30 years. It is not a young 
building, Mr. Chairman, as you know and we have discussed, but 
the problems emerged. We have been dealing with it, you know, 
on a weekly basis. We have developed perimeter security around 
so the public will not be endangered in any way. A small stone 
fell off just last week, but it is a microcosm of the problem 
we will be addressing, and you will get a beautiful new 
building again. It is a complex reasoning, but we are working 
it as you know. We have appreciated your staff's attention to 
it, your attention to it with us, and we have been able to get, 
I think, ahead of the curve on this project, which is such a 
high priority for us.
    The President's fiscal year 2011 budget for the National 
Gallery as you mentioned is $162.8 million, including $114.6 
for salaries and expenses, which is an increase of $3.8 
million, and $48.2 million for repair, restoration, and 
renovation, which is a net decrease of $8 million. And once we 
have this project behind us, I am sure it is going to decrease 
exponentially beyond that.
    But the building will not have to close during the 
renovation, so it will not affect programs, exhibition viewing, 
educational initiatives, staff, or the public.
    [The statement of Mr. Powell follows:]

    [GRAPHIC] [TIFF OMITTED] T7302B.101
    
    [GRAPHIC] [TIFF OMITTED] T7302B.102
    
    [GRAPHIC] [TIFF OMITTED] T7302B.103
    
                   REPAIR OF THE EAST BUILDING FACADE

    Mr. Moran. Mr. Powell, briefly for the record I suspect 
that Mike has been briefed as I have but I think it is 
important to put in the record why we could not have been 
compensated for what was a structural defect in that the facade 
has leaned over, that it did not hold fast to the----
    Mr. Powell. We had that looked at, Mr. Chairman. We had the 
Department of Justice review all the options. It is over 30 
years old. Apparently it is more of an equation of problems 
than just one. It is not really a contractor deficiency, it is 
not really an architectural design deficiency. What happened 
over time is the building settled incrementally. It is a 
veneer, so the wall behind it settled somewhat. The stainless 
steel pins that attach these panels, which are 2 by 5 feet, and 
there are some 16,000 or so of them----
    Mr. Moran. Each weighs about 450 pounds.
    Mr. Powell. They are heavy, and I think it is called pore 
rock, but it is a cement bonding material, over time began to 
degrade. The engineers believe because of the climate change 
largely. Not water intrusion, which is something I might have 
expected, but it was that. So the pins began pulling out, and 
our engineering staff monitored this, I would add, weekly to 
make sure that there is no disastrous occurrence. Began pulling 
out. That, in turn, began compressing them down on each other, 
so the gaskets bowed in. We had a distinguished team of world-
class engineers review it over these several years, and they 
have come up with a proposal, but that is the circumstances. I 
can certainly provide the technical data for you, which is 
extensive.
    Mr. Moran. No. I just think we need to----
    Mr. Powell. But historically, that apparently is what 
happened, and unfortunately, now we have to address it, and we 
certainly thank you for your support for the project. It will 
be a project that will begin this year. It already really has 
begun, and the support system that will go back underneath the 
veneer will be a different one, and I am sure we will get the 
warranties that we--I was not there at the time so I do not 
know that I can answer it further, Mr. Chairman.

              SPECIAL EXHIBITION PROGRAM & PRIVATE FUNDING

    Mr. Moran. I hear you. Unfortunately, it has an adverse 
impact upon other things that the gallery is able to do. For 
example, you have got the Special Exhibition Program. It 
enables the gallery to bring great art treasures from all over 
the world to Washington and then the majority of those exhibits 
actually travel to other U.S. cities outside of Washington. It 
has been a very popular program.
    The planning process takes four or five years, but this 
year your request is only for $1.7 million. It is half of what 
we provided last year. You suggest you are going to raise the 
money from the private sector, but it is tough to get private 
money to contribute for a planning process. What kind of 
success have you had in raising the private funding?
    Mr. Powell. We have some success. The federal budget before 
has been higher than that and has helped immensely in bringing 
these to us. The one good thing as I mentioned is we will not 
have to alter our planning programs for our exhibitions and 
public programs. Those will go forward for both buildings, and 
the exhibition funds are very sorely needed. We do raise 
private funds for them, but the federal planning funds are 
incredibly important for us and have always been.

                          MASTER FACILITY PLAN

    Mr. Moran. Well, unfortunately, again, it is difficult to 
add any more money to these kinds of initiatives that we like 
when we are having to put more than $40 million into facility 
reconstruction.
    This committee has also put $140 million into your Master 
Facilities Plan over the years, and this year you are asking $5 
million, which is less than half of what the committee provided 
last year. Is this going to come back to haunt us, giving 
shortage to your Master Facilities?
    Mr. Powell. No, I do not think so, Mr. Chairman, because 
working with OMB, the Master Facilities Plan is currently 
underway with existing funds, and what is in this budget will 
allow it to continue, but really the idea will be that during 
the veneer project we will halt it. It is probably an 
appropriate time and space to do it. The West Building has been 
a strategic plan that, again, we have worked with OMB and with 
Congress and with great success over the course of several 
years, and we are in what we call work area four, which is the 
fourth quadrant of the West Building. We will complete that. 
This will not affect that, and the money will allow us to begin 
design development for the next phase of the master plan, which 
theoretically would occur after we finish the veneer project. 
We would go back and finish.
    Mr. Moran. Okay. Well, you are doing a good job defending 
the budget request, Mr. Director. Mr. Simpson, I think we will 
just do the one round of questions in deference to the people 
waiting in line----
    Mr. Simpson. Right.
    Mr. Moran [continuing]. To testify as well.
    Mr. Simpson. You have asked most of the questions that I 
had. You said working with OMB. You know, that is kind of an 
oxymoron but----
    Mr. Powell. The with, you mean? Yeah. Yeah. It seems like 
for, does not it?
    Mr. Simpson. Yeah.
    Mr. Powell. Yeah.
    Mr. Simpson. Is the $80 million going to cover the costof 
this?
    Mr. Powell. Those are the estimates. We have had peer group 
reviews of those estimates, and if there is any glimmer of 
light in it, when we go to bid in this context, I understand we 
might see some benefits to the budget at that time.
    Mr. Simpson. When are they going to start construction?
    Mr. Powell. It will start this year.
    Mr. Simpson. This year? So we will be able to see----
    Mr. Powell. It is being vetted now. The design has been 
done and approved. It is pretty much through. We will go to bid 
soon. We are taking a look at the contractors that might have 
the qualifications to do this sort of work before we put it 
out, but it will go out very soon.

                          MASTER FACILITY PLAN

    Mr. Simpson. I compliment you on creating the Master 
Facility Plan the Chairman mentioned earlier. This obviously 
will affect that plan, and obviously OMB is looking at if we 
are going to put $40 million here, we are going to have to take 
it out of somewhere, and when you look at reducing the 
facilities plan from $15.8 million to $5 million that was meant 
to address the backlog, how long does this put the backlog off, 
trying to address the complete backlog?
    Mr. Powell. I think we are keeping up, we are keeping pace 
with it, but it will slow things down.
    Mr. Simpson. Slow things down. By any particular time? A 
couple of years?
    Mr. Powell. I can ask one of my colleagues. Two years.
    Mr. Simpson. Two years.
    Mr. Powell. Two years is where that is.
    Mr. Simpson. I understand----
    Mr. Powell. We can use the money.

                         OFF-SITE OFFICE LEASES

    Mr. Simpson. Yeah. I understand that National Gallery 
leases space in nearby office buildings to accommodate 
employees who are displaced during this ongoing repair and 
restoration work, and one of the impacts of the delays of this 
implementation will be that we will need to extend the off-site 
leases that are scheduled to expire in 2012, and '13. What is 
the anticipated cost to extending these leases, and how many 
years will you have to extend these leases, I guess, to about 
two years. Is that accurate?
    Mr. Powell. We will. The cost I would need to get back to 
you on the exact cost of that but----
    Mr. Simpson. Okay.
    Mr. Powell [continuing]. It would be three more years of 
leases that we would have to incur.
    Mr. Simpson. Okay. How successful are we in this 
environment? Because this budget as I look at it, anticipates 
being able to raise non-federal funds to do a lot of these 
things or to make up for some of these things, whether it is 
the gallery financing, whether it is the Special Exhibitions 
Program and stuff. We are going down from what, 63 percent of 
the total to 24 percent of the total. We are going to have to 
raise that. How optimistic are you that you will be able to 
raise that in this economic environment to cover those costs?
    Mr. Powell. I would say cautiously optimistic. We have 
begun to see corporate support which evaporated substantially 
for us in that area, that part of the economy were major 
sponsors of many of our exhibitions over the years. That 
eroded. Some personal support, foundation support. Everything 
kind of retracted.
    Mr. Simpson. Right.
    Mr. Powell. But I think for our Exhibitions Program it is 
easier for me to say, Mr. Simpson, we have not had to cancel 
anything, but it has been hard sledding.
    Mr. Simpson. And your number of visitors is up. Right?
    Mr. Powell. Number of visitors is up.
    Mr. Simpson. Kind of interesting. You see the economy go 
down, people start staying closer to home, visitors of the 
Smithsonian as Secretary Clough was saying, visitorship is up 
there. The demands on the facilities go up and the revenue of 
the Federal Government goes down.
    Mr. Powell. It is absolutely true. Washington is a great 
destination for families and for visitors, and I am delighted 
about that aspect of it.
    Mr. Simpson. Well, I appreciate it. Thank you for the work 
you do, and again, you have got some great people working for 
you. We certainly enjoy working with them.
    Mr. Powell. Thank you very much.
    Mr. Moran. Thanks very much, Mr. Simpson. Thank you----
    Mr. Powell. Thank you, Mr. Chairman.
    Mr. Moran [continuing]. Director. We love the National 
Gallery.
    Mr. Powell. We appreciate it.
    Mr. Moran. Fine job.
    Mr. Powell. Hopefully next year I will not have to talk 
about building repairs.
    Mr. Moran. So thank you, Mr. Powell.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7302B.104
    
    [GRAPHIC] [TIFF OMITTED] T7302B.105
    
    [GRAPHIC] [TIFF OMITTED] T7302B.106
    
    [GRAPHIC] [TIFF OMITTED] T7302B.107
    
    [GRAPHIC] [TIFF OMITTED] T7302B.108
    
                                         Wednesday, April 14, 2010.

             JOHN F. KENNEDY CENTER FOR THE PERFORMING ARTS


                                WITNESS

MICHAEL KAISER, PRESIDENT

                  Opening Statement of Chairman Moran

    Next we will hear from Michael Kaiser, the President of the 
John F. Kennedy Center for the Performing Arts. I have to tell 
you, Mr. Kaiser, you are traveling all over this country, if 
not this world, on behalf of the arts. It has just been 
terrific. Do you want your piece of stone back there?
    Mr. Powell. I will try to glue it back.
    Mr. Simpson. We might need it at some point in time.
    Mr. Moran. You know, I do not want to sound too biased 
here, but boy, the Kennedy Center has just done such wonderful 
work, and you have done a great job. I know. I have got my 
opening statement right here, but I just fixated on all that 
Mr. Kaiser has been doing and all that he has done for us 
through the Kennedy Center.
    But these are tough times. They are tough times for 
theatres and the arts throughout the country, and I know you 
have extended yourself to address that.
    Just a word about the Kennedy Center for those who are not 
familiar with it. It was established back in 1958, as our 
Nation's cultural center. It has been a living memorial to the 
late President since 1964. It used to be administered by the 
Park Service, but now the Board of Directors has full 
responsibility for all its operations since fiscal year '95. So 
that has been 15 years now.
    The request is for $37 million. That is $3 million less 
than was provided last year. The reduction, of course, is 
coming from the capital repair and restoration account. You do 
not include funding for the Arts Management Program, although 
the subcommittee provided one half of a million dollars for 
that last year.
    We do want to make mention that Kathy Kruz is now on your 
staff from Senator Kennedy's office. Senator Kennedy obviously 
has made wonderful contributions to this country and the 
Kennedy Center. I have seen him so many times at the center. He 
is going to be missed there as he is missed in the Halls of 
Congress. In her new position we know that Kathy can help 
continue his legacy.
    We have some questions; It has been a couple of years since 
you have been here. We are delighted to have you, Mr. Kaiser.
    Mr. Simpson.

                    opening statement of Mr. Simpson

    Mr. Simpson. Thank you, Mr. Kaiser, for being here today 
and for your leadership in continuing the legacy of the Kennedy 
Center as the premiere center for the arts and a world leader 
in the arts in general. I cannot help but note this morning 
that your appointment back in 2001 may well have been one of 
the best decisions made by a previous Administration. We just 
like to throw that out there occasionally.
    Mr. Moran. Some would say the competition was not keen, but 
it was an excellent decision.
    Mr. Simpson. I am not----
    Mr. Moran. But it was an excellent decision. We are in 
complete agreement on that.
    Mr. Simpson. Thank you for being here today, and thanks for 
the job you are doing.
    Mr. Kaiser. Thank you very much, sir.
    Mr. Moran. Very good. Mr. Kaiser, you may proceed with your 
statement.

                      Testimony of Michael Kaiser

    Mr. Kaiser. Thank you. It is my pleasure to appear today 
before the subcommittee to present the Center's budget request 
for fiscal year 2011. Before doing so I would like to thank the 
subcommittee for its past support and for allowing me the 
opportunity to share with you the Kennedy Center's progress 
with its operations, maintenance, and renovations. I also would 
like to extend my gratitude to your staff members for their 
impressive work they do for us throughout the year.

                        KENNEDY CENTER OVERVIEW

    I would like to take a moment to describe the Kennedy 
Center. The Kennedy Center is both our national cultural center 
and living memorial to President John F. Kennedy. I do 
emphasize the word living since there is a vitality to the 
building and the institution that far exceeds anything that 
could have been envisioned when the Center was originally 
chartered by Congress in 1958, under President Dwight D. 
Eisenhower.
    Each year the Kennedy Center reaches over 1 million people, 
with more than 2,000 performances in all performing arts 
disciplines. Every season our focus is on developing 
programming that achieves national and international acclaim as 
is befitting our role as a national cultural center.
    But our performing arts activities are not limited to the 
Washington DC area. We are committed to serving people in all 
50 states. The National Symphony Orchestra, a vitalpart of the 
Kennedy Center for over 20 years, is fulfilling this mandate by 
expanding its national touring activities. Our theatre for Young 
Audiences on Tour Program brings the best of family theatre to 65 
cities in 38 states and serves over a quarter million people annually.
    The center is committed to making the arts accessible to 
everyone and presents free performances every day of the year 
on our Millennium Stage. In addition, these performances are 
available free to everyone on the internet.

                             ARTS EDUCATION

    Our leadership in the performing arts is mirrored by our 
commitment to arts education. The center has created one of the 
most extensive arts education programs in the world. We have 
committed $125 million over 5 years in this effort and serve 11 
million children in the United States annually. We now train 
30,000 teachers every year to bring the arts into the classroom 
at all levels. Our Distance Learning Initiatives, which touch 
more than 1 million teachers and children, enable classrooms to 
experience world-class performances and programs broadcast from 
the Kennedy Center, and to your earlier question, Mr. Simpson, 
to many rural areas as well.
    Our Partners in Education Program mentors relationships 
between arts organizations and their community school systems 
in 103 organization teams and school systems in 46 states. One 
of our newest initiatives, Any Given Child, seeks to work with 
individual communities across the country to ensure that all 
children have the arts as part of their educational experience.
    Based on the premise that every community has rich cultural 
resources, a plan is created to combine those resources with 
the schools and the Kennedy Center's resources to coordinate 
arts education in a logical, equitable, and especially economic 
way. The Kennedy Center also provides training to talented 
young Americans who aspire to careers in dance, music, 
conducting, and set designs. Our American College Theatre 
Festival identifies the next generation of actors, designers, 
and playwrights with 20,000 students from 900 colleges 
participating.

                       ARTS MANAGEMENT INSTITUTE

    In addition, the Kennedy Center has instituted several 
programs which we hope will change the landscape of the arts in 
America. The premise of these programs is that our Nation 
invests heavily to cultivate artistic talent but comparatively 
little to train arts managers. The Arts Management Institute 
prepares arts managers to lead arts institutions throughout the 
Nation and the world and offers arts organizations practical 
training to address management challenges.

                             ARTS IN CRISIS

    In February, 2009, remote practical strategies for 
financial and institutional help during these difficult 
economic times, I initiated Arts in Crisis, a free consulting 
service for arts organizations throughout the country and a set 
of community conversations for staff and board members. With 
the program the center will reach 69 communities in 50 states, 
Puerto Rico, and the District of Columbia, and I might add that 
we'll celebrate the conclusion of this tour in your district in 
Boise, Idaho, on July 16. We hope you will be at the Morrison 
Center.
    Mr. Simpson. What a coincidence.

                   NATIONAL CAPACITY BUILDING PROGRAM

    Mr. Kaiser. In fall, 2010, the Kennedy Center will 
implement a National Capacity Building Program. This program is 
modeled after an initiative launched in 2002, and developed for 
culturally-specific performing arts organizations to provide 
strategic planning guidance and other technical assistance for 
executive directors, artistic directors, and board chairs of 31 
arts organizations whose mission is to produce and present work 
for, by, and about African-American, Latino, Asian American, 
and Native American people.
    The success of this initial program fostered programs for a 
broad range of organizations in Washington, DC, and northern 
Virginia I might add, New York City, and Chicago. The new 
National Program will provide arts managers at over 200 
organizations in five American cities with comprehensive 
training and strategic planning, marketing, and fundraising. In 
each city, I, along with members of my senior staff, willlead 
seminars and online discussions and provide specialized mentoring to 
each participating organization. I am especially grateful to this 
committee for its support of this important effort.

                          FY11 BUDGET REQUEST

    The Kennedy Center Board of Trustees and its staff take 
very seriously our responsibility to maintain our building, a 
federal asset, in the best condition possible. We appreciate 
the support and guidance we receive from Congress and your 
subcommittee in particular. The Office of Management and Budget 
has worked very closely with my staff to assess our budgetary 
needs and to evaluate our comprehensive building plan.
    I will also say, Mr. Chairman, that I am most grateful to 
this subcommittee for its support for our request for $40.447 
million for fiscal year 2010.
    The Kennedy Center is requesting a total of $37.42 million 
for fiscal year 2011. That amount covers two important 
accounts; operations and maintenance for which $23.5 million is 
needed, and capital repair, for which $13.92 million is 
requested.
    I will delineate for you the projects, renovations, and 
costs that comprise these numbers. The Kennedy Center's request 
for 2011, for capital repair and restoration funding will allow 
two projects for which design is currently in progress to move 
forward with construction. These are door hardware replacement 
to bring all doors up to current code with new lever handles, 
compliant door openers, panic hardware, and other opening 
devices. This is necessary for both accessibility and for life-
safety reasons.
    The second project is modernization of the heating hot 
water system. The center system consists of a combination of 
electric and gas boilers that deliver hot water in a complex 
piping system, much of which is original to the building. This 
project will provide invaluable updates to this system, to 
improve heating delivery and control, reduce energy 
consumption, and extend the life of the equipment.
    In addition, the center's request includes funding for 
project design for the renovation of our Terrace Theatre. This 
theatre which opened in 1978, and still has its original 
finishes, requires improvements to accessibility, finishes, and 
mechanical, electrical, and plumbing infrastructure. 
Construction is anticipated to proceed in 2013, contingent on 
funding.

                       OPERATIONS AND MAINTENANCE

    The operations and maintenance needs of the Kennedy Center 
for fiscal year 2011, totals $23.5 million. This amount will 
fund the daily operation of the physical facility and building 
systems, including utility costs, preventive and predictive 
maintenance to ensure the center is open and fully functional 
every day of the year, non-routine and emergency repair 
projects, security officers, staff, and safety personnel to 
maintain a safe and secure building. Essential visitor 
services, including public tours, interactive kiosks, 
informational brochures, and other services related to the 
memorial aspect of the building, and the infrastructure to 
support these ongoing activities, including tradesmen, 
contracting, finance, human resources, information technology, 
and management.
    In closing, I would like to point out that in all projects 
the Kennedy Center undertakes we are guided by our goal of 
ensuring the center's infrastructure is as energy and resource 
efficient as possible, and we are committed to minimizing the 
effects of our operations on the environment. The mechanical, 
electrical, and plumbing systems projects, for example, include 
energy efficient upgrades, energy efficient lighting, and 
occupancy centers are being installed, and we have a robust 
recycling program.
    Mr. Chairman, on behalf of the Board of Trustees I thank 
you for the opportunity to address you this morning. I have the 
remarkable privilege of overseeing one of the most exciting 
organizations in the world. It is a national monument to 
President Kennedy and a living tribute to our American cultural 
heritage. I am grateful for the committee's support and 
partnership, and I look forward to answering any questions that 
members of the subcommittee may have.
    Thank you very much.
    [The statement of Mr. Kaiser follows:]

    [GRAPHIC] [TIFF OMITTED] T7302B.109
    
    [GRAPHIC] [TIFF OMITTED] T7302B.110
    
    [GRAPHIC] [TIFF OMITTED] T7302B.111
    
    [GRAPHIC] [TIFF OMITTED] T7302B.112
    
    [GRAPHIC] [TIFF OMITTED] T7302B.113
    
    [GRAPHIC] [TIFF OMITTED] T7302B.114
    
    Mr. Moran. Good for you, Mr. Kaiser. Thank you very much.
    The Kennedy Center is both a national treasure as well as a 
national resource. The situation that arts organizations have 
had to deal with during this deep recession, if not depression, 
has been very difficult. They have faced some severe 
adversities, particularly with regard to financing. Their 
attendance in many areas was way down. Since 2008, really the 
end of 2008, more than 28 arts organizations have folded 
including in Bend, Oregon, Waltham, Massachusetts, in St. Paul, 
and Orlando.
    Most, of course, have been due to the economy and the 
inability to raise funds. Last year this subcommittee provided 
$500,000 for the center's Art Management Initiative. The 
purpose of this was to provide practical strategies in 
fundraising, Board development, artistic planning, marketing, 
and strategic planning so that we could help them sustain 
themselves through these tough economic times.
    This is not what you were hired on to have to do, but as we 
say, this is a national resource as well. You are personally a 
resource because of your entrepreneurial ability that you have 
shown throughout your career to get things started, to find the 
funding to get them marketed, and make them successful.
    Please take a few minutes to share with us what you have 
done with that relatively smaller amount of money in terms of 
helping arts organizations throughout the country survive this 
recession.

                       ARTS MANAGEMENT INITIATIVE

    Mr. Kaiser. Thank you, Mr. Chairman. We have done two 
projects so far and have another two in mind. The first thing 
we did was last February we offered any performing arts 
organization in the United States that wanted free consulting 
help to help them with their challenges, we offered them a free 
consultant. Eighteen members of my staff, and myself included, 
are volunteer mentors. We then solicited volunteer mentors from 
throughout the United States, and we have 160 other mentors who 
are volunteering their time, and they are true public servants. 
To date 760 arts organizations have asked for our consulting 
help, and we have been working with those over the past year. 
They are all still solvent, which is very good news.
    But what I noticed was that a lot of organizations did not 
feel they needed a consultant or wanted a consultant and so I 
started these series of public conservations. I have committed 
to visiting all 50 states, Puerto Rico, and the District of 
Columbia, for a total of 69 cities. I was the last two days in 
Phoenix, Tucson, and Santa Fe, and the week before in Bismarck 
and Billings, and I am doing sessions publicly for arts 
managers, for their Board members, for artists to talk about 
how to deal with this recession and how not to deal with this 
recession. These have been very well received, and I am 
estimating that when we finish in Boise on July 16 we will have 
talked to publicly at least 10,000 people across the United 
States.
    I am talking about ways you do fundraising in this 
environment, ways to keep your programming vital, ways to keep 
Board members engaged. I started this initiative frankly 
because I was reading in the newspaper about so many 
organizations going away or cutting their programming and doing 
exactly the wrong things in this environment, and so because my 
background is in helping troubled organizations, I felt it was 
time for the National Cultural Center to step in and do this 
work.
    In the future we will be starting regional arts management 
training programs across the country. We hope these will be a 
mixture of private and public funds. We have raised private 
money to do this. We hope that even though it is not officially 
in our request, this committee might consider continuing their 
funding for this activity. In the parlance of the Bible we are 
not giving people fish. We are trying to teach them how to 
fish, and what we are finding is a tremendous response to this 
from arts organizations across the United States.

                              CURTAIN WALL

    Mr. Moran. Good for you. Thank you. I just have abudget 
question, and I am going to turn it to Mike, but last year, actually, 
back in fiscal year 2008, this subcommittee provided a very substantial 
amount of money for what was called the Curtain Wall.
    Mr. Kaiser. Yes.
    Mr. Moran. It is that wall of windows in the Grand Foyer 
that overlooks the river? I think we need to get an update on 
the status of that project, how the money has been obligated. 
You do not necessarily have to do it publicly here, but we need 
to----
    Mr. Kaiser. I am happy to give a brief update.
    Mr. Moran. Why don't you just give us a brief update?
    Mr. Kaiser. Certainly. The delay in this project, which 
really is not so much a delay, one was caused by a continuing 
resolution that made it hard for us to actually access the 
money the committee was kind enough to give us, but, secondly, 
and very importantly, these windows take about 10 months to 
fabricate, and thirdly, we did discover PCB in the gaskets and 
the seals of the windows, which had to be addressed. So it is a 
very extensive project which now is underway. If you come to 
the center now, you will see big scaffolding up, the windows 
are coming down, and going back up, and indeed, all the windows 
of the Kennedy Center, both ground floor and at the Terrace 
level, will be replaced over the course of this year. We expect 
the entire project to be completed by the end of December.
    Mr. Moran. Okay. That is what we wanted to hear. Lastly, 
can you give us a kind of sneak preview for what we can look 
forward to in this ensuing year?

                            UPCOMING EVENTS

    Mr. Kaiser. Well, there is so much coming up. There will be 
a big festival of India, on January 20th we are going to 
celebrate the 50th anniversary of the inauguration of President 
Kennedy and the contribution of that Administration to the 
arts; we are doing a new production of Stephen Sondheim's 
``Follies,'' and we are also going to celebrate the 
bicentennial of Mexico. There will be a great deal of 
programming, and starting this Sunday at the Kennedy Center we 
are doing our very first gospel festival. I have been trying 
every year to bring an art form to the Kennedy Center that does 
not typically get attention by cultural centers. We started 
with our country music festival, a couple of years ago we did 
our a capella music festival, and this year we are going to do 
gospel music.
    Mr. Moran. Very good. My granddaughter has heard rumor that 
you are going to do Mary Poppins, too. Is that----
    Mr. Kaiser. We are doing Mary Poppins. Absolutely. This 
summer.
    Mr. Moran. Thank you. Very good.
    Mr. Simpson.

                   ARTS MANAGEMENT INITIATIVE FUNDING

    Mr. Simpson. Thank you. Again, thank you for being here 
today. The Arts Management Initiative that the Chairman was 
talking about, we broke with tradition last year and put 
$500,000 into that. Again, as you mentioned, your budget does 
not request any funding for that this year. How do you plan on 
continuing that with no federal funding? Are you going to be 
able to raise the money, or is this an appropriate role for 
federal funding? Should a portion of it be federal funding 
should this committee take with light heart what the suggestion 
was?
    Mr. Kaiser. I hope you will take with light heart. We do 
believe this is a perfect place for public/private partnership. 
We have raised money for this endeavor and continue to. We 
would also appreciate it if this committee would consider 
continuing this funding.
    Mr. Simpson. If we do not put any funding into it this year 
to continue it, will you be able to continue it?
    Mr. Kaiser. No. What will happen is we will be able to do a 
few cities around the country where we will do some more in-
depth programming, but we would really like to go to some other 
cities, and this is going to sound, well, inappropriate, but I 
really do mean it, we really want to go to some rural areas. We 
focused the larger program so far on some of the bigger cities 
that have been very hard hit by the recession like Detroit and 
Seattle, but we really want to go to some of the more rural 
areas.

                        RURAL COMMUNITIES & ARTS

    In my tour across the country yesterday was my 50th city of 
the 69. I have really been struck by the challenges of the arts 
but also the rigor of the arts in the rural communities.
    Mr. Simpson. Yeah.
    Mr. Kaiser. And at this point we do not have the resources 
to go into those communities. We can actually, as you will 
understand, have an easier time raising private funds for the 
bigger cities----
    Mr. Simpson. Sure.
    Mr. Kaiser [continuing]. Than for the rural cities. So to 
the extent that we could have some additional funding from this 
committee, we would truly appreciate it, and it would allow us 
to go in more depth and develop two year training programs for 
the arts leaders in some of the rural communities of the 
country.
    Mr. Simpson. Sometimes the rural communities have a more 
difficult time because, just as you said it, larger communities 
can raise money, although it might be decreased amounts, but 
the rural communities get shut out entirely and have a 
difficult time raising money during these kinds of economic 
times. So----
    Mr. Kaiser. Absolutely, and the marketing challenges in 
rural communities are very, very great because there is not the 
density of an audience base, and so we work a lot in the rural 
communities, and we have spent a lot of time with rural 
organizations, talking about the way to use internet 
particularly as a device for marketing that is very inexpensive 
and allows you to have a broad geographic reach without having 
to have a very expensive effort.
    Mr. Moran. Mike, would you yield for a moment?
    Mr. Simpson. Sure.

                 DEMAND FOR ARTS MANAGEMENT INITIATIVE

    Mr. Moran. If the committee, for example, doubled that 
amount of money, are you suggesting that you still would not be 
able to meet the demand that is out there for consultation?
    Mr. Kaiser. That is absolutely true. The demand is 
astonishing. There are 100,000 private, not-for-profit arts 
organizations in this country, and we begin to scratch the 
surface but only scratch the surface, and our goal with this 
more in-depth program is it was great for me to go around and 
meet everybody and talk about some of these high-level 
approaches, but each organization has its own needs, and what I 
do then is I am doing a program in New York right now for 266 
organizations that I will complete next week. I have been 
working for 2 years to get each one to really understand how 
they can implement my suggestions. To me this is a very 
critical time to be doing this for the arts of this country.
    Mr. Moran. It sounds like you may have some bipartisan 
support for that outreach.

                        RURAL COMMUNITIES & ARTS

    Mr. Simpson. It is fascinating to watch. It is not just how 
to manage a local, rural art initiative that is going on or 
something. A lot of times these small communities do not know 
what is available out there, and I went up and met with the 
Paul Allen Foundation in Seattle several years ago, and I did 
not know at the time when I went up there I was looking at some 
of the research they were doing on brain tissue and things like 
that, they have a huge impact on the arts throughout the 
Pacific Northwest.
    Mr. Kaiser. Absolutely.
    Mr. Simpson. And one of the ladies that worked for them 
came down and toured--one of my staff people is on the Idaho 
Commission for the Arts--and toured the arts programs 
throughout Southeastern Idaho and Northern Idaho, in fact, and 
they do a great job in helping these small, rural entities 
maintain their art programs.
    Mr. Kaiser. Absolutely. You know, I was just in Billings, 
Montana, two weeks ago, and 150 arts managers from around the 
state all drove in, some as far as six hours, because they do 
not have access to resources.
    Mr. Simpson. That was just on the other side of the 
mountains.
    Mr. Kaiser. Exactly, and when they came in, meeting each 
other--not just hearing me speak--but meeting each other was 
really helpful in understanding what resources exist inthat 
state, and we are finding that in every state to which I am touring.

                   NEA & KENNEDY CENTER COORDINATION

    Mr. Simpson. Could you tell me what coordination there is 
between the Kennedy Center and the NEA?
    Mr. Kaiser. Certainly.
    Mr. Simpson. Because the NEA does an awful lot with the 
arts obviously, and a lot of your testimony is similar to what 
the NEA does. What kind of coordination do you have?
    Mr. Kaiser. We have a lot of coordination with the National 
Endowment. I spend a lot of time with Rocco Landesman myself 
discussing these issues. The NEA really funds primarily arts 
education as opposed to arts management education, and so these 
activities that we are talking about here are activities that 
complement and we coordinate with the NEA, but they do not 
duplicate the activities of the NEA or the funding of the NEA.
    Mr. Simpson. When we are trying to get arts out to rural 
America, as an example, Rocco was out to Idaho last week, and 
the Shakespeare Festival out there has a tour where they go to 
schools, seven actors go and they----
    Mr. Kaiser. Right.
    Mr. Simpson [continuing]. Presented Othello down in a 
couple rural schools and stuff, and we went to that 
presentation. You do some performing arts and presentations 
around the country also.
    Mr. Kaiser. Absolutely.
    Mr. Simpson. Do you guys work together to make sure that 
you are trying to make this as broad based as possible? If the 
NEA is doing something in Idaho, do you say, well, we need to 
do something in Montana?
    Mr. Kaiser. Absolutely.
    Mr. Simpson. So that it is spread across the country?
    Mr. Kaiser. Most of this happens actually through the 
school systems themselves, that is, we work with the schools to 
make sure we are going to places where others are not going, 
because it is not just the NEA that is doing touring. It is 
also State Art Councils that are touring and individual arts 
organizations are touring, and what we do not want to do is 
have one school district have ten experiences and the next 
school district have none.
    And so what we are trying to do through the school systems, 
which tend to have the best information, to make sure that we 
are not duplicating the work of the NEA but frankly of the 
other touring organizations as well.

                              EPA CITATION

    Mr. Simpson. Okay. Lastly, let me say, you know, tight 
budget times and stuff, and we are always looking for 
resources. Tell me if this is true.
    The center's cooling system draws Potomac River water to 
absorb the building's heat before it is pumped back into the 
river. Last year the EPA cited the center for pumping water 
into the river that was .2 degrees, not 2 degrees, .2 degrees 
Fahrenheit above the allowable temperature on one day of the 
year. Is that right?
    Mr. Kaiser. Yes.
    Mr. Simpson. So what we are saying is if we are looking for 
money, there is an agency that has got some to spare.
    Mr. Kaiser. Certainly not ours.
    Mr. Simpson. Thank you for being here, and I was going to 
say, not yours but if somebody is measuring the temperature at 
.2 degrees Fahrenheit, this is not even Centigrade.
    Mr. Kaiser. Right.
    Mr. Simpson. This is .2 degrees Fahrenheit. One day a year. 
Somebody has got too much money.
    I appreciate you being here today. Thank you.
    Mr. Kaiser. Thank you so much.
    Mr. Moran. Thank you very much, Mr. Kaiser.

    [GRAPHIC] [TIFF OMITTED] T7302B.115
    
    [GRAPHIC] [TIFF OMITTED] T7302B.116
    
    [GRAPHIC] [TIFF OMITTED] T7302B.117
    
    [GRAPHIC] [TIFF OMITTED] T7302B.118
    
    [GRAPHIC] [TIFF OMITTED] T7302B.119
    
    [GRAPHIC] [TIFF OMITTED] T7302B.120
    
    [GRAPHIC] [TIFF OMITTED] T7302B.121
    
    [GRAPHIC] [TIFF OMITTED] T7302B.122
    
    [GRAPHIC] [TIFF OMITTED] T7302B.123
    
    [GRAPHIC] [TIFF OMITTED] T7302B.124
    
    [GRAPHIC] [TIFF OMITTED] T7302B.125
    
    [GRAPHIC] [TIFF OMITTED] T7302B.126
    
    [GRAPHIC] [TIFF OMITTED] T7302B.127
    
                                         Wednesday, April 14, 2010.

            WOODROW WILSON INTERNATIONAL CENTER FOR SCHOLARS


                                WITNESS

LEE HAMILTON, DIRECTOR

            WOODROW WILSON INTERNATIONAL CENTER FOR SCHOLARS

    Mr. Moran. We will now hear from Lee Hamilton, our former 
colleague, the Director of the Woodrow Wilson International 
Center for Scholars. It is awfully nice to see you, Lee.
    Mr. Hamilton. Thank you, sir.

                     Opening Statement of Mr. Moran

    Mr. Moran. It is important for this subcommittee to have 
hearings for all of these agencies. This is one of those that 
sometimes gets neglected, but those that it has direct 
involvement with recognize this is one of the best agencies in 
the Federal Government. It is unique, the federal contribution 
is relatively small, but the quality of the work is enormous, 
and the outreach extent of the Center's is vital to provide 
policy-relevant research that enhances the capabilities of our 
leaders and citizens.
    The request is for $10 million. It is a 19 percent 
reduction from last year's level. That would have serious 
consequences. I do not know why there is a reduction when this 
committee has been consistently and appropriately supportive. 
So I hope that you will take a little time explaining that to 
us, Mr. Hamilton, the layout, what impacts might occur if we 
were to follow through with this near 20 percent reduction.
    Mr. Simpson, do you have any opening remarks?

                    Opening Statement of Mr. Simpson

    Mr. Simpson. Briefly. In this day and age of 24-hour news 
and increasing tensions in the world over limited resources, I 
believe we need more forums for non-partisan discussion if we 
are to reach more sustainable solutions to our Nation's and the 
world's problems. And I can think of a no more distinguished 
and honorable person to lead that effort than our esteemed 
former colleague, Mr. Lee Hamilton. Thank you for being here 
today. I am tempted to say I can remember being just a little 
child sitting on my mother's knee watching you on television in 
Congress, but that would be----
    Mr. Moran. He is not that old.
    Mr. Simpson. It has not been that long. Thank you for being 
here today.
    Mr. Hamilton. I am not sure whether that is a good start or 
not.
    Mr. Moran. Director Hamilton, you can proceed, if you would 
like.

                     Testimony of Mr. Lee Hamilton

    Mr. Hamilton. Well, thank you very much. This subcommittee 
has been very important to us at the Wilson Center. We are 
deeply grateful to you and your colleagues for the support that 
you have given the Center.
    We are kind of a unique institution. We are a public, 
private institution created by statute by Congress in 1968, 42 
years ago now, and you provide core support for the Center, 
which is hugely important. It is about one-third of our budget, 
but terribly important.

                       ROLE OF THE WILSON CENTER

    We are not a think tank. We have two fundamental functions. 
We are a convener. President Wilson always believed that the 
scholar could learn from the politician, and the politician 
could learn from the scholar. That is basically what we are all 
about. We try to mix the two worlds. We try to link them. I 
think, we hope, to the benefit of both worlds, both academia 
and to the world of policy.
    So we get a lot of people together. To give you a quick 
illustration of that, yesterday we had General Petraeus at the 
Center. This afternoon we have the World Bank President, Mr. 
Zoellick, speaking. Next week we have Jim McNerney, who is the 
present CEO of Boeing, and so we have this incredible list of 
dignitaries and exceptionally-talented people coming into the 
Center, talking to our audiences there.
    We have over 800 meetings a year. Constant meetings. Most 
of them in this town but not all of them. Many of themaround 
the country. Convening. That is the number one task. The number two 
task is we have scholars come from all over the world. We have about 
150 scholars come in a year, maybe 70 or so at the present time are 
here, but we will have 150 throughout the year. These scholars are 
exceptional people. They are all doing very advanced research, very 
talented, very imaginative. They take their positions free of any 
constraint, no fundraising responsibilities, no tenure pressure, no 
faculty meetings, no university demands, no real obligations to the 
Center. It is an institution of advanced research. It is an academic 
institution.
    Now, the Congress has said, this Committee has said over a 
period of time, we want you to do three things. First of all, 
we want you to raise more money in the private sector. When I 
took over the responsibilities about a decade ago, we had one-
third of our budget from the private sector revenue side, two-
thirds of the budget from the public sector, from your 
appropriations. We have just about flipped that ratio, so it is 
now two-thirds private, one-third public. Just a little short 
of that now. So we have made dramatic progress in increasing 
the private funding, even at a time, which you all appreciate, 
that is pretty tough to raise money now from foundations and 
other places. So we have done pretty well on the raising of 
private money.
    Secondly, you said to us over a period of time, do a lot 
more with regard to outreach. You've got a lot of good 
activities going on down there at the Wilson Center, which is 
in the Reagan Building, but you are not getting it out enough. 
We have taken that seriously. I am not going to go into detail 
on that, but suffice it to say that we use a multiplicity of 
means to reach out, all kinds of print publications including 
award-winning books, brochures, speeches, websites, television, 
radio. You name the outreach mechanism, and I think we do a 
pretty good job of it. We have put a lot of emphasis on that 
over a period of years.
    The third thing you have said to us is we want the work 
down there to be relevant. Now, I have to say upfront that what 
is relevant to the scholar and what is relevant to the 
politician are two different things, however, we have taken 
that seriously, and we have tried to focus our work on several 
broad themes: governance, future challenges to the United 
States, and the United States' role in the world.
    Okay. That is by way of background. Most recently we have 
begun to expand our work in science. Mr. Simpson, you come from 
a scientific background as I understand it. We have had at the 
Center I think the finest project I know of in nanotechnology 
and have become deeply respected in that field, not science of 
nanotechnology so much as the implications of it. And we are 
now engaging a new initiative on synthetic biology.

                          FY11 BUDGET REQUEST

    Now, we've got a big problem. The big problem is the OMB 
has recommended what, in effect, is about a 20 percent, 19 
percent cut. I do not know why, and they have to speak for 
themselves there. I talked just yesterday with the Director of 
the OMB, but they want to cut very sharply our programming. I 
will let them speak for themselves.
    We are requesting level funding for fiscal year 2011 plus 
the addition mandated for staff salaries, federal salaries. So 
we are requesting a total amount of $12.396 million. The OMB is 
recommending $9.922 million, and that is quite a gap.
    The Chairman asked what the impact of that would be. 
Obviously, we have looked at that very carefully, and I do not 
think I exaggerate when I say to you that it is a very dire 
situation if the OMB budget figure goes through, and I do not 
think I am exaggerating by saying to you it would call into 
doubt the viability of the institution.
    Let me give you some specifics. A 40 percent decline in the 
budgeted operating expenses for program and administrative 
activities. The elimination of some public service and outreach 
activities. One of those new activities, incidentally, is a new 
initiative with regard to Asia, which was very much an interest 
of your predecessor as Chairman. I understand he still serves 
on the subcommittee, Mr. Dicks. Among other things there, we 
put together the Kissinger Institute headed by former 
Ambassador Stapleton Roy. I tellyou, the programming and 
activity of the Kissinger Institute has just been terrific, and I think 
we are developing at the Wilson Center one of the finest research 
organizations on Asia that we have in this country and a lot of good 
programming. All of that Asia Initiative would be eliminated.
    We would have a 59 percent, almost 60 percent reduction in 
public policy scholars. We have about 40 of these scholars in 
residence at some point this year. We would probably have to 
cut that to 12. We would have an 80 percent reduction in 
scholar support. When a scholar comes to the Center, they have 
all kinds of support, and we have a lot of recruitment expenses 
recruiting these people. We have library research materials and 
access to data bases. All of this would be cut about 80 
percent.
    The proposed budget cuts would eviscerate the Center's 
library, almost completely wipe it out because the only thing 
that would be left would be the salaries of the librarian 
staff. We would not have any money for subscriptions, we would 
not have any money for publications, or all the rest of it.
    And the outreach activities, which you folks have very 
strongly asked us to improve over a period of time, would be 
reduced we think by about 36 percent.
    Now, I can furnish the staff with a great deal more detail 
and more importantly I want to say that your staff people have 
been exceedingly helpful and interested in what we are doing, 
and we have kept in close contact with them. I would be happy 
to furnish to the staff in detail the impact of these cuts.
    Our Board is Presidentially appointed. The present Board 
was all appointed by President Bush, and I expect there are 
going to be some changes beginning this year. New members will 
be appointed by President Obama. That Board has unanimously 
instructed me to oppose the OMB reductions, and so I am 
carrying out the wishes of the Board.
    The proposed budget that we suggest, which is the straight-
line budget of $12.396 million plus the increase for federal 
salaries, would enable us to continue the work that we had been 
doing. We would have 150 scholars a year, we would not be 
expanding any. We would continue the increased Asia 
programming, which was incidentally referenced in the statement 
of managers that accompanied the Appropriation Bill last year. 
We would sustain the programs that we now have.
    We would be able to add, because of savings we have 
achieved, a preeminent scholar group. One of the things we have 
confronted here is the competition for scholars because of all 
of these think tanks around town which do terrific work. The 
competition for scholars is really tough across this country, 
and we--our institution--depends on attracting really high-
quality scholars. Their reputation makes the reputation of the 
Center.
    So we would be able to continue all of that. We would be 
able to continue some important initiatives in outreach, 
including a redesign of our website, which we will pay for with 
private funds, but which we will need the public funds for 
continuous, necessary updates and maintenance.
    So the bottom line for me is that the cuts of the OMB, if 
they go through, will call into question the continued 
viability of the Wilson Center. Now, we know that we cannot 
become complacent. I will conclude with this. We are constantly 
reviewing, and the Board of Directors under Chairman 
Gildenhorn's direction, has said to us we want you to start a 
strategic review, which we are now doing. We are looking at our 
outreach activities. We are looking at our how we recruit 
scholars. We are looking at how we better use our space in the 
Reagan Building. We are looking at how we increase our private 
sources of funding. Incidentally, we have completely redesigned 
our development activities. At one time we were very dependent 
upon fundraising dinners, with which we had great success at 
over a period of time. That method of fundraising has kind of 
reached a plateau, and we are now doing many, many other things 
in development to increase private sources of funding. We are 
looking at diversity at the Center, not just the people who 
work there but the scholars who come there, and we are thinking 
constantly about how we attract better scholars, better 
speakers to enhance and improve the work of the Center. So all 
of that will be taking place this year.
    Thank you.
    [The statement of Mr. Hamilton follows:]

    [GRAPHIC] [TIFF OMITTED] T7302B.128
    
    [GRAPHIC] [TIFF OMITTED] T7302B.129
    
    [GRAPHIC] [TIFF OMITTED] T7302B.130
    
    [GRAPHIC] [TIFF OMITTED] T7302B.131
    
    [GRAPHIC] [TIFF OMITTED] T7302B.132
    
    [GRAPHIC] [TIFF OMITTED] T7302B.133
    
    [GRAPHIC] [TIFF OMITTED] T7302B.134
    
    [GRAPHIC] [TIFF OMITTED] T7302B.135
    
    [GRAPHIC] [TIFF OMITTED] T7302B.136
    
    [GRAPHIC] [TIFF OMITTED] T7302B.137
    
    [GRAPHIC] [TIFF OMITTED] T7302B.138
    
               KISSINGER INSTITUTE ON CHINA AND THE U.S.

    Mr. Moran. Thank you, Mr. Hamilton. I am very well aware of 
Mr. Kissinger's initiative with regard to relations with China 
during the Nixon Administration, but why is it named after 
Henry Kissinger? Does he contribute a lot of his time, or did 
he make a major contribution to it?
    Mr. Hamilton. He does not contribute a lot of his time. It 
was named after him because he is especially identified, of 
course, with the opening to China. He was instrumental in that. 
He has been helpful to us in raising money, and he does 
participate in some of our programs. We had a program just a 
couple of weeks ago in Hong Kong. I did not attend. He was on 
his way there when he took ill in Korea, I believe, and could 
not make it, but he has come to the Center on several occasions 
to speak. He is personally very interested in the program, and 
he has been helpful to us.

                         CUTS IN BUDGET, EFFECT

    Mr. Moran. I have got a number of questions here. I do not 
want to take up too much time. I want to give Mr. Simpson an 
opportunity, but your outreach. You talked about the impact on 
the library and on the Kissinger Institute. Is that where the 
cut would be exclusively focused, or how would it affect your 
outreach ability?
    Mr. Hamilton. It affects us across the board. It is not 
just the Asia Initiative. I mentioned that because that was 
new. It has a dramatic impact on the number of public policy 
scholars we can have. It cuts them by 60 percent. It cuts by 80 
percent the amount of money we can give to scholar support. It 
cuts very dramatically, as I suggested, the library, and 
outreach expenses. Printing is expensive. Radio and television 
are expensive, and so all of those programs would be cut back 
pretty sharply.
    Now, I suppose the OMB would say to us they want us to 
raise more money privately. I think our record is pretty good 
there, but even if we were to accept the OMB figure and try to 
make it up in the private sector, it would take us years to do 
that. You just cannot jump rapidly and raise $3 or $4 million 
additional dollars today.
    Mr. Moran. Well, particularly at this time, particularly 
with all the competition for federal dollars.
    Mr. Hamilton. You have got all the competition, you have 
got the private sector drying up. Funding is drying up.
    Mr. Moran. Yes. About a third of your employees are federal 
employees.
    Mr. Hamilton. Correct.
    Mr. Moran. What would happen in terms of personnel cuts?
    Mr. Hamilton. This is a delicate matter because anything I 
say on this is going to have some impact. We would do all we 
could to avoid reductions in federal employees. One-third of 
them are federal at our institution, but I could not guarantee 
that there would not be some reductions down the line.

                     PARTNERING WITH ORGANIZATIONS

    Mr. Moran. I am interested in the joint venturing that you 
engage in with institutions here and abroad. Can you tell us a 
little more about your activities, especially in Latin America 
and concerning transparency and accountability in Muslim 
countries?
    Mr. Hamilton. We have an extraordinary partnering 
capability. I think we are now partnering with some 70 
different institutions. Some are universities but not just 
universities alone. The Latin American Program which you 
mentioned specifically, we have co-hosted with a variety of 
Latin American-based institutions on topics like Haiti, Cuba, 
U.S./Mexican relations, Colombia. We have the Kennan Institute 
which focuses on Russia and Ukraine. They have been working 
with the National Science Foundation, for example. We have 
Middle East programs that have spent a lot of time and effort 
on Islam and the U.S. relationship with the Islamic world, 
gender issues, and transparency issues, accountability issues 
in Muslim countries.
    I think we have some of the finest programming on Islam 
that I know of in this city. One of our staff scholars has a 
particular interest in the status of women in the Islamic 
world, and we have had a large number of Islamic women leaders 
come to the Center for programming and the like.
    We also have had very close relations with Korea, South 
Korean universities, Las Vegas Law School, it goes on and on 
and on. And we get so much enrichment in our own programming 
from collaboration. We participate with the National 
Laboratories on scientific endeavors and with the Hoover 
Institution, with Ohio State, and it just goes on and on. With 
the Miller Center at the University of Virginia.
    Mr. Moran. Yes. Very good. Mr. Simpson.

                     FUNDING, PRIVATE VERSUS PUBLIC

    Mr. Simpson. Thank you, Mr. Chairman.
    Last year in '09, the federal portion of the budget went 
from $10 million to $12,225,000.
    Mr. Hamilton. Correct.
    Mr. Simpson. So there was about a 22 percent increase.
    Mr. Hamilton. Right.
    Mr. Simpson. Now they are talking about a 19 percent 
reduction, and as I look at it it would be about $78,000 below 
the '09, level, to $9,922,000. Is that right?
    Mr. Hamilton. I think your arithmetic is about right.
    Mr. Simpson. Yeah, so it would be back to roughly where we 
were in '09, before we had the 22 percent increase. Now, are 
you going to be able to maintain the private fundraising level 
that you have in the past? Do you think you are going to be 
able to maintain the two-thirds portion?
    Mr. Hamilton. It will be very difficult for us to do so, 
and the reason is that we have focused much of our fundraising 
capabilities on dinners, private dinners honoring different 
people. That has been very successful, but we haveclearly hit a 
plateau on that, and it may even be going down. We have to make that up 
with other private sources. We have a new development director. She is 
putting into place a lot of new outreach and development efforts, but 
it is going to take some time to kick in.
    So we will not be able to replace with private funding that 
gap.
    Mr. Simpson. Not in this year at least.
    Mr. Hamilton. Yeah.
    Mr. Simpson. What we are talking about, though, is if you 
look at your total funding, two-thirds of it coming from 
private funding, one-third of it coming from federal sources. 
If you can maintain the two-thirds, what we are talking about 
is about a 6\1/2\ percent reduction in overall funding because 
we are reducing by 20 percent, 19 percent, one-third of your 
budget. Right? So that would be about overall a 6\1/2\ percent 
reduction, which does not sound as bad, but I understand if you 
cannot maintain the private funding, then it is obviously more 
than that.
    Mr. Hamilton. No. We would have very great difficulty, and 
we would not be able to carry out any of the new initiatives 
which you asked us to do.

                  FUNDING, PRIVATE DONOR RESTRICTIONS

    Mr. Simpson. Are there limitations on what you can use the 
private funding for when the private funds are given to your 
organization?
    Mr. Hamilton. Almost all private funding has restrictions 
and constraints, and that is one of the really big problems. 
Donors today, as you know, it is their money obviously, but 
they put strings on it.
    Mr. Simpson. They put directions onto it?
    Mr. Hamilton. They do.
    Mr. Simpson. Yeah.
    Mr. Hamilton. And a lot more than they did 10 years ago, 
for example. and the thing they do not like to pay for is 
administration.
    Mr. Simpson. Yeah.
    Mr. Hamilton. They want programmatic activity, they want 
impact, which is fair enough, but it does create really big 
problems for us because the administrative side gets short 
changed.
    Mr. Simpson. So is that why if this reduction were to 
stand, it would have such an impact on the administrative side, 
the library?
    Mr. Hamilton. Right.
    Mr. Simpson. Those things that we consider the 
infrastructure of the program?
    Mr. Hamilton. That is correct.
    Mr. Simpson. Donors will donate to, say, the China 
Initiative----
    Mr. Hamilton. That is right.
    Mr. Simpson [continuing]. To do that kind of stuff but----
    Mr. Hamilton. I think you have got it figured exactly 
right. We have about 140 people, I think, on the staff now. We 
have a wonderful facility. It takes a lot of maintenance, of 
course, and all of that administrative side would be hurt 
badly.

                      NANOTECHNOLOGY AT THE CENTER

    Mr. Simpson. Tell me a little bit about the nanotechnology. 
I kind of found that interesting. It is just something I never 
thought of.
    Mr. Hamilton. Well, I am no expert in it, but we had from a 
Pew Grant money given to us to begin to explore the 
implications of nanotechnology. That project has pretty much 
reached its conclusion now, and as a result of it the Center 
developed, I think, quite a reputation for understanding the 
implications of nanotechnology. We have had a number of 
conferences on it, and today nanotechnology is much better 
understood, not just because of our work but because of the 
work of many others; the implications, the potential of it. 
Among other things they would discuss a lot of products at the 
Center that were developed by nanotechnology, and you saw the 
potential of the program.
    Mr. Simpson. Yeah. It is a fascinating subject, and I 
suspect you will be issuing a report.
    Mr. Hamilton. I think reports already have been issued on 
this. What we did here, I think, was what we are pretty good at 
doing, if I may brag a little bit, and that is we convene 
people, not in large meetings, but you get the corporate people 
and the private sector people, the government people and the 
scholars to come together, and they discuss nanotechnology. 
Like any discipline, I guess, they tend to get very focused and 
very narrow, and what you want when you have a new science like 
nanotechnology suddenly explode on you, you want people from 
outside that science to begin to look at the implications of 
it, and that is what we have done. I will be happy to send to 
you the reports that we have.
    Mr. Simpson. I would love to read it.
    Mr. Hamilton. You would understand them better than I.
    Mr. Simpson. I do not know if I would or not, but I will 
tell you that one of the biggest challenges we face in society 
today is the rapid change of technology, so rapid that we do 
not have time to adapt to it. You know, I am still one of those 
guys who is not going to buy a computer until they get the 
final one made because I am tired of every six months having to 
have a new computer. No, I am just kidding, but it is one of 
the real challenges, and we are faced at this time where us 
human beings like to see stability, and people ask me all the 
time, you know, how are we going to defend ourselves if we do 
not have a steel industry in this country? How are we going to 
build ships?
    I am not sure the next battleships will be built out of 
steel.
    Mr. Hamilton. That is right.
    Mr. Simpson. And you cannot deny the advances in that 
technology that nanotechnology is having. They say that will be 
the next quantum leap like computers were, that nanotechnology 
will be the next quantum leap in materials and science.
    Mr. Hamilton. Our heavy emphasis at the Center has been on 
the social sciences as you would expect.
    Mr. Simpson. Yeah.
    Mr. Hamilton. That is the Wilsonian tradition, but it is 
interesting. About five or six years ago we partnered very 
closely with the national laboratories on super-computing. We 
had all kinds of meetings with regard to the implications of 
super computers. Then we moved to nanotechnology. We really did 
kind of the same thing. What are the implications of 
nanotechnology? Now, the Center is doing synthetic biology.
    One of the advantages of the Wilson Center is that it 
brings together a lot of disciplines to focus on a particular 
problem, and you get out of these kind of stovepipe disciplines 
that have been true not only of government but of academia as 
well. So many of our projects are cross-disciplinary.
    Mr. Simpson. One of the hugest challenges we have got and 
you are still focused on the social aspect of it even though 
you are studying nanotechnology because, I mean, you are not 
into the science of it, but all of these rapid discoveries have 
huge implications on all of our social institutions, whether it 
is our political institutions, religious, psychological, 
educational, whatever. It has huge implications on how they are 
going to affect our society.
    Mr. Hamilton. That is correct.
    Mr. Simpson. Yeah. Well, I appreciate the work you do and 
look forward to working with you, and I would like to see those 
reports just out of curiosity.
    Mr. Hamilton. We extend an invitation to all of you. Our 
next Board meeting will feature the Federal Reserve Chairman, 
Mr. Bernanke, who is speaking. I will plug the Center in this 
way, too, that people like to come to the Center to speak 
because they recognize it is a non-partisan and a neutral 
platform, and there are advantages oftentimes to a speaker to 
have that kind of a platform. We try very, very hard to protect 
that reputation, and I think we do a reasonably good job of it.
    Mr. Simpson. I do, too. Thank you.
    Mr. Moran. Thank you, Mr. Simpson. This subcommittee is not 
going to force you to suffer that cut. It is just we are going 
to have to figure out where to get the money from someplace 
else. As you know, this is a zero-sum game. We find the money 
for you, we have to take it from somebody else, but we are 
impressed with your work, and we expect you to be able to carry 
forward with that very important work.
    Thank you, Mr. Hamilton.
    Mr. Hamilton. Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7302B.139
    
    [GRAPHIC] [TIFF OMITTED] T7302B.140
    
    [GRAPHIC] [TIFF OMITTED] T7302B.141
    
    [GRAPHIC] [TIFF OMITTED] T7302B.142
    
    [GRAPHIC] [TIFF OMITTED] T7302B.143
    
    [GRAPHIC] [TIFF OMITTED] T7302B.144
    
    [GRAPHIC] [TIFF OMITTED] T7302B.145
    
    [GRAPHIC] [TIFF OMITTED] T7302B.146
    
    [GRAPHIC] [TIFF OMITTED] T7302B.147
    
    [GRAPHIC] [TIFF OMITTED] T7302B.148
    
    [GRAPHIC] [TIFF OMITTED] T7302B.149
    
    [GRAPHIC] [TIFF OMITTED] T7302B.150
    
    [GRAPHIC] [TIFF OMITTED] T7302B.151
    
    [GRAPHIC] [TIFF OMITTED] T7302B.152
    
    [GRAPHIC] [TIFF OMITTED] T7302B.153
    
    [GRAPHIC] [TIFF OMITTED] T7302B.154
    
                                         Wednesday, April 14, 2010.

                           THE PRESIDIO TRUST


                                WITNESS

CRAIG MIDDLETON, EXECUTIVE DIRECTOR
    Mr. Moran. Next we will hear from the Executive Director of 
the Presidio Trust, Mr. Craig Middleton. Thank you for waiting 
so long, Mr. Middleton. Welcome. Thank you. Do you want to 
introduce your colleague for the record? Is she going to sit 
here with you?
    Mr. Middleton. This is Dana Polk.

                     Opening Statement of Mr. Moran

    Mr. Moran. Yes, Dana. It has been a number of years since 
the subcommittee has been able to hear from the Presidio Trust 
as well. Let me just mention for the record some of the 
background here. The Congress established the Presidio Trust in 
1996, to govern what is a unique National Park site, one of the 
Nation's oldest military posts. The mission of the trust is to 
preserve the Presidio as an enduring resource for all the 
American people, to ensure its preservation by making it 
financially self-sustaining. Very important aspect of the 
authorization.
    Appropriations were authorized for 15 years through fiscal 
year 2012, and then the trust is responsible for its own long-
term operations and maintenance of the Presidio, and last year 
the committee provided $23 million. Your request this year is 
for $15 million, a reduction of $8 million. Although your 2011 
request is consistent with the authorized amount before this 
year, over the years the trust has received $6.6 million less 
than was authorized. We are aware of that, and we do look 
forward to your testimony.
    Mr. Simpson.

                    Opening Statement of Mr. Simpson

    Mr. Simpson. Thank you, Mr. Chairman, and thank you, Mr. 
Middleton, for being here today to testify and more importantly 
for your longstanding leadership to make the Presidio Trust a 
model for a public/private partnership and a successful example 
of a green infrastructure. I enjoyed meeting with you yesterday 
to talk about this, and I will tell you what. If you look at 
that picture, Mr. Chairman, that is a valuable piece of 
property.
    Mr. Moran. I should say.
    Mr. Simpson. We could----
    Mr. Moran. Do you want to put a real estate development 
there?
    Mr. Simpson. Except for that part where the golf course is. 
We need to maintain that.
    Mr. Moran. Oh, yes. Priorities.
    Mr. Simpson. Thank you for being here today.
    Mr. Moran. Go ahead. Proceed.

            Testimony of Executive Director Craig Middleton

    Mr. Middleton. Well, thank you, Mr. Chairman, and thank 
you, Mr. Simpson, and thank you, Delia, for all your work. It 
is wonderful to be here, and I invite you all to come out and 
see the property and recognize just how important it is to keep 
it in federal hands.
    I would like, Mr. Chairman, to submit my testimony and then 
summarize----
    Mr. Moran. Please summarize.
    Mr. Middleton [continuing]. In the interest of time.
    Mr. Moran. We do have things at noontime, but you have been 
waiting patiently, so we appreciate the acceleration.
    Mr. Middleton. What I would really like to leave you with 
is two messages. One is that the Presidio Trust experiment or 
model for sustaining a park independent of ongoing federal 
taxpayer support is working, and we will be financially self-
sufficient in 2013, as we promised. We believe in keeping our 
promises, and we will do that.
    The trust has leveraged public dollars, limited public 
dollars, to attract private investment. Over the past decade we 
have brought in about $1 billion, $200,000 in private 
investment, and that is about four times the level of the 
federal investment, so that we put great stock in leveraging, 
and it has been quite successful.
    The second thing I would like to leave you with is the 
results, and the result on the ground has really 
beentremendous. We are now welcoming about four million visitors a 
year, 7,000 people either work or live in the park. We are putting the 
finishing touches on a campground which will be the only campground in 
San Francisco, and we have rehabilitated over 300 historic buildings, 
making the Presidio the largest historical preservation project in the 
country, while also giving tangible expression to the importance of the 
history of the Presidio that dates back to 1776, when the Spanish 
founded a small post up there that ended up becoming San Francisco.

                           PRESIDIO OVERVIEW

    The Presidio is unique among national park sites. There are 
no other national park sites with six million square feet of 
buildings with the infrastructure of a small city and with a 
community that lives in the park. So to that end the Congress 
established a tailor-made organization, the Presidio Trust, to 
be specifically designed to handle that kind of a problem or 
challenge. And the place itself inspires us. The place is 
beautiful as you have seen from the pictures, and I know you 
have been there and seen it in person. It has beautiful scenic 
qualities, it has huge historic importance related to the 
development of the Western United States, it has a community, 
as I mentioned, once military, now civilian, and it has a 
tremendous 200-year legacy of service to our country.
    So the place inspires us to think of what we do, not only 
in terms of the bottom line, which is, of course, very 
important, but also in terms of four pillars; environment, 
history, community, and service. So, for example, as we 
rehabilitate historic buildings, we are always looking for ways 
to make them more sustainable. Can we bring in more 
sustainable-type energy systems to put into the buildings? How 
do we use the Internet to help us regulate energy flows in 
buildings? And we have been quite successful working with the 
National Trust for Historic Preservation on figuring out how 
best to marry these two things that do not often marry very 
well; sustainability and historic preservation.
    As we remediate Army era landfills we are replacing them 
with native plant communities. So we are just trying to blend 
these different things that are inspired by the place. We are 
building a community of tenants and residents. They invest in 
the park. They help us with ongoing operations. They get out 
and get their hands dirty and help with the stewardship of the 
place. We now have over 200 organizations in the park, and they 
run the gamut. There is George Lucas's Industrial Light and 
Magic, which does the special effects for many of the movies, 
and there is the YMCA that handles programs for kids, and 
Outward Bound has just opened up an office out there.

                          EDUCATIONAL PROGRAMS

    Twenty-seven hundred people live there in refurbished Army 
housing, everything from barracks to generals' homes, and they 
pay rent. The rent goes to help support the park. We also are 
really devoting more time and energy to programming. We 
recognize the historic importance of the place, and so we are 
trying to use programming to help educate people about it, not 
only about the Spanish settlement and the origins of Spanish 
California and the origins of San Francisco, but also things 
like the top-secret military intelligence school that was 
established where Japanese Americans were cracking codes, while 
at the same time in World War II, General DeWitt was issuing 
the order from the Presidio to intern many of their families.
    So there is a lot of give and take and a lot of interesting 
stories to tell, not just about history but about history's 
relevance to what we are facing today.
    Another program opportunity is our camping program. We have 
2,400 hundred kids coming out from underserved communities in 
the city and beyond to camp under the stars for the first time 
in their lives, and this is a great learning experience for 
them. I know for me camping was always a big deal when I grew 
up and still is, and so, you know, we are really trying to let 
kids from the Tenderloin and Chinatown learn what that is like.
    And as we celebrate our dedication to veterans and their 
dedication to the Presidio over the years and to the country, 
incidentally, the Speaker was with us on Veteran's Day to 
commemorate a beautiful overlook above the National Cemetery, 
which was established in the 1860s, is the oldest in the West, 
the overlook was dedicated to veterans. But as we focus and 
think about their dedication and sacrifice, we try to figure 
out how the Presidio can contribute to the legacy of service 
that they left us, and service in the park is at record levels. 
Forty-thousand hours of volunteer time were clocked last year, 
and we are looking to the theme of service to country and 
community to help us figure out and inform what we want to do 
at Fort Scott, which is the last remaining fort within the 
five-fort system that is the Presidio. This Fort overlooks the 
Golden Gate, the Pacific and the city of San Francisco. We 
think it should be dedicated to service, and we are trying to 
figure out what that can mean and would love your advice on it.

                              PARTNERSHIPS

    There has never been any question that the Presidio Trust 
would need partners, financial and programmatic, to pull off 
this transformation of the oldest, continuously-operated 
military post in the country to a national park site. The money 
itself required that, and as I mentioned before, we put great 
stock in leveraging; I have a chart here and I think that you 
can see that the federal investment, while very substantial, 
has contributed to a much larger investment by the private and 
philanthropic sectors.
    Appropriations are essential to this partnershipstrategy. 
They indicate government support, and certainly those other investors 
want to see the government support, and it has been very important. So 
thank you for your strong support over the years. This was clearly an 
experiment. In 1996, when we got this trust authorized, we were hoping 
we could get financially self-sufficient in 15 years, but, you know, 
projections are just projections. And I would like to say that it is 
working as a result of careful investment. We have gone from dependency 
on the federal dollar of 95 percent in 1998, to about 20 percent now. 
That percentage is obviously going down, and within two years will be 0 
percent.
    In closing, I would just like to make the observation, and 
it is a totally objective observation, that this is one of the 
most interesting base realignments in the country and could not 
have happened without the strong and longstanding support of 
this committee and the Congress. And so I express the 
appreciation of our Board and of our entire staff and the 
community out there for your continued support.
    Thank you so much.
    [The statement of Mr. Middleton follows:]

    [GRAPHIC] [TIFF OMITTED] T7302B.155
    
    [GRAPHIC] [TIFF OMITTED] T7302B.156
    
    [GRAPHIC] [TIFF OMITTED] T7302B.157
    
    [GRAPHIC] [TIFF OMITTED] T7302B.158
    
    [GRAPHIC] [TIFF OMITTED] T7302B.159
    
                              DOYLE DRIVE

    Mr. Moran. Thank you, Mr. Middleton. You received a fairly 
substantial sum just recently because of the Doyle Drive going 
through the park, and it has allowed you to accelerate your 
building renovation plans, although you are losing rental 
income as a result. But the right-of-way payment that you 
received did enable you to begin a number of projects which had 
been planned to take place in later years. How many additional 
projects were you able to fund?
    Mr. Middleton. Well, I would say that, as you mentioned, 
all of the projects that we are funding were already on the 
list, we're moving them up because of the availability of this 
funding from Doyle Drive. I would say about five or six new 
projects, or not new projects but projects that will be 
accelerated.
    Mr. Moran. Good.
    Mr. Middleton. Incidentally, I would like to mention that 
when we established the trust and created the various financing 
mechanisms, one of which was appropriations, a key piece was 
treasury borrowing, $150 million in treasury borrowing. That 
has not been forthcoming. Fifty million has been forthcoming, 
but the other 100 has not for various reasons. That would have 
allowed us to essentially jump start, move projects up, and 
generate the revenue from those projects to help support the 
ongoing operations later.
    The $63 million that we would get from Doyle Drive, as you 
mentioned, it will offset some losses that we will sustain 
because of Doyle Drive, but it also helps to make up for that 
100 million that we have not been able to get.
    Mr. Moran. How much in total have you gotten out of the 
Defense Appropriations Bill over the years?
    Mr. Middleton. Over the years?
    Mr. Moran. Yes.
    Mr. Middleton. I think we have probably gotten about 10 
million.
    Mr. Moran. Ten million dollars.
    Mr. Middleton. That is a guess. I could get it for you.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T7302B.160
    
    Mr. Moran. Mr. Simpson.

                             CLEANUP SITES

    Mr. Simpson. I was going to ask that. Being a military base 
you would think the Defense Department would have done more, 
but I do not want to go there. Do you have other clean-up 
sites? Are there hazardous waste clean-up sites on the Presidio 
that need to be cleaned up like there are in most military 
bases when we BRAC them?
    Mr. Middleton. Yes. There are. Presidio is pretty hilly and 
you can be sure that generally wherever there is a ravine, 
there is a landfill. That is where they put the stuff that they 
needed to put somewhere. So we have ten landfills on the 
Presidio. We are cleaning them up. Some ofthem we take out, and 
some of them we cap. Early on in 1999, we made a deal with the Army in 
which we said, look, this is really not your business. You need to go 
take care of the country. We need to take care of the Presidio. Why 
don't you transfer the authority and the responsibility to us along 
with $100 million, and we will do the clean up, and so they did. They 
gave us $99 million, and then we bought an insurance policy, two 
insurance policies totaling another $100 million to cover us for 
obvious overruns, and we are at about $150 million now. So I think we 
are going to come in just about right.
    Mr. Simpson. So you will have that cleaned up for----
    Mr. Middleton. Yes.

                         ROUTE 101 CONSTRUCTION

    Mr. Simpson. Okay. Route 101 construction is going to add 
some cost. Is that right?
    Mr. Middleton. Route 101, which is the approach to the 
Golden Gate Bridge, it is going to be a wider road. This is an 
antiquated road that is, I think on a scale of one to 100, 100 
being safe, it is a two, so it needs to be replaced. And in 
widening the road and changing the alignment somewhat, they are 
taking out a number of our buildings that would otherwise be 
generating revenue for us. So there is a cost to us.
    And there is also a cost to us during the construction 
phase related to lower rents because people do not want to live 
near a construction site, so we have to give them some 
consideration for that.

                                REVENUE

    Mr. Simpson. Is most of your revenue that you get from the 
private side from rents?
    Mr. Middleton. Yes. Almost all of it.
    Mr. Simpson. Does the city of San Francisco contribute any 
money? Because you mentioned that it is a camping site, trails 
through it, all of that kind of stuff. It is essentially a city 
park or will be. Kind of like the Golden Gate Park, will not 
it?
    Mr. Middleton. Well, we consider it a national park. It has 
got national attributes, nationally-important aspects and it is 
like many of the national parks in urban areas, you know. It 
offers the National Park System a way of interfacing with urban 
populations, which is really great for the system and great for 
the urban population.
    Mr. Simpson. But the city of San Francisco does not give 
you anything?
    Mr. Middleton. Not really. The one thing that they do 
provide is bus service to and from the Presidio.
    Mr. Simpson. Okay.
    Mr. Middleton. But we generate most of our own water and to 
the extent that we do not, we buy it from the city.

                        SELF-SUFFICIENCY BY 2013

    Mr. Simpson. Self-sufficiency by 2013, going to be 
accomplished?
    Mr. Middleton. Yes, sir.
    Mr. Simpson. The $5 million increase last year was to kind 
of make up for the fact that on our scale of what Congress will 
be appropriating over those years, we had not met what we had 
said. We still have not met it. We are still, what, $6.6 
million down?
    Mr. Middleton. Correct.
    Mr. Simpson. If Congress say does not come up with that 
$6.6 million to get it back on the line, are you still going to 
be able to reach self-sufficiency, or do you need that $6.6 
million? Obviously, you would like the $6.6 million.
    Mr. Middleton. Well, obviously, we would like the $6.6 
million, and clearly, you know, self-sufficiency is an 
important piece----
    Mr. Singleton. Right.
    Mr. Middleton [continuing]. Once the appropriations stop, I 
would say that by definition we are self-sufficient. So that is 
really up to you, but we will make it, but we will not be able 
to do as much.
    Mr. Simpson. Okay. Appreciate it. Thank you for being here 
today.
    Mr. Middleton. Thank you.
    Mr. Moran. Thanks very much, Mr. Middleton. We do 
appreciate you being here. I am glad we were able to have you 
testify this year, and we look forward to working with you at 
least through 2013. Good luck. It is a beautiful national 
resource.
    Mr. Simpson. After that we will come and play golf.
    Mr. Middleton. Well, thank you.
    Mr. Moran. But we are not going to let them develop that 
Presidio.
    Mr. Simpson. Just a golf course.
    Mr. Moran. Nice to see you, Mr. Middleton.
    Mr. Middleton. Nice to see you. Thank you.
    Mr. Moran. Thank you. All right. Concluded.

    [GRAPHIC] [TIFF OMITTED] T7302B.161
    
    [GRAPHIC] [TIFF OMITTED] T7302B.162
    
    [GRAPHIC] [TIFF OMITTED] T7302B.163
    
    [GRAPHIC] [TIFF OMITTED] T7302B.164
    
    [GRAPHIC] [TIFF OMITTED] T7302B.165
    
    [GRAPHIC] [TIFF OMITTED] T7302B.166
    
    [GRAPHIC] [TIFF OMITTED] T7302B.167
    
    [GRAPHIC] [TIFF OMITTED] T7302B.168
    
                                          Thursday, April 15, 2010.

  STRENGTHENING NATIVE AMERICAN COMMUNITIES: INDIAN HEALTH SERVICE FY 
                          2011 BUDGET REQUEST

                                WITNESS

YVETTE ROUBIDEAUX, DIRECTOR, INDIAN HEALTH SERVICE

                     Opening Statement of Mr. Moran

    Mr. Moran. Mr. Simpson will be here shortly, in time for 
questions. He has already seen your prepared statement, but 
perhaps in the interests of time, because once we have this 
series of votes, then there are going to be 5-minute votes, so 
we are going to have to cut the meeting to a shorter period of 
time than we would have liked. So maybe you could proceed now, 
Doctor.
    The Administration has proposed a substantial increase in 
the Indian Health Service budget. It stands out because it is 
one of the very few domestic discretion increases there are in 
the entire federal budget. It is a testament to you and to the 
confidence we have in your stewardship of Indian Health Service 
programs, and we have heard from many witnesses who have 
underscored the need for more investment in Indian health, so 
we would like for you to share your statement with us now and 
then we will ask some questions. Thank you, Doctor.

                      Testimony of Dr. Roubideaux

    Dr. Roubideaux. Thank you, Chairman Moran, and to the 
members of the Committee, good afternoon. I am Dr. Yvette 
Roubideaux, the director of the Indian Health Service. I have 
with me Randy Grinnell, the deputy director. Also in the room 
from the Department of Health and Human Services is the deputy 
assistant secretary, Norris Cochran. I am pleased to have the 
opportunity to testify on the fiscal year 2011 budget request 
for the Indian Health Service.
    While the President's budget for fiscal year 2011 for the 
entire Federal Government reflects the need to address fiscal 
discipline and federal debt reduction, the IHS budget request 
reflects and continues President Obama's promise to honor 
treaty commitments made in the United States. In addition, this 
budget request reflects Secretary Sebelius's priority to 
improve the IHS and represents the largest annual percent 
increase compared to other operating divisions in the 
Department of Health and Human Services.

                           IHS BUDGET REQUEST

    The fiscal year 2011 President's budget request for the IHS 
is over $4.4 billion, an increase of $354 million, or an 8.7 
percent increase over fiscal year 2010. The request includes 
increases for pay costs, inflation and population growth that 
will cover the rising costs of providing health care to 
maintain the current level of services provided in IHS tribal 
and urban Indian health programs. This amount also includes 
funding to staff and operate newly constructed health 
facilities. The proposed budget also includes funding increases 
for a number of programs that will increase access to care, 
strengthen the capacity of the Indian health system to provide 
clinical and preventive care, and will help address 
longstanding unmet needs and inequities in funding levels in 
the Indian health system.
    This budget request includes an increase for the Indian 
Health Care Improvement Fund and will allow some of our lowest 
funded hospitals and health centers to expand health care 
services and reduce backlogs for primary care. The budget 
request also includes an increase for contract health services 
program including an additional amount for the Catastrophic 
Health Emergency Fund. Additional funding is included for the 
shortfall in contract support costs for tribes that have 
assumed the management of health programs previously managed by 
the Federal Government. The increase for the health care 
facilities construction budget will allow for construction to 
continue on the replacement hospital in Barrow, Alaska, San 
Carlos Health Center in Arizona and the Kayenta Health Center 
on the Navajo Reservation.

                      PRIORITIES OF DR. ROUBIDEAUX

    This budget also helps continue progress on my priorities 
for how we are changing and improving the IHS. The budget 
renews and strengthens our partnerships with tribes by aligning 
the agency's budget increases to reflect tribal priorities. I 
have carefully listened to tribal inputover the past 11 months 
and their priorities include more funding for IHS in general as well as 
funding increases for current services, the Indian Health Care 
Improvement Fund, contract health services and contract support costs. 
Therefore, this budget request includes its greatest increases in those 
areas. In addition, this budget addresses top tribal priorities such as 
chronic disease and behavioral health conditions.

                             REFORM OF IHS

    This budget helps us continue our work to bring reform to 
the IHS. Over the past 11 months, I have gathered extensive 
input from tribes and our staff on priorities for how to change 
and improve the IHS. Their input reinforced the need to change 
and improve the IHS and for us to focus more on how we conduct 
the business of health care. We are working on improvements in 
the hiring process, recruitment and retention, performance 
management and more effective financial management and 
accountability. We have also made significant progress in 
developing an effective accountable property management system. 
We are also working to enhance and make more secure our 
information technology systems to ensure the protection of 
patient care information and to improve our administrative 
options. All of these reforms are being conducted as we make 
all of our work more transparent, accountable, fair and 
inclusive.
    In closing, the President's fiscal year 2011 budget request 
for the IHS is an investment and a commitment that will result 
in healthier American Indian and Alaska Native communities and 
will advance the IHS mission to raise the physical, mental, 
social and spiritual health of American Indians and Alaska 
Natives to the highest level.
    Thank you for this opportunity to present the President's 
fiscal year 2011 budget request for the Indian Health Service.
    [The statement of Dr. Yvette Roubideaux follows:]

    [GRAPHIC] [TIFF OMITTED] T7302B.169
    
    [GRAPHIC] [TIFF OMITTED] T7302B.170
    
    [GRAPHIC] [TIFF OMITTED] T7302B.171
    
    [GRAPHIC] [TIFF OMITTED] T7302B.172
    
    [GRAPHIC] [TIFF OMITTED] T7302B.173
    
    [GRAPHIC] [TIFF OMITTED] T7302B.174
    
    Mr. Moran. Thank you very much, Dr. Roubideaux. We have a 
problem here in that our practice is to always have a member of 
the minority party in attendance. It is not only appropriate 
but it is practical, too. I wanted to get your statement on the 
record. The problem is that Mr. Simpson may not be able to make 
it. I am going to share some thoughts with you for 5 minutes 
while we wait for Mr. Cole and then we will begin the formal 
part of the questions and answers, and unfortunately, shortly 
after Mr. Cole gets here, we will probably have as much as 15 
minutes and then we will have to turn around and vote again. 
All right. I am filibustering here, Mike. We are happy to see 
you, Mr. Simpson.
    Dr. Roubideaux has shared her opening statement. Because we 
are so short of time, we wanted to get it on the record. I have 
not started asking any questions but I would be happy to defer 
to you if you would like.
    Mr. Simpson. Just go ahead.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7302B.175
    
    [GRAPHIC] [TIFF OMITTED] T7302B.176
    
                     HEALTHCARE SERVICES AVAILABLE

    Mr. Moran. Well, take a few moments. I am going to ask some 
questions and then we will have Mr. Simpson and hopefully Mr. 
Cole will join us as well, and we thank Mr. Simpson very much 
because it is in the middle of votes, which meant he had to 
sprint over here and he is going to have to sprint back, 
although he is in good enough shape. He can do that.
    The first thing I want to ask you about is the 
interconnection with the other programs that serve the rest of 
the American population. I am very pleased that there is an 
increase for Indian health services here in this budget and I 
would hope we would continue that increase, as I cannot imagine 
we would ever come close to meeting the need. But I also hope 
that the expansion of health services availability both in 
Medicaid and Medicare and particularly through this new health 
care bill is also going to complement what we are providing. 
Could you briefly tell us how Native Americans can have the 
choice to use the Indian Health Service or the other 
traditional services that are available for non-Native 
populations?
    Dr. Roubideaux. Yes. American Indians and Alaska Natives 
are citizens of the United States and so they have all the 
options that every other American has, and so an individual 
American Indian, if they had access to a job could have 
employer-sponsored insurance, but as we know in many Indian 
reservations, there are very high rates of unemployment so 
access to health insurance is a challenge. The American Indians 
also can be eligible for Medicare orMedicaid based on their 
eligibility requirements, either being a senior or having income that 
is below the levels that the state requires. And so we are grateful 
that those sources of coverage are available for American Indians and 
Alaska Natives as is the Indian Health Service. The Indian Health 
Service, of course, is available for American Indians and Alaska 
Natives on or near Indian reservations who can demonstrate eligibility, 
the eligibility being a member of a federally recognized tribe or a 
descendent of that tribe.
    There are, however, a number of American Indians who move 
away from reservations, who live in urban areas, who may not 
have access to Indian health programs, although we do have 34 
urban Indian health programs as well. So the choices for health 
care for our first Americans are similar to the rest of the 
country but they also do have the Indian Health Service as 
well.
    Mr. Moran. Well, thank you. We have a vote, so we are going 
to start running out of time again, but we have got a good 10 
minutes of questions.
    Can you tell me about what percentage of Native Americans 
you think have health insurance policies? Do you have any idea?
    Dr. Roubideaux. We would have to provide an exact number 
for you and----
    Mr. Moran. I do not want an exact number. Say on a 
reservation, are there many that have health insurance 
policies?
    Dr. Roubideaux. Well, it varies greatly. For some 
reservations, there is a lot of unemployment and so there is 
not an opportunity to get employer-sponsored health insurance. 
There are some tribes that do have their own businesses and do 
have employee-sponsored health plans.
    Mr. Moran. Or they benefit from gaming or whatever. They 
might have enough income.
    Dr. Roubideaux. Yes, there are a small number of tribes who 
have enough gaming income, for example, to provide choices.

                   HEALTH REFORM AND INSURANCE POLICY

    Mr. Moran. Now, all that has changed to some extent because 
everybody will have to have a health insurance policy. Does 
that apply to every Native American?
    Dr. Roubideaux. Do you mean with regard to----
    Mr. Moran. Every American will have to have a policy now or 
pay a penalty. Does that apply to every Native American?
    Dr. Roubideaux. Well, we are grateful for the passage of 
the health reform legislation because what it does is increases 
access to quality and affordable health care. One of the 
provisions in health reform is that American Indians and Alaska 
Natives who use Indian Health Service tribal or urban Indian 
health programs do not have to pay the penalty if they do not 
purchase insurance.
    Mr. Moran. So they have a choice of whether or not to 
purchase insurance?
    Dr. Roubideaux. Yes.
    Mr. Moran. Although if their income is under $44,000, which 
is going to include about 95 percent of the Native American 
population, they are eligible for a very substantial subsidy 
and enrollment in Medicaid now.
    Dr. Roubideaux. Yes, we are very grateful for the expansion 
of Medicaid coverage as well because so many American Indians 
are under the poverty level.
    Mr. Moran. Right. So now every Native American will have 
access to either the Indian Health Service and/or the 
traditional health care system that is available to non-Native 
populations in the same geographical area, correct? It does 
seem to me a fairly watershed event here in terms of the 
options that are available to Native Americans and the level of 
care.
    Dr. Roubideaux. We are very grateful for passage of health 
reform because it does expand access to affordable health 
insurance and does expand access to Medicaid.
    Mr. Moran. So all will have an insurance policy option, 
right? And it will be almost entirely subsidized by the 
government. They can get an insurance policy. They can go into 
Medicaid. If their income is under $44,000, which is almost 
all, they have the option of either Indian Health Service 
services or any other service that is available in their 
geographical vicinity, or anyplace.
    Dr. Roubideaux. Well, I would say a large number of 
American Indians and Alaska Natives have greater access for 
insurance. There may be pockets of individuals who do not meet 
any of those qualifications, or now they have the choice to not 
purchase the insurance because they do not have to pay the 
penalty. So it does provide the opportunity for increased 
access to health insurance, which we are very grateful for.
    Mr. Moran. Well, it seems to me it does provide a fairly 
profound change in terms of the accessibility, the availability 
and the cost and quality of health care available to the Native 
American population, and I want to pursue that further but I do 
not want to take up more time. Let me defer to Mr. Simpson and 
Mr. Cole.
    Mr. Simpson. I appreciate your optimism about the passage 
of the health care bill. As a wise man once said, we will see. 
It still has a long ways to go and there are some downsides to 
it obviously, we will not debate now.
    Mr. Moran. Are you the wise man who made that quote?

                   EARLY CHILDHOOD CARIES INITIATIVE

    Mr. Simpson. No, actually not.
    The Early Childhood Caries Initiative, that the Indian 
Health Service initiative announced this year calls for a 
reduction in prevalence of early childhood caries among young 
AmericanIndians and Alaska Natives by 25 percent and increasing 
their dental access by 50 percent by 2015. Are we at a point where 
dental caries in American Indians and Alaska Natives are at epidemic 
levels, and what is the annual budget for the initiative and what 
performance measures are you going to use to see if you achieve these 
goals of reduction by 25 percent by the year 2015?
    Dr. Roubideaux. Well, we do recognize that the problem of 
dental caries, especially in American Indian and Alaska Native 
children, is quite significant, and it is an incredibly 
challenging problem, given the problems it can cause them in 
the future. We are grateful that our staff have been able to 
develop the Early Childhood Caries Initiative because it is 
very innovative in terms of the interdisciplinary nature. It is 
preventive and educational and has early identification-type 
activities, not just with IHS but with some of our community 
partners like Head Start, like the WIC program, CHRs and 
community nurses. We are evaluating this program and we can 
provide the amount of funding that we are spending on it to you 
in a follow-up question.

         RECRUITMENT AND RETENTION OF HEALTHCARE PROFESSIONALS

    Mr. Simpson. Historically, recruitment and retention of 
health care professionals has been one of the greatest 
challenges for providing consistent and proper health care in 
Indian Country, and I have heard that the hiring process for 
physicians and other health care professionals applying for 
jobs within IHS is inefficient and cumbersome. I am told that 
this causes delays that sometimes result in the loss of 
providers. Can you tell me, what are you doing to address that 
problem? Because obviously recruiting and retaining health care 
providers is one of the most important things we can do in 
making sure that we have available health care services 
regardless of the health care bill that passed.
    Dr. Roubideaux. Yes, you are absolutely right. Recruitment 
and retention is critical. We need access to health care 
providers to provide critical care that we need in the system. 
We recognize that we have these challenges with the hiring 
process being too long because I did a round of input when I 
first became the director of the Indian Health Service, asked 
for top priorities for IHS reform, and the top priority was 
looking at human resources, our hiring process and improvements 
in recruitment and retention. So what we are doing right now is 
getting together our administrative leaders to look at what are 
the places where we are seeing lags in the hiring process and 
try to improve those to shorten it. We also are looking at ways 
to standardize some processes to make them move quicker. We are 
also looking at trying to make the administrative part of how 
we are handling the hiring process differently, and then in 
terms of recruitment and retention, we are looking at position 
descriptions and how much we pay providers and see how we can 
be more competitive either through their salaries or through 
additional incentive pays or bonuses, and I have to say that 
has really helped us with the dental vacancy rate and the 
additional adding of incentive pays and improvements in salary 
along with increase in loan repayment awards to dentists has 
really improved our dental vacancy rate.

                       ELECTRONIC DENTAL RECORDS

    Mr. Simpson. One last question. Last year the Committee 
directed the Indian Health Service to use a portion of the 
fiscal year 2010 health IT funding to make additional advances 
in electronic dental records. Where are we? What is the current 
status of that, and how much funding was directed to it in 2009 
including the ARRA dollars and how much is being spent during 
the current fiscal year and what is budgeted for next year? You 
can respond to the last part of that in written response, if 
you would like, but where do we stand on the electronic dental 
records?
    Dr. Roubideaux. We are making progress with the electronic 
dental record. It is critical for us to be able to provide good 
clinical care and track administratively our care. We used the 
ARRA funding for implementation, about $4 million of the ARRA 
funding, and also $1 million of our recurring dental budget, 
and this funding will get us up to about 80 of our sites 
potentially implementing the electronic dental record, and we 
realize that we still have another 145 sites to go but we want 
to continue trying to make progress to implement it because we 
understand it is so important for us to provide better quality 
dental care.
    Mr. Simpson. Thanks for being here, Doc. I apologize, as I 
am sure the Chairman does, for this screwy schedule that we 
always keep around here but we are certain that 4:30 is the 
appropriate time to hold a hearing because nothing ever happens 
at 4:30 until you schedule a hearing.
    Mr. Moran. Mr. Simpson, thank you very much, and thank you 
for your extraordinary efforts to get here so that we could 
proceed with this hearing. It is very thoughtful of you. I mean 
that sincerely.
    Mr. Cole, I think we have a good 5 minutes.

               JOINT VENTURES AND HEALTH CARE FACILITIES

    Mr. Cole. You are very kind. I will try and be quick. 
Again, I join my colleagues in apologizing for this going back 
and forth. It is unavoidable.
    Two or three questions. One, I have to tell you first, just 
thank you. Thank you for taking the position. Thank you 
honestly for what the Administration did last year and is 
proposed again this year with a very significant increase, and 
I know this Committee is appreciative of that too. It gives us 
all something to work on because I think it is going to take 
sustained commitment over time to deal with the challenges that 
we have got in Indian Country.
    You mentioned this briefly and I want toget you to 
elaborate on the possibility of joint ventures. They have come up a 
couple of times. My tribe is the Chickasaw Nation. We have a joint 
venture arrangement with you, and that has been very good. We are very 
happy to have built, or be in the process of building, a new $170 
million hospital with tribal funds. Obviously we count on the Indian 
Health Service to be able to work with us to staff the hospital. I 
think there are other tribes that might look on this as a model, and I 
would like your thoughts on whether or not we can, obviously only in 
certain cases, but use this as a way to cut into our backlog on 
construction of facilities.
    Dr. Roubideaux. Yes. The health care facility needs are 
significant in Indian health and we are really grateful that we 
have this process of joint venture where we can partner with 
tribes to have health facilities built in communities by tribes 
as a partnership with the Indian Health Service. We have a 
regular application process for the joint venture and tribes 
will submit applications. We review and do a priority ranking 
of those applications and then based on available resources we 
approve some of those applications to move forward. We think it 
is an innovative way for us to deal with the needs for health 
care facilities construction and I am so grateful that the 
tribe in your area has benefited from that.
    Mr. Cole. It certainly has, Director. Whatever the merits 
and demerits of the current health care bill, we are talking 
about something that happens years from now really before it is 
fully implemented, and we have got a very diverse population in 
very different conditions. This does not really help you if you 
are on a reservation if the infrastructure is not there because 
it depends on the Indian Health Service. Having the coverage 
does not mean much if you cannot get the care. So it does not 
relieve us of the responsibility of continuing to make sure 
that you are adequately funded, particularly at the reservation 
level.

                        URBAN HEALTH FACILITIES

    I would also like to ask you about another place where I 
see a lot of Native Americans fall through the cracks. These 
are people away from either their reservations or areas of 
historic jurisdiction. In Oklahoma, the Indian health care 
clinic in Oklahoma City, where no tribe has jurisdiction, and 
in Tulsa, where only some do, are absolutely critical because 
we have got so many Native Americans there. Frankly, even if 
you are under another health care system, the needs of this 
population really are unique, and having the concentration of 
expertise and people familiar with dealing with substantial 
numbers of Native Americans is really critical for us. So how 
do you see these community health facilities in non-tribal 
areas serving tribal people continuing to be funded? Is that 
something you are comfortable with where we need to be?
    Dr. Roubideaux. Well, some of the American Indian 
individuals sometimes choose to move away from the 
reservations, and when they do that, for example, move in urban 
areas, they may lose their access to the Indian Health Service 
funding. We do have 34 urban Indian health programs that are 
nonprofit organizations that provide clinical services in 
communities across the country, and those are a great resource 
for these individuals that provide culturally appropriate 
services for them and those are supported in our budget.
    Mr. Cole. Did that go up as well? I have looked at the 
overall increase in your budget but are those facilities 
getting a comparable increase in funding?
    Dr. Roubideaux. Well, the urban Indian health program line 
continues to be in the IHS budget and will receive an increase 
for current services for increase in inflation and we also have 
a line item for increasing third-party revenues for the urban 
Indian health programs of $1 million, and that is really 
significant because these programs are relatively less funded 
by the Indian Health Service and rely more on third-party 
reimbursements, so we hope that the proposed budget increase 
for third-party billing, and technical assistance will help the 
urban Indian programs get more third-party reimbursements, and 
what that will mean is, they can provide more services.
    Mr. Moran. This will conclude the hearing. Thank you very 
much, Dr. Roubideaux.

[GRAPHIC] [TIFF OMITTED] T7302B.177

[GRAPHIC] [TIFF OMITTED] T7302B.178

[GRAPHIC] [TIFF OMITTED] T7302B.179

[GRAPHIC] [TIFF OMITTED] T7302B.180

[GRAPHIC] [TIFF OMITTED] T7302B.181

[GRAPHIC] [TIFF OMITTED] T7302B.182

[GRAPHIC] [TIFF OMITTED] T7302B.183

[GRAPHIC] [TIFF OMITTED] T7302B.184

[GRAPHIC] [TIFF OMITTED] T7302B.185

[GRAPHIC] [TIFF OMITTED] T7302B.186

[GRAPHIC] [TIFF OMITTED] T7302B.187

[GRAPHIC] [TIFF OMITTED] T7302B.188

[GRAPHIC] [TIFF OMITTED] T7302B.189

[GRAPHIC] [TIFF OMITTED] T7302B.190

[GRAPHIC] [TIFF OMITTED] T7302B.191

[GRAPHIC] [TIFF OMITTED] T7302B.192

[GRAPHIC] [TIFF OMITTED] T7302B.193

[GRAPHIC] [TIFF OMITTED] T7302B.194

[GRAPHIC] [TIFF OMITTED] T7302P2.001

[GRAPHIC] [TIFF OMITTED] T7302P2.002

[GRAPHIC] [TIFF OMITTED] T7302P2.003

[GRAPHIC] [TIFF OMITTED] T7302P2.004

[GRAPHIC] [TIFF OMITTED] T7302P2.005

[GRAPHIC] [TIFF OMITTED] T7302P2.006

[GRAPHIC] [TIFF OMITTED] T7302P2.007

[GRAPHIC] [TIFF OMITTED] T7302P2.008

[GRAPHIC] [TIFF OMITTED] T7302P2.009

[GRAPHIC] [TIFF OMITTED] T7302P2.010

[GRAPHIC] [TIFF OMITTED] T7302P2.011

[GRAPHIC] [TIFF OMITTED] T7302P2.012

[GRAPHIC] [TIFF OMITTED] T7302P2.013

[GRAPHIC] [TIFF OMITTED] T7302P2.014

[GRAPHIC] [TIFF OMITTED] T7302P2.015

[GRAPHIC] [TIFF OMITTED] T7302P2.016

[GRAPHIC] [TIFF OMITTED] T7302P2.017

[GRAPHIC] [TIFF OMITTED] T7302P2.018

[GRAPHIC] [TIFF OMITTED] T7302P2.019

[GRAPHIC] [TIFF OMITTED] T7302P2.020

[GRAPHIC] [TIFF OMITTED] T7302P2.021

[GRAPHIC] [TIFF OMITTED] T7302P2.022

[GRAPHIC] [TIFF OMITTED] T7302P2.023

[GRAPHIC] [TIFF OMITTED] T7302P2.024

[GRAPHIC] [TIFF OMITTED] T7302P2.025

[GRAPHIC] [TIFF OMITTED] T7302P2.026

[GRAPHIC] [TIFF OMITTED] T7302P2.027

[GRAPHIC] [TIFF OMITTED] T7302P2.028

[GRAPHIC] [TIFF OMITTED] T7302P2.029

[GRAPHIC] [TIFF OMITTED] T7302P2.030

[GRAPHIC] [TIFF OMITTED] T7302P2.031

[GRAPHIC] [TIFF OMITTED] T7302P2.032

[GRAPHIC] [TIFF OMITTED] T7302P2.033

[GRAPHIC] [TIFF OMITTED] T7302P2.034

[GRAPHIC] [TIFF OMITTED] T7302P2.035

[GRAPHIC] [TIFF OMITTED] T7302P2.036

[GRAPHIC] [TIFF OMITTED] T7302P2.037

[GRAPHIC] [TIFF OMITTED] T7302P2.038

[GRAPHIC] [TIFF OMITTED] T7302P2.039



                           W I T N E S S E S

                              ----------                              
                                                                   Page
Haze, Pamela.....................................................   339
Salazar, Hon. Ken................................................   339
Gould, Rowan.....................................................   263
Strickland, Tom..................................................   263
Abbey, Robert....................................................    55
Mouritsen, Karen.................................................    55
Jarvis, Jonathan.................................................   157
Sheaffer, C. Bruce...............................................   157
Clough, G. Wayne.................................................   459
Kaiser, Michael..................................................   514
Powell, Earl.....................................................   498
Hamilton, Lee....................................................   544
Echo Hawk, Larry.................................................     1
Erwin, Donna.....................................................     1
Nolin, Chris.....................................................   263
Roubideaux, Yvette...............................................   603


                               I N D E X

                              ----------                              

                        Bureau of Indian Affairs

                                                                   Page
American Recovery and Reinvestment Act...........................    25
Biography: Larry Echo Hawk.......................................    12
Charitable Giving to BIE Schools.................................   668
Climate Change.................................................651, 665
Contract Support Costs...........................................   651
Crime in Indian Country..........................................14, 17
Detention Facilities.............................................   644
Detention Center Construction....................................    15
Detention Facility Funding.......................................   639
Drugs in Indian Country..........................................   642
Education......................................................647, 659
Energy...........................................................   661
FBI Staffing in Indian Country...............................16, 18, 22
Firearms.........................................................   644
Housing on Reservations..........................................    24
Indian School Health and Safety..................................   670
Inspector General Reports........................................    14
ISEP Formula.....................................................   674
Jobs.............................................................   649
Johnson-O'Malley.................................................    21
Jones Academy....................................................17, 19
Law Enforcement..................................................   644
Leadership and Budget............................................     4
Management/Leadership Challenges.................................   639
Mineral Resources Development....................................    22
Museum Collections...............................................   652
Opening Statement: Chairman Moran................................     1
Opening Statement: Mr. Dicks.....................................     2
Opening Statement: Mr. Simpson...................................     3
Performance Management...........................................   665
Political Leadership Staffing....................................    17
Public Private Partnerships......................................   667
Questions for the Record.........................................   639
Questions from Chairman Moran....................................   639
Questions from Mr. Calvert.......................................   667
Questions from Mr. Simpson.......................................   656
Regional Detention Centers.......................................    15
Remarks of Mr. Cole..............................................    20
Revenue Generating at Schools....................................    27
Rights Protection................................................   664
Shoshone-Bannock Tribal Justice Center...........................     3
Terminated Schools...............................................   645
Testimony of Assistant Secretary Larry Echohawk..................     5
Tribal Grant Support.............................................    20
Violent Crimes.................................................640, 656

                       Office of Special Trustee

American Indian Records Repository...............................    40
Biography: Donna Erwin...........................................    34
Cobell Settlement................................................35, 36
Historical Trust Accounting..................................35, 39, 49
Opening Statement: Chairman Moran................................    28
Opening Statement: Mr. Cole......................................    29
Opening Statement: Mr. Simpson...................................    28
Probate Backlog..................................................    51
Questions for the Record.........................................    44
Questions from Chairman Moran....................................    44
Questions from Mr. Simpson.......................................    52
Settlement Legal Fees............................................    38
Testimony of Principal Deputy Special Trustee Donna Erwin........    29
Tribal Trust Lawsuits............................................39, 49

                       Bureau of Land Management

Air Quality Data Monitoring......................................   154
Alaska Conveyance................................................   148
American Recovery and Reinvestment Act..........................84, 144
Antiquities Act..................................................    76
Authorizing Item on Non-Producing Wells..........................   137
Backcountry Airstrip.............................................   154
Biography: Karen Mouritsen.......................................    72
Biography: Robert Abbey..........................................    71
Biomass..........................................................    97
Carbon Sequestration.............................................    94
Challenge Cost Share.............................................   141
Climate Change Adaptation...................................58, 92, 139
Coal Management Issues...........................................   149
Energy Development on Tribal Lands...............................    92
Equal Access to Justice Act......................................    86
Fee on Non-Producing Leases......................................81, 90
Fixed Costs......................................................   143
GAO Management Challenges.......................................89, 138
General Budget...................................................    85
General Mining Law...............................................    94
Grazing Permit Backlog...........................................    77
Helium Program...................................................   147
Inspection Fees..................................................    83
Lawsuits.........................................................91, 95
Leasing Review Process...........................................    87
Management of Unprotected Wilderness-Quality BLM Lands...........   101
National Fish and Wildlife Foundation............................   146
National Landscape Conservation System...........................    99
National Monument Memo Leak......................................    99
Native Plant Conservation and Restoration.......................73, 145
New Energy Frontier.............................................58, 131
Oil and Gas Impacts..............................................   137
Oil and Gas Planning, Permits & Leases.........................101, 135
Oil Shale........................................................    91
Opening Statement: Chairman Moran................................    55
Opening Statement: Mr. Simpson...................................    56
Questions for the Record.........................................    99
Questions from Chairman Moran....................................    99
Questions from Mr. Simpson.......................................   153
Renewable Energy................................................90, 153
Resource Management Planning.....................................   148
Sage-Grouse.....................................................79, 124
Salazar report showing Interior Department supports 1.4 million 
  jobs...........................................................   124
Testimony of Director Robert Abbey...............................    57
Treasured Landscapes.............................................59, 74
Western Oregon Timber...........................................96, 148
Wild Horse and Burro Strategy...........................59, 75, 79, 125
Wildlife and Fisheries, Threatened and Endangered Species 
  Management.....................................................   145
Youth in Natural Resources.......................................    59

                         National Park Service

American Recovery and Reinvestment Act...........................   239
Biography: C. Bruce Sheaffer.....................................   168
Biography: Jonathan B. Jarvis....................................   167
Blue Ridge Parkway...............................................   260
Cape Hatteras National Seashore..................................   261
Chesapeake Bay Gateways and Trails...............................   208
Chickasaw Park Management........................................   179
Chickasaw Visitors Center........................................   178
City of Rocks National Reserve: Restrictions.....................   249
Climate Change Adaptation Initiative.............................   203
Consolidate Workforce Management Offices.........................   209
Construction Account...........................................210, 165
Deferred Maintenance Backlog...................................185, 186
Equipment Replacement Program....................................   215
Everglades.......................................................   175
Everglades Modified Water Delivery System........................   211
Everglades Restoration...........................................   256
Firearms in Parks................................................   182
Fixed Costs....................................................181, 185
Ford's Theater--Petersen House.................................186, 246
Future Infrastructure Needs of NPS...............................   258
George Wright Society IG Report..................................   241
Guns in the Parks..............................................196, 247
Heritage Partnerships............................................   230
Historic Preservation Fund.......................................   165
Historic Preservation Grants.....................................   258
Housing Improvement Program......................................   214
Independent National Mall Commission.............................   254
Jefferson Memorial Seawall.......................................   187
Land Acquisition and State Assistance............................   237
Maintenance Backlog, Budget Request Impact.......................   244
Management Efficiencies and Fixed Costs..........................   169
Management Savings...............................................   193
National Heritage Areas and Second Century Commission............   189
National Mall....................................................   187
National Mall Management Plan..................................194, 252
National Mall Visitor Experience.................................   255
National Mall: Re-engineering Soil & Turf......................170, 212
National Recreation and Preservation Account...................230, 165
National Trail System............................................   200
New York State Parks.............................................   173
North Shore Road.................................................   214
NPS Marketing and Outreach.......................................   257
Ocean and Coastal Resource Stewardship...........................   207
Opening Statement: Chairman Moran................................   157
Opening Statement: Mr. Simpson...................................   158
Operation of the National Park System Account..................197, 164
Park Partnerships..............................................217, 164
Park Promotion...................................................   173
Preserve America...............................................227, 231
Programmatic Increases...........................................   180
Protection of National Icons.....................................   199
Quagga Mussels...................................................   251
Questions for the Record.........................................   193
Questions from Chairman Moran....................................   193
Questions from Mr. Price.........................................   260
Questions from Mr. Simpson.......................................   244
Record NPS Attendance in 2009....................................   256
Recreation Fees..................................................   233
Recreation Fees: Unobligated Balance.............................   245
Save America's Treasures..................................178, 227, 236
Smithsonian Folklife Festival....................................   169
Special Resources Studies........................................   216
State Historic Preservation Offices............................182, 237
Statue of Liberty................................................   211
Terminated Programs [Save America's Treasures & Preserve America]   227
Testimony of Director Jonathan Jarvis............................   159
Trail of Tears National Historic Trail...........................   188
Yellowstone Bison................................................   190
Yellowstone National Park: Bechler Entrance......................   248
Yellowstone Snowmobiles..........................................   247
Yellowstone Wolves...............................................   192
Youth Initiative...............................................171, 202

                     U.S. Fish and Wildlife Service

2011 Budget Overview...........................................267, 271
American Recovery and Reinvestment Act.........................277, 310
Biography: Rowan Gould...........................................   285
Biography: Tom Strickland........................................   274
Bull Trout.......................................................   333
Chesapeake Bay Restoration.......................................   311
Climate Change............................................275, 287, 300
Climate Change Adaptation.................................267, 272, 279
Construction.....................................................   283
Duck Stamp Fee Increase..........................................   323
Ecosystems.....................................................268, 290
Endangered Species........................................276, 282, 307
Endangered Species Consultations.................................   313
Endocrine-Disrupting Compounds...................................   310
Firearms.........................................................   324
Fisheries........................................................   283
Great Lakes Restoration........................................294, 321
Habitat Conservation.............................................   283
IG Report on FWS Plane Crash.....................................   324
International Affairs............................................   309
Land Acquisition and Refuge Operations.........................284, 286
Landscape Conservation Cooperatives.......................287, 303, 336
Law Enforcement................................................282, 308
Migratory Birds................................................297, 314
National Fish and Wildlife Foundation..........................269, 288
National Wildlife Refuge System...........................282, 293, 298
New Energy Frontier.......................................268, 272, 280
North American Wetlands Conservation Fund......................268, 309
Opening Statement: Chairman Moran................................   263
Opening Statement: Mr. Simpson...................................   264
Peppergrass......................................................   331
Quagga and Zebra Mussels.......................................320, 334
Questions for the Record.........................................   300
Questions from Chairman Moran....................................   300
Questions from Mr. Price.........................................   326
Questions from Mr. Simpson.......................................   328
Refuge and Hatchery Deferred Maintenance.........................   288
Refuges..........................................................   305
Renewable Energy.................................................   314
Sage-Grouse....................................................266, 328
Salmon Restoration...............................................   293
Sam Hamilton.....................................................   266
Solicitor Opinion................................................   291
State and Tribal Wildlife Grants.................................   294
Testimony of (Acting) Director Rowan Gould.......................   275
Testimony of Assistant Secretary Tom Strickland..................   265
Treasured Landscapes......................................272, 276, 280
Tribal Wildlife Grants...........................................   296
Wolves...........................................................   331
Youth in Natural Resources...........................269, 272, 276, 281

                       Department of the Interior

American Recovery and Reinvestment Act...........................   425
Appalachia Coal Payments.........................................   452
Atlantic OCS.....................................................   440
Authorizing Items on Energy in the Budget........................   393
Beaufort and Chukchi Seas........................................   390
Biography: Deputy Assistant Secretary Pamela Haze................   358
Biography: Secretary Ken Salazar.................................   357
Biological Resources Division....................................   369
BLM National Monument Leak.....................................381, 394
California-Bay Delta.............................................   376
Cape Wind........................................................   361
Challenge Cost Share...........................................427, 430
Climate Change.......................................383, 398, 444, 455
Climate Change and Energy........................................   344
Climate Change Coordination....................................366, 400
Cobell Settlement..............................................370, 414
Conservation.....................................................   344
Consolidated Appraisal Services................................408, 438
Cost-Cutting.....................................................   365
Economic Impacts.................................................   343
Endangered Species.............................................378, 416
Energy Development.............................................359, 390
Energy Inspection Fees...........................................   392
Energy Reforms...................................................   359
Energy Revenue Auditing, RIK and Ethics..........................   391
Equal Access to Justice Act......................................   362
Everglades Restoration...........................................   446
Everglades: Tamiami Trail........................................   446
Fees on On-shore and Off-shore Oil & Gas Producers.............393, 439
Fish Disease, Viral Hemorrhagic Septicemia (VHS).................   424
Fixed Costs....................................................364, 412
Franchise Fees...................................................   410
Fraud, Waste and Abuse...........................................   408
Grazing Permits..................................................   363
Great Lakes......................................................   368
Hazardous Fuels Program Reduction................................   415
Heritage Areas...................................................   380
Hydraulic Fracturing......................................344, 385, 387
Indian Affairs...................................................   344
Information Technology...........................................   364
Land Acquisition and Treasured Landscapes......................394, 453
Land and Water Conservation Fund.................................   382
Land and Water Conservation Fund: Stateside......................   383
Landscape Conservation Cooperatives............................378, 403
Land Fractionation...............................................   373
Law Enforcement: Fish and Wildlife Service (FWS).................   420
Leadership of Congressman Dicks..................................   380
Maintenance and Construction Backlog.............................   433
Management Savings and Efficiencies..............................   413
Monitoring Needs.................................................   406
Museum Collections...............................................   411
National Climate Change and Wildlife Science Center..............   405
Natural Hazards Science and Earthquakes..........................   423
New Off-Shore Areas: Environmental Work Needed...................   440
Non-Producing Oil & Gas Leases: New Fees.........................   441
OCS Development & Drilling.......................................
          1, 451.................................................
OCS Five Year Plan...............................................   360
Grant Reductions: Office of Surface Mining.......................   424
Off-Reservation Gaming...........................................   374
Oil and Gas......................................................   366
Opening Statement: Chairman Moran................................   339
Opening Statement: Mr. Chandler..................................   365
Opening Statement: Mr. LaTourette................................   367
Opening Statement: Mr. Simpson...................................   341
Plane Crash: FWS.................................................   420
Questions for the Record.........................................   390
Questions from Chairman Moran....................................   390
Questions from Mr. Cole..........................................   450
Questions from Mr. Mollohan......................................   452
Questions from Mr. Simpson.......................................   435
Relocation Costs.................................................   409
Renewable Energy: Wind...........................................   442
Renewable Energy on the OCS......................................   360
Renewable Energy Permitting......................................   448
Renewable Energy vs. Oil & Gas:..................................   438
Revenues to the Treasury.........................................   416
Sage Grouse......................................................   435
Salazar report showing Interior Department supports 1.4 million 
  jobs...........................................................   432
Southwest Border.................................................   417
Streamgages......................................................   450
Testimony of Secretary Ken Salazar...............................   342
Travel...........................................................   365
Treasured Landscapes.............................................   456
Tribal Jurisdiction and Law Enforcement..........................   373
Tribal Trust Litigation........................................370, 372
WaterSmart and Streamgages.......................................   422
Wild Horse and Burro Management................................421, 447
Wilderness Policy................................................   386
Wildfire Contingency Fund........................................   415
Wildland Fire....................................................   443
Youth Initiative.................................................   345

                        Smithsonian Institution

African American Museum of History and Culture...................   492
Arts and Industries Building...................................480, 492
Biography: G. Wayne Clough.......................................   474
Business Ventures................................................   493
Buy-Out Savings..................................................   494
Climate Change Research........................................491, 495
Collaboration with Federal Agencies..............................   463
Collections Care Initiative......................................   487
Deferred Maintenance.............................................   490
Digitization..............................................462, 492, 495
Education.................................................463, 476, 484
Encyclopedia of Life.............................................   496
Exhibitions......................................................   461
Financial Management.............................................   494
Fixed Costs......................................................   494
Four Key Challenges..............................................   492
Fundraising Campaign.............................................   494
General Trust Support to Museums.................................   495
International Assistance.........................................   477
Latino Museum....................................................   496
Major Scientific Instrumentation.................................   495
National Air and Space Museum External Science...................   494
National Mall....................................................   479
National Zoological Park Conditions and Animal Care at Front 
  Royal..........................................................   493
Natural History Museum Centennial................................   492
Opening Statement: Mr. Hinchey...................................   459
Opening Statement: Mr. Simpson...................................   460
Outreach.......................................................478, 484
Proliferation of Monuments and Museums...........................   485
Questions for the Record.........................................   490
Questions from Chairman Moran....................................   490
Questions from Mr. Simpson.......................................   495
Regents Role and Governance Issues.............................476, 490
Revitalization, Construction and Maintenance.....................   488
Science and Collections..........................................   491
Security and Anti-Terrorism......................................   494
Strategic Plan...................................................   490
Testimony of Secretary Wayne Clough..............................   461
Visits...........................................................   462

                        National Gallery of Art

Master Facility Plan...........................................506, 571
Off-Site Office Leases...........................................   507
Opening Statement: Mr. Moran.....................................   498
Opening Statement: Mr. Simpson...................................   499
Protection Services..............................................   512
Public Education Programs........................................   500
Questions for the Record.........................................   509
Questions from Chairman Moran....................................   509
Repair of East Building Facade............................500, 505, 509
Salaries and Expenses--Fixed Costs...............................   510
Special Exhibition Program and Private Funding...................   505
Testimony of Director Earl Powell................................   499
Website..........................................................   500

                             Kennedy Center

Arts Education...................................................   515
Arts in Crisis...................................................   516
Arts Management Initiative......................516, 525, 527, 531, 538
Biography: Michael Kaiser........................................   523
Capital Repair and Restoration............................533, 537, 541
Curtain Wall.....................................................   526
Demand for the Arts Management Initiative........................   528
EPA Citation.....................................................   529
Fixed Costs......................................................   531
FY11 Budget Request..............................................   517
Kennedy Center Overview..........................................   515
Minor Repair and Replacement.....................................   536
National Capacity Building Program.............................516, 534
NEA and Kennedy Center Coordination..............................   529
Opening Statement: Chairman Moran................................   514
Opening Statement: Mr. Simpson...................................   514
Operations and Maintenance.......................................   517
Questions for the Record.........................................   531
Questions from Chairman Moran....................................   531
Questions from Mr. Simpson.......................................   538
Rural Communities and Arts.....................................527, 528
Testimony of President Michael Kaiser............................   515
Upcoming Events..................................................   526

                         Woodrow Wilson Center

Biography: Lee Hamilton..........................................   559
Cuts in Budget...................................................   560
Funding, Private versus Public...................................   561
FY11 Budget Request............................................546, 568
Kissinger Institute on China and the U.S.......................560, 569
Nanotechnology.................................................562, 579
Opening Statement: Mr. Moran.....................................   544
Opening Statement: Mr. Simpson...................................   544
Partnering with Organizations....................................   560
Private Donor Restrictions.......................................   562
Questions for the Record.........................................   544
Questions from Mr. Simpson.......................................   565
Role of the Wilson Center......................................545, 565
Testimony of Mr. Lee Hamilton....................................   544

                             Presidio Trust

Biography: Craig Middleton.......................................   589
Clean-Up Sites...................................................   592
Doyle Drive......................................................   590
Educational Programs.............................................   583
Opening Statement: Mr. Moran.....................................   581
Opening Statement: Mr. Simpson...................................   581
Partnerships.....................................................   584
Presidio Overview................................................   582
Public Funding...................................................   598
Questions for the Record.........................................   594
Questions for the Record from Chairman Moran.....................   594
Questions for the Record from Mr. Simpson........................   598
Revenue..........................................................   592
Self-Sufficiency by 2013.........................................   593
Testimony of Executive Director Craig Middleton..................   581
U.S. Route 101 Construction....................................592, 601

                         Indian Health Service

Alcohol and Substance Abuse Grants...............................   625
Biography: Dr. Yvette Roubideaux.................................   611
Budget Issues....................................................   637
Cavity Free in 2-0-1-3...........................................   627
Domestic Violence and Law Enforcement..........................621, 629
Domestic Violence Prevention Grant Program.......................   629
Early Childhood Caries Initiative................................   617
Electronic Dental Records........................................   618
Health Education.................................................   636
Health Reform and Insurance Policy...............................   616
Health Vacancies.................................................   628
Healthcare Services Available....................................   615
IHS Budget Request...............................................   603
IHS Research.....................................................   630
Indian Healthcare Reauthorization................................   637
Joint Ventures and Healthcare Facilities.........................   618
Opening Statement: Mr. Moran.....................................   603
Opening Statement: Mr. Simpson...................................   613
Policies Regarding Testifying in Domestic Violence and Sexual 
  Assault Cases..................................................   623
Priorities of Dr. Roubideaux.....................................   604
Property Mismanagement (GAO Investigation Findings)..............   624
Questions for the Record.........................................   621
Questions from Chairman Moran....................................   621
Questions from Mr. Cole..........................................   632
Questions from Mr. Simpson.......................................   627
Recruitment and Retention of Healthcare Professionals............   617
Reform of IHS....................................................   604
Sexual Assault...................................................   632
Testimony of Dr. Yvette Roubideaux...............................   603
Urban Health Facilities..........................................   619
Youth Suicide....................................................   633

</pre></body></html>
